<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
             DISTRICT OF COLUMBIA APPROPRIATIONS FOR 1999

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                             SECOND SESSION

                                ________

           SUBCOMMITTEE ON DISTRICT OF COLUMBIA APPROPRIATIONS
               CHARLES H. TAYLOR, North Carolina, Chairman

 MARK W. NEUMANN, Wisconsin         JAMES P. MORAN, Virginia
 RANDY ``DUKE'' CUNNINGHAM,         MARTIN OLAV SABO, Minnesota
California                          JULIAN C. DIXON, California
 TODD TIAHRT, Kansas
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                   Americo S. Miconi, Staff Assistant

                                ________

                                 PART 1
                             (Pages 1-1014)
                                                                   Page

 Budget for FY 1999...............................................    1
 Public Schools (including Public Charter Schools)................   97
 Corrections and Related Functions................................  215
 Public Safety and D.C. Courts....................................  313
 Public Witnesses.................................................  493
 Appendix.........................................................  742

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 54-921 O                   WASHINGTON : 1999




                        COMMITTEE ON APPROPRIATIONS

                   BOB LIVINGSTON, Louisiana, Chairman

 JOSEPH M. McDADE, Pennsylvania       DAVID R. OBEY, Wisconsin
 C. W. BILL YOUNG, Florida            SIDNEY R. YATES, Illinois
 RALPH REGULA, Ohio                   LOUIS STOKES, Ohio
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois         NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky              MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia              VIC FAZIO, California
 TOM DeLAY, Texas                     W. G. (BILL) HEFNER, North Carolina
 JIM KOLBE, Arizona                   STENY H. HOYER, Maryland
 RON PACKARD, California              ALAN B. MOLLOHAN, West Virginia
 SONNY CALLAHAN, Alabama              MARCY KAPTUR, Ohio
 JAMES T. WALSH, New York             DAVID E. SKAGGS, Colorado
 CHARLES H. TAYLOR, North Carolina    NANCY PELOSI, California
 DAVID L. HOBSON, Ohio                PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma      ESTEBAN EDWARD TORRES, California
 HENRY BONILLA, Texas                 NITA M. LOWEY, New York
 JOE KNOLLENBERG, Michigan            JOSE E. SERRANO, New York
 DAN MILLER, Florida                  ROSA L. DeLAURO, Connecticut
 JAY DICKEY, Arkansas                 JAMES P. MORAN, Virginia
 JACK KINGSTON, Georgia               JOHN W. OLVER, Massachusetts
 MIKE PARKER, Mississippi             ED PASTOR, Arizona
 RODNEY P. FRELINGHUYSEN, New Jersey  CARRIE P. MEEK, Florida
 ROGER F. WICKER, Mississippi         DAVID E. PRICE, North Carolina
 MICHAEL P. FORBES, New York          CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,           ROBERT E. (BUD) CRAMER, Jr., 
Washington                             Alabama
 MARK W. NEUMANN, Wisconsin
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


                             C O N T E N TS

                               __________

                         PART 1 (PAGES 1-1014)

            1. Thursday, June 18, 1998, Room H-144, Capitol

                                                                   Page

D.C. Budget for FY 1999..........................................     1
    Mayor Marion Barry, Jr.
    Council Chairman Linda W. Cropp
    D.C. Control Board

            2. Wednesday, June 24, 1998, Room H-144, Capitol

Public Schools (Including Public Charter Schools)................    97
Corrections and Related Functions................................   215
Public Safety and D.C. Courts....................................   313
Public Witnesses.................................................   493
Appendix.........................................................   742

                         PART 2 (PAGES 1-2160)

3. Budget Justification Material.................................1-2160



                                 (iii)


              DISTRICT OF COLUMBIA APPROPRIATIONS FOR 1999

                              ----------                              

                                           Thursday, June 18, 1998.

                        FISCAL YEAR 1999 BUDGET

                               WITNESSES

HON. MARION BARRY, JR., MAYOR, DISTRICT OF COLUMBIA
HON. LINDA W. CROPP, CHAIRMAN, COUNCIL OF THE DISTRICT OF COLUMBIA
ANDREW F. BRIMMER, CHAIRMAN, D.C. FINANCIAL RESPONSIBILITY AND 
    MANAGEMENT ASSISTANCE AUTHORITY
    Mr. Taylor. Good afternoon. I am pleased to call to order 
this first hearing of the House D.C. Appropriations 
Subcommittee for the second session of the 105th Congress to 
receive testimony on the fiscal year 1999 budget for the 
District of Columbia. We are pleased to hear this afternoon 
from Mayor Barry, District Council Chairman Linda Cropp, and 
Financial Management Board Chairman Andrew Brimmer.
    I would like to apologize for having to reschedule this 
from yesterday but we had an 8-hour appropriations meeting, and 
then they had to reschedule the Interior Subcommittee meeting. 
So I appreciate your coming today.
    Before we begin, I want to thank Dr. Brimmer and the other 
control board members, Joyce Ladner, Steve Harlan, Connie 
Newman, and Ed Singletary for their service to the Nation's 
Capital and the Congress.
    Now while we have not always agreed, I want you to know 
that we appreciate your service and the fine attitude that you 
have had, even in our disagreements. I want to also welcome the 
Mayor and to say we appreciate our relationship with you in the 
last year and a half.


            control board projections $500 million in error


    During this Congress, the Nation has seen significant 
changes in the Nation's Capital, not all of them for good. 
First the city and control board submitted a fiscal year 1997 
budget with a $99 million deficit, which turned out to be a 
$186 million surplus. Then the city had a fiscal year 1998 
budget in balance, which is turning out to have a surplus of 
$254 million. Half a billion dollars off in just 2 years. Not 
bad for government work.
    Had the fiscal year 1999 budget, which you bring to us 
today, held the line on increased spending, it would have shown 
a surplus of $508 million instead of the $41 million now 
proposed. And yet, the budget increases spending, and you are 
asking for new massive doses of Federal funds for 
infrastructure. We will be reviewing that very carefully.


                          accumulated deficit


    This year's budget does make strides in eliminating $254 
million of the accumulated deficit. However, while the budget 
shows a surplus of $41 million, there remains $37 million worth 
of accumulated debts. We will look closely at why this 
accumulated deficit--the results of years of overspending--is 
apparently carried on for another year when the budget shows an 
operating surplus.


                  revitalization act impact $1 billion


    Last year, in the D.C. Revitalization Act, the American 
taxpayers relieved the city of a billion dollars in annual 
spending. Congress took over the pension system, the courts, 
prisons, and increased to 70 percent the Federal share of 
Medicaid payments. Although there is no longer a--and I put 
this in quotes--a ``Federal payment'' to the city, you may be 
assured that this Chairman is very much aware of the vast 
amount of Federal tax dollars poured into the city daily, and 
he takes seriously the constitutional charge of the Congress to 
exercise exclusive jurisdiction over the Nation's Capital. In 
that spirit, we will review this proposed budget.


                 opening statement of congressman moran


    I will now call upon our Ranking Member, Jim Moran, to make 
any opening statement. Jim.
    Mr. Moran. Thank you very much, Mr. Chairman. I am glad 
that you have had this hearing and I am pleased to see the 
leaders of the District of Columbia before us. I do want to 
say, since this is apparently the last hearing we will have 
with Mayor Barry, I want to thank him for his many years of 
public service to the city and to the country.
    I also want to thank Dr. Brimmer. I understand that even 
though you will be continuing for a few months, that you intend 
that to be a relatively short period of time. I think you have 
done a very fine job and I want to thank you for your judgment 
and leadership as well, Dr. Brimmer, particularly if we don't 
get another opportunity to do this for the record.
    And I am looking forward to working with Chairwoman Cropp.
    The areas of interest that I hope that we can cover will 
include what, in addition to the Revitalization Act, the 
Federal government can properly be doing to help the District 
develop its tax base. One thing, for example, in the original 
bill, we had a provision where the Federal government would pay 
for 400 miles, I think it was, of roads within the District; 
there was some provision in the recent highway bill, and I 
would like for you to address that. I think that maintaining 
the Metro system throughout the entire region, particularly 
since it is a radial system that originates in D.C., is 
critical to the financial health of the District, and I hope we 
will address that because we have $100 million per year now in 
maintenance costs that are going to have to be gotten 
throughout the region.


               tax reform and business regulatory relief


    The D.C. tax reform measures are measures that this 
committee felt quite strongly about, in addition to the 
regulatory relief that we had proposed, and if you have any 
comments on that, I would like to hear them; because in looking 
at the difference, for example, between Northern Virginia, my 
district, and the District of Columbia, it made it a pretty 
easy decision for a lot of businesses to locate in Virginia. 
Now with those changes, it is a tougher decision and I think 
that is in the best interest of the entire region. We want to 
play fair.


                              commuter tax


    There is a matter of a commuter tax that we are undoubtedly 
going to disagree on, but I would like to understand the 
ramifications of that and your planned implementation date, if 
you feel that is going to go forward. I suspect the Congress 
may want to assert its role in thatissue because it is 
something that we don't feel is in the long-term best interest of the 
region as a whole.

                  residency requirement for employment

    We don't think we ought to have residency requirements in 
our own suburbs. I don't think it should be in Alexandria, 
Arlington or Fairfax County that I represent; I don't think it 
should be in the District of Columbia either. I think we want 
to get the very best people and leave it to them to decide 
where they want to live. But I would like for you to address 
that.
    Beyond that, I think enough has been said, probably more 
than needed to be said, about the proposal. Dr. Brimmer ran up 
the flag pole on three managers or commissioners to manage the 
District and apparently you have perhaps taken that down from 
the flagpole after it got shot up a lot, I don't know; I will 
leave that to you to address.

                     public safety and other issues

    But we are going to talk with the Police Department. I 
understand we are going to have a separate hearing, so we won't 
get into that specifically. We have a lot of issues, obviously, 
on public safety in the schools. But I am looking forward to 
your testimony and I am looking forward to continuing with your 
leadership, Madam Chairwoman. And, again Marion, thank you for 
all the time and effort and energy and personality and 
everything else that you have contributed to the District of 
Columbia. And thank you, again, Dr. Brimmer.
    Mr. Brimmer. Thank you.
    Mr. Taylor. Do other Members have statements? Mr. 
Cunningham.

              opening statement of congressman cunningham

    Mr. Cunningham. Just a very short one. I join with my 
colleagues in welcoming you, and I think that whether you have 
a tax, whether it is a city, a State, or at a Federal level, I 
guarantee you the bureaucrats will spend it. And the efforts 
that your group, Mayor, have made on doing it better and doing 
it smarter has been noted. And I think that is the direction we 
should go, because what we found is a higher tax usually means 
more work and more problems on your constituents, and then it 
just is not effective. There is a curve where that is a point 
of diminishing return, I realize. But I want to thank you for 
that.
    I look forward to working with you, and I think in the last 
meeting, you will find that the Committee is willing to bend 
over as much as we can and work with you, within the limits of 
the Constitution.

                           waterfront issues

    I live in DC when Congress is in session, and I would like 
to talk to you individually about some infrastructure down on 
the waterfront, and the law enforcement problem that we had, 
where they drew down a lot of law enforcement in the wintertime 
because they said there would be ice on the water. But there 
was no ice, and yet we still had the same problems. And I want 
you to know, your chief of police worked with us and did a very 
good job and limited the number of law enforcement that moved 
away. He realized we need sound policies on law enforcement on 
the job which is very important. But I would like to work with 
you in talking to you about some issues on the waterfront, and 
I think where the infrastructure can help all of us, realizing 
there are limited funds, especially after I said no new taxes.

                 waiving Davis-Bacon for school repairs

    Another area I would like to work with you on is education. 
We support children and they support helping children. By just 
waiving Davis-Bacon for school construction and repairs, with 
your 60-year-old schools--which the majority, up to 70 percent 
of union members wish to do--can save you 30 to 35 percent on 
school construction and repairs. Those are ways in which I 
think that we can make investments and give a little ground on 
each side. It doesn't mean we have to waive Davis-Bacon across 
the country, but they have done it in some States. But for the 
schools and education and considering the shape they are in, it 
is one area I would ask you to take a look at, realizing the 
political pressures in doing that. Other than that, I welcome 
the control board and thank you, Mr. Chairman.
    Mr. Taylor. Thank you.
    Mr. Tiahrt.

                      Congressman Tiahrt's Remarks

    Mr. Tiahrt. I want to welcome the panel to the committee 
and I appreciate you, Mr. Chairman, for holding the hearings. I 
want to congratulate Mayor Barry on his new venture and I wish 
him the best. I am ready to proceed.
    Mr. Taylor. Thank you.
    Mr. Aderholt.

                     Congressman Aderholt's Remarks

    Mr. Aderholt. I don't have anything to add. I just thank 
you for being here today. And of course being a new Member not 
only to Congress but to this committee, I have enjoyed working 
with this committee over the past year, and I look forward to 
another year. So thank you for being here today.

                residency requirement--congressman moran

    Mr. Moran. Mr. Chairman, can I make a slight correction in 
my statement? I mentioned the commuter tax, but I didn't 
discuss that; what I discussed was the residency requirement, 
which was the second thing. I don't want to confuse people. The 
residency requirement is actually on track here from D.C.'s 
perspective. I don't think that the Congress is in full 
agreement with that, and I would like to hear from you. I think 
we discussed the commuter tax in depth, but really the 
residency requirement is something I know you are taking very 
seriously. But, again, I think there is a lot of discussion 
about that.
    Thank you, Mr. Chairman.
    Mr. Taylor. Certainly. The Congress on the residency 
requirement cannot be in full agreement, but many of us 
appreciate that.
    We will proceed with the Mayor first and then Chairman 
Cropp and then Dr. Brimmer.

                        swearing in of witnesses

    It is our procedure to swear in all witnesses before the 
subcommittee, at all times. If the witnesses will stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Taylor. Thank you.
    We have written statements that will be included in the 
record. I would suggest that you summarize as much as you can, 
and if it's agreeable, we will hold questions until all 
witnesses have testified.
    Mr. Mayor.

                    opening statement of mayor barry

    Mayor Barry. Good afternoon, Mr. Chairman and members of 
the subcommittee. First of all, let me thank the members of the 
committee for those kind words in terms of my own departure 
from my 40 years of service. It has been a labor of love during 
this period and I intend to be not doing the same thing but I 
will be around. I want to thank you for the opportunity to 
share my views on District finances and to place in the 
appropriate context the 1999 financial plan. I would like to 
ask that the entire 20 pages be entered into the record.
    Mr. Taylor. Without objection.
    Mayor Barry. The committee has it.

              new chief financial officer--earl c. cabbell

    First, I would like to introduce my newly appointed interim 
chief financial officer, Mr. Earl C. Cabbell. Stand up. He is 
our interim CFO. He is a certified public accountant. He has 
served as deputy chief financial officerof financial operations 
and systems since 1996. He was previously the deputy director of 
finance and chief accounting officer for the City of Detroit. He 
brought them into an unqualified audit for the first time in the 
history of that city. He has also served as director of finance for the 
State of Maryland's Department of Transportation, a position he assumed 
in 1992 after serving as the accounting systems director for the City 
of Baltimore. In the past 2 years, he had successfully handled the 
challenge of helping to bring financial stability to the District, so I 
would like to welcome him here. I am in the process of looking 
nationally for a candidate that I can recommend to the Financial 
Management Systems Authority, but Mr. Cabbell has full authority to 
move ahead, and he will continue to keep us financially disciplined and 
carry on the work that was carried on by his predecessor, Tony 
Williams.

                           Budget Development

    Mr. Chairman and members of the committee, the development 
of a budget provides an opportunity to reflect on the past, to 
measure progress, and to plan for the future. The fiscal year 
1999 budget is the last budget I will present to the executive 
and legislative branches of the Federal Government.

                   Problems Confronting the District

    Before I comment on the fiscal year 1999 budget request, I 
would like to present a contextual framework relative to the 
inherent problems confronting the District.
    Many of us may have forgotten about the fact that more than 
25 years ago, we were given a home rule charter that was 
structurally and fundamentally flawed. I think the Revenue 
Commission has come to the same conclusion and Carol 
O'Cleireacain came to the same conclusion about the 
disfunctionality of that structure. We were so enthusiastic 
about getting any kind of representation that we did not look 
as carefully at the structure as we should have, and we have 
now learned.
    In fact, the Revitalization Act of 1997 was a clear 
indication there was a relationship that had to be changed 
between the Federal government and the District government. No 
other city has a municipal, county, and State function. These 
are real: 41 percent of our budget goes to a State function, 
and more importantly, there are 40-some agencies reporting to 
the Mayor, and all of us know that is a span of control that is 
almost impossible for anybody to effectively manage. With the 
restructuring of our government, the Revitalization Act sort of 
lessened that management span of control.

               Federal TakeOver of Health System/medicaid

    More needs to be done and we need to look further at the 
Federal Government taking over for the financing and operation 
of our health system, which is clearly a State function, and 
some other changes in the Medicaid. We still pay 30 percent 
over the other cities in America. New York City only pays about 
15 percent and California and Los Angeles and San Francisco 
don't pay any; the county pays 2 percent and the State pays 98 
percent.

                          Tax Base Constrained

    Also, when we came into the office in 1979, as indicated on 
page 3 of my statement, Carol O'Cleireacain clearly stated in 
her book that the District's tax base is severely constrained 
because it is the Nation's Capital. Forty-one percent of the 
property tax is exempt from property taxes. Sixty-five percent 
of the people who work in the city live elsewhere and do not 
contribute to the income tax base. Congress has not allowed the 
District to impose a nonresident income tax to pay for the 
services provided to commuters during their work day. The 
District does not collect taxes on the income of a large number 
of military personnel. I happen to agree with her as we look at 
the structural relationship.

                  Financial Management--Dismal Record

    Also, Mr. Chairman, on the view that the District really 
wasn't interested in financial management or was not interested 
in balancing the budget prior to the Control Board, nothing 
could be further from the truth.
    In 1979, when I first took office, the finances of the 
District were in total disarray. We had not been audited in 100 
years. In 1976, Arthur Andersen had called the District's 
financial management system unauditable. I say that to show 
that we have been committed to balancing the budget and working 
hard, as clearly indicated on page 6. You will find starting 
with 1981 up until 1988, there were balanced budgets and 
smaller surpluses every year under my previous administration. 
You also will find that in 1990, there was a $118 million 
deficit. But at that time the Council refused to reduce 
spending and so we ran up a deficit. But the point I am making 
is we have been committed to balanced budgets for a long time.

                           Police Department

    On page 7, we talk about some of the things that have been 
done in the last few years. Let me also say there is great 
program turnaround, Mr. Chairman, in the District of Columbia. 
The police department is working better. You will hear from my 
chief later. Crime is the lowest in 20 years. Twenty years. 
Murders are lowest in 10 years. You can get a driver's license 
now in about 25 or 30 minutes, as opposed to the 3 or 4 hours 
it used to take sometime back. The streets are cleaner, alleys 
are being cleaned, the environment is better.

                             Public Schools

    The only point that we have to do a lot more work in our 
public schools. We had 18 months of downhill. Ms. Ackerman is 
here now. She brings to bear, I think, a lot of ideas on 
reform, a lot of finesse and a lot of energy, and we are going 
to see major changes. In fact, we have seen test scores going 
up this year compared to last year. And I predict they will be 
higher again next year and the next year until we get to the 
point where they are the national average. In fact, one of our 
public schools, Benjamin Banneker, an academic high school, had 
105 graduates, and all 105 of those graduates are going to 
college, and they had scholarships totalling $5 million, which 
means there are a number of things happening, even in spite of 
the change of superintendents and the back and forth. We have 
enough people getting out of here with a lot of the skills and 
who want to become America's outstanding members.

                           Municipal Services

    So the quality of services in our city are greatly 
improving. Our employees are being awarded for that in the 
sense that this budget contains a pay increase. We all know 
that if employees are not paid commensurate with the rate of 
inflation, the morale goes down and they don't work as hard as 
they would ordinarily be working, so I would just point that 
out.

                   Deficit of $335 Million in FY 1994

    Also, Mr. Chairman and members of the committee, when we 
came into office in 1995--and some of you were here, when we 
had a deficit of $335 million from 1994. And that deficit, 
quite frankly, was a trigger to Congress to impose this Control 
Board on us. We were not allowed to go to the Treasury to 
borrow money, and the Control Board was put into place.

    [CLERK'S NOTE.--Regarding the preceding statements by Mayor Barry, 
the following excerpts of testimony presented by former Mayor Sharon 
Pratt Dixon Kelly and former Council Chairman John A. Wilson provide a 
perspective of conditions in the District after Mayor Barry's 12 years 
as mayor and include Chairman Wilson's remarks that the City Council 
had a hard time getting information because ``* * * the (Barry) 
Administration was not forthcoming with the Council in most situations. 
We have a hard time getting information''. The excerpts are taken from 
hearings before the House Subcommittee on D.C. Appropriations:]

             FY 1992 House Hearings on D.C. Appropriations

                         Part 1, pages 8 and 9

                              May 21, 1991

Mayor Sharon Pratt Dixon
    ``When I took office on January 2, 1991, (after former Mayor 
Barry's 12 years as mayor) my first order of business was to 
drastically cut this city's budget, Faced with a $316 million deficit I 
had no choice but to act * * *''
          * * * * * * *
    ``Much more needs to be done. I remain determined to change the 
work ethic that now dominates our government. This government can no 
longer be seen as the employer of first resort. And, attitudes that 
lead a few workers to believe that every job is permanent and every 
task is at their leisure have got to go * * *''
          * * * * * * *
    ``We must restore financial discipline to the District's budget * * 
*''

             FY 1993 House Hearings on D.C. Appropriations

                      Part 1, pages 37 and 768-770

                              May 27, 1992

Mayor Sharon Pratt Dixon Kelly (page 37)
    ``When I took office almost 17 months ago the District budget had 
hit an iceberg. We were sinking in red ink. The 1990 $118.2 million 
deficit (Mayor Barry's last full fiscal year in office prior to his 
sabbatical) had brought the accumulated deficit to over $331 million 
and we were facing an operating deficit for 1991 of over $316 million 
(based on budget prepared by Mayor Barry prior to his sabbatical).
Council Chairman John Wilson (pages 768-770)
    ``We have tried every way we know to identify and cut vacant funded 
positions * * * I do not know what happened to them. That is my 
business * * * It is difficult, because the Administration (referring 
to the Barry Administration) is not forthcoming with the Council in 
most situations. We have a hard time getting information.''
    ``* * * in the previous Administration (referring to the Barry 
Administration), they hired about 3,000 people a year, and the 
escalation would go up around 4,000 on the fourth year of the term. So 
you added over that period of time almost 10,000 people to the (D.C.) 
government in what we called the good years.''
    ``Mr. Dixon. From 1981 to 1990, the average increase in revenue 
over the previous year was roughly 10 percent.
    ``Mr. Wilson. That is right.
    ``Mr. Dixon. In one year it was 19.6 percent higher.''
          * * * * * * *

             FY 1995 House Hearings on D.C. Appropriations

                            Part 1, page 101

                              May 11, 1994

Mayor Sharon Pratt Kelly
    ``Part of cleaning house has got to be to ferret out corruption. 
And I was very quick to forge a partnership with the FBI and other 
Federal authorities * * *''.
          * * * * * * *
    ``There was no training in this government. None. There were no job 
descriptions. None. No automation. None. And when you have a massive 
government in desperate need of it and you look like you have walked 
through the door in a time warp, you have got to begin to prioritize 
where you can put that effort.''

    [CLERK'S NOTE.--Regarding Mayor Barry's remarks on the deficit, see 
news article on pages 1619-1620, volume 2, FY 1996 hearings before the 
House Subcommittee on D.C. Appropriations, which documents changes in 
the District's projected deficit for FY 1995, and then Chairman Walsh's 
remarks on page 1544, of the same volume summarizing the inconsistency 
of Mayor Barry's deficit numbers as follows: ``According to the press, 
District officials told Wall Street investors the City has run a budget 
deficit of $25 million to $40 million in fiscal year 1994. The deficit 
turned out to be ten times that amount--$335 million. The City also 
said it expected a budget gap of $129 million in fiscal year 1995. Then 
the estimate jumped to $500 million, then $531 million, then $600 
million; and finally, in February 1995, the Mayor said it would be $722 
million. It went from $129 million in December to $722 million two 
months later''.

           Alleged Reduction of 9,000 Personnel or 27 Percent

    Mayor Barry. And also there is a view that we have had this 
big government and have not done much about it. Let me just 
saythat since 1995, we reduced almost 9,000 people off of the D.C. 
government's payroll, a decrease of 27 percent. Dr. Brimmer talked 
about this before the Senate and we all agree that is unprecedented. 
New York took 5 years to get down to about a 16 percent reduction. And 
Philadelphia didn't lose anyone off the payroll because they just made 
changes in the way the union operated. But I think we ought to be 
commended for taking the bold initiative to do this, and in some 
instances, it did lessen service in the area because you can't have 
9,000 people off a payroll without impacting services in someplace or 
another. Either they weren't working or something was happening, so we 
were seeing a decrease and now we made some adjustments and the service 
area is increasing.

                   surplus of $186 million in fy 1997

    Also, there was some growing pains with the Control Board 
and with the CFO that I think you will find now they are 
working very, very closely together. We had a vision plan that 
is working. As the Chairman pointed out, we went from a $99 
million projected deficit to a $186 million surplus, which is a 
$250-some million turnaround. That is no small achievement. 
That took the work of the District working awful hard, being 
disciplined, making tough decisions on the part of the 
policymakers and implementing those decisions, and so I want to 
commend our workers for being that disciplined to achieve this.

    [CLERK'S NOTE.--The FY 1997 surplus resulted from the Chief 
Financial Officer collecting additional revenues and the 
turnaround in the national economy; very little, if any, of the 
surplus was due to ``tough decisions'' on budget reductions.]

                             new mci center

    Also, the economy is growing. We have a new MCI Center, as 
you probably know, and unfortunately, the Washington Caps 
couldn't beat the Detroit Red Wings, but they did beat Ottawa 
and Buffalo and I predict they are going to win the Stanley Cup 
next year. I go out and cheer them on. Downtown is moving 
ahead. You will have before you sometime some of the 
legislation bills of our Convention Center. So a lot of things 
are happening for our economy as we go forward.

                        fy 1999 consensus budget

    Let me just say that the 1999 budget is a consensus budget. 
It took a lot of work on the part of the Council, the Financial 
Management Assistance Authority and the Mayor's Office to come 
to this conclusion because in some instances, we had 
philosophical and program differences, and where you stand in 
some instances, also depending on where you sit, you looked at 
those policy areas and spent about 7 days, almost 5 or 6 hours 
a day going back and forth with those, on page 17, and we 
talked about what those were.

    [CLERK'S NOTE.--The FY 1999 budget is by no means ``an 
austere budget''; it reflects increases of almost $400 million 
in new/enhanced operating programs.]

                     eliminate accumulated deficit

    And one of our main focus points was to eliminate the 
accumulated deficit to budget surpluses, reduce it, reduce the 
cost to government, and you will find we have gone to a 
potential $500-and-some million deficit, a real deficit, to $41 
million. Now I think that we won't find that happening anywhere 
else in America, whether it is at the State level, the county 
level, certainly not at the Federal level where the turnaround 
has been that drastic in 1 year to go from a $500-and-some 
million accumulated deficit down to $41 million. I think that 
is tremendous.

                           special education

    At the same time as we did that, we still funded some very 
priority programs, such as our summer job program, gave our 
employees wage increases and we gave the schools an $81 million 
increase. I am sure that you all recognize that special 
education is driving the school board crazy. An $81 million 
increase. We have 1,400 young people in special education, in 
schools, Mr. Chairman and members of the committee, outside of 
Washington, averaging a cost of $48,000. We had a court order 
to do this in 50 days. The evaluation of the judges placed 
these young people in these very expensive places outside of 
our city, and we in some instances don't know exactly whether 
or not those young people are getting the kind of care they 
need and we are working awful hard to try to bring a number of 
those young people home by having programs in the city and in 
the suburbs that could take care of those young people. Forty-
eight thousand dollars is a lot of money to be paying for the 
education of one person.

                special education--transportation costs

    Our transportation system has cost us $10,000 per student 
to transfer these students for the school year. There are 
instances of one bus and one attendant with one student. So we 
wanted to try to meet with the judges and others to try to get 
that changed. That is $105 million we have spent this year on 
special education, another $145 million for next year. So I 
hope you are able to work with us in trying to figure out a way 
to keep these judges from imposing these unreasonable standards 
on us. We believe our young people's special needs ought to be 
adequately taken care of, but not at this cost and in this 
manner.

                            consensus budget

    This is truly a consensus budget. Last year was a 
functionary consensus budget. The Council had a budget, along 
with the Mayor, the Control Board had a budget. As a tactical 
move, we decided to go with the consensus budget so we could 
work together, so it is safe for you to see this is truly 
something we all believe in. And when you have a consensus 
budget, each person gives up something they want. I lost a few 
things I wanted, but it worked well, and I would commend Dr. 
Brimmer, Ms. Cropp and the Board for putting that time in and 
doing that.

                          infrastructure needs

    In terms of infrastructure, you will hear some discussion 
about a need there. As you all know, there are 1,100 miles of 
streets in the District and we only qualify for about 400 in 
Federal funds. A lot of these streets are beat up by the 
300,000 cars that come into our city. Three hundred thousand 
cars come into our city every day--I won't go into the taxes--
and don't contribute to the infrastructure. We get the same 
kind of Federal funds other States get, so we are not getting 
anything special by being in the District now.

                 street repair--deferral of local match

    What the Congress did that was special was allow us to 
spend the Federal money for the last 2 years, 1995 and 1996, 
without a match, without abating that match back, and we spent 
over $235 million on infrastructure. Some of you may come down 
Constitution Avenue, which was full of potholes but it has been 
fully repaved now. In fact, we filled to the tune of about 
65,000 potholes; there are about another 9,000 or 10,000 to go, 
so our streets are less bumpy now. There is still a lot of work 
to be done because the streets have been neglected for years.

                water and sewer authority infrastructure

    The water and sewer side of the role, the good news is that 
the Water and Sewer Authority would issue bonds where they are 
going to do a major amount of work on our infrastructure in 
terms of cleaning these pipes out and other kinds of things and 
making this possible for our water to be safe. And 
incidentally, the Water and Sewer Authority is working very 
well to find representatives from the suburbs and they have 
gotten an A bond rate for their bonds, so things are happening 
in that regard.

                    conclusion of mayor's statement

    I want to thank the committee for allowing me to testify. 
We are not out of the woods yet financially. Certainly we have 
made great progress between this time last year and this time 2 
years ago or this time in 1995, January 22nd, my first 
appearance before Congressman Davis' subcommittee when we 
talked about a $722 million potential deficit. Now we aredown 
to $41 million. This is truly a successful budget.
    And, finally, members of the committee, I would urge you 
all to practice as much democracy--well, practice full 
democracy to honor and respect this budget. As you know, last 
year we had some differences about these amendments that were 
attached to the House side of the budget. Our own view is these 
amendments ought to be taken through the regular process, 
through the authorizing committees, hold hearings and let that 
be the process for any amendments, because many of those 
amendments we did not agree with. So I urge you all not to 
attach any amendments to this budget. Look in depth at this 
budget and ask all the questions you want, demand all the 
answers we are supposed to give to you, and in the final 
analysis, respect these local elected officials and appointed 
officials and adopt the consensus budget. Thank you for the 
opportunity to be here.
    Mr. Taylor. Thank you, Mr. Mayor.

                   prepared statement of mayor barry

    [Mayor Barry's prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


    Mr. Taylor. Chairwoman Cropp.

                 Opening Statement of Chairwoman Cropp

    Ms. Cropp. Thank you very much, Chairman Taylor and other 
members of the House Appropriations Committee. I am here to 
testify on the District's fiscal year 1999 budget and financial 
plan. This is done on behalf of the citizens of the District of 
Columbia, who happen to be residents of the number one city on 
the East Coast, and it is with great pride and pleasure that I 
can say that.

                          work done on budget

    This budget, balanced and unanimously approved by the 
Council, was a result of months of hard work, tough decisions, 
and protracted negotiations. It is no small feat that this 
consensus budget, bargained by the Council with the Mayor and 
the Financial Authority, illustrates the story of how District 
stakeholders can get together to design something good for our 
city. This $5.2 billion spending plan, with tax relief 
increases, funding for the schools, a $41 million accumulated 
deficit reduction, and pay adjustments for city employees, 
proves that the District's fiscal condition is improving and it 
can now focus on more rehabilitation and service delivery.
    We worked many hours, Saturdays, Sundays, weekends, all of 
us, from the Council, the Mayor, and the Financial Authority, 
to come together on this consensus budget. I also have a copy 
of the Council's committee reports that I would like to submit 
for the record.

    [CLERK'S NOTE.--The reports referred to have been retained 
in the Committee's files.]

    Ms. Cropp. I will not go through all of them, but I think 
that you will find and see the hard work that the committees of 
the Council did in order to reach our decisions with regard to 
the 
budget.

                    council's four basic priorities

    Prior to receiving the fiscal year 1999 budget in early 
March, the Council had already developed its platform to 
achieve a balanced budget--premised upon four basic priorities 
espoused by the Council at a retreat that we held in January: 
The four priorities are to improve service delivery to the 
citizens in the District of Columbia; to eliminate the 
accumulated deficit; to invest in our work force with 
appropriate compensation; and to also begin our process for tax 
relief and restructuring.

            financial audits/infrastructure/service delivery

    The financial audits show that we ended 1997 with an 
operating surplus of $186 million. However, this is not a true 
surplus. And I caution us, Mr. Chairman, members of the 
committee, we still have much more work to do, and we must 
succeed because it is the rehabilitation of our financial 
position that becomes the underpinning for service delivery 
efforts, and then these efforts will provide the foundation for 
economic growth. We don't have a true surplus until our 
infrastructure is repaired, until our buildings for our schools 
are done, until the service delivery for our citizens have been 
done properly.
    In addition, we anticipate $254 million available for a 
deficit paydown for this fiscal year, although the numbers are 
not final yet. This new-found prosperity is not just because of 
our strong economy, but more important, it demonstrates how the 
District can get back on its own two feet financially, by 
adopting sound budgeting procedures, conducting stringent 
fiscal oversight, and exerting prudent control over our 
spending.

            impact of revitalization act (public law 105-33)

    And I want to say to you that while I think the 
Revitalization Act certainly will have an impact on helping the 
District move to recovery, I want to remind you that the $186 
million surplus that was found in the District's budget for 
last year was pre-Revitalization Act. So what we see from the 
Revitalization Act will be growth, more growth. What we saw 
last year was due to other efforts that had been done prior to 
the Revitalization Act.

                              y2k projects

    Let me also say that the Council has taken the initiative 
to finance some long-term capital projects, for example, the 
Year 2000 compliance that certainly everyone is going to be 
dealing with. Besides saving the District's money in years to 
come, this action reflects our determination that no financial 
good fortune will be squandered unwisely.

              deficit savings due to not borrowing to fund

    Likewise, when we decided not to borrow $110 million to pay 
down our accumulated deficit as initially planned, the District 
saves $16 million in annual debt service costs.

                    performance management hearings

    In this budget, the Council and its standing committees 
devoted many hours to discussion and spent much time and effort 
in judiciously reviewing the agency's performance and numerous 
budget and legislative oversight hearings, and in fact, we had 
performance management hearings earlier, prior to the regular 
budget hearings we held, because we wanted to make sure that 
our work force is kept to certain standards with regard to 
performance measures. The Committee of the Whole proceeded to 
take more revisions in order to bring the budget into balance.
    But be it program enhancements for the schools or young 
people, or net reductions, let me reiterate the Council has 
supported additional funding for the schools and directed $2.3 
million for youth programs. We were able to discipline our 
spending by allocating some $41 million for deficit reduction. 
Prompted by this first unqualified audit or clean bill of 
health in several years, the Council took steps to jump-start 
the rehabilitation of our city.

                         public works projects

    For example, we pushed for $7 million worth of public work 
projects to transform our neighborhoods and enrich our living 
environment because we care about houses lined up on smooth 
streets without potholes. We don't care for unsightly garbage 
and recycled trash littering our corners. We care about a 
better community, and better community policing. We don't care 
for criminals and prostitutes lurking around our residences. We 
care about spaces for our kids to play andfrolic in. We don't 
care for violence and drug markets.
    In sum, we care about building an idyllic district, because 
as one of the most overburdened taxpayers in America, we 
deserve it.

                     Tax Relief Reflected In Budget

    And for the city employees who have labored to produce the 
surplus and contributed directly with layoffs and benefit 
reductions, I am pleased to say that we want to invest in our 
work force, who have been without a pay raise since 1994.
    In this budget package, we have offered $11 million worth 
of tax relief to the residents and businesses and hope to 
encourage people to move back to the District by eliminating 
motor vehicle excise tax for our new residents.

                  Public Schools--$62 million Deficit

    We originally intended to give more tax reductions, if not 
for the news in late April that the schools had a $62 million 
deficit, and the escalating special education and 
transportation cost that could not be ignored, due to court 
orders, and had indicated some $12 million worth of pre-
kindergarten programs might have to be cut.
    This tax relief, however, is just one small step in our 
joint efforts to resuscitate the Nation's Capital. It is, I 
believe, a down payment on the future tax reform program 
because we have to make the District a friendlier and more 
welcome place to live and do business in.

                        Tax Revision Commission

    Last week we had a public hearing with the D.C. Tax 
Revision Commission, which the Council had the foresight to 
create in 1996. It presented its proposal, ``Taxing Simply, 
Taxing Fairly'', for the city. Because we cannot tax Federal or 
foreign-owned properties, which accounts for 41 percent, 41 
percent of our property base, we inflict a high 10 percent 
gross receipts tax on utilities. Because we cannot tax non-
residents' District income, we burden D.C. taxpayers and 
businesses with higher tax rates. If we don't do anything about 
this onerous taxation, we will lose more businesses and 
taxpayers.

                          Revamping Tax System

    The Council is not close to making any decisions on how to 
revamp our tax system, but we are examining a good tax system 
that will pay for government services by taxing broad bases at 
lower rates. And I have a copy of ``Taxing Simply, Taxing 
Fairly,'' that was produced by the tax commission that the 
Council brought about, and I would like to introduce that and 
submit that for the record.

    [Clerk's Note.--The document referred to has been retained 
in the Committee's files.]

    Ms. Cropp. The Council also hopes to be making 
recommendations on that issue fairly soon.

          New Economic Initiatives $100 million federal funds

    To further recharge the District, we need to install a new 
economic engine. In other words, we need to invest the $100 
million as promised by the President in new economic 
initiatives. More specifically, we need a locally charged 
corporation to lure more businesses into the District. We 
envision a new Convention Center that the Council passed 
yesterday, so that the District can compete with other cities 
across this country and stop the exodus of businesses, which in 
turn hurt our hospitality industry and ourselves.
    You know, government is the number one business in the 
District, but the hospitality industry is the number two 
business and it is extremely important for us to have our 
Convention Center, so we can strengthen our hospitality 
industry, because that is in fact a strong, strong, part of our 
economy. We need to upgrade some of the city's most 
deteriorated buildings and streets. We need to improve the 
quality of life for the District, period. All of these needs 
cost money.
    Given the present improved financial situation, this money 
should be given to us so that we can transform the District 
into a thriving metropolis, and this goal cannot be achieved 
without these funds. Let's face it, economic development is 
going to be an antidote that propels this city to a fiscal 
veracity and physical wellness. No doubt, we are in better 
economic times, but we must be prudent and strive to find other 
resources to establish an accumulated surplus to cushion us 
against the next economic slowdown.
    What I have described in our process is akin to what your 
budget process in the House will be. While you strived to fund 
your priorities, the Council did likewise. While you agonized 
over the budget reductions, the Council endured the same. While 
we empathize with your considerations, we implore you to 
recognize the fact that we need more Federal funds to help 
change this city. This request is a fine line in the Federal 
budget item. We besiege you to consider favorably the Federal 
fund portion of our budget request, as you successfully approve 
a balanced budget for our Nation.

   Request for $254 Million in federal funds for Infrastructure Fund

    We urge the Congress to grant our $254 million 
infrastructure request. This fund is intended to support the 
city's existing infrastructure needs of over $3 billion. This 
fund can further alleviate our financial and structural burden 
so that the District can provide and perform efficiently all of 
the State, county and city functions.

                 Residency Requirement for Future Hires

    Congressman Moran asked about specific issues, one was the 
residency requirement. The Council did recently pass 
legislation asking for residency requirement on all future 
hires in the District of Columbia. More than 50 percent of 
those people who work for the District of Columbia Government, 
and I am not talking about the Federal Government nor the 
private sector, but people who work for the District of 
Columbia Government, live outside of the District of Columbia. 
There is some sense of inequity there. We are talking about 
people who work for the government. They should leave some 
money back in the city. They take the city's money, and some 
money should be left in the city. It imbalances our economy 
considerably.
    You know, when you live in Chicago or work in Chicago, and 
you live outside of Chicago, the State of Illinois still gets 
part of those dollars, and it helps Chicago in their 
infrastructure. If you work in Richmond, but you live outside 
of the City of Richmond, Virginia still helps with the 
problems, the urban problems of that city, of Richmond.
    Washington, like every other city in this Nation, has a 
population that is older, sicker, and poorer, and because of 
that, it costs us more to deal with that population. We have 
some of our suburban jurisdictions who actually bring some of 
those people to the District of Columbia for us to pay the cost 
of their needs. We become like every other urban center, the 
place to send your older, sicker and poorer population who is 
in need. Yet, at the same time, we cannot even tax those people 
who work for the District to help pay the cost. That is 
problematic.
    If you work in Philadelphia, you still pay taxes to 
Pennsylvania, and they can help Pennsylvania and Philadelphia. 
But if you work in Washington, D.C. but you live outside, then 
we pay for the people who live in Baltimore and Richmond, and 
that is wrong.

                  commuters--Use of Roads and Highways

    With regards to the roads and highways, I believe the Mayor 
stated there were about 300,000 cars that come into this city 
every day. That type of burden--very few other urban cities 
have that type of burden. Because we are the Nation's Capital, 
and I am proud that we are the Nation's Capital, we are 
overburdened. That is the bitter sweetness of being the 
Nation's Capital because people want to come to the capital of 
the best Nation in the world. But when they come, they tear up 
our streets, and when they tear up our streets, the burden is 
on the taxpayers of the District of Columbia to pay for them. 
That is why you see in our budget a request for infrastructure 
costs, so that we can keep the streets of the Nation's Capital 
beautiful, the way we would all want them to be.

                    Regional Transportation Problems

    I recently attended a regional conference on 
transportation. Congressman Moran also asked us to address that 
issue, and the transportation issue certainly is an issue of 
great concern to us in this entire region.
    It is my belief that we must take a regional approach to 
address that issue. We have the Council of Governments working 
on it, there is a special committee within the Board of Trade 
who is working on it, and you may hear back from us as we talk 
about our regional transportation problems.
    I am going to put it on another level for us in the 
District, why it would be important for us to improve our 
transportation problem. As we deal with welfare reform in the 
District and as we look at trying to get individuals who were 
on welfare back to work, the unemployment rate in the District 
is still unreasonably high. It is much, much too high. I 
believe it is 9 percent. And while our employment rate is 
extremely high, there are jobs to be had in Maryland and 
Virginia. However, these same welfare recipients don't have the 
transportation to get to these jobs. So it is extremely 
important for more reasons than one for us to resolve our 
transportation problems that are there.

                               Tax Issues

    The tax issue that was asked that we talk about, I did 
submit that to the committee, the tax issues, our report. It is 
our hope we will be looking at the way to restructure our taxes 
in the District.
    I want you to take note that the District of Columbia, even 
during our worst and most crucial and critical financial times, 
we did not increase taxes because we very clearly understand 
that, when we increase taxes, it truly exacerbates the problem 
and, in the long run, we end up sending more people out of the 
District of Columbia.
    We do believe and understand----

                         Restructuring of Taxes

    Mr. Cunningham. I knew you were a Republican.
    Ms. Cropp. Not really. But we do believe that we need to 
restructure our taxes so that we can come up with a way to help 
our economy grow, and you will see more restructuring of our 
District taxes in the very near future.

             Conclusion of council chair cropp's statement

    I want to say, in conclusion, that I join with the Mayor in 
his request that the committee please do not add any 
attachments or riders to this budget. Please do not deal with 
the social issues that impact the District of Columbia and our 
citizens. We work very hard in the District to give our 
citizens access to their local elected leadership so that we 
can meet their needs. And while we are meeting their needs, I 
think you will see by our budget, by our financial condition, 
by the fact that we are improving in the city, that we have 
done this without overspending.
    So we ask that the Committee not attach riders. Let us 
handle our social issues in the District. We do ask, we do 
implore, that you join with the Mayor, the Financial Authority, 
and the Council and support this consensus budget that we have 
worked extremely hard to accomplish. It is a good budget that 
will keep us moving towards the path of financial stability and 
financial health. I truly believe that, for the District of 
Columbia, if we stay on this track, the best is yet to come.
    Thank you so very much.
    Mr. Cunningham [presiding]. Thank you, Madam Chairman.

           Prepared Statement of Council Chairman Linda Cropp

    [Council Chairman Cropp's prepared statement referred to 
follows:]

[The official Commmittee record contains additional material here.]


              prepared statement of control board chairman

    Mr. Cunningham. Dr. Brimmer, we will place your prepared 
statement in the record at this point.
    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]

              Opening Statement of Control Board Chairman

    Mr. Brimmer. Thank you very much, Mr. Chairman and members 
of the Committee.
    My colleagues have described the process by which this 
budget was put together. I will not repeat that. Let me say 
that, in terms of the mandate given to the Authority with 
respect to the budget, this budget meets all of those 
standards. It also puts us further on the way of achieving the 
financial stability, which went beyond the size of the budget. 
Above all, we were mandated when we dealt with the financial 
affairs of the city to seek to re-establish access to the 
capital markets. That was achieved last year. With respect to 
that mandate, it is already a goal that has been achieved.

         $254 Million in federal funds for Infrastructure Fund

    What I would like to do is to review a brief summary of the 
report which indicates some places where additional material 
will be supplied to the Committee. I also want to address 
somewhat more fully the reasons why, among other things, we end 
up asking for an appropriation of Federal funds of $250 million 
for infrastructure. My colleagues have mentioned that the 
physical infrastructure is one of the most critical priorities 
facing the city.
    Mr. Chairman, I have summarized the financial dimensions of 
the budget in two tables in my remarks.
    On page 6, you will note there is a table on revenues. 
There are a couple points I would like to make and call the 
committee's attention to this table.

                           growth in Revenues

    First, you will note that there is very, very little 
revenue growth embedded in this budget. Moreover, if you look 
at tax revenue, you will note that there is even less growth.
    I also call the committee's attention, specifically, to the 
individual income taxes. There is some growth in 1998. Compared 
with 1997, there is a sizable amount of growth. For 1999, much 
less growth.
    That reflects the fact of the yield of the income tax. Not 
that incomes are not rising. Quite to the contrary. Personal 
income earned in the District has been rising significantly at 
a substantial rate. The projection is that it will rise at a 
substantial rate through 1999. The point is that only between 
30 to 33 percent of any growth in income in the District 
accrues to District residents. And I want to say something 
about that later.
    What it means is that, as economic growth takes place in 
the District, that we are growing, income is being generated, 
but a substantial fraction of that income is received by 
persons who work here, earn here, but live outside the city. So 
revenue growth is a serious problem facing the city, and the 
income tax yield also is a problem facing the city.

                          expenditure profile

    Mr. Chairman, the expenditure profile in this budget is 
described in table 2 on page 9 of my statement. I will call the 
committee's attention to several features.
    First, you will note that the expenditures for government 
direction, financing, safety and justice--in other words, 
substantially bureaucratic functions--that those expenditures 
grow virtually not at all, very, very little. The substantial 
growth is in public education, I want to stress that, and in 
human support services.

                     special education expenditures

    I will call the committee's attention particularly to 
public education. Virtually all of that growth that is 
projected here reflects the mandated expenditures for special 
education. For example, in 1998, the public schools are 
spending about $105 million on special education. For 1999, the 
level of expenditures for special education is projected at 
just under $160 million. That is mandated. It is a problem that 
is very serious. Much of that expenditure, much of that 
activity, is under court orders, we see this, and it is 
imposing substantial inflexibility. In terms of budget making, 
it is the Court who decides on that. It is a serious problem, 
you need to look at it, and we will talk more about it.

                         reduction in personnel

    I would now like to mention, Mr. Chairman, with respect to 
what we have done in terms of personnel. As the Mayor said, 
over the last several years, there has been a substantial 
reduction in personnel. When we assumed office in the summer of 
1995, we were handed a budget, for fiscal year 1995 with a 
full-time equivalent position count, of 43,000. A projection in 
the proposed fiscal year 1996 budget that would rise to 45,000. 
That was a number which we found unacceptable, and we ordered a 
reduction of 5,600. We actually achieved a reduction of 5,200.
    As the Mayor said, there have been further reductions over 
time, and my numbers suggest 25 percent reduction. The Mayor's 
numbers are 27 percent, but those are just rounding 
differences.
    The point is, in substance, there has been a substantial 
reduction in the number of employees. Nevertheless, this 
government still has some way to go. As productivity improves, 
as training improves, there can be further reductions in the 
number of employees.

    [CLERK'S NOTE.--Virtually all of the personnel reductions 
are illusory and have been achieved by (1) transferring the 
function ``off budget'', e.g., the Water and Sewer Authority; 
(2) ``privatizing'' the function, i.e., the service is still 
being provided by the District government but payment is made 
to a ``contractor'' instead of to District government 
employees; or (3) eliminating authorized positions that were 
vacant. See also page 92, this volume, for personnel increase 
of 1,330 in FY 1999 budget.]

                    department of corrections budget

    Also, I want to mention a problem that is left over from 
the Federal Government's assumption of responsibility for the 
prisons. The Committee might recall the Federal Government took 
responsibility for sentenced felons, and there is a trustee who 
is already responsible for their oversight. That trustee 
prepares the budget, the component of the Federal government's 
budget covering corrections in the District.
    The trustee has recommended a budget for 1999 of $185 
million. However, the Authority has determined that this amount 
seriously underfunds the projected cost of running the system. 
The District's budget office has indicated that the true cost 
of running the system for 1999 is approximately $204 million, 
leaving a funding gap of $19 million. In addition, other direct 
and indirect costs to the District associated with the 
sentenced felon population totals $25 million, for a total 
underfunding of $44 million.
    Now, as part of the city's 1999 financial plan and budget, 
the Authority is asking the Federal Government, which is now, 
as I said, responsible for the system transfer, to assume the 
proper cost by appropriating an additional $44 million. The 
function has to be before--and if the Federal Government does 
not reimburse the District, then the city has to cover that 
extra cost, and that is an effective budget cut of $44 million. 
If we do not get assistance this budget is going to be much 
bigger, and I wanted to stress that.

            infrastructure fund--$254 million federal funds

    I also want to stress for a moment the infrastructure 
question. A detailed description, illustrative description, of 
the kinds of projects on which the funds will be spent is 
provided in the operating budget on page VII-6.
    [The exhibit on page VII-6 referred to follows:]

[The official Commmittee record contains additional material here.]


                           roads and bridges

    Mr. Brimmer. In addition to public school and public safety 
facilities the roads and bridges have deteriorated.
    Now the Federal Government will permit the city to use a 
substantial part of its Federal highway system to shore up many 
of the bridges, but not all. There are local matching 
requirements. Let me assure you, there are far more bridges in 
this city that are not just in danger of collapsing but are 
already exposed to a substantial deterioration, and the traffic 
over them, is adding substantially to the problem.
    Mr. Chairman, there are other parts of this government that 
are decrepit. In particular, in the schools where there are 
dozens of boilers, that simply have to be replaced. There are 
numerous buildings and other facilities in this city that are 
so ancient that they cannot accommodate basic systems--the 
wiring systems cannot accommodate the new computers and so on. 
Communications must be improved. Many of these needs are 
identified on page vii-6 of the operating budget as well.
    I once thought of asking staff to get some pro bono 
assistance so we can make a video of these conditions in this 
city. The Committee would be quite taken with what they would 
see. This city's infrastructure is literally falling apart.

                         residency requirement

    Mr. Chairman, I mentioned the court orders, and I won't say 
any more about that. But let me take up the one question 
Congressman Moran asked about, about the residency. I have the 
results of an analysis I have asked our staff to undertake with 
respect to residents versus nonresidents and city employees, 
and this has a direct barring on the measure that is now before 
the Congress that the Council passed, and we are sending it 
forward to you without objection.

                       where d.c. employees live

    This analysis shows the status of District employees of the 
last pay period. There were 39,000 employees--these are not 
FTEs, but employees, people who get paychecks--39,000 employees 
in the last pay period. 18,000 lived in the District; almost 
the same number, 17.6 in Maryland; 3,000 in Virginia. But, the 
District accounted for only 47 percent of those employees. 45 
percent lived in Maryland, 8 percent in Virginia, and the rest 
in West Virginia or some other place.

              salaries received by Non-resident employees

    The total annual salaries received by those employees in 
the District was $609 million. $691 million went to employees 
who lived in Maryland, $139 million to employees who lived in 
Virginia, for a total of $1 billion, 442 million. About 42 
percent of their salaries, of the salaries paid, went to 
District employees, 42.2 percent. Forty-eight percent of the 
salary amounts were received by employees who live in Maryland.

                    average salaries of nonresidents

    The thing I found particularly striking is the District 
employees have lower average salaries, $33,000. Employees in 
Maryland have $39,000 average salaries and, in Virginia, 
$42,000.
    Mr. Chairman, as I look at these facts, I was taken with 
the disparities. So, as Ms. Cropp said, what this amounts to is 
that taxes are being levied on District residents, some of 
those taxes are used to pay salaries and compensation to people 
who live outside of the District and who return nothing to the 
District.

                         ``common'' tax revenue

    I asked the staff an additional question. I said, what if 
the employees who live in Maryland and Virginia were subject to 
the same tax rate as residents of the District? What would the 
impact be? I was told that the amount of District income tax 
paid by District residents was 7 percent. Using that 
percentage, if the District employees who live in Maryland and 
Virginia and other States paid income tax--paid District income 
taxes, the amount of any common tax revenue generated would be 
$59 million. That is a significant fraction. That would be a 
significant fraction of the total income tax receipts in the 
District.
    So, Mr. Chairman, those figures, I believe, go a long way 
to demonstrate that careful consideration needs to be given by 
the Congress to the measure that the Council sent to the 
Congress.
    I will stop at this point, Mr. Chairman. Thank you very 
much.
    Mr. Taylor. Thank you, Mr. Brimmer.
    Mayor Barry. Mr. Chairman, could I speak to something in my 
opening statement?
    Mr. Taylor. Sure.

                 residency requirement in other cities

    Mayor Barry. Congressman Moran, in terms of residency, let 
me point out that if you work for the City of Chicago every 
employee has to move into the city within a 6-month period or 
not work for the city. The same is true for the City of Boston. 
The same is true for the City of Detroit. The same is true for 
the City of New York. And there has been no evidence that any 
cities have had any great difficulty attracting the right 
employees. In fact, our Police Chief, Chief Ramsey, came from 
Chicago, and that system works very well.

                    taxing non-resident dc employees

    We need to turn this around. And then it is compounded by 
the fact, as these numbers point out, the fact we can't tax 
non-D.C. residents. These persons are getting taxpayers' money 
and taking it to Maryland and Virginia, mostly Maryland, and 
spending almost $700 million primarily in Maryland. Where you 
live usually determines where you buy your food, where you buy 
your clothes. So we would urge you to do that.

                  exceptions to residency requirement

    On the other hand, this measure allows for exception in 
hard-to-fill positions. Which means if we are looking for a 
computer specialist, et cetera, and you find you can't fill it, 
the measure allows the Mayor to make a determination thisis a 
hard-to-fill position.
    So you get this example all over the country where 
residency has worked, and you all may know we had it at one 
point, before the Congress moved us away from it. Most of the 
positions found qualified people to do work. It is working well 
in those cities where you have it. It does not mean you don't 
get the brightest and the best. It means that once you decide 
you are going to work for the District, you have 6 months to 
move in. And in many of our neighborhoods the price of housing 
is substantially lower.

                     residency of new police chief

    Mr. Taylor. You and I agree on that. Where does the Chief 
live, by the way? Our new Police Chief?
    Mr. Brimmer. The Chief is in the process of moving in. He 
is living temporarily in an arrangement, but the Chief has 
assured me that he will live in the city.
    Mr. Taylor. Within the 6 month time period?
    Mr. Brimmer. Oh, he will be in the city in a much shorter 
time than that.

                   residency of school superintendent

    In that regard also, Mrs. Ackerman, the CEO/Superintendent 
of public schools, who came in from outside, is already living 
in the city and will remain in the city.
    So, at that level, it is clearly understood that living in 
the city is the thing that is preferred. On the other hand, I 
should say, what the Mayor just said, about flexibility, they 
recognize that.

                 chairman's position on residency issue

    Mr. Taylor. Well, the employees you need can come from 
anywhere in the country, but I agree, within a reasonable 
period of time, which you are providing, they should reside in 
the District. I maintained that same position last year, and I 
think it is important for not only the revenue but for the 
community. If you are losing half of your employees, it looks 
like, to the suburbs, it is difficult to build a city together. 
That is important. But we will get into that debate, I am sure, 
in a moment.
    Mr. Moran. Let me join this debate a bit here, too, Mr. 
Chairman.
    Mr. Taylor. Let me do this. Jim and I probably have--we 
have a difference of opinion on this issue, but we will take 
that up at another time. I will focus my questions in other 
areas.

   gao opinion on overpaying control board's executive director and 
                            general counsel

    First of all, the GAO has found that the Board has been 
overpaying two employees--your executive director and the 
general counsel--in violation of the Control Board Authorizing 
Act, Public Law 104-8.
    We will insert a copy of the GAO report in the record at 
this point.
    [The GAO report referred to follows:]

[The official Commmittee record contains additional material here.]



            status of efforts to correct salary overpayments

    Mr. Taylor. Now, does this budget contain provisions to 
reduce the pay of those staff who are being paid more than the 
law allows and to secure from these individuals a repayment to 
the taxpayer of the excess salary?
    Mr. Brimmer. I will address that, Mr. Chairman.
    First, the GAO report is not reflective of the actual 
situation. There were two main points made by the GAO, the 
general counsel of the GAO, in his opinion to this Committee. 
First, it asserts that the Authority had no legal basis for 
appointing a chief management officer or for paying the chief 
management officer compensation in excess of the rate for the 
executive level rate four.
    That is an interpretation that is in error. I have 
responded to those comments in some detail.
    The key point is that--and I will submit a copy of my 
statement for the record, along with some additional material.

                   need for chief management officer

    It was clearly understood when Congress transferred to the 
Authority the oversight of the nine departments and the four 
governmentwide functions that we would need administrative 
assistance in carrying out those responsibilities. I said so in 
hearings. I said so on the day of the signed order and said we 
would proceed promptly to recruit such a person.
    The Congress took note of that, of the need for such a 
person. In the Appropriations Act for fiscal 1998, adopted by 
the Congress in September, 1997, there is a statement which 
said that up to $8 million of appropriations was to be used to 
cover part of the cost of management reform and the activities 
of the CMO. And that has been documented. And at least on the 
Senate side last week I asked the Chair of the Appropriations 
Subcommittee whether our recollection and our reading of the 
record was correct. He said, yes, and he invited me to provide 
a recommendation for legislation to make certain that it is 
done, and we were asked to supply drafts of that legislation, 
and we are doing it.
    I have also said that we would recruit nationally for that 
position and we would be prepared to pay competitive 
compensation. That is exactly what we did. That is exactly what 
we had to do, and so that is the position with respect to the 
CMO.

        locality pay for executive director and general counsel

    The GAO also made the statement that said, we, 
theAuthority, did not have any basis for providing locality pay which 
resulted in a payment to the executive director and to the general 
counsel at rates above the rate four. Actually, the reference made by 
the GAO, in effect, amounts to modifying the reference in section 102 
of the statute, which reads, the executive director shall be paid at a 
rate to be determined by the Authority, except that the rate--that it 
may not exceed the basic rate of pay that is payable to level four.
    Actually, what the GAO did, in effect, was to take ``basic 
rate of pay'' and read it as ``aggregate compensation,'' and 
that is not correct. If you look at the ultimate source of the 
reference which the GAO adopted in its letter, you will notice 
that--and this is from the civil service regulations--that 
``aggregate compensation'' is composed of several components, 
of which basic pay is only one. It is the most important piece. 
It is the first piece cited. But locality-based comparability 
pay--you must read the whole thing. Locality-based 
comparability pay--that is the second item, sir--then a whole 
list of others.
    So in administering the compensation of employees at the 
Authority--and this is my responsibility. I have administered 
that compensation policy on the basis of providing competitive 
compensation, compensation necessary to enable us to attract 
the level of skills and competence which we feel are needed to 
help carry out our responsibilities.

        compensation for executive director and general counsel

    So when I reviewed the position of the executive director 
and the general counsel with respect to compensation I focused 
on aggregate compensation, not just base pay. And in that 
regard--and the documentation shows it was entirely in keeping 
with the best, not just good, but the best of compensation 
practices, not only in this neighborhood but nationally.
    So, Mr. Chairman, I do not accept the GAO's argument. I 
feel in both cases, with respect to the CMO and with respect to 
comparability pay and notice, comparability pay was to narrow--
the purpose of it in the Federal statute was to narrowly get 
between compensation for comparable positions in the private 
sector and positions in the Federal Government. It had nothing 
to do with geography. It had to do with the gap between the 
compensation in Federal--the Federal job and in the private 
sector.
    In that regard and in that framework, the decisions I made 
were entirely in keeping with, and help to carry out the 
purpose of the statute.
    Mr. Taylor. It is your case and you are sticking to it, I 
know.

                not first time control board ignored law

    This is not the first time that the law has been ignored 
since I have been on this Committee, and I can appreciate the 
fact that it may be changed in the future and that it might be 
competitive. But I am going to ask our Committee to investigate 
it. I would like to ask your counsel to appear with the GAO and 
this Committee and look at it, and we will take whatever action 
we think is appropriate. Because all of us take an oath to obey 
the law, and if we interpret it in a way that flaunts it, then 
that is a serious consideration.
    Mr. Brimmer. May I add one point? In my written statement, 
which I will share with the Committee, we also had not just the 
view of our inside counsel but the matter was referred to an 
outside law firm, and there is an opinion.
    What I would like to do is to offer the Committee the 
entire package of the legal position, our counsel's opinion 
with substantial documentation and the outside counsel, our own 
outside counsel's opinion.

         outside counsel opinion requested after decision made

    Mr. Taylor. Did you get that opinion before you broke the 
law or was it after?
    Mr. Brimmer. I did not break the law.
    Mr. Taylor. I will keep that in parentheses.
    Mr. Brimmer. The outside counsel opinion came later.
    The basis on which I made my decision, not only the written 
opinion but the documentation, and I want to stress this, this 
was not a frivolous, spur-of-the-moment decision.

    [CLERK'S NOTE.--High level government officials such as 
Assistant Secretaries, Chief Financial Officers, Inspectors 
General and Chief Information Officers of the major departments 
of the Federal government are paid at Executive Level IV. The 
General Counsels of the executive departments of the Federal 
government also are Executive Level IV positions. They do not 
receive locality pay because there is no explicit statutory 
authority for those positions to receive locality pay. 
Similarly, there is no explicit statutory authority for control 
board personnel to receive locality pay.]

    Mr. Taylor. Mr. Brimmer, we have a lot to move ahead on, 
and I will certainly withhold judgment until we get the report 
from your counsel as well as any reports you have here as well 
as GAO and anything else on that issue.

                  management improvement--poor returns

    While the budget does make some progress, it seems that 
increases in spending are automatically categorized as 
``management improvements''. Is this a euphemism for we are 
going to spend a lot more? Because, in looking at the 
improvements, which, by the way, are piled on many years of 
improvements since we have been here in the last 3 years, and 
yet the returns versus what we spent for management 
improvements are minuscule compared with what is being spent 
for that efficiency.
    One thinks you can put a dollar in and get a hundred times 
or ten times or something, but when you put a dollar in and you 
get 10 cents for efficiency, it is going the wrong way, isn't 
it?
    Mr. Brimmer. I would not characterize the process as you 
do.
    First, I would ask the Chair to recall while we were 
already engaging in a series of efforts to improve management 
and productivity we were mandated by the statute in the summer 
of 1997 to engage outside consultants to undertake a program of 
management reform using consultants. We carried out the law, as 
required by the Revitalization Act. We did that.

        surplus for management improvement and deficit reduction

    As a result of that, we got a series of recommendations 
from the consultants. The mandate to us was take actions to 
implement the management reform plans and that is what we have 
been doing. And let me assure you--and we said that if you 
permitted us to use some of the net benefit from the 
Revitalization Act which had been forecast, we would use some 
of it to improve management and use some to reduce accumulated 
deficit. That is going forward.

                      financial management system

    Mr. Taylor. Let me ask you--and we had this conversation 
last year--you are asking for $43 million for financial 
management computer systems. Against my better judgment and 
others, we allowed the control board to go forward last year 
with $26 million for the District's financial management 
system. At that time, we were told everything was set and that 
it would be--that was all of the money that was required.
    Now, have you spent the $26 million? And what is this $43 
million? Are we going back over the same tier?
    I am for efficiency, but you all are running it into the 
ground, it seems like.
    Mr. Brimmer. Mr. Chairman, you recall our discussion of the 
Financial Management System. That is the FMS system. That is a 
separate operation, and it is already under way. The plans are 
under way.
    I have a report here on the status of those. I will submit 
that report for the record.
    [The information follows:]

[The official Commmittee record contains additional material here.]


                     fms on ``very close schedule''

    Mr. Brimmer. Let me summarize it quickly to say that that 
part of the plan with respect to the Financial Management 
System is under way. It is being prosecuted very vigorously, 
and it is on or very close to the schedule.
    Mr. Taylor. Does that mean that you spent all $26 million?
    Mr. Brimmer. The expenditures are being made as the program 
proceeds.
    Mr. Taylor. When did you find that you were $43 million 
off, when you said that the $26 million was all that was 
required, that it would fix the problem?

                    management reform for computers

    Mr. Brimmer. Mr. Chairman, the money for the management 
reform for computers and so on are not the same project that 
you and I have just been discussing.
    Remember, this applies to all of the departments and all of 
the cost-cutting functions. In virtually every one of the 
management reform recommendations the consultants found 
efficiencies with respect to computers, communication 
equipment; and the money for management reform is being used to 
finance those activities.

                        funding for y2k problem

    Let me give one example which was clearly not focused on 
here last year, the so-called year 2000 problem with 
information systems. The District is far behind with respect to 
trying to resolve that problem. It is going to cost a lot of 
money. We have something in here now, at least $10 million. Mr. 
Chairman, these systems permeate the whole District. There is 
virtually no aspect of management that can be implemented today 
without adequate systems. We have to spend money on that.
    Mr. Taylor. Our investigation showed last year that it 
would be pouring money down a rat hole because the invoice and 
vouchers were being stuffed into drawers. It wasn't a computer 
problem at that time.
    And what you are saying now, ``we spent $26 million, and we 
have another $43 million for the financial management computer 
systems, and we don't know whether that will bring us any 
closer.''
    If you follow the investigation that we had last year, it 
won't. Next year, it will be $70 million. That is something 
that we want to get more information on certainly, and you can 
send it at another time because it is difficult for us to 
analyze all of it here at one sitting.
    Mayor Barry. In that regard, conceptually to separate out 
the Financial Management System, which is a calendar-keeping 
track of money and the control system from the technology 
infrastructure, we have a number of computers that are old, 
antiquated. They don't talk to each other. A lot of the money 
is going to hardware.
    Mr. Taylor. It is not a Financial Management System, it is 
for anybody else that has a computer?
    Mayor Barry. Not anybody. What happened is we had 
aManagement Reform Committee on IT, the technology, and the Chair will 
recall Council Chairman Ambrose went through in great detail. And, 
believe me, no one is as critical about this money as I have been, and 
we do have a need to move into the 21st century, and it does include 
the delivery of services.

                         training for employees

    Mr. Taylor. I can tell you from personal experience, you 
can spend whatever you want to and you can't make me productive 
on a computer because I missed that generation and I am just 
hunting and pecking on the computer keyboard. So if we spend 
$43 million and we have not trained the people, we have the 
same procedures, the same systems, and then expect that we are 
going to be having efficiencies. It would be futile.
    Ms. Cropp. That is the issue. That is the management reform 
that we are talking about. That is the very crucial part that 
we are talking about. When we did the management reform, if you 
look at that, one important element that goes through 
everything, we had to retrain our work force if necessary in 
order to improve the service delivery. You are absolutely 
right. It is a component of it, and all of that is included in 
the management reform. We haven't had training.
    Mr. Taylor. Then you wouldn't be against my sitting on this 
for another year, the $43 million, while you trained the 
employees on the existing computers?

                              y2k problem

    Ms. Cropp. We have another problem, Mr. Chairman. We have 
that year 2000 problem that is coming up, and all of the 
dollars that are invested in the IT--quite frankly. I was 
shocked to find the amount of dollars that needed to be 
invested for us to deal with that. If we sit off of that, if we 
don't do anything with that, not only, quite frankly, will the 
citizens suffer, but so will our whole transportation system 
with all of our streetlights. That will all be impacted when 
none of our streetlights work.
    I would like to refer you, and if we have another 
opportunity even beyond this hearing, to the management reform 
that we did--and, again, this was a consensus effort between 
the Mayor, the Council and the Financial Authority. I submitted 
our committee reports for the record. I would like the staff to 
look at the committee reports, and it will show how the Council 
even reduced it because of those things that could not be done 
that were needed in management reform. But this is for service 
delivery, for us--to bring us into the world so we can do those 
things that you have always said that we need to do in the 
District of Columbia.
    Mr. Taylor. I need to go on with this. I want to recognize, 
though, the Delegate from the District of Columbia, 
Congresslady Eleanor Holmes Norton, and I would also like to 
recognize City Council member, Hilda Mason.
    Ms. Mason. Right here.

                  residency requirement for employees

    Mr. Moran. Should we start with the residency requirement? 
We have been trying to develop, in perception and reality, a 
constructive, cooperative relationship with the District of 
Columbia, particularly among the suburban members, whether it 
be Tom or Stephanie, Al, Connie, Frank. And this is the kind of 
thing that erodes that constructive relationship.
    Now, if you were going to get it, it still might make 
sense. But I will buy you lunch, the three of you, if you can 
get this residency requirement enacted. I feel that strongly. I 
know that you are not going to get it. In fact, we will let 
Marion pick the restaurant because he knows the restaurants, 
the most expensive ones. But it is not going to happen, and 
that is really the problem with it.
    I think it sets a very bad precedent, in addition to 
eroding the kind of constructive relationship that we are 
trying to establish.
    The numbers that you read off, Dr. Brimmer, of the number 
of people who have left the District who were working for the 
District and where they went, that correlates exactly with what 
has happened to the middle class in the District of Columbia. 
And as you know, they are leaving because they want better 
schools and safer streets, and that is what it is all about. 
And for the most part they are going to Prince George's County. 
Some are going to Virginia but not so many that it is going to 
have any real impact on us or our society.
    I don't want to represent their interests, and I believe 
people should be able to live where they want, and it is not 
going to make that much difference. But it is going to make a 
difference to the District of Columbia, because our principal 
objective, it seems to me, has got to be to get the best 
possible people working for the District of Columbia. And every 
time you foreclose their options, you make it more restrictive, 
more difficult to work for the D.C. government, you limit the 
number of people, the pool from which you want to attract the 
best people.
    I am sure that there are a lot of people that have now 
bought homes in the suburbs who are going to look for 
alternatives to working for the D.C. government if this is 
passed. I don't really blame them, and I don't argue with your 
ultimate objective. We have that objective.
    I will use Alexandria for example. When we approve a major 
residential project, we get the developer to set aside a 
certain number of units at subsidized sales prices I am 
suggesting it to you, but we do it in Alexandria.
    For people who work for the Alexandria Police Department, 
if you live in one of these residential developments, you can 
buy a home for $100,000 versus $160,000. A great deal. The 
developer is happy. We made it as part of the contract anyway, 
so we have the same objective. We want people working within 
our jurisdictions, but we feel very strongly it would be 
counterproductive if we use the stick approach rather than the 
carrot.

             residency proposal applies to future employees

    Mr. Brimmer. First, the legislation grandfathers everybody 
currently on the payroll. It would apply only to future 
employees. It would be so that those who are currently employed 
and living outside of the District would not be required to 
move into the City.
    Next, I shared with you the result of the first piece of 
the puzzle. I asked staff to examine this question. The other 
piece was practices in the surrounding jurisdictions. I have 
not gotten all of the results. But the first permutation, and 
it ought to have some variation with a new mayor, what was the 
requirement in Alexandria? Did the city have a residency 
requirement?

                  no residency requirement in suburbs

    Mr. Moran. Absolutely not. We had incentives like I just 
described, but no residency requirement. And none of the 
suburbs have a residency requirement. So you would be the only 
one with a residency requirement. Just like when you put 
restrictions on housing, you discourage people. You limit the 
number of people that you are able to recruit from, and that is 
why I oppose it, really. It is not going to affect my district.

                district employees who live in district

    Mayor Barry. Congressman, one thing is when you look at the 
numbers of people who live in Maryland and Virginia, without 
being scientific, the great majority have never lived in the 
District.
    Mr. Moran. How do you know that? It seems to correspond 
with residency.
    Mayor Barry. Because I have looked at a number of records. 
Police officers have the lowest numbers; 31 percent live in the 
District. I know that from following it over the last 16 years. 
We had residency, but there were police officers who never 
lived here, and once it was taken off and new ones came in, 
they never lived here. Chicago----
    Mr. Moran. But Chicago is a much bigger city.
    Mayor Barry. It has to do with people's interest in 
working. When we had it, we did attract the best and brightest. 
You may not think so, but----
    Another thing, Congress would have to pass it in the House 
and the Senate and be signed by the President, and we certainly 
shouldn't allow the President to veto this. So somebody should 
lose this bet.
    Mr. Moran. I would be shocked if it goes through.

                       state assistance to cities

    Ms. Cropp. Congressman, if I may add, when you talk about 
Alexandria and you were saying that Alexandria did not have 
workers there, a residency requirement, and they may live in 
Fairfax. When I talked about this issue, when they live in 
Fairfax, they are still paying taxes to the State of Virginia. 
So Alexandria still benefits from those workers.
    People who may live in Baltimore, if they don't have--work 
in Baltimore, they may not have a residency requirement if they 
live in Baltimore County or Howard County or Montgomery County, 
but they still pay taxes to the State of Maryland and, 
therefore, Baltimore City benefits.
    The same with Richmond. I bet in Richmond you will find 
many people who work in Richmond and live outside Richmond, but 
they live in Virginia and Richmond benefits, and Richmond has 
an urban population that is older, sicker and poorer.
    And Philadelphia, if you work in Philadelphia and if you 
live outside of Philadelphia, you have to pay part of your 
taxes to Philadelphia to offset their cost. You pay part of it, 
and you can still live where you want, but you have to pay 
something where you work.
    More than 50 percent of our workers live outside. And when 
they move outside, unlike these other jurisdictions, they are 
not moving into a State that still gives the city money. They 
move into the Commonwealth of Virginia or the State of 
Maryland, and we get absolutely nothing, and that is what it is 
all about.
    Mr. Moran. They should be paying taxes where they are 
sending their children to school and where they are most 
reliant on public safety, because those are the greatest public 
expenditures.
    Mayor Barry. Do you support a tax on D.C. employees?
    Mr. Moran. I think the argument is less compelling in 
opposition to that. I think the principle still holds. I don't 
want to Balkanize the metropolitan region.

                 per capita expenditure--mismanagement

    [See Appendix, pp. 743-897, this volume, for copy of report 
``The Necessity and Costs of District of Columbia Services.]

    You have a $5 billion expenditure. You have 500,000 people. 
That is $10,000 a person--per capita. You say we are 
maintaining a State and local government. The $10,000 per 
capita is more than any other jurisdiction requires. It is the 
greatest infusion of public funds. And not only do I not think 
that either a residency requirement or commuter tax is a silver 
bullet to the problem, but I think they expose you to further 
criticism that the money isn't being well spent. And that is 
the principal reason that you are not going to get a commuter 
tax, because the suburbs don't trust that the money is going to 
be spent effectively, at least at this point in time.

                           transportation tax

    I think you would be better off with a regional 
transportation tax. A gas tax would benefit the District of 
Columbia, because you can rely on the Metro system, and the 
Metro system would greatly alleviate your other expenditures if 
we can find a regional source to pay for that.
    Also roads--roads are a service that people outside the 
District of Columbia use. There was a proposal to pay for 
those. I think you can justify doing that. This 400 miles of 
main roads out of a total of 1,100--you could make a legitimate 
case that there ought to be more Federal compensation for the 
maintenance of the District's road and bridge system.
    But you are going up--these aren't going to work, the 
residency requirement and commuter tax. I know that we have 
taken up a lot of time. I had a lot of other issues. I had a 
suspicion that if I brought this one up, it would take more 
than 5 minutes.

                   philadelphia residency requirement

    Mr. Taylor. We asked the mayor of Philadelphia last year 
when he was here if he had a residency requirement, and you 
mentioned it is not exactly that. He said yes.
    One of the things that he said, if your city police go home 
and they experience the same things, such as crime, it will 
serve as a motivation for them to protect their own kids at the 
same level that we want all of our kids protected. That is what 
I was saying. It is more than just money. I think it helps 
build the city, but we will have this debate, Jim and I and the 
whole committee, and we will act on the issue.
    I would like to yield to Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman.
    It is an interesting issue. I am surprised that there isn't 
a constitutional problem with that kind of requirement, as they 
have in other cities. Maybe there is not.

                    reasons people move from cities

    But Mr. Moran made a statement which I happened to agree 
with. When we take a look at a lot of different inner cities--
Los Angeles, Chicago, New York--a lot of times people flee out 
of the area because the schools have declined. And the crime 
and drugs also forces businesses out, which forces your jobs 
out, which means that there are more crimes and more poverty. 
And that is a self-contained system that I think we have tried 
to eliminate in the welfare reform bill. But let me speak to a 
couple of things that I think can help.

                         special education plan

    I sat as chairman on the K through 12 education two 
Congresses ago, and I puffed out my chest when the President 
signed the plan for special education. But I did that in 
parentheses because--I don't know if you have ever tried to 
take two cats that don't like each other and put them in a hot 
car together. That is kind of like it was, taking the parent 
groups and the school groups together to try to bring together 
a compromise to get through a special education bill.
    We know that special education costs the schools too much. 
The problem is that every day a parent, thinks they are going 
to have a little homecoming queen or a football star or 
academic champion, all of a sudden is forced into a situation 
where their child is physically or mentally handicapped. And 
that is a very emotional thing.

                    special education--attorney fees

    The special education issue is very contentious. The intent 
of the bill was for better education. I didn't want lawyers to 
be there whenthe parents met with the school for the first 
time.
    What I wanted is a parent group to come to the school for 
the first time and sit down and talk and say, can you help my 
child without a lawyer, and see if they could work it out. But, 
unfortunately, that doesn't work. And I found out since we 
signed the bill that the lawyers are presigning them up with 
the activists and circumventing the whole issue. I don't know 
how we can help you, but it is not just your problem, it is a 
national problem.
    Mayor Barry. We all want the best education for our 
children, regardless of their condition. But after the 
evaluation, after the 50th day, on the 51st day they are lined 
up at the door requiring the expenditure of thousands of 
dollars in legal fees----
    Mr. Cunningham. And they usually sue for five or six items, 
and they usually only qualify for one. I understand.
    Ms. Cropp. They go to the school. They are waiting outside 
of the school.

            21st century classrooms act--upgrading computers

    Mr. Cunningham. I know. There is an area where I think you 
can help yourself. I also puffed up my chest--the President 
signed in his budget the 21st Century Classrooms Act which 
allows businesses to give computers to the school.
    But what we do in California, we use a nonprofit; and it 
serves two purposes. The business gets a tax break. The school 
computers go to Detweiler. They use the prison labor to upgrade 
those computers, so it teaches the inmates a skill, and then 
the school receives that computer ready to plug in.
    I understand that you have a problem with the 
infrastructure, the wiring and the cables. That is something to 
look at. We have the Detweiler program now in 29 States, and it 
is working well, and it will enable us to give upgraded 
computers. I am trying to get California on a rotational system 
where business turns it over every 2 years so we keep upgraded 
computers in our school system. That might be something that 
you want to look at for your schools.

                   davis-bacon--steals from children

    Something else I would recommend--maybe in your politics, 
just like Mr. Moran says, you can't do this. But Davis-Bacon 
steals from our children. Here is my wallet. Without Davis-
Bacon, there is 35 percent more money in there for your schools 
to build them and repair buildings. I think you would grab it. 
If I offered you two wallets, one with 35 percent more and one 
with 35 percent less, if you can help us waive Davis-Bacon just 
for school construction you get the wallet with 35 percent 
more. That will help. The unions will hate it and fight us.

                         offer to visit schools

    I will help you. I live right down on the waterfront. I 
offered in the past to visit your schools, and I have yet to 
get a single request to do so. My wife is a principal. I was a 
teacher in high school and college and a dean of a college, and 
I would love to go into those schools and sit with the 
children.
    Let me empathize a little bit. And I say the $10,000 per 
capita, when you have a system that you are building from the 
ground up, you need a certain amount of money. But when you 
have a system that you have to tear down and build up, you may 
need a little more money, if you understand what I mean, 
because of the neglect. Not a lack of investment, but a lack of 
wise investment. It is the same reason why we have a concern 
about putting brand new computers in without trained people to 
use them. They are going to sit there, and they are not going 
to bring the productivity and the better investment. I think we 
have come a long way in the last 2 years.

                         training and computers

    Mr. Brimmer. May I say quickly, the funding says computers, 
but it also includes training. A substantial part of all of the 
management reform expenditures we are making reflects 
accumulations of human capital and training.
    Mr. Cunningham. Let me say two things. One, if I hire 
somebody, I am going to make sure that they are computer 
literate so I don't have to make that investment.
    Secondly, I supported Eisenhower grants to bring teachers 
up to a higher level. Because if I want a teacher to teach a 
child in the 21st century, she can't teach at her present 
level. But my wife does it on her own nickel. She says I want 
to be more professional, so there is a curve there also.
    Mr. Brimmer. Aside from the physical infrastructure is 
training the teachers. So we are supplying substantial detail.
    Mr. Cunningham. My time has run out, but one of the issues 
before the Senate right now, which I saw in the papers, is, in 
some ways, unfortunate, the tobacco legislation. We see it as 
an increase in tax and making trial lawyers rich.

                  drug and smoke-free zones in schools

    But is the school system--Mayor Barry, are you doing things 
to make sure that you have tobacco--I see young kids smoking 
around the schools. I don't smoke. My family doesn't smoke. You 
don't smoke in my house or car. I believe in the right to smoke 
but not in the schools or around kids.
    Are they doing anything for drugs and tobacco, and I 
include tobacco as a drug, in those free zones? If we want to 
focus as a nation on things, I remember when we used to throw 
papers out as a kid. The country was shrouded with paper. Now 
you throw a piece of paper out, and I bet somebody is going to 
honk their horn and scream an obscenity. It is an attitude 
change.
    I would like to see the schools focus on drug and smoke-
free zones, and I include tobacco. I don't want tobacco ads or 
alcohol ads that focus on kids.
    Ms. Cropp. We have legislation before the Council now--and, 
in fact, I introduced one piece of it that deals with that 
issue that you are talking about. We hope to have hearings 
fairly soon, and we are working with children's groups and with 
the schools in order to get the appropriate information. We 
have had a lot of research done on that, and we hope that the 
legislation will be passed fairly soon.
    Mr. Cunningham. I thank the Chairman.
    Mayor Barry. Just yesterday I was at a press conference in 
southeast Washington where the community had gotten the 
majority of merchants to voluntarily agree not to sell 
cigarettes to anybody and cigarette papers and other things, 
butts of cigars that they make cigarettes out of, and we 
launched a major campaign last fall against smoking among 
teenagers.
    Also, we have a moratorium on certain classes of liquor 
licenses. We have tried to stop the proliferation of Class B 
licenses.
    Mr. Cunningham. The San Diego Chargers talk to kids at 
every event about staying away from drugs and smoking to the 
sports athletes--and not just the sports athletes but the 
academic athletes as well. I support those kinds of programs 
that go into the schools, because kids listen to them better 
than they listen to their parents. I know that with my own two 
daughters.
    Ms. Cropp. Teenagers are God's way of helping us let go of 
our children.

            1,330 increase in number of employees in fy 1999

    Mr. Taylor. It is my understanding that the District 
continues to employ far more employees per capita than any 
other city or county and State in the Nation. We have 30,000 
more or less. And, in fact, our numbers show that most of the 
reductions have been as a result of transferring functions to 
the Federal taxpayer or off-budget to enterprise funds. I am 
astounded that the District's population is dropping and you 
come to us with a request to increase city employees by 1,300. 
How can you bring that before us?
    Ms. Cropp. We will do a tag team here.
    The D.C. public schools--in the Mayor's testimony, he 
talked about the significant increase in the schools, $81 
million. A lot of it is court mandated, and what you will see 
is a herculean share of the increased positions being in the 
schools, and we don't have choices, to some extent, to that.
    I would like to also state the Mayor has also suggested in 
his testimony that we have reduced--and I think Dr. Brimmer 
also, that we have reduced our work force significantly over 
the past several years. We are now trying to readjust that and 
make sure that we have the appropriate workers in the 
appropriate areas.

      disproportionate increase in school population and employees

    Mr. Taylor. If I am correct, the city population from last 
year is 248 increase and the increase in employees is 1,330, so 
the great proportion is not inside the schools, although we 
could get into that. What we seem to have is a bottomless pit, 
and I haven't broken those down, but still it is a small 
percentage increase in the number of students.
    Ms. Cropp. Most of it is going into special education for 
the schools; and, in fact, the school system is reducing the 
number of administrators.
    Mr. Taylor. 248. I don't know how that----
    Mayor Barry. I respectfully disagree with you on the 
numbers about per capita. I have seen some studies, and I don't 
know where they are now, but if you take Baltimore, take all of 
the functions that the City of Baltimore, take all of the help 
that the county gives, add the State, and you find that you 
will find more people per capita for the City of Baltimore than 
you do in Alexandria or Richmond.
    So just take those raw numbers without looking at----

  police officers per capita (see report on pp. 846-847, this volume)

    Also, I can refer you to a study that the Greater 
Washington Research Center did, and I can give it to your 
Committee staff tomorrow, but it talks about the level of 
employees per capita compared to other places, and the only 
area that we are really down in is police. We have almost four 
times the police officers per capita than any other city in 
America. Almost seven police officers per 1,000 people.

                    employees--increase for schools

    More importantly, if you look at the budget, the actual 
employees in the city schools are 9,374, and we are asking for 
10,000 for the school. So if you look, the school asked for a 
thousand more people. I think the basic premise is wrong. It 
really is.
    Ms. Cropp. But the thousand--the people that the schools 
are asking is mandated. So, in many instances, we don't have 
the choice with regard to increasing the budget actually. It is 
court mandated.

               employees increase for corporation counsel

    Mr. Taylor. The 232 employees that you are adding to the 
Office of the Corporation Counsel, that sounds excessive, and 
that has nothing to do with the schools nor is it court 
mandated. I could go through and break it down more, but what 
about----
    You have a declining population. The Mayor and I were 
talking about the city and county functions. We could also get 
into questions of the maintenance of that 41 percent Federal 
property. Those employees are paid for by the Federal 
Government, and so there are a lot of people working here in 
form and functions that most cities do not have.
    But without getting into the particulars, can't we make 
further reductions rather than adding? If we get in and look at 
the schools and put those aside for a moment, can we not go 
down in the number of overall city employees?
    Mayor Barry. A major part of the increase is transferring 
the child support function. There are over 130 positions where 
the Corporation Counsel this year is administering the child 
support function in the District, as in Texas, and you will 
find that the great majority of those increases are transfers 
from the Department of Housing.
    Mr. Taylor. There is still an increase in employment, but 
we will be glad to----
    Mayor Barry. It is the FTEs.
    Mr. Taylor. I would love to have any defense you have and 
here again spend a little time on it, because it is going to be 
hard for us to increase employment, especially after this 
enormous amount of burden that the Federal taxpayer has taken 
over for the city in the Revitalization Act.
    Ms. Cropp. Mr. Chairman, if you have issues like that such 
as the Mayor pointed out where there were transfers, contact us 
and let us know.

                         contracting out costs

    Let me tell you another place where you may see some 
increase in our employment. I am trying to remember from a 
couple of years ago when we had the ceiling that was imposed on 
us and we had to do some contracting out. What we found out was 
that, in some instances, it actually ended up costing us more 
dollars in the long run where, as we reduced our number of 
employees, not all, but in some areas it ended up costing us 
more money, and we were forced to reduce our employees, and I 
could share with you some of that.
    So you may see instances where we may have increased 
employees, but in doing that it makes it more cost-effectivefor 
the District to run the government and, overall, it is much cheaper. So 
I would ask for that opportunity to share that also.
    Mayor Barry. Those specific budgetary increase kinds of 
questions, would you submit questions and we will do the 
research?
    Mr. Taylor. Sure. We will operate with the best facts. I 
would like to end since we are probably going to have another 
vote.
    Mr. Dixon, do you have any questions?
    Mr. Dixon. Thank you very much.
    I don't have any questions; but, in listening to the 
conversations, it doesn't seem that I missed anything. These 
discussions have been going on for 18-20 years. The lines of 
questions and the line of responses seem to be just about the 
same.

       salary overpayments--executive director and legal counsel

    Let me ask, Mr. Chairman, I did read with interest the GAO 
letter and report on the salaries, and although I wasn't here 
for Dr. Brimmer's testimony, he was kind enough to send it to 
me, and I have read it. The staff tells me that you intend to 
have a special hearing on that issue, and so I don't have any 
questions today. Is that correct?
    Mr. Taylor. Yes. We would like to go into that some and ask 
the counsel from the committee and GAO.
    Mr. Dixon. So we will have a hearing on that issue?
    Mr. Taylor. It may be just bringing in all of the members 
of the committee rather than a public hearing, but we would 
like to get to the bottom of the legalese.
    Mr. Dixon. I suspect that there is more to this than the 
GAO report and more to this than the response, and I think we 
have to get to the bottom of it.
    Mr. Taylor. Thank you.
    Congressman Moran.

               special education--rip-off of 50-day rule

    Mr. Moran. Let me say that this 50-day rule on special ed; 
it is a rip-off. People are gaining from the system. If you are 
living in the District of Columbia, middle or upper class, and 
you claim that your child is in some way challenged, you know 
that the D.C. government doesn't have the ability to review it 
within 50 days. So you end up sending them to a very expensive 
school at public expense. They are getting away with it, and it 
should not be done. It is depriving the other children of 
needed resources. The stupid 50-day requirement----
    Ms. Cropp. We changed that. We passed emergency 
legislation.
    Mr. Moran. So it is now 120 days which is uniform with the 
rest of us?
    Ms. Cropp. Yes.
    Mr. Moran. Good.

                       tax and regulatory changes

    The other thing that I hope that you can get through are 
these tax and regulatory changes. I understand that a lot of 
them have bogged down at the D.C. Council level, is that true? 
The recommendations that were made on the professional license 
tax, the unincorporated business tax, corporate franchise?
    Mr. Brimmer. Those are recommendations. You might recall 
that Congress mandated that the control board--
    Mr. Moran. We wanted you to do more than just look at them.
    Mr. Brimmer. There were a number of orders and 
recommendations that were made. The Council Chair and I were 
discussing that.
    Ms. Cropp. They were in the document that I passed out to 
the committee. The Council is reviewing it. We wanted to wait 
until we got the report of the tax revision commission. We had 
a hearing last week, and they just reported back to us, and we 
wanted them to have an opportunity to make their 
recommendations.
    Mr. Moran. That bolsters your case substantially. Because, 
right now, as you know, D.C. is so uncompetitive when 
businesses are trying to decide where to go, given the tax 
situation.

       medical malpractice issues (see pp. 898-966, this volume)

    The last thing, I hope you look at some of the medical 
malpractice issues. There are other ways to deal with it. For 
example, we have a Federal liability scheme that you may be 
able to employ. There is virtually no OB-GYNs in the 
neighborhoods that need them the most, and that is not fair to 
the citizens.
    I don't want to get into issues that will prolong the 
hearing, because we do have a vote.
    Mr. Taylor. Thank you very much.
    Mr. Brimmer. Thank you.
    Mr. Taylor. We may have you back or we may personally 
correspond with you.
    The hearing is adjourned.
                                          Wednesday, June 24, 1998.

                          D.C. PUBLIC SCHOOLS

                   (INCLUDING PUBLIC CHARTER SCHOOLS)

                               WITNESSES

MAUDINE R. COOPER, CHAIR, EMERGENCY TRANSITIONAL EDUCATION BOARD OF 
    TRUSTEES
WILMA HARVEY, PRESIDENT, D.C. BOARD OF EDUCATION
ARLENE ACKERMAN, SUPERINTENDENT, D.C. PUBLIC SCHOOLS
JOSEPHINE C. BAKER, CHAIRPERSON, D.C. PUBLIC CHARTER SCHOOL BOARD

                     U.S. GENERAL ACCOUNTING OFFICE

GLORIA L. JARMAN, DIRECTOR, HEALTH, EDUCATION, AND HUMAN SERVICES 
    ACCOUNTING AND FINANCIAL MANAGEMENT ISSUES; ACCOUNTING AND 
    INFORMATION MANAGEMENT DIVISION

               Opening Remarks of Congressman Cunningham

    Mr. Cunningham [presiding]. Good morning. I'm Duke 
Cunningham. For the second year that I have been on the 
committee, the chairman has allowed me to chair the education 
issues in Committee. I was a former teacher in high school and 
a coach. I was a teacher and coach in the college level, and I 
was dean of a college. My wife, who has her doctorate degree in 
education, is an elementary school principal of two different 
schools. So you can imagine what workload she has. My sister-
in-law has just been named a principal in a special education 
school. So we have got education in our family throughout, and 
it is a personal interest of mine and has been for a long time.
    I think, not just in D.C. but across the country, if you 
want to take over a business, instead of taking over a good 
business, if you can take over a business that was not doing 
well and make it a good business, then I think you can really 
make your mark. And I think that that is what all of us are 
trying to do here is restore a school system. Let me say first, 
I have been through D.C. and I have seen some very good 
teachers. I have seen some very good schools. But if you look 
across the country and overall, I think we would all agree that 
we would not give our school system an ``A.'' And I think that 
that is the only direction that we can go is give our schools 
an ``A.''
    We have got a lot of testimony today. We have got not only 
education, but corrections, public safety, and on down the 
line.

               increase of $85 million for public schools

    The D.C. school budget request for $545 million for fiscal 
year 1999 is an $85 million increase over fiscal year 1998. So 
three-quarters of the increase, or $69 million, is identified 
as mandatory increases, the result of court orders and mandates 
for special education.

                  special education and attorney fees

    Now, when I was K through 12 chairman on the Education 
Committee--I do not know if you have ever tried to bring a 
Siamese and a Persian cat together, but that is what it was 
like trying to bring together parents of special education 
children and the schools. It was a very difficult bill to get 
through. And where both sides were not completely happy, we got 
a bill through that we thought was an improvement. It lacked 
some of the improvements that the schools wanted. We found also 
that the lawyers are trying to circumvent the system, in many 
cases costing the schools, not just in D.C. but across the 
country, too much money that should be given to other children. 
We are going to try and fix that too.

                             children first

    We have got to put children first. That is more than just a 
statement. Your commitment shows that you do. And I would hope 
that throughout the year that we can get more of our colleagues 
and allies to put away the politics and sit down and take a 
look and say, ``What is really good for each individual child 
within the school system?'' Because they are all different. I 
have got three children and I guarantee you they are different 
critters. Each and everyone of them. [Laughter.]

                        test score improvements

    The good news is that D.C. school children are scoring 
better on the Stanford 9 standardization reading and math 
tests. That is fantastic. When you take a look at the move and 
the general direction that the city is making itself, and then 
the education system, any positive move, that is good and you 
can take credit for that. But we have got a long way to go. I 
think all of you agree with that.

                      public/private partnerships

    One of the recommendations that I would wish you would take 
a look at, the President signed the bill that I put forward. 
It's called the 21st Century Classroom Act. And what that does 
is encourage some businesses to donate more quality computers 
to schools. But, in some cases, when a school got a donated 
computer, it didn't have the right software. It may be a 
computer from a bank. The teachers and the professional people 
did not know how to upgrade them. So they basically sat in a 
corner, useless. What we do in California and 29 other States, 
we give it to a nonprofit organization called Detweiler. 
Detweiler takes the computer from business. It has to be within 
two years old. They then let prison labor upgrade it, which 
teaches the prisoners a skill so that maybe they are not going 
to end up back there in the prison. And then they upgrade those 
computers with the software ready to plug into the school. Now 
the business gets an expanded tax break. So it is a benefit. 
You teach the prisoners. And then the school gets a computer 
ready to use, upgraded for that year. And we are trying to get 
California schools and businesses on a two year cycle, all 
businesses. So that that way we have upgraded computers in our 
school system from private sources. And it has been a big 
success. And it is one area in which I think you can take a 
look at.

       president vetoed scholarship act favored by d.c. residents

    Last month, the President vetoed legislation that would 
have given many school children real hope, The D.C. Opportunity 
Scholarships Act. The day after the President's veto, the 
Washington Post published a poll indicating that D.C. citizens 
supported these opportunity scholarships by a 56-to-36 margin, 
and especially the African-American community which supported 
it 2 to 1. And these are scholarships for children that if you 
have a child in an area that just has no hope in that school, 
then as a parent you want that child out of that area. Last 
October, the Washington Scholarship Fund did announce monies 
available, $1,000 scholarships for children of low-income 
families. The Fund received applications from 7,573 children. 
So there is a need out there and I think that when we take a 
look at whether you support vouchers or what, there are some 
children in areas that we need to reach out to and help.

                    charter schools--budget not fair

    I think the budget does not treat the charter school 
students fairly and equally. You may want to take a look at 
that. It has been a big success in California where I am from, 
and supported by the Governor.

                    special education--attorney fees

    We want to make a real difference. But that difference, 
especially in special education, again, should take the money 
out of the lawyers' pockets and put it into the schools' 
pockets.

               davis-bacon--waiver would save 35 percent

    Let me give you a couple of other examples in which I think 
we can save money, and where I am talking about where people 
really put children first instead of politics. For school 
construction, you can save 35 percent in school construction if 
we can waive Davis Bacon. Now, it is a big union issue. It is a 
powerful issue. But if we really want to focus on the children, 
here is a chance. I am not asking the unions to waive Davis 
Bacon across the United States. I am talking about D.C. 
schools, just for the construction and maintenance of our 
schools systems that are over 60 years old. If I was going to 
offer you 35 percent more money for your grocery bill or to go 
to Nordstroms, I think you are going to take it. And I think 
that we can do the same thing for our children.

                     electrical power deregulation

    With respect to electrical power needs, by putting those 
out to bid, we can save money and be very successful. And I 
think it is supported by many of you. It has been estimated we 
can save up to $2 million in that. And that money would go into 
the school system.
    So I am here to listen to your ideas, and to offer some 
ideas that we have found in different school districts that can 
help. We call it D.C. Power for Children, and I think we all 
support that as well.
    I see Mr. Moran is not here yet, but when he comes, I will 
ask if he would like to make a statement.

               electricity pilot program for d.c. schools

    At this time, I would like to enter into the record this 
D.C. Power for Children information and you'll get copies if 
you would like.
    [The material referred to follows:]

[The official Commmittee record contains additional material here.]


DC Power for the Children: Selected Congressional Testimony From School 
   Administrators Showing How Choice for Power Works Well and Saves 
                Schools Money, House Commerce Committee
                    statement of michael vanairsdale
    Mr. Vanairsdale. Yes sir.
    Mr. Chairman, members of the subcommittee, my name is Mike 
Vanairsdale, I am the Assistant Superintendent for Support Services for 
Fulton County Schools. I am pleased to be here today to represent the 
American Association of School Administrators and school districts 
across the country who believe that deregulation of the electric 
utility will allow them to spend more money in the classroom and less 
on electricity.
    Please allow me to give you a brief overview of the average school 
district's budget. The largest line item in the budget is personnel--
the people who teach the students, feed the students, get the students 
to and from school, maintain school facilities, coordinate all these 
activities. Public school personnel are called upon to do a lot of 
things and consequently their salaries and benefits consume a large 
portion of our budgets.
    The second largest budget item, right after personnel, is utility 
costs, primarily electricity. That is why we are interested in 
deregulation. Electricity is a significant expense for us, there is 
real money to be saved. In fiscal year 1998, my school system will 
spend approximately $9.5 million on utilities. Approximately 70 
percent, or $6.5 million of that will be spent on electricity. If we 
could save only 15 percent each year as a result of deregulation and 
the ensuing competition for our business, that would mean nearly $1 
millionthat could be spent in the classroom to help kids, rather than 
on electricity. A million dollars would provide salaries and benefits 
for 20 teachers in Fulton County schools. And because of our size, my 
system's bill is relatively low. In Chicago, a city I understand you 
will be visiting next month, public schools spend approximately $40 
million every year on electricity. A 15 percent savings for them would 
mean $6 million each year they could spend on programs to help their 
students.
    Mr. Chairman, certainly you can do the math, but allow me to 
provide you some additional data. Nationwide kindergarten through 12 
public schools spend about $42.5 billion each year on electricity. If 
we could save 15 percent each year through deregulation, the result 
would be a nationwide savings of more than $635 million, which local 
districts would be able to spend to address classroom needs.
    In Georgia, because of the Georgia Territorial Electrical Services 
Act of 1973, utilities compete for the business of new schools as they 
come on line. To demonstrate the savings that competition can provide, 
let me give you a comparison between recent rates recorded under this 
limited competition and our average rates of Fulton County Schools. Our 
lowest rate on an elementary school we opened last fall is about 3.5 
cents per kilowatt hour, while our average rate is about 7.5 cents per 
kilowatt hour. The highest rate we pay, among seven different 
suppliers, is almost 10 cents per kilowatt hour. As you can see, even 
this limited competition results in significant savings as we bring 
these schools on line. Furthermore, we have not encountered reliability 
problems, as I have heard used as a barrier to competition.
    A second obstacle mentioned is the assertion that no one will want 
to market to schools and other small consumers. I have found the 
opposite to be true. As I mentioned, we are served by seven suppliers. 
Further more, as I understand the situation, utilities and power 
marketers, including giants like the Southern Company, Enron and 
UtiliCorp are actively marketing themselves to secure the business of 
school districts even though competition is currently allowed only in a 
few States. As I stated earlier, school districts nationwide use more 
than $4 billion in electricity annually, so I am not concerned that we 
will be left out.
    But Mr. Chairman, we will not see these savings or opportunities 
nationwide without Federal action. As I mentioned, right now in 
Georgia, schools enjoy a small degree of competition for their 
business, however, most of my colleagues across the country cannot shop 
around and find out who will give them the best deal on their 
electricity. School districts can buy everything from chalk to school 
buses to natural gas competitively, but not electricity. And based on 
my understanding of the issue, without Federal action, including a date 
certain for competition to begin, it will never come.
    Mr. Chairman, I spent 26 years in the United States Army before 
retiring as a Colonel last July. One of my responsibilities was to 
develop efficient means to save money and them implement those plans. 
Now, as an assistant superintendent for support services for Fulton 
County Schools, I do the same thing. But, I cannot implement savings on 
electricity without your help. I believe that if we leave the decision 
about whether to implement competition to theStates. Many or my 
colleagues around the country will never be able to take advantage of 
the opportunities that competition offer. But, with Federal 
legislation, I believe deregulation can be implemented in a way that 
benefits all customers.
    In closing, I am reminded of a remark that Willie Sutton once made 
when asked why he robbed banks. Sutton responded that he robbed banks 
because that is where the money is. As someone who is charged with 
saving my school system money, I need to look for where they money is. 
In my area, that money is in high utility costs. We could be spending 
the money saved on kids and not on electricity.
    Again, Mr. Chairman, thank you for inviting me to appear before 
your subcommittee. If I can be of further service, please do not 
hesitate to call on me.
    [The prepared statement of Michael Vanairsdale follows:]
Prepared Statement of Michael Vanairsdale, Assistant Superintendent for 
           Support Services, Fulton County Board of Education
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to represent The American Association of School 
Administrators and school districts across the country who believe that 
deregulation of the electric utility industry will allow them to spend 
more money in the classroom and less on electricity.
    Please allow me to give you a brief overview of the average school 
district's budget. The largest line item in that budget is personnel--
the people who teach the students, feed the students, help keep the 
students healthy while they are at school, provide services to the 
students, get the students to and from school, maintain school 
facilities, and coordinate all these activities. Public school 
personnel are called upon to do a lot of things, and consequently their 
salaries and benefits consume a large portion of our budgets.
    The second largest budget item, right after personnel, is utility 
expenses, primarily electricity. That is why we are interested in 
deregulation--electricity is a significant expense for us--there is 
real money to be saved. In fiscal year 1998, my school system will 
spent approximately $9.5 million on utilities. Approximately 70 
percent, or $6.5 million of that will be spent on electricity. If we 
could save 15 percent each year as a result of deregulation and the 
ensuing competition for our business, that would mean nearly $1 million 
dollars that could be spent in the classroom, to help kids--rather than 
on electricity. In Fulton County, a million dollars would provide 
salary and benefits for 20 additional teachers. And, because of our 
size, my system's bill is relatively low. In Chicago, a city I 
understand you will be visiting next month, the public schools spend 
approximately $40 million every year on electricity. A 15 percent 
savings for them would mean $6 million dollars each year that they 
could spend on programs to help their students.
    Mr. Chairman, certainly you can do the math, but allow me to 
provide you additional data. Nationwide K-12 public schools spend about 
$4.25 billion each year on electricity. If we could save 15 percent 
each year through deregulation the result would be a nationwide savings 
of more than $635 million annually which local districts would be able 
to spend to address their classroom needs.
    In Georgia, because of the Georgia Territorial Electrical Services 
Act of 1973, utilities compete for the business of new schools when 
they come on line. To demonstrate the savings that competition can 
provide, let me give a comparison between recent rates recorded under 
this limited competition and our average rates. Our lowest rate on a 
school we opened last fall is about 3\1/2\ cents per kilowatt hour 
while our average rate is about 7\1/2\ cents per kilowatt hour. The 
highest rate we pay--among 7 suppliers--is almost 10 cents a kilowatt 
hour. As you can see, even this limited competition has resulted in 
significant savings as we bring on new schools. Furthermore, we believe 
this competition results in better service; we have not encountered 
``reliability problems'' as I have heard used as a barrier to 
competition.
    A second ``obstacle'' to competition that I have heard is the 
assertion that no one will want to market to schools and other small 
consumers. I have found the opposite to be true. As I mentioned, we now 
receive service from seven suppliers. Furthermore, as I understand the 
situation, utilities and power marketers, including giants like 
Southern Company, Enron, and UtiliCorp are activity marketing 
themselves to secure the business of school districts even though 
competition is currently alloweddegree of competition for their 
business, however, most of my colleagues around the country can't shop 
around and find out who will give them the best deal on electricity. 
School districts can buy everything from chalk to school buses to 
natural gas competitively, but not electricity. And, based on my 
understanding of the issue and my experience working in this area, 
without federal action including a date certain for competition to 
begin, it will never come.
    Mr. Chairman, I spent 26 years in the United States Army before 
retiring as a Colonel last July. One of my responsibilities was to 
develop efficient means to save money and then implement these plans. 
Now, as an assistant superintendent for support services for Fulton 
County Public Schools, I do the same thing. But, I cannot implement 
savings on electricity without your help. I believe that if we leave 
the decision about whether to implement competition to the states, many 
of my colleagues around the country will never be able to take 
advantage of the opportunities competition offers. But, with federal 
legislation that includes a date for competition to begin, I believe 
deregulation can be implemented in a way that benefits all customers.
    In closing, I am reminded of a remark that Willie Sutton once made 
when asked why he robbed banks. Sutton responded that he robbed banks 
because that's where the money is. As someone who is charged with 
saving my school system money, I need to look for those savings where 
the money is. In my area the money is in high utility costs. We could 
be spending the money saved on kids and not on electricity. Again, Mr. 
Chairman, thank you for inviting me to appear before your 
subcommittees. If I can be of further service, please do not hesitate 
to call on me.

    Mr. Schaefer. Thank you very much, Mr. Vanarisdale. Mr. Smith.
                     statement of charles d. duffy
    Mr. Duffy. Mr. Chairman, Chairman Bliley, Representative Crapo and 
members of the subcommittee, I am pleased to be here today to represent 
the American Association of School Administrators and school districts 
across the country who believe that deregulation of the electric 
utility industry will allow them to spend more money in the classroom 
and less on electricity.
    I am the executive director of an educational service agency in 
West Virginia. Basically, educational service agencies, or ESAs, asthey 
are commonly called, provide services and take advantage of economies 
of scale for groups of school districts. My agency provides services 
and educational experience to eight school districts in West Virginia.
    As you know, electricity is the largest nonlabor item in most 
school system budgets. In fact, utility costs are generally the second 
largest item in the average school budget. That is why school 
superintendents and educational service agency directors like me are 
interested in deregulation. Electricity is a significant expense for 
us. And we believe that there is real money to be saved.
    In fiscal year 1996, the eight school districts that I represent 
spent over $3 million on electricity. Three million dollars may not 
seem like much for eight districts, but if you could save just 15 per 
cent as a result of deregulation, it would be nearly a half million 
dollars we could spend on students instead of electric bills. For small 
districts like ours, that would mean enough money to buy 21 new 
computers for each of our 16 high schools and help give the students 
the technological skills that they need in the workplace. Or a half 
million dollars would be enough for us to hire at least 12 additional 
teachers. And the examples I am offering you are just 1 year's savings.
    Fairfax County Public Schools in the northern part of Virginia 
spends about $30 million each year on electricity. Therefore, a 15 
percent savings would mean $4.5 million each year to spend in their 
classrooms rather than on electricity. Fairfax County is about to 
embark on an ambitious capital improvement plan to accommodate their 
increasing enrollment and aging buildings. I am sure that $4.5 million 
extra, each year, could be an important tool for solving these 
problems.
    Here around Richmond, the Richmond and Henrico public schools spend 
more than $5 million a year on electricity. A 15 percent savings would 
give these two school systems more than $750,000 each year to spend on 
the students from this area rather than on electricity.
    Mr. Chairman, I know that you are aware of this, but allow me to 
provide the subcommittee a little additional information. Nationwide, 
K-12 public schools spend about $4.25 billion each year on electricity. 
That is more than the Federal Government, Chairman Bliley. A 15 percent 
savings as a result of deregulation would mean a nationwide annual 
savings of more than $635 million, which local districts would be able 
to spend in their classrooms rather than on their electric bills.
    There is some concern that under deregulation no one will want to 
sell power to schools because we have an unusual load factor. We use 
electricity at unusual times compared to normal electric load. I do not 
believe that this will be the case. Right now, with competition 
existing in only a few States, utilities and power marketers are 
already actively courting the business of schools. As I said earlier, 
the school systems nationwide use more than $4 billion in electricity 
annually, so I don't think that we will be overlooked.
    But, Mr. Chairman, without Federal action, most school systems will 
never be able to take advantage of the savings that deregulation 
offers. Right now, school districts can join together and pay forthings 
like pencils and paper, to computers, cooperatively to save money, but 
we can't do that with electricity.
    My job, and the job of other ESA directors, is to provide 
efficiency and savings to the school districts I represent. But we 
cannot achieve savings on electricity without your help. We should be 
spending money on kids and not on electricity.
    Again, Mr. Chairman, it has been my honor and a pleasure to appear 
before your subcommittee. If I can be of further service, please do not 
hesitate to call on me.
    [The prepared statement of Charles D. Duffy follows:]
 Prepared Statement of Charles D. Duffy, Executive Director, Regional 
                         Education Agency VIII
    Mr. Chairman, and members of the subcommittee, I am pleased to be 
here today to represent The American Association of School 
Administrators and school districts across the country who believe that 
deregulation of the electric utility industry will allow them to spend 
more money in the classroom and less on electricity.
    I am the executive director of an educational service agency in 
West Virginia. Basically, educational service agencies, or ESA's as 
they are commonly called, provided services and take advantage of 
economies of scale for groups of school districts. My agency provides 
services and educational expertise to eight school districts in West 
Virginia.
    As you know, electricity is the largest non-labor items in most 
school system budgets. In fact, utility costs are generally the second 
largest item in the average school budget. That is why school 
superintendents and education service agency directors like me are 
interested in deregulation--electricity is a significant expense for 
us--and we believe that there is real money to be saved.
    In fiscal year 1996, the eight school districts I represent spent 
over $3 million on electricity. Three million may not seem like much 
for eight districts, but if we could save just 15 percent as a result 
of deregulation, it would be nearly a half-million dollars we could 
spend on students instead of our electric bills. For small districts 
such as ours, that would mean enough money to buy 21 new computers for 
each of our 16 high schools and help give the students the 
technological skills they will need in the workplace. Or, a half 
million would be enough for us to hire at least 12 additional teachers. 
And, the examples I am offering you are from just one year's savings.
    Fairfax County Public Schools in the northern part of Virginia 
spends about $30 million each year on electricity, therefore a 15 
percent savings would mean $4\1/2\ million each year to spend in their 
classrooms rather than on electricity. Fairfax County is about to 
embark on an ambitious capital improvement plan to accommodate their 
increasing enrollment and aging buildings. I am sure that $4\1/2\ 
million extra--each year--could be an important tool for solving these 
problems.
    Here around Richmond, the Richmond and Henrico public schools spend 
more than $5 million each year on electricity. A 15 percent savings 
would give these two school systems more than $750,000 each year to 
spend on the students from this area rather than on electricity.
    Mr. Chairman, I know that you are aware of this, but allow me to 
provide the subcommittee a little additional information. Nationwide, 
K-12 public schools spend about $4.25 billion each year on electricity. 
A 15 percent savings as a result of deregulation would mean a 
nationwide annual savings of more than $635 million, which local 
districts would be able to spend in their classrooms rather than on 
their electric bills.
    There is some concern that under deregulation no one will want to 
sell power to schools because we have an unusual load factor--we use 
electricity at unusual times compared to the normal electric load. I 
don't believe that this will be the case. Right now, with competition 
existing in only a few states, utilities and power marketers are 
already actively courting the business of schools. As I said earlier, 
school systems nationwide use more than $4 billion in electricity 
annually, so don't think we will be overlooked.
    But, Mr. Chairman, without federal action most school systems will 
never be able to take advantage of the savings that deregulation 
offers. Right now, school districts can join together and pay for 
everything from pencils to personnel cooperatively to save money, but 
we can't do that with electricity.
    My job--and the job of other ESA directors--is the provide 
efficiency and savings to the school districts I represent. But, we 
cannot achieve savings on electricity without your help. We should be 
spending money on kids and not on electricity.
    Again, Mr. Chairman, it has been an honor and a pleasure to appear 
before your subcommittee. If I can be of further service, please do not 
hesitate to call on me.
    Mr. Schaefer. The Chairman thanks the gentleman very much for his 
testimony. We will now turn to Mr. Lepinsky, who is with the United 
Homeowners Association in Fredericksburg, Virginia.
                    statement of cheryl h. wilhoyte
    Ms. Wilhoyte. Good morning, Chairman Schaefer and honored members 
of the subcommittee.
    I bring you greetings from Madison, Wisconsin, Money Magazine's 
Number 1 city this year and the home of high achieving schools and high 
achieving students.
    I represent the American Association of School Administrators and 
school districts across this country. We believe that customer choice 
of electric power will allow us to spend less on electricity and more 
on improving our classrooms and producing productive citizens for the 
21st Century.
    School superintendents, like other CEOs, seek to improve quality. 
In Congressman Hall's words, that make it good.
    We also seek to lower cost. Again quoting Congressman Hall, cheap. 
We like to maximize our return on investment for not only our taxpaying 
customers, but most importantly, for our student customers.
    We believe customer choice for electric power will lower costs and 
allow us to focus those resources on the classroom, where they belong.
    Electricity is the highest non-labor costs for public schools. It 
takes a lot of money to run schools these days, and children at risk 
are only transformed into children of promise when they have the 
opportunity to excel and the resources to match student needs.
    Superintendents are not just looking for more money. We are 
committed to being quality stewards of the moneys we have. However, 
archaic laws in the electric industry are barriers to our working 
smarter.
    Cooperative and collaborative buying power for electricity is an 
essential win-win for school districts across the country. Right nowI, 
and other superintendents, can purchase just about every service or 
commodity we need in volume. We can take advantage of economies of 
scale and bulk discount. That is everything from pencils to desks, to 
computers, to special services, and even natural gas, but we cannot do 
that with electricity, and that just does not seem right.
    Let's talk a minute in terms of a practical example. Right now a 
school district cannot even aggregate their load. This means a huge 
district like Chicago that uses over $40 million in electricity 
annually pays for each of its 600 schools based on individual usage. 
That is just about as absurd as my telling 46 Madison principals to go 
out and buy 46 school buses one by one instead of having our business 
manager and transportation director buy about 20 buses and share the 
runs between home and school.
    With electricity being our highest non-labor cost, in most school 
district budgets we figure that K-12 public school districts use about 
$4.25 billion annually to buy electricity. If we could save only 15 
percent nationwide, and as I understand it, the pilot programs 
currently underway are generating even greater savings, 15 percent 
savings would yield over $635 million to be returned to today's 
classrooms.
    We could help youngsters read and write and compute and think and 
resolve conflicts and problems at the high standard that we are going 
to need for our 21st Century graduates.
    That sort of savings would mean different things certainly to 
different school systems. In rural West Virginia, my colleague Dr. 
Charlie Duffy estimates that he could save enough in 1 year to outfit 
15 high schools with 21 new computers to help his students become 
technologically literate.
    In Madison, we have success for our goal. It means we leave no 
child behind. We do not accept failure. For us, that savings could mean 
five more reading recovery teachers to teach between 60 and 70 6 to 7 
years olds how to read because increasingly Madison's children are 
poor, and while they once know few letter-sound relationships.
    And while I appreciate the value of volunteers to share a love of 
reading, it takes a highly skilled professional to interrupt 
predictions of school failure and allow those youngsters to become 
successful readers.
    Electric rates in Madison are really not too bad. The most our 
district pays is about 4 cents a kilowatt hour, and we pay a little 
less off peak, and yet here in Chicago, 120 miles away, the school 
system pays an average of 9 cents per kilowatt hour. Their average 
rates are more than double any in Wisconsin.
    Chicago's public schools spend about $40 million annually. If they 
paid what I paid, they could save $20 million a year to redirect 
students services.
    School districts across the country would benefit from choice. 
Savings would perhaps not be a dramatic as they might be in Chicago. If 
we only saves 10 percent in Madison, or $140,000 a year, those reading 
recovery teachers would have a significant impact on our achieving our 
100 percent success rate for our third graders to read above the State 
standard on the third grade reading test.
    There are a number of compelling arguments for Federal action, and 
as Congressman Shimkus reminds us, we are in the Land of Lincoln, so I 
will reference his perspective. Where you stand depends on where you 
sit, and I see public schools everywhere in every State, in every 
community seeking revenues to meet student needs.
    Because my colleagues and I believe Federal legislation is 
necessary to restructure this vital industry, we cannot move schools to 
take advantage of savings in different regions or States. They have got 
to be where the youngsters are. Without Federal action, I do not 
believe the savings will come to all school districts.
    All districts should have this opportunity, and that is why the 
rules and the regulations that you must decide upon must assure the 
equity and fair play much like we do at the play yard at recess each 
day.
    Being our largest non-labor cost, cutting for us is not an issue of 
profit or price. It is quality stewardship in tax dollars that we are 
seeking. It is our students who will profit because we can devote more 
resources to them and less to electric bills.
    In closing I want to share with you that in Madison we judge 
student performance at four levels: emerging, developing, accomplished, 
and exemplary. We are looking to your leadership to develop the 
safeguards and rules that will provide equity of access, reduced costs, 
and good electrical service while helping superintendents work smarter 
and giving us a choice in electric power to be sure that we achieve 
accomplished and exemplary high school graduates.
    We thank you for this opportunity to speak before you, and I wish 
you well in your deliberations on customer choice for electricity.
    [The prepared statement of Cheryl H. Wilhoyte follows:]
   Prepared Statement of Cheryl H. Wilhoyte, Superintendent, Madison 
                      Metropolitan School District
    Mr. Chairman, and members of the subcommittee, I am pleased to be 
here today to represent the American Association of School 
Administrators and school districts across the country who believe that 
deregulation of the electric industry will allow them to spend more 
money on services that help students in the classroom and less on 
electricity.
    Mr. Chairman, superintendents all over the United States are 
interested in deregulation because electricity is a significant cost 
for us. Let me be frank. It takes a lot of money to run schools these 
days--especially in urban districts like mine or Chicago. This is not a 
popular reality, but it is a reality nonetheless. We need resources 
from both the government and the private sector to help us serve the 
diverse student body we are serving today. Our children are children of 
promise if the learning opportunities and resources are available. But, 
we are not only looking for additional resources, we want to spend the 
funds we have now in the most effective way possible but because of 
archaic laws concerning the electric industry, we cannot do that with 
our electrical service.
    Right now, I can, and superintendents across the country can, 
cooperatively purchase just about every service or commodity we use. 
This allows school districts or groups of districts to buy in volume 
and take advantage of economies of scale and bulk discounts. We do this 
with about everything we use, from pencils and desks to special 
services and even natural gas--but we can't do it with electricity.
    In fact, Mr. Chairman, right now most school districts in this 
country can't even aggregate their load within a district. This means a 
hugh district like Chicago that uses about $40 million in electricity 
annually pays for each school based on its individual usage rather than 
the total usage of the more than 600 buildings in the system. If this 
sounds a little absurd, it's because it is. It would be like me telling 
eachof my principals to figure out how many new school buses they need 
each year and to order them independently from all the other schools in 
Madison. Rather than my business officer going to the bus company and 
working out a deal for 15 new buses, there would be 15 principals each 
negotiating a price for one bus. You don't have to be an economist to 
see which way would garner a better price.
    As I mentioned, electricity is a major cost for us. It is the 
largest non-labor item in most school district budgets. Nationwide, K-
12 public school districts use about $4.25 billion annually in 
electricity. If we could save only 15 percent nationwide--and as I 
understand it, the pilot programs currently underway are generating 
savings greater than that--15 percent would give school districts 
nationwide $635 million that they could spend in the classroom to help 
students rather than on electricity.
    Mr. Chairman, these sort of savings would mean different things to 
different school systems. In rural West Virginia, my colleague, Dr. 
Charles Duffy, who I understand you know, estimates that he could save 
enough in one year to outfit each of the 16 high schools he serves with 
21 new computers to help his students become more technologically 
literate.
    In Madison, each year we could hire five more Reading Recovery 
teachers to assure basic literacy competency for 60 more six and seven 
year-olds who have yet to learn to read. Learning and mastering the 
tools of reading are major factors in reducing the dropout rate and 
ensuring a high graduation rate. With over 96 hours of graduate and 
post-graduate study and research in reading and learning disabilities, 
I appreciate the value of volunteers to reinforce and share a love of 
reading and learning. However, it takes highly skilled professionals to 
teach children who are not only coming to school not reading and 
writing, but coming to kindergarten and first grade with few, if any, 
letter-sound relationships. Unfortunately, these skilled professionals 
don't come cheaply.
    My point, Mr. Chairman, is that various school systems across the 
country could be spending money on a variety of proven programs and 
services related to raising student achievement, but right now they are 
spending that money on electricity.
    Frankly, Mr. Chairman, as electric rates in this country go, 
Madison's are not too bad. The most my district pays per kilowatt hour 
is about 4 cents, and we pay less off peak. Here in Chicago, only 120 
miles away, the school system pays an average of 9 cents per kilowatt 
hour. This average rate is more than double my district's highest rate. 
As I said, Chicago public schools spend about $40 million annually--if 
they paid what I pay, that would be more than $20 million dollars--each 
year--that they could spend in their classrooms rather than on their 
electric bills. Twenty million dollars! If that is not an imperative to 
act on this issue, I don't know what is.
    Mr. Chairman, there are school districts across this country that 
would benefit as a result of deregulation. For most, the savings would 
not be as dramatic as they could be for Chicago, but they would save 
money nonetheless. Even if we only saved 10 percent in Madison, that 
would still be more than $140,000 each year that we could spend in the 
classroom rather than on electricity. This is not an insignificant 
amount of money. Five more Reading Recovery teachers would have a 
significant impact on achieving our goal of 100% success for every 
third grader to read above standard on their grade reading test.
    There are a number of compelling arguments for federal action on 
this issue, but as Lincoln once said, ``where you stand depends on 
where you sit'' and from where I sit, I see public schools everywhere, 
in every state, and every community. Because of this, my colleagues and 
I believe that federal legislation is necessary for restructuring this 
vital industry. When people talk about businesses and industry 
relocating to find cheaper power, it reinforces the belief of my 
colleagues that federal action is necessary. We can't move schools to 
take advantage of savings in different regions or states. Schools have 
to be where the students are. Without federal action, I don't think the 
savings will come to all school districts. Power marketers and 
utilities are actively courting the business of schools in states where 
deregulation has taken place. All school districts should be able to 
take advantage of these opportunities.
    Mr. Chairman, as I said, electricity is the largest non-labor item 
in most school district budgets. For us, cutting this cost is not a 
profit or price issue as it is for many other consumers. If we can save 
on electricity, it is our students who will profit because we can 
devote more resources to them and less to our electric bills.
    In Madison, our parent hotline is 608/266-HELP! I hope we can count 
on your help to most effectively realign more of our available dollars 
away from electricity and directly toward improving student and school 
achievement.
    Thank you very much for inviting me to testify before your 
subcommittee. If I can be of further assistance, I hope that you will 
not hesitate to contact me.
    Mr. Schaefer. Thank you very much, Dr. Wilhoyte.
    The next witness, Ms. Drummond.
                        statement of jim jeffrey
    Mr. Jeffrey. Good afternoon. My name is Jim Jeffrey, and I am 
president of Power Ed Corporation in Houston, and I am an elected 
member of the Goose Creek Consolidated Independent School District 
Board of Trustees in Baytown. PowerEd was recently formed to assist 
public schools in obtaining the lowest possible prices for electricity 
through aggregation and power purchase coordination.
    The problems that face our country's school systems, such as 
shrinking budgets and work forces and increasing student populations, 
are well-known. As an elected official on the school board, I have 
experienced these problems firsthand; however, many people don't stop 
to think about what financially strapped schools are forced to spend on 
electricity.
    During the years that I have spent working with Goose Creek School 
District, I realized that utility companies were taking advantage of 
school systems throughout Texas, and indeed throughout the country. 
Because of their favorable regulatory status, the utilities were 
completely inflexible when it came to the possibility of giving schools 
a break on rates, and the public schools had neither the resources nor 
the manpower to explore their options.
    Mr. Chairman, I have seen the electric bills, and, in fact, after 
teachers' salaries, the monthly electric expenses are the second 
largest item on most school budgets throughout the country. The numbers 
are eye-opening. In Goose Creek, which has a district consisting of 23 
facilities serving 18,000 students, last year our electric bill totaled 
$3.1 million, and that is a fairly small district. Much larger Houston 
Independent School Direct spends close to $20 million annually.
    Many people assume that because school districts are heavy users of 
electric power, they can negotiate better rates with the utility 
companies. This is a false assumption. The Goose CreekDistrict actually 
approached Houston Light & Power to attempt to negotiate better terms 
for the schools. We asked if we could purchase in bulk to cut the 
electric bills. We were told nothing could be done.
    Nothing could be done, Mr. Chairman, because HL&P, like all the 
other local utilities in Texas, faces no competition. These companies 
advise schools to lower their electricity costs by sealing windows and 
installing more efficient lighting and air conditioning. This most of 
the schools have already done. That advice is what passes for 
innovative service in today's noncompetitive environment.
    Our schools cannot shop around for a better price. In fact, our 
current laws prevent an independent power provider or other utility 
coming into the market to offer lower cost electricity or enhanced 
services. HL&P told us that the current price and service levels were 
the best that they could do.
    At that point I realized the electricity situation in Texas had 
gotten completely out of hand. Schools were crying for a change, and 
yet the local monopolies refused to do anything to help. I knew they 
could make changes, but without the threat of competition, why should 
they?
    Most estimates suggest that electric power rates could drop by 20 
to 30 percent if the system were competitive. Even if every public 
school in the country achieved a relatively modest 15 percent cut in 
utility bills, the savings would be larger than the amount President 
Clinton proposed spending in fiscal year 1998 on his Goals 2000 
education initiative. That is in excess of $600 million.
    Something obviously had to be done to meet the needs of Texas 
public schools as well as schools around the country. In the spirit of 
American entrepreneurship, I took my experience from unsuccessful 
dealings with an inflexible government-sanctioned monopoly to formulate 
a common-sense solution. The result of these experiences was the 
formation of PowerEd, my own aggregation company, to take on the 
monopolies.
    I want to prove just how easy and uncomplicated it is to provide 
our children the benefits of cheaper electricity. PowerEd is a power 
purchasing consultancy targeted at public schools. We have begun 
approaching public schools to let them know that they will soon, 
hopefully, have a choice in electricity providers and the simple option 
to save a substantial amount of money.
    Although the company is still in its infancy, there is already a 
demand for our services. We have partnered with and are endorsed by the 
national organization, the American Association of School 
Administrators, in DC PowerEd, to my knowledge, is the only company 
that is concentrating on providing schools with specialized services 
aimed at lowering public schools electric bills.
    We hope PowerEd will be growth company, and we don't hide the fact 
that we are in business to give our eventual investors a return on 
their capital, but as we continue to add jobs to meet consumer demand, 
I am overwhelmed by the sense of personal fulfillment. The idea of 
helping public schools came from my commitment to helping schools. I 
have chosen to work with public schools because when these schools 
operate more efficiently, at a lower cost, our kids, or future are the 
ones who benefit the most. And it is my hope that this Congress will 
provide a date certainto allow, sooner rather than later, all 
consumers, including our public schools, the choice about their 
electricity provider.
    I thank you, Mr. Chairman and committee members, for allowing me to 
share my views on this important issue.
    [The prepared statement of Jim Jeffrey follows:]
     prepared statement of jim jeffrey, board member, goose creek 
                consolidated independent school district
    The problems that face our country's public school systems, such as 
shrinking budgets and workforces and increasing student populations, 
are well known. As an elected school board official, I've experienced 
these problems firsthand. However, many people don't stop to think 
about what financially-strapped schools are forced to spend on 
electricity.
    During the years I've spent working with the Goose Creek 
Consolidated Independent School District, I've realized that the 
utility companies are taking advantage of school systems throughout 
Texas. Because of their favorable regulatory status, the utilities are 
completely inflexible when it comes to the possibility of giving 
schools a break on rates. And our public schools have neither the 
resources nor the manpower to explore other power options.
    Mr. Chairman, I have seen the electric bills. Page after page after 
page of bills. After teachers' salaries, the monthly electric expenses 
are the second largest item on most school budgets.
    The numbers are eye-opening. The Goose Creek School District has 23 
facilities serving 18,000 students. Last year, our electric bill 
totaled $3.1 million--and it is a fairly small district. The much-
larger Houston School District spends close to $20 million annually.
    Many people assume that because school districts are such heavy 
users of electric power, they can negotiate better rates with the 
utility companies. This is a false assumption.
    The Goose Creek District actually approached Houston Lighting & 
Power to try to negotiate better terms for the schools. We asked if we 
could purchase in bulk to cut the electric bills. But we were told that 
nothing could be done.
    Nothing could be done, Mr. Chairman, because HL&P, like all of the 
local utilities in Texas, faces no competition. These companies advise 
schools to lower their electricity costs by sealing windows and 
installing more efficient lighting and air conditioning, for example. 
That advice is what passes for innovative service in today's non-
competitive environment.
    Our schools cannot shop around for a better price. In fact, our 
current laws actually prevent an independent power provider or other 
utility from coming into the market to offer lower cost electricity or 
enhanced service. HL&P told us that the current price and service 
levels were the best they could do.
    At that point, I realized that the electricity situation in Texas 
had gotten completely out of hand. Schools were crying for change, and 
yet the local monopolies refused to do anything to help. I knew they 
could make changes, but without the threat of competition, why should 
they?
    Most estimates suggest that electric power rates could drop by 20 
to 30 percent if the system were competitive. Even if every public 
school in the country achieved a relatively modest 15 percent cut in 
their utility bills, the savings would be larger than the amount 
President Clinton proposed spending in fiscal year 1998 on his goals 
2000 education initiative.
    Something, obviously, had to be done to meet the needs of Texas 
public schools as well as schools around the country. In the spirit of 
American entrepreneurship, I took my experience from unsuccessful 
dealings with an inflexible, government-sanctioned monopoly to 
formulate a common-sense solution. The result of these experiences was 
the formation of Powered--my own aggregation company--to take on the 
monopolies. I want to prove just how easy it is to provide our children 
the benefits of cheaper electricity.
    Powered is a power purchasing consultancy targeted at public 
schools. We approach public school districts to let them know they will 
have a choice in electricity providers and a simple option to save 
money.
    Although the company is still in its infancy, there is already a 
demand for our specialized services. We have partnered with, and are 
endorsed by, a national organization--the American Association of 
School Administrations (AASA). Powered is the only company I know of 
that is concentrating on providing schools with specialized financial, 
accounting, technical and risk management assistance tailored towards 
crafting the most efficient lowest cost electric bill.
    Powered is a growth company, and we don't hide the fact that we're 
in business to give our investors a return on their capital. But as we 
continue to add jobs to meet consumer demand, I am overwhelmed with a 
sense of personal fulfillment. The idea of helping schools came 
directly from my heart, because I know of their desperate needs, and I 
can provide common-sense solutions. I have chosen to work with public 
schools, because when these schools operate more efficiently and at a 
lower cost, our kids--our future--are the ones who benefit most.

    Mr. Schaefer. The committee thanks the gentleman.


[The official Commmittee record contains additional material here.]

                introduction of public school witnesses

    Mr. Cunningham. At this time, I am pleased to introduce 
today's public education witnesses. Maudine Cooper is Chair of 
the Emergency Transitional Education Board of Trustees; Wilma 
Harvey chairs the elected D.C. Board of Education--I know what 
a job that is--Dr. Arlene Ackerman is the new superintendent of 
D.C. Public Schools; Josephine Baker chairs the D.C. Public 
Charter School Board; and Gloria Jarmon--being from California, 
I always look to see if it should be Harmon, but it is Jarmon--
is a director of Health, Education, and Human Services 
Accounting Issues with the U.S. General Accounting Office, who 
will provide us information about the roof replacement project 
for D.C. public school facilities.
    [Witnesses sworn.]
    There is another young lady in the audience, a shadow 
Senator, Florence Penelton, and I would like to welcome you. 
Thank you, Ms. Penelton. We had our superintendent of schools 
is named Bertha Pendelton and who has left San Diego, and I 
worked--as a matter of fact, she made me Education Man of the 
Year. Now, go fish. I am a conservative Republican and she is a 
Democrat, and she made me Education Man of the Year.
    With that, I do not think there is any real set order. If 
you have a set plan, then I will do that, otherwise I will go 
right down starting with Maudine Cooper, Chair of the Emergency 
Transitional Education Board of Trustees.

                  opening statement of maudine cooper

    Ms. Cooper. Mr. Chairman and members of the subcommittee, 
good morning. I am Maudine Cooper, Chair of the Emergency 
Transitional Education Board of Trustees, and in my other full-
time job, I am also president of the Greater Washington Urban 
League.
    I appreciate this opportunity to discuss with you the 
Fiscal 1999 budget request of the D.C. Public Schools. And I 
also ask, Mr. Chairman, that my entire statement be put into 
the record. I will be brief.
    I also appreciate your comments and I can assure you that 
the trustees will look very closely at those recommendations 
that you have made.
    [Chart.]

                 accomplishments of transitional board

    Since this is my first appearance before this Committee in 
my new role as Chair of the trustees, I would like to begin by 
saying what I have seen so far and where we are headed. If you 
look at the charter we were given by the Control Board in 
November of 1996, you will find that substantial progress has 
been made. These range from new principal evaluation systems 
based on student achievement to new promotion policies that 
have begun eliminating social promotions. And in my written 
testimony, there is a list of other accomplishments.
    Of course, the bottom line is student achievement. And the 
recently reported gains in the city-wide test scores justify 
optimism. But we know that parents, taxpayers, and members of 
this Committee are watching for very tangible results in the 
following areas, and we have identified only a few:
    Number one, for all of its logical challenges, summer 
school has got to run smoothly and produce strong academic 
progress so that retention in grade is held to a minimum.
    Number two, schools must open on time.
    Number three, when schools open, textbooks and supplies 
have to be ready.
    Number four, the food served in our schools must be safe, 
nutritious, and appetizing. And we know that children's view of 
``appetizing'' may be very, very different. [Laughter.]
    Number five, we have to have decisive improvements in the 
performance of school personnel. That means ample professional 
development.
    These will be visible, immediate signs of progress that 
will further bolster the confidence of our community that DCPS 
is on the right track. The trustees have every expectation that 
Superintendent Ackerman will deliver on these points. She knows 
what a good school system looks like, and she is providing 
strong, effective leadership in getting us there.

                       superintendent needs help

    But she will need our help and especially yours in some 
critical areas, and each has important budget implications.
    First, we need massive, rapid improvement in personnel and 
finance systems.
    Second, the same applies to student information systems.
    Third, we continue to face a critical facilities problem.

                    special education--need 120 days

    Fourth, and most significant, we must get control of 
special education spending. On the issue of special education 
spending, we also need your support for a legislative change 
already endorsed by the D.C. Council, that will put us on the 
same footing as other jurisdictions and give us 120 days in 
which to complete evaluation and referral processes.

               charter schools--relationship and Problems

    I would like to say a few words about the complex 
relationship between charter schools and D.C. Public Schools. 
You mentioned that earlier, Mr. Chair. I am proud that the 
National Urban League is helping to create charter schools in a 
number of cities. And as Chair of the trustees, I believe 
Superintendent Ackerman and her staff deserve praise for 
helping to improve the working relationship between charters 
and DCPS. But I must report that my colleagues and I share some 
misgivings about the unexpected impact of the new charter law 
on our public schools. And, more importantly, on children. We 
have already seen one charter school fail; and while the adults 
argued, politics prevailed, and children were scattered to 
different sites. In the final analysis, thosechildren became 
the responsibility of D.C. Public Schools.
    Superintendent Ackerman and her staff, at the request of 
the Board of Education, spent long hours trying to straighten 
out the mess.

          charter Schools--Need Greater Fiscal accountability

    This episode illuminated some gaps in the framework of 
fiscal accountability for charter schools. It was the clear 
intent of the D.C. School Reform Act that dollars should follow 
students. But in its current form, the law is a one-way street. 
When a charter school receives 75 percent of its annual payment 
in October, then collapses in mid-year, it is not clear who has 
the power to recover funds that may be misspent, or even 
whether this is an exercise in futility.
    Given the extraordinary length to which DCPS has gone to 
establish credible enrollment numbers, now confirmed in a 
recent audit by Thompson, Cobb, Bazillio and Associates, we 
should expect routine scrutiny of charter enrollments just as 
we have of the DCPS. We suggest that some dialogue is in order 
about how to ensure greater accountability in charter funding. 
But I think we also need to catch our breath and take stock of 
this entire phenomenon. With the best of intentions, this city 
is about to launch more than a dozen new charter schools. 
Several charters have prudently decided to wait a year before 
opening but we are concerned that others may be opening 
prematurely. We ask that you consider a pause in the rush 
towards charters. Let's make sure that accountability is clear, 
that the fiscal issues are resolved, and that we are on the 
same page with regard to the knotty questions, especially 
special education.

                   budget increase for public schools

    Finally, I know that this budget appears to reflect a large 
increase from fiscal year 1998. In raw numbers, that is true, 
but as Superintendent Ackerman will detail, a substantial 
portion of this increase is court-mandated and the rest is 
essential to our reform efforts.
    I hope that you will consider our proposals in light of the 
remarkable early progress already achieved. And I hope you will 
agree with me that pursuing our Superintendent's vision of an 
exemplary school system is the best investment that we can make 
in the future of our children.
    Thank you, and I look forward to your questions.
    Mr. Cunningham. Thank you, Ms. Cooper.

     prepared statement of maudine Cooper chair, Transitional board

    [Maudine Cooper's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Cunningham. Ms. Harvey?
    Ms. Harvey. Good morning.
    Mr. Cunningham. You are president of the D.C. Board of 
Education.

         Opening Statement of Wilma Harvey, Board of Education

    Ms. Harvey. Good morning. My name is Wilma Harvey. I am the 
president of the District of Columbia Board of Education, and 
the representative from Ward 1, which covers the Adams Morgan, 
Mount Pleasant, Rock Creek Park, and Columbia Height area of 
northwest Washington, D.C.
    I would like to thank you for the opportunity to speak to 
you on behalf of the members of the elected Board of Education. 
I will give highlights of my testimony, and ask that my entire 
testimony be submitted for the record.

              budgetary process in disarray at local level

    First of all, let me indicate that the Board of Education 
has some serious concerns about the budgetary process used this 
year. The Board of Education has not been able to enter into 
the type of dialogue it normally does when we are talking about 
the budget in relationship to our communities throughout the 
city.
    For the record, the Board of Education has always conducted 
public reviews of its budgets, and has gotten input and impact 
back from the constituents throughout Washington, D.C. The 
Board of Education has also worked with school administrations 
in the past to produce a defensible budget and to produce it on 
time. However, the 1999 budget is not the product of a 
structured budget process. To be honest, the Board of Education 
has little documentation to justify the mark of the 1999 
budget. I am a little uncomfortable in making this statement 
but I believe in the reality in how the Board has perceived 
working through the 1999 budget.
    For the first time in the history of my tenure on the Board 
of Education, the process of developing the budget is in 
disarray, and some of it is due in part because of the 
situation that exists in the District of Columbia.
    First, the roles of the appointed and elected Board of 
Education are not clear. The communities of the District of 
Columbia were left out of the process. Our charter schools have 
two separate boards that are operating this year, and, as 
indicated, up to 12 schools will be funded. This will have a 
great impact on funding requirements. The current chief 
financial officer has been on the job only a few weeks. For the 
last 19 months, we have had four different CFO's. As a result, 
the budget before you is only, in my opinion, an approximate 
and preliminary and incomplete document.
    I take seriously my responsibilities to consult with my 
fellow colleagues and with the parents and citizens of the 
District of Columbia. Therefore, it is impossible for me, as 
the president of the Board of Education, to view the budget in 
the same light as the unelected Board of Trustees. This budget, 
although I have serious concerns about the process, is a budget 
that is needed for the children in the District of Columbia to 
help with the education reforms and initiatives for our 
children.
    We must provide comparable pay for our teachers and 
administrators. We must create a personnel and financial 
system, excuse me, I have an allergy. We cannot break----
    Mr. Cunningham. Would you like some water?
    Ms. Harvey. I have some here. Thank you. We cannot break 
our commitment with the long overdue payments of maintenance 
and staff support. We cannot neglect our buildings and our 
special needs children.
    I will pause and ask to come back after I deal with my 
allergy, after Ms. Ackerman, please.
    Thank you.
    Mr. Cunningham. Thank you.

    [CLERK'S NOTE.--See p. 171, this volume, for continuation 
of Ms. Harvey's statement.]

          Opening Statement of Superintendent Arlene Ackerman

    Mr. Cunningham. Ms. Ackerman, Superintendent of D.C. Public 
Schools.
    Ms. Ackerman. Good morning, Mr. Chairman.
    Mr. Cunningham. Good to see you again.
    Ms. Ackerman. Good to see you. We come from similar family 
backgrounds--educators.
    Good morning to you and to other members----
    Mr. Cunningham. Probably so. My mom and dad are Democrats. 
[Laughter.]
    Ms. Ackerman. I am Arlene Ackerman, superintendent of the 
District of Columbia Public Schools. And I would like to thank 
you for giving me the opportunity to testify this morning to 
give you an update on the reform efforts that are currently 
underway in the District of Columbia public schools, and to 
discuss the schools' portion of the District's Fiscal Year 1999 
budget.
    I joined General Becton in the Washington, D.C. schools 
last December and became superintendent on May 1. When I 
arrived, we set a clear goal for the District. We said and 
believed that the District of Columbia Public Schools can be, 
should be, will be exemplary. We know that this will not happen 
overnight and this is not going to be easy. We certainly have 
our challenges. But I sincerely believe that this is a doable 
process, and we are putting together an experienced staff at 
all levels, which share our vision and have the experience to 
make this happen.

                    progress during 10-month tenure

    In the 10 months since I came to Washington, D.C., we have 
made real tangible progress towards that goal of exemplary 
status. I am pleased to report good news on several fronts:
    We recently received our Spring 1998 test scores on the 
Stanford 9, and our students showed solid progress in both 
reading and math district-wide between last spring and this 
spring. And I did attach a copy of the test scores to the 
statement.
    We put a singular focus on improving student achievement. 
We put in place intensive reading instruction, before and after 
school tutoring programs, and ``Saturday Academies,'' we 
enlisted the entire community in a reading campaign, and we set 
academic standards and provided special instruction materials 
to help support teachers and students. We targeted our second-
grade, third-grade, and fourth-grade teachers with special 
reading instructions. This is all to say that this improvement 
in test scores was not an accident. It was strategically 
putting in place strategies that we knew would ensure that we 
would be successful. We told our students, our parents, aunts, 
uncles, the entire community, as well as our teachers and 
principals, that we all have a role to play to help ensure that 
our students will succeed.

                          promotion guidelines

    Finally, we built accountability into the system by 
establishing promotion guidelines for students and telling them 
they would not be promoted to the next grade without first 
achieving grade-appropriate skills, and by revising our 
principal evaluation system to make student achievement 50 
percent of their annual performance rating.

                         gains in test results

    And we did get results. We made gains in every grade where 
students were tested in both 1997 and 1998. We saw fewer 
students scoring in the below basic range and more students at 
the basic and proficient levels. We are moving in the right 
direction.

               summer school program for 20,000 students

    Now, we are putting in place the necessary programs to 
ensure that we can continue to see improvements in student 
achievement. Next week, we will launch the largest summer 
school program in the District's history. We are planning for 
up to 20,000 students, and as of yesterday, over 17,000 had 
registered and more registration forms are coming in every day.
    I am also pleased to say, that many of the students who are 
now registering are not students who have to go, must go, but 
rather students who are coming because they ``should'' or 
``may'' come, under our guidelines. And that is what we want: 
we want summer school to be an opportunity for children to get 
extra help and enrichment.
    Eighty of 146 schools will be open for summer school from 
June 29 to August 7. The program will be focused on the basics: 
2 hours of reading with a phonics base and 2 hours of math 
everyday. Instruction will be highly structured. We will have 
daily lesson plans for every teacher. In fact, I was over at 
one of our schools yesterday and teachers were coming in, 
picking up their supplies. They will have their supplies and 
curriculum on hand on the first day. Classes will be small, 
with 15 students per reading class and an aid in the reading 
class also.

          increases for professional development and staffing

    In addition, we have included funds in the 1999 budget for 
professional development for teachers and administrators to 
support additional improvements in our instruction.
    Finally, we have included additional staff in the fiscal 
year 1999 budget staffing formula for schools that continue to 
show low performance.

                 enrollment count--credibility problem

    Before I discuss the budget, I want to mention one more 
piece of good news. Over the years, there have been serious 
questions about the credibility of our school systems' 
enrollment count. As you may know, the General Accounting 
Office did a study of our enrollment process in 1997 and 
pointed out weaknesses in that area. In response to the study, 
we did make some changes to our process last year to ensure 
that we would provide Congress and the Control Board with a 
credible number. That number, 77,111, was audited by an 
independent auditor, as required by Federal law, and the 
auditors found that our count was fairly stated. In fact, while 
their estimate was within 1 percent of our official enrollment, 
their number was actually higher than ours.
    In order to address the issue that non-residents may be 
attending our schools, we will substantially strengthen our 
rules next year for establishing District residency, and we 
started that process this Spring. A letter has been sent to all 
DCPS parents explaining the requirements of the new rule. And 
an early enrollment period has been scheduled in August so that 
we can begin this process early. Over the summer, we will work 
with the news media, churches, social service organizations, 
recreation centers, our libraries, all of those who come in 
contact with our parents so that we can ensure that our parents 
know the new rules.
    Now, I would like to talk a little bit with you about our 
1999 budget. I recognize that you may also have questions about 
the 1998 deficit, but since my time is limited, I would like to 
focus on the 1999 budget and answer those specific questions 
that you may have on FY 1998 a little later. A detailed 
explanation of the steps we are taking to close the 1998 
deficit is also attached to my statement.

               increase of $85 million for public schools

    The city's consensus budget includes $545 million in local 
funds for the District of Columbia Public Schools. This funding 
level represents an increase of $85 million from last year's 
Congressionally approved funding level of $460 million. The 
majority of the increase is required to fund either increases 
in the scope of services DCPS must provide orcourt-mandated or 
otherwise legally required budget increases.

                special education--$48,000 average cost

    Special education, as you know, is our larger budget 
driver. The budget for special education was substantially 
increased to cover the growing cost of private school tuition. 
Our average cost is $48,000 per student for students who go to 
a private, out-of-district program. In addition, transportation 
costs approximately $10,000 per student to transport our 
students who receive special education transportation. And 
these costs are all resulting from the Mills Decree and orders 
of the Special Master in the Petties case. In this area, we 
budgeted for an increase of almost $44 million over last year's 
budgeted level. However, spending could be even higher since we 
have no way of gauging what other costs these court mandates 
will generate over the course of the next year.
    DCPS has undertaken a major effort to reform our special 
education programs. We are reorganizing, and we are putting in 
place a community task force to take a look at this, with 
parents and community representatives, and asking them put 
forth recommendations to reform our special education program.

           special education--120 days needed for assessments

    We also are trying to put in place an infrastructure to 
support a more timely assessment and placement of students. 
Since my arrival we have gone from 50 students being assessed 
and placed a month to over 300. We will also focus on expanding 
special education programs so that we will have programs within 
the District to some children.
    However, we believe that legislative relief is needed to 
extend the time frame for assessing and placing our children in 
special education under the Mills Decree. As Chairman Cropp 
mentioned here last week, the City Council has endorsed our 
proposal to extend the time line from 50 calendar days to 120 
calendar days so that we can achieve parity with the 
surrounding jurisdictions. I am hopeful that Congress will 
include legislative language to this effect in this year's D.C. 
appropriations bill.

                         other budget increases

    Other legally required spending increases in our FY99 
budget include water and sewage charges, previously paid by the 
city, rent increases, back-pay for our employees who are 
members of the Teamsters Union, and step increases required by 
collective bargaining in our agreements.

                  increase of $17 million for reforms

    The remaining spending increases, which total approximately 
$17 million, are necessary for our reform efforts. We intend to 
spend $4 million to increase our starting salaries to $30,000 a 
year for teachers so that we can compete with the surrounding 
school districts for the best new teachers. Today, DCPS' 
starting salary for teachers is at or near the bottom in the 
region. As a result, we have had severe difficulty recruiting 
new teachers, and are placed at a competitive disadvantage in 
reaching the most talented candidates. I believe raising the 
salary for our new teachers, will help make us be more 
competitive and that, with higher starting salaries we will be 
more successful with our recruitment efforts.
    We also intend to invest $3 million in professional 
development as we move forward next year in putting in more 
standards in other content areas. We also have included $8 
million for next year's Summer Stars program because we know 
there are no quick fixes and summer school will be just as 
important next year.
    Finally, we are investing in an additional $2.5 million in 
textbooks in the 1999 budget. We are trying to address the 
chronic problem of outdated textbooks in our classrooms. We 
have spent this year $5 million preparing for next year so we 
will have textbooks, K-12, in reading and math in all of our 
schools. And they will be in schools in time for the beginning 
of the new school year.

                   budget categories and comparisons

    In order to put DCPS' budget in perspective, I asked our 
budget office to break down the system's spending into 
functional areas. We looked at instruction, instructional 
support, non-instructional support, building administration, 
and central administration, and we looked at the shift in 
spending in these areas from 1998 to 1999.
    I also asked them to compare our budget to the Seattle 
Public Schools budget. They may not appreciate that but we 
needed to have some basis of comparison that I was familiar 
with. The analysis shows that DCPS spending on instruction will 
increase this year, while the percentage of funds used for 
central administration will decrease. So we are increasing 
classroom spending and decreasing spending in the central 
office. It also showed that we will spend the greater portion 
of our budget on instruction than they did in Seattle, which 
they like to brag about and we can brag a little bit more. We 
will be spending a substantially smaller amount on central 
administration, about 3.3 percent.

                      bloated central bureaucracy

    I know that there is a strong belief that DCPS has a 
bloated central bureaucracy, which is another reason I wanted 
to break it out in a way that we could look at actually what is 
in central office.
    I want you to know that the reduction-in-force implemented 
in May has reduced our central administration now by another 25 
percent. We have gone from 646 to now 445. In addition, we have 
closed the budget deficit by releasing approximately 400 school 
custodians and other non-classroom based school personnel. We 
expect to eliminate an additional 200 positions over the 
summer. In total, we will reduce our staff numbers by 
approximately 790 positions.

                conclusion of superintendent's statement

    In summary, Mr. Chairman, and I know it has been a while, 
my statement has taken a while, but there is a lot that I am 
trying to get in. We do have a clear vision and a mission for 
the District of Columbia Public Schools, and we are making 
steady progress toward our goal of exemplary status. We know it 
won't happen overnight but we believe by instituting clear 
standards for performance, and by implementing accountability 
systems for the school system, its employees, and our students, 
we have begun moving toward results. We have a long road ahead 
of us but I am firmly committed and I do believe that one step 
at a time, school by school, classroom by classroom, we will 
reach our targets.
    Mr. Chairman, that concludes my prepared statement and I am 
happy to respond to questions.

          prepared statement of superintendent arlene ackerman

    [Superintendent Ackerman's prepared statement referred to 
follows:]

[The official Commmittee record contains additional material here.]


    Mr. Cunningham. Thank you, Ms. Ackerman. Ms. Josephine 
Baker, Chair--

 Continuation of Board President's Statement (see p. 146, this volume)

    Ms. Harvey. Excuse me. Can I just finish my few remarks?
    Mr. Cunningham. Briefly, yes.
    Ms. Harvey. Thank you. I will be very brief.
    Mr. Cunningham. Are you okay now?
    Ms. Harvey. Yes, I have these allergies that are acting up 
this morning. I do apologize.
    I would like to leave with you, Mr. Chair, and members of 
the Committee, the following questions:
    What resources would be available in the schools?
    How much discretion will be given to local schools in using 
these resources?
    The elected Board of Education strongly believes that the 
1999 budget must provide parents with the assurance that their 
children will have well-qualified teachers and administrators 
who are paid accordingly, that well planned instructional 
programs are in place with support required such as textbooks, 
instructional materials, and computers, and that all schools 
are safe for children to learn in and to attend. These must be 
the major priorities in the budget.
    In short, parents will measure the budget by its means and 
what happens in the local schools. The parents and the citizens 
of the District of Columbia want the same thing for their 
children as other communities throughout the country. Taxpayers 
of the District of Columbia expect the same level of 
accountability that is demanded by taxpayers elsewhere. And I 
am confident that this can be accomplished because the children 
of the District of Columbia deserve no less.
    Thank you.

       Prepared Statement of Wilma Harvey, School Board President

    [Ms. Harvey's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Cunningham. Thank you, Ms. Harvey.

     Opening Statement of Josephine C. Baker, Public Charter Board

    Mr. Cunningham. Our next witness is Ms. Josephine Baker, 
Chairperson of the D.C. Public Charter School Board.
    Ms. Baker. Good morning, Mr. Chairman, members of the 
subcommittee, and distinguished colleagues. I am Josephine 
Baker, chairperson of the District of Columbia Public Charter 
School Board. I am delighted to have been asked to testify on 
behalf of public charter schools this morning. And, yes, we are 
working to make schools better.
    During my testimony today, I will cover four topics:
    One, the fiscal year 1999 budget request for public charter 
schools in the District of Columbia;
    Two, the fiscal year 1999 budget request for the District 
of Columbia Public Charter School Board's operations;
    Three, recommendations for possible changes in the District 
of Columbia School Reform Act of 1995; and
    Fourth, a summary of what the D.C. Public Charter School 
Board has accomplished over the past year, particularly in the 
area of accountability.

                   FY 1999 Budget for Charter Schools

    The fiscal year 1999 District of Columbia budget request of 
$12,235,000 for public charter schools falls far short of what 
is needed to support the number of students who will be 
enrolled in public charter schools when public schools open in 
the Fall of 1998. At a base rate of $5,500 per student, with no 
allowance made for grade levels or students with special needs 
requiring higher funding levels, the amount requested will 
support only 2,225 students.
    The Board anticipates that in September, 1998, 2,275 
students will attend schools we recently chartered. If you add 
this number to the number of students who will be enrolled in 
the 11 schools chartered by the D.C. Board of Education, the 
problem becomes frighteningly clear.
    All of us have promised alternatives to the families and 
students in Washington, and have raised hopes and expectations 
among communities. We look to the Congress to ensure that 
promises are kept and that public charter schools are fully 
funded.

                       Increase for Charter Board

    The D.C. Public Charter School Board is requesting an 
increase of $80,000 in its appropriated funds for fiscal year 
1999, from $400,000 to $480,000.

                       number of charter schools

    In Fall 1998, 8 of the 10 schools the Board recently 
chartered will be in operation and the Board anticipates 
awarding up to 10 new charters this year.

            Suggested Changes In Charter School Legislation

    We have learned much during the past 15 months about the 
District of Columbia School Reform Act and how to work within 
the framework it provides. However, there are two provisions of 
the law that if changed would strengthen efforts to charter 
schools that will be successful. The law requires that public 
charter schools admit students using a random selection process 
when there are more students than there are spaces available. 
The law should be changed to make it more family friendly. The 
random selection provision for new public charter schools should give 
preference to siblings, just as that preference is given for existing 
public or private schools that convert to public charter school status.
    The authorization of the D.C. School Reform Act should be 
extended beyond the current April 2001 expiration date. 
Stability and consistency in governance and oversight are 
critical in the success of any new venture, especially one that 
makes the kind of break from tradition that public charter 
schools do. It is imperative that the structure and direction 
provided by the D.C. Reform Act remain in place for enough 
time, 10 years, to permit real change to occur and to take 
hold.

               charter board's application review process

    As a Board, we have been consistent in our determination to 
ensure that attention to accountability is evident in the 
operations of the schools we charter and in our own work. 
Accordingly, we have focused our resources over the past 15 
months on building and strengthening what we believe to be the 
four pillars of charter school quality and accountability.
    First, the Board created and managed a carefully designed 
and rigorous application review and decision process to be sure 
that the applicants approved for a charter offer an 
exceptionally strong educational program and have a high 
probability of success.
    Second, the Board is structuring comprehensive and legally 
sound charter agreements that are individually tailored to each 
school's structure, mission, goals, and educational programs.
    Third, we are working in partnership with our first cohort 
of public charter schools, providing them with guidance and 
technical help in the development and implementation of school-
based accountability procedures that will enable them to: (1) 
set challenging but achievable goals; (2) track their progress 
toward goals; (3) make program adjustments when needed; and (4) 
report to parents, the community, and the Board on their 
performance progress.
    Fourth, the Board is completing its own procedures for 
monitoring each school's progress.

                  ensuring accountability (see p. 185)

    Mr. Chairman, I have attached a document to my written 
testimony explaining our efforts to ensure accountability and 
ask that it be submitted for the record.
    And, Mr. Chairman, and members of the subcommittee, on 
behalf of the D.C. Public Charter School Board, I thank you for 
the opportunity to speak to you today. I will be happy to 
provide more information about our schools and our joint 
efforts to ensure success and accountability.

     prepared statement of josephine c. baker, charter school board

    [Ms. Baker's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Cunningham. Thank you. Thank you very much. We have 
been joined by my colleague, Congressman Jim Moran. Jim, do you 
wish to say anything before----
    Mr. Moran. No, that's okay.
    Mr. Cunningham. Next we have Ms. Gloria Jarmon, a director 
with the U.S. General Accounting Office, which we rely on a 
lot.

               opening statement of gloria l. jarmon, gao

    Ms. Jarmon. Mr. Chairman, and members of the subcommittee, 
I am pleased to be here today to update you on the status of 
the D.C. Public Schools' roof replacement. This really updates 
you on a report that we issued in March this year.
    I would like to briefly summarize my statement and ask that 
the full statement be made part of the record.
    I am going to update you on four issues: First, 
availability of funds; secondly, the current status of roof 
repair process for 1998; the estimated cost of the roof 
repairs; and, fourth, the additional capital improvement plans 
for Fiscal Year 1999 through 2004.

            school roof replacements--$84 million available

    First, on the availability of funds, again, funding is not 
an issue, at least $84 million has been designated for roofing 
and other capital improvement project work during fiscal year 
1998.
    On the current status of the roof repair process, 38 
schools are planned to have roof replacement work done during 
Fiscal Year 1998, five of those roof replacements have already 
occurred. They occurred in the Fall of 1997. For the remaining 
33, the plan is to start sometime in early July. Of those 
remaining 33, 8 of them will be managed by GSA. And the 
remaining 25, by DCPS. And of the remaining 25, most of those 
contracts were awarded last week, for 23 of the 25 schools.
    Estimated cost of the roof repairs, the cost of those 38 
roof repairs are estimated at $34 million for fiscal year 1998, 
and $28.4 million of that $34 million is for the construction 
contract, and about $5.8 million is for design work, contract 
management fees, DCPS salaries, and 8 percent for a 
contingency.
    The fourth area, additional capital improvements for fiscal 
year 1999 and beyond, in the capital improvement budget 
indicates that about $27 million will be spent on roof 
replacements during the next six years with about $14 million 
designated for 1999.
    Mr. Chairman, and members of the subcommittee, this 
concludes my brief summary of my statement, and I will be happy 
to answer any questions.

              prepared statement of gloria l. jarmon, gao

    [Ms. Jarmons prepared statement follows:]

[The official Commmittee record contains additional material here.]


    Mr. Cunningham. It was a very brief statement. Thank you.
    Mr. Moran, would you want to make any opening statements?
    Mr. Moran. I do not need to make an opening statement, Mr. 
Cunningham, as much as I do have a number of questions that I 
want to ask of, particularly the school system themselves, so 
probably, Ms. Ackerman. Have you asked those questions?
    Mr. Cunningham. Not yet. We will just start here.
    Mr. Moran. We were under the impression that the hearing 
started at 10:00 so I will try to catch up to where we are. Can 
I go ahead Mr. Chairman? You are in charge here so shall I ask 
some questions of Ms. Ackerman?
    Mr. Cunningham. Go right ahead.

              special education--restrictive 50-day limit

    Mr. Moran. Okay. Let's talk about special education first. 
I understand that you have gotten some relief for the 
restrictive 50-day limit imposed by the court decision, I 
believe it was the Mills decision?
    Ms. Ackerman. The Mills Decree.
    Mr. Moran. The Mills Decree, but you are no longer limited 
by that 50-day requirement?
    Ms. Ackerman. No, we are still very much limited.
    Mr. Moran. Well, somebody told us in the last hearing we 
had, that that has been fixed. I think it was Dr. Brimmer or 
Council Chairman Cropp. So that is no longer a problem. We have 
addressed that? The City Council made a decision to extend, the 
time period.
    Ms. Ackerman. Yes, the City Council did pass, endorse the 
release that we asked for. But we need Congressional approval.
    Mr. Moran. So you are still operating under the 50-day 
limit?
    Ms. Ackerman. On the 50-day, yes.
    Mr. Moran. And the 50-day limit obviously does not work. It 
is too restrictive. It is the most restrictive in the Nation.
    Ms. Ackerman. Right.
    Mr. Moran. And it is one of the reasons we have so many 
families gaming the system----
    Ms. Ackerman. Yes.
    Mr. Moran [continuing]. From what we understand. You are 
requesting a total of 120 days, though?
    Ms. Ackerman. Right.
    Mr. Moran. Which would take it from the shortest time 
period to the longest period. Sixty days for setting up a plan 
and then another 60 days for actually placing the students.
    Ms. Ackerman. Right.
    Mr. Moran. Wouldn't it make more sense to make it say 30 
days for placing the student? Two months seems to be a long 
time to place the students. How about a little compromise, 
maybe 60 and 30?
    Ms. Ackerman. No, but we are certainly willing to 
compromise here. I think what we were looking at was the 
average in the surrounding school districts, but 50 is----
    Mr. Moran. Is it the average?
    Ms. Ackerman. It is around 120 days.
    Mr. Moran. Because I am told that 120 would be the longest 
time period that any school system would have. That is not the 
case?
    Ms. Ackerman. I am sorry. I am hearing something in the 
back. Virginia is 121. So we just looked at----
    Mr. Moran. Virginia is 121?
    Ms. Ackerman. One hundred and twenty-one.
    Mr. Moran. Do you know what Maryland is, off-hand?
    Ms. Ackerman. One hundred and five.
    Mr. Moran. Okay, I was not aware that Virginia was 121. 
Okay, apparently the issue is placement, the 60 days to place 
the student after you determine what the education plan should 
be, would be the longest. So Virginia must take more time to 
develop the education plan and do the review, determine the 
need.
    Ms. Ackerman. Right.
    Mr. Moran. It just strikes me that, I do not want you to be 
the longest. I would rather you fit in, right in themiddle 
someplace. But 50 days, that was another in what seems to be a series 
of court decisions that reflected poor judgment on the part of the 
court, as far as I am concerned. Why this would not have been fixed 
before now boggles the imagination. And, given the fact, it is such a 
financial burden to the school system and given the fact that we have 
so many families that apparently are gaming the system through clever 
lawyers taking advantage of the situation, knowing that you do not have 
the ability to review special education needs in that time frame, it is 
surprising we have not done anything. But I am glad that something will 
be done. And I would like you to check on if it is consistent with 
Virginia or Maryland, or if it fits right within what the rest of the 
region is doing, that would be fine.

           duke ellington school--question of excess teachers

    Let me ask you about the Duke Ellington School. I 
understand that whereas Duke Ellington has a graduation rate of 
over 90 percent going on to college, that 18 teachers are going 
to be let go, six were going to go anyway, but you are 
essentially firing another 12?
    Ms. Ackerman. No.
    Mr. Moran. Is that not true?
    Ms. Ackerman. I do not know where that number is coming 
from. I am now in the process of looking at the final number of 
excess staff at Ellington and trying to verify that. I do not 
think there are 18 teachers, though. In the last month we have 
looked at excess teachers in schools across the system. As we 
were trying to close this budget deficit, we looked at areas 
where we were spending and where dollars were not allocated in 
the budget for that spending. And one of them was excess staff 
in the schools. We found $7 million was being spent on excess 
staff in the schools. I do not know any school that lost 18 
teachers. But I think Ellington lost about 10 percent of their 
total staff. It should have been about 10 teachers but I am 
looking in to that now and I expect to have that information 
soon. And nobody was fired. None of the teachers were fired. 
All of the teachers have an opportunity to seek placement in 
other schools, and I believe we will find jobs for them. I was 
trying to make sure we are holding schools accountable for 
their staffing standards, which we have not done in a very long 
time.

           competent, qualified teachers should not be fired

    Mr. Moran. Well, I read the articles about the measures you 
have taken. And they seem terrific. They have been very 
positive articles. Obviously, there is a lot of public approval 
of what you are doing, particularly, since it is eliminating 
administrative layers which seem to be excessive, particularly 
compared to other school systems. But I do not think anyone has 
been pressuring you to get rid of teachers, unless they are 
clearly non-performing. But to reduce teaching staffs just to 
reduce the number of personnel in the school system is not 
something anybody wants. If you are finding that teachers are 
not certified or, more importantly, if they are not producing, 
then that should be done, but I would hope you would never feel 
compulsion to fire teachers that are performing just to get 
down to some kind of personnel level.
    Ms. Ackerman. No.
    Mr. Moran. Certainly not to meet a level that was 
occasioned because of high administrative staff.
    Ms. Ackerman. No, even with reducing Duke Ellington and 
some of the other specialized schools, they are still above the 
staffing for other schools, due to the fact that they have 
special areas of emphasis. But we had some schools that had as 
many as 20 teachers over the staffing allocation. Now, those 
teachers will not lose their jobs. They will be absorbed in the 
system. So no teachers are losing their jobs. We are not firing 
any teachers. We are, though, shuffling the teachers so that 
they are appropriately placed. But I will look at Duke 
Ellington because I have heard the 18.

         support for low student-teacher ratio where warranted

    Mr. Moran. Good. This is just a personal comment but as far 
as I am concerned, I do not want you to be reducing teachers 
that are producing, even if they are above the norm in terms of 
teacher-student ratio. I think if we want to get excellence out 
of our school system, the smaller the student-teacher ratio, 
the better. And I know you have limited resources but there are 
other places where I would hope you would look. If Ellington or 
Banneker or any of these schools are consistently getting 90 
percent of their kids into college, whatever they are doing is 
worth the expense as far as I am concerned. I would like it to 
be replicated in other schools rather than drawing their 
resources to put into other schools. I have no problem with 
pushing for more money for the school system as long as it is 
money that is going most directly into teaching and improving 
the outcome. I do not want to see--and I am sure you would not 
want to leave any kind of a legacy that was associated with 
reducing the quality of any of the best performing schools. 
When we want to promote D.C. schools, it is the few schools 
that we can really use to do that. I hope that we continue to 
have that opportunity.
    I have taken up my time, and I will let us move on. And we 
have other questions that I want to ask you for the record, 
particularly with regard to facility maintenance.
    Mr. Cunningham. Thank you, Jim.

           special education--concern over advocate attorneys

    I would look at a couple of different areas. As I mentioned 
in my opening statement, we understand that the monumental 
burden that special education places on the schools, not only 
monetarily but in the training of teachers themselves, is not 
limited to D.C. My sister-in-law is one of those teachers, a 
principal now. And when we were doing the special education 
bill, like I said, there are certain things that we wanted to 
come through.
    For example, the first time a parent comes to the school, I 
think it is unreasonable that an advocate lawyer accompanies. 
We wanted that parent to be able to come to the school in good 
faith and say, ``My child has a problem. Will the school work 
with my child?'' without having to pay a lawyer. And that was 
the incentive of legislation. The lawyers have tried to 
circumvent that by signing up the parents.
    And what I will do is promise you that we will revisit the 
IDEA bill. I was very proud of it when the President signed it. 
Did it make all the changes that we wanted? No.
    Another problem area we had was in the area of discipline. 
For example, if a sight-impaired child was caught selling 
drugs, you could not treat that child as a normal child even 
though it had nothing to do with the problem. These are some of 
the changes that we tried to make.

        special education--120 days for assessment and placement

    Also, the IEP, I think it is very reasonable that a school 
have 120 days to complete the assessment and placement process. 
There are certain children, for example, that have dyslexia 
that you do not know have dyslexia because they cannot read in 
the first place. You have the time to identify these children 
andto put them in quality programs. We are very familiar with 
the different issues of that.
    Unfortunately, in our government, things take too long. 
Just like in your own system, transformation will not happen 
overnight. But I will guarantee you that we will work in that 
direction to try and help.
    I think maybe with regard to placement, once you decide 
what are the problems of the child after the IEP, Individual 
Education Program assessment, then maybe you could place that 
child a little quicker.

          Tension Between Elected and Appointed school Boards

    I sense a turf battle in some of the statements from the 
elected Board to the appointed Board to the superintendent. 
Maybe there was not a direct link. Basically, I think the D.C. 
school system was put in Chapter 9 and that is why there was a 
board appointed to take over. And I think sometimes--I am an 
elected politician myself--but I also know that sometimes 
private could probably do it better than our elected 
politicians because private enterprise does not have such a 
political environment.
    For example, we are going through a vigorous campaign 
finance reform right now addressing the influences of outside 
interests. And I think we could appoint a board to do that and 
to take charge of that and make a recommendation. But at the 
same time, I would recommend that the board incorporate, and 
encourage and listen to, the elected officials that reach out 
there and touch the citizens. There is an advantage and a 
disadvantage. The advantage is that in an appointed body you 
can be more business-like in your business practices in running 
the school. The disadvantages of an appointed board is that 
they do not have the sense and the pulse of the constituents to 
add into that. And if you do not work together, then I think 
there is going to be a conflict. And I sense that from the 
testimony. Maybe I am wrong.
    Ms. Harvey. Could I just respond to that?
    Mr. Cunningham. Yes.

             Elected Board Supports Superintendent Ackerman

    Ms. Harvey. As president of the Board of Education, I just 
would like to really make the record extremely clear, that the 
Board of Education is 100 percent in support of Ms. Ackerman 
and her administration. We have worked closely with Ms. 
Ackerman since she has come on board. Ms. Ackerman has been 
very supportive to the Board of Education, especially when we 
had to revoke the charter of one of our schools.
    I am the president of the Board and I sit on the Emergency 
Board of Trustees. I have sensed a different atmosphere and 
tone recently on the Board of Trustees that makes me feel as a 
representative of the Board of Education a sense at least we 
can carry forth a concern that is raised by the constituents 
that we serve. I do agree with you, sir, that because I am 
elected, as an elected official, we do have to respond to those 
needs of the community. And what I was trying to say in my 
opening statement is that because of the concerns raised in the 
community around the budget process with the various 
constituency not being able to have dialogue, then that was the 
way in which we needed to improve the budget process for the 
next coming years.
    Mr. Cunningham. I agree. I do not disagree with that at 
all. As a matter of fact, our Speaker says you have got to be 
able to listen before you can learn before you lead.
    Ms. Harvey. Right.
    Mr. Cunningham. And I think that is the problem with a lot 
of things is that people do not listen enough and they try and 
lead without incorporating that. All I am saying is I recommend 
a little closeness even on the budget. My wife, as I said, is a 
principal of two schools and I see her wringing her hands 
sometimes with the parent groups, and the teachers. I know 
those battles very well. It is like I am in the principal's 
seat because I hear all the problems between the students, the 
parents, and the different interest groups.
    Another thing I would recommend is if I was a 
superintendent, just like I am maybe a CAG or a commanding 
officer in a fighter squadron, I gave my department heads 
authority. I said, ``Here is the rudder. You do it. You are 
responsible for your department.'' A little guidance, but hands 
off. You make them break or make their own schools and give the 
power to the principal. A lot of that does not exist in the 
State of California. The superintendent controls a lot of the 
things. And I would think that the lower the level that you can 
reach down to the students, the better the schools can be.

                    Charter Schools--Accountability

    I am interested in the charter schools. I appreciate the 
example of a charter school failing in the spring that has all 
of its funds from the past October. I can understand that. What 
happens to the funds once a school fails? But if you are mixing 
apples with oranges, take a look at the D.C. school system and 
its record versus losing one charter school in a new system. 
You have got one charter school that failed but I know across 
the country charter schools are blossoming. And it is a welcome 
relief to the system.
    I believe personally most of the children go to public 
education. My wife is in public education. As I say, I was in 
public education. And that is where we need to bring up the 
level of education, not just in D.C. but across the country. 
But we also have to be able to support these new initiatives 
that cut the cost per student, that drive in a positive 
direction.

                         Testing of Principals

    And I was very, very happy to see that you have testing 
programs for principals. We have some teachers in California 
that are retired on active duty. They do not improve 
themselves. That is why I supported the Eisenhower grants to 
upgrade the teachers' skills. If I wanted a teacher that could 
teach computers in 21st century technology, how is she going to 
do that if she went to school 40 years ago, or 30 years, or 
even 10 years ago?

                  Charter Schools--inadequate Funding

    So I do not disagree with you. But I would also say that 
although I am a very strong proponent of charter schools, with 
12 additional charter schools, the responsibility is monumental 
for accountability and direction. And also we have got the 
responsibility to make sure we fund them so that they are not 
under-funded. We must not give you a course in the wrong 
direction that sets you over the edge of the world before you 
ever start.

             Public Charter Board--Process For New Schools

    Ms. Baker. That is a statement well received. I would just 
like to say, and I think I alluded to it in my comments, that 
the D.C. Public Charter School Board started up front, at the 
very beginning of its application process, dealing with 
accountability, and using technical assistance provided by 
experts in business and finance in the city who came and looked 
at every application and made comments about the business and 
financial plans of those applications. Their comments were used 
by peer reviewers, who came from many walks and many 
professions. And now accountability plans are being developed 
with each individual school that did indeed get approval. So 
that before they open their doors, there will be a substantial 
accountability plan in place. And that isthe way we are 
working----
    Mr. Cunningham. Even though I am a strong supporter, we 
will hold you to that.
    Ms. Baker. Well, we want to be held to it. We want to be 
held to it. And we want to be sure that in the process the 
funding that is necessary for these schools to be successful is 
not something that we will have to wonder about.
    Mr. Cunningham. I see I have gone over my time but what I 
will do is extend my time and then I will come back to Mr. 
Moran so he can go. And I will just take mine up front.

                Charter Schools--Elected Board's Process

    Ms. Harvey. I just have to say one point because the D.C. 
Board of Education is also the other chartering agent, and as 
the other chartering agent, we, too, have put in place an 
extremely stringent monitoring process, and a schedule, and we 
work very closely with the two running charter schools and we 
work very closely with the nine remaining charter schools that 
will come on board in September. So the Board of Education is 
truly trying to work with the charter schools on the issues of 
accountability, standards, and educational concerns and et 
cetera.

            Charter Schools--Comparison With Public Schools

    Mr. Cunningham. How do you see the charter schools, any of 
you, doing compared to the public school system?
    Ms. Harvey. My honest opinion is that in some of the 
monetary reports that we have gotten on the remaining three 
that are working, we have one that is very outstanding, is 
doing an excellent job. There is some work that needs to be 
done. It is a new area. There needs to be some training for 
boards of charter schools so they can understand what 
``boardsmanship'' is, what the policies are, and how they 
interface with the chartering agent, being in this instance, 
the Board of Education or the other chartering board.
    Now, what the Board of Education has tried to do is work 
collectively with the chartering board so that we cannot 
duplicate efforts in relationship to our responsibility and 
oversight of the chartering boards of education.
    But to be very honest with you, we do need to look at how 
we can modify and adjust some of the issues around charter 
schools to give us the flexibility to work with them more 
effectively.

         Transition Board--Charters Will Continue to be Awarded

    Ms. Cooper. Mr. Chairman, my testimony was so specific 
today. We did not ask for a cessation of the awarding of 
charters, we simply asked for a pause while we look and address 
some of these various issues. We keep bringing the schools on 
and no one is stopping to put in all the processes that are 
needed to make sure that they are working.
    And I started, also, by saying in my testimony, that as a 
national organization, we support charters. That is not the 
issue. The issue is with 19 schools under our wing as charters, 
we need to make sure that the processes are in place so that 
the superintendent does not get called by the Board of 
Education who say, ``Can you help?'' Or something does not 
happen with one of the charter board's schools, God forbid, and 
she is once again called to try to straighten it out. We need 
to just take maybe a year and the two boards working together, 
with the superintendent, to make sure that if those schools 
close or have a problem, then the impact and the role of the 
superintendent is clear and manageable.
    Mr. Cunningham. Are you working together--is the dialogue 
there today between the boards and the superintendent?

        Public Charter Board--Relationship With Charter Schools

    Ms. Baker. A dialogue with the Board of Education's 
Committee on Education was established almost immediately by 
this Board when we were authorized to become a Board. I have a 
strong relationship with Mr. MacLaury, had a strong 
relationship with Robert Childs, and had made contact with 
General Becton I am in the process of making contact with Ms. 
Ackerman. So that we are continually working toward maintaining 
good communication and dialogue.
    In relation to finance and how that is to work, that is a 
key element of our charter agreements which require that 
schools give the Board a monthly financial report. We are 
setting up a system where each of our schools will be 
electronically linked to our office. They will electronically 
send us financial reports and other reports that they are 
required to send on a monthly basis. So that when we go out to 
monitor, we will already have financial and statistical data 
that will enable us to assess a school's programs and identify 
potential probelms. And there are other safeguards that are 
built into our charter. It is unlikely that a school would be 
able to completely fall off without our knowing it. All kinds 
of red flags will go up before us because we are asking for 
that kind of information.
    Mr. Cunningham. Ms. Harvey are you in agreement?
    Ms. Baker. Well, they are not familiar with our process. 
That is the process that has been developed by the D.C. Public 
Charter School Board for the schools it charters.

     Charter Schools--Impact on Superintendent When Charter Revoked

    Ms. Harvey. I think the issue that really lies is the 
revocation process. The Board of Education, the law says that 
if the Board of Education, or any chartering board, revokes a 
charter, then the Board of Education takes over the 
responsibility for the operation of that charter. At the 
current time, we do not have the capacity to do that. So, as a 
result, we have to go to the administration. So that is why I 
am saying that something needs to be worked so we do not 
overload the superintendent. But we do monitoring with the 
charter but it comes to the issue of a revocation, when a 
charter is in crisis, as a chartering agent, what role does the 
chartering board play and what capacities are provided for us 
to carry that role.

               Student-Teacher Ratio and Per Pupil Costs

    Mr. Cunningham. Let me ask one last easy question, a quick 
one, before I go to Mr. Moran again. Now that you know that 
there are 77,111 students, plus or minus 1 percent--I will take 
that in a poll any day--do you think you can get a handle on 
the cost? First of all, if you have 15 students per classroom 
in summer school, what number does that place in the normal 
school year per classroom, on average? And the cost per 
student? You can provide that if you do not have those figures 
available. But I would like to see.
    One of the driving factors for better education is smaller 
classrooms. If you have 30 students and a teacher with no help 
in that classroom, it is very difficult. Just for my own 
information, I would like to see what your average classroom 
size is and what the cost per student is. I know it cannot help 
when you have got to invest and do roofs and infrastructure. 
That all fits into the budget.
    But I would like to thank you personally. These are always 
educational for me even though you deal with these issues 
everyday.

               Education--Interference of Interest Groups

    The only problem I have is so many times I see politics 
interfere with what we really need to do for children, from 
outside interest groups, like the unions, and some private 
groups as well. So I hope we can set thoseaside and push on and 
do what we actually do is provide for children instead of interest 
groups.
    Jim?

                      Remarks of Congressman Moran

    Mr. Moran. Thank you, Mr. Chairman. I am reading through 
Maudine's statement. I have known Ms. Cooper for some time in a 
number of capacities. Welcome, aboard. I am happy having you 
chairing the Board of Trustees, although I did not have as much 
of a problem with the Board of Trustees as a lot of people did, 
I am happy to see you where you are.
    And this is an excellent statement. I could not take issue 
with anything. I do not take issue with anything that anybody 
else has said.

           NEW SCHOOL FACILITIES--LEASE/PURCHASE ARRANGEMENTS

    But let's talk about some of the implementation. First of 
all, we have got to build a whole new physical school system. 
We have got far too many buildings, as you know, that have 
outlived their useful life. I do not think we are going to get 
the public funds we need to do that. Would you look into the 
possibility of having private developers build the schools and 
lease them back to the school system so that you did not have 
to put up the money up front, nor did the Federal Government?
    But since we have to educate kids every year, there has to 
be an annual amount going to pay for their education and the 
use of their buildings. It seems to me that if you could lease 
them, with private ownership, and there would be some tax 
advantages for the private sector to undertake that, that it 
could become an attractive opportunity for the private sector 
to build some of these schools, leasing them back without the 
front-end costs. You would probably get some very good schools 
at lower costs, perhaps, than it would cost the public sector. 
And I think it is the kind of thing that we might be able to 
better help you with. So I would like for you to look into that 
possibility. I think they have tried that in other places. I 
know that we have done it in other circumstances. We build lots 
of Federal buildings--the private sector does and then the 
Federal government simply gives them a determinant amount of 
time and lease costs so that they are guaranteed a lease and it 
becomes a profitable venture on both sides. We have this arcane 
scoring system where we have to find an offset in the year in 
which the school is built instead of paying for the school over 
its useful life. So I would hope that we could look at 
something like that. The D.C. school system might be a good 
place to start.

                SUMMER SCHOOL--IMPACT ON CRIME REDUCTION

    I am just elated that you have got 20,000 kids in the 
summer school system, not only for academic reasons but I think 
it is going to help a lot in terms of peace in the 
neighborhoods, and reduce crime. I know in the suburbs crime in 
every area has gone way down except from the hours of 2 to 5 
o'clock. That is where the crime is increasing and we know 
exactly why. It is young people with nothing to do. Putting 
20,000 kids in productive activity in summer school is just 
wonderful.

               VOCATIONAL EDUCATION--IMPROVEMENTS NEEDED

    Let me address vocational education a bit because I think 
that is one area where the D.C. school system has dis-served 
much of its population. There are a lot of jobs out here. You 
pick up the Washington Post, and there has got to be 50,000 
jobs available on any given week in the area. And a lot of 
those jobs, at least half of them, do not require a college 
education. They require some specific skills. And many of those 
skills can be taught in high school. But when I ask about 
vocational educational, it seems as though we have very little 
going in the way of vocational education. We are starting some 
charter schools I understand that are focused on specific 
skills training. And I have been involved in some of that. I am 
excited about that.
    But we ought to be doing more within the traditional school 
system in that respect. And we ought to bring in more teachers, 
more people with career experience in that area to do some 
teaching. Not having sufficient certified teachers from the 
teaching schools should not be too much of an impediment. We 
ought to be able to find people in the private sector. And 
there are a lot of companies that are just begging for 
workers--who I know because they have told me--would love to 
lend people to the school system to teach those specific 
schools. And one in particular is construction. We have tried 
unsuccessfully in the past to do that.
    But I do not know why we cannot have a vocational training 
school that teaches specific trades, whether we bring in labor, 
we can have union and non-union teachers. That has got to be 
worked out and that should not be the obstacle. But we have 
skilled tradespeople who I know construction companies would 
pay just to teach those specific skills to high school 
students. And we can be doing that in the summer too. I know 
that you agree that if a child is not going to go on to 
college, it should not be the end point of our responsibility 
to see that they are going into the workforce when they get out 
of high school or going to some kind of advanced training.

            COMMUNITY COLLEGE SYSTEM IN DISTRICT INADEQUATE

    The community college system is also deficient in the 
District compared to what we offer in the suburbs, it, again, 
is a disservice to our young people.
    So I would like for you to tell me a little about what you 
are doing in the area of vocational education, and maybe--I 
don't know who can address what we can do in terms of community 
colleges? But let's talk about vocational education?

             VOCATIONAL EDUCATION--SUPERINTENDENT ACKERMAN

    Ms. Ackerman. Okay. It is certainly an area that we are now 
revisiting. We have gone through, as we do in education, sort 
of trends where we move away and then we come back. We have now 
come, I think, full circle, around vocational education. We 
realize that not all of our students go from high school to 
college. Many of them may eventually get to college but in 
between there are some work-based experiences that they must 
have. So we are looking at that and folding into our new 
School-to-Work Program a new vocational educational emphasis.
    Some of the finest vocational education programs, I think, 
in the country were here in Washington, DC, for a while, and 
they have been dismantled.

                  VOCATIONAL EDUCATION--IMAGE PROBLEM

    Mr. Moran. Well, we cannot reform schools it seems. It 
seems as though other school systems were just dumping kids 
that were disruptive into the vocational education schools. And 
it was a stigma to even go to those schools. But they started 
out as wonderful opportunities.
    Ms. Ackerman. But I think we should be folding vocational 
education into the comprehensive high school so that it is not 
seen as coming from the outside. It has got to be built into 
the comprehensive program which is what we are doing now so 
that students have opportunities to get those kinds of work-
based experiences and skills.
    Personally, I went on to college but I did take business 
education classes in high school that helped me throughout my 
college career to have summer jobs. So I think there is away to 
build them into our comprehensive high schools which we are trying to 
do as we set up the career academies in our high schools and also 
partner with some of our area businesses. I think you will see us now 
moving in that direction but putting programs in our high schools, 
instead of outside them, in alternative schools. And we can still have 
a couple of those. But its better to put them into our comprehensive 
high schools and make those programs available knowing that all 
students are eventually going to get to the world of work, but some get 
there sooner than others. And some take detours and go to college. But 
even with that they need those work-based experiences and they need to 
develop the skills that they can fall back on.

            APPRENTICESHIP PROGRAMS AND VOCATIONAL EDUCATION

    Mr. Moran. Do we have businesses offering apprenticeship 
programs during the summers, for example?
    Ms. Ackerman. We do and we are getting more of that. We 
just wrote a $9 million School-to-Work grant and it looks very 
hopeful. We are using the School-to-Work initiative to put back 
in place some of the vocational educational programs in all of 
our high schools so that there are some experiences that all 
students will get. So we are where you are and unfortunately it 
has taken us a while in education to come full circle. And 
there are students who have sort of been lost in that black 
hole because they were not going to college and they did not 
get the skills. But we are there now and we are in partnership 
with the businesses here. So we are there and I want you to 
know that we have revisited this. It is one of the things that 
we have put in place in the new initiatives.
    Mr. Moran. I would like for us to publicize some of those 
businesses that are reaching out and providing that kind of 
opportunity----
    Ms. Ackerman. Okay.

    NEED TO BRING VOCATIONAL EDUCATION AND ACADEMIC PROGRAMS CLOSER

    Mr. Moran [continuing]. In collaboration with the school 
system.
    Ms. Cooper. If I could just add a little personal note on 
that. I am a product of the St. Paul-Minnesota school system. 
We had a system whereby you could get your certificate in 
vocational educational and still get the curriculum in the 
public school system. It allowed me to go to school and to work 
while I was there. I think somehow with the divorce of 
vocational education and the academic programs, you do have 
that stigma. So I think that as we go along in this planning 
process of bringing those closer together we remove the stigma. 
It will also remove the dumping ground mentality that goes into 
the thinking of some around vocational education. I have the 
greatest respect for vocational education and some exciting 
things are happening. And as we get those functions going, we 
should provide you with a list. We will keep you posted because 
some things that were talked about the other night in one of 
our sessions suggests that the superintendent is heading in the 
right direction not only in terms of vocational education but 
in alternative education for those who dropped out or felt 
themselves pushed out. So I think you are going to hear some 
very exciting things.

                         ADULT BASIC EDUCATION

    Mr. Moran. Are we doing some things in terms of adult basic 
education as well? When you say they dropped out, essentially 
they become adults once----
    Ms. Cooper. Exactly.
    Mr. Moran. So it really is an adult basic education; and we 
are using the schools in the evenings?

              UDC PICKING UP SOME ADULT EDUCATION PROGRAMS

    Ms. Ackerman. Well, we have those programs now and adult 
education is also going to be available through UDC. They are 
going to be taking over some of those programs. But we do have 
students who are older students who have dropped out and they 
are back in, and we are providing them with alternative ways to 
get their high school diploma, other than at a traditional 
school. But I believe the academic process and the vocational 
education process should be linked, because it is another way 
to keep students in school.
    Mr. Moran. Wilma wanted to say something.

                    BELL MULTI-CULTURAL HIGH SCHOOL

    Ms. Harvey. I just wanted to add, we just finished the 
graduation season here in the District of Columbia. And I just 
wanted to bring up one example of where we do have currently in 
place at the Bell Multi-Cultural High School in the ward in 
which I have had the honor of representing for the last 12 
years where students actually receive a diploma from the D.C. 
public schools where they have met the academic requirements 
but they were also given a certificate for an accomplishment in 
vocational area. And there was a young lady that graduated and 
got a certificate in cosmetology, but also met the academic 
requirements. And I think, as Ms. Ackerman said earlier, we are 
doing it school by school. And if we continue to move the 
process, we can rebuild the vocational educational programs 
within the D.C. public schools.
    Mr. Moran. Terrific. Charter schools?

               CHARTER SCHOOLS--ADULT EDUCATION COMPONENT

    Ms. Baker. Charter schools, yes. We do have, of course, the 
Rosario School, which serves particularly the immigrant 
population. So that is certainly an adult education component. 
Also, a number of our schools, at least two of them, are 
dealing with young people who have been involved in the 
juvenile justice system, some who are drop-outs who are now 
coming back into small settings where they will get the kind of 
support that they need so that they can indeed graduate with 
high school diplomas or with GEDs. So charter schools are in 
another way filling an important gap. We are trying to make 
sure that we can close that gap and keep these young people 
moving forward.

                CHARTER SCHOOLS--AUTO MECHANICS PROGRAM

    Mr. Moran. George Stark was trying to develop a couple of 
charter schools. I think he has. Are those going okay? Are they 
getting the basic education in addition to these skills?
    Ms. Baker. Stark is not one of my applicants.
    Mr. Moran. No. But I think it is within the----
    Ms. Harvey. The public school that you are referring to is 
a part of an academy school model, which is headed by Ken Amos. 
And Mr. Stark's program, the auto mechanics program, will be 
starting in September of this particular school year.
    Mr. Moran. September of 1998?
    Ms. Harvey. Of 1998. Yes, we approved that charter, and we 
have met, on several occasions, with the entire group that is 
going to be working with that particular charter. They have an 
auto mechanic program and then they have a campus approach, an 
academy model approach. And that will be an academy model. The 
youngsters will go through the auto mechanics aspects of that 
charter school.

                CHARTER SCHOOLS--HOSPITALITY HIGH SCHOOL

    Ms. Baker. There is one other and that is the Hospitality 
High School----
    Mr. Moran. Yes.
    Ms. Baker [continuing]. That is being sponsored by the 
hospitality industry. They will not open until 1999, at their 
own request. They want to make sure that they have everything 
all lined up. Students will get a full academic high school 
education and will also have an opportunity to move intothe 
hospitality industry here in the District of Columbia, which, of 
course, is----
    Mr. Moran. So it will be one of the charter schools. That 
is all very positive, Good.
    Thank you.

       Roof Replacements--Completion in time For School Openings

    Mr. Cunningham. Let me ask a question on looking at the 
last term. When you were putting the new roofs on the schools, 
the problem came that there was no slack time, that the roofs 
were not ready when the school opened. If you are going to 
build a car for Indy 500, you want the car there for the 
preliminaries, not just the race. With these 38 roofs that you 
are going to put on, is there some slack time in there to make 
sure that we have them finished by the time the school starts?
    And also last year, I remember that a couple of the schools 
were broken into because they did not have security. When you 
have them open for maintenance or something, someone finds an 
opening. They are going to get in there and steal computers and 
things. So we have a need for security. Do you have a plan to 
have the schools open on time?
    Ms. Jarmon. The contract we looked at, one of the contracts 
that was awarded and the plans we have looked at show that the 
work will be substantially complete by August 15 and finished 
by the end of August and the school is scheduled to open 
September 1.
    Ms. Baker. But you do not have it locked----
    Mr. Cunningham. Okay, I would hold the contractor 
accountable. ``Oh, well, my dog had to take it to the market, 
had to do this and that.''[Laughter.]
    Let's just make sure we ``hold their feet to the fire,'' as 
we say.

             Communities Support Successful School Systems

    I have a prediction. Do you know who Jaime Escalante is? 
And I would ask you how many of the parents supported Jaime 
Escalante when he first started? How many of the students? They 
thought he was nuts.
    The school boards thought he was crazy. He insisted 
``Dammit, I am going to teach kids math. I can do that. I do 
not care if they are minority kids or what.'' And after he 
started, the first thing is he got the kids behind him; then he 
got the parents. Was a rejuvenation. And then the parents 
started volunteering. But when you have a system that people 
perceive as not doing well, people are not going to support 
that system. But when they can see positive change, which you 
all are bringing around, people will support you. I want to 
commend you for that; I can see glimmers of this. I'd say we've 
got a long way to go.
    I think that you're going to have a better and better 
system. It's not going to happen overnight, but I think that 
constant positive change, working together with charter 
schools, with elected officials, the board, the GAO, I think 
you're going to have that. I think that's very, very important.
    You probably know who Bishop McKinney is. He is in San 
Diego. Bishop McKinney has a black private school that only 
deals with at-risk kids. And it is privately funded. I give 
money to it every year. But 97 percent of those children go to 
college.
    Now, I agree with Mr. Moran, college is not the only 
direction. We need to focus on vocational education too. But 
there needs to be educational opportunity in between where you 
can go back and forth, and have real choices.

                Vocational Education Programs For Women

    I have two daughters--who are college-bound. I've very 
proud of them. They are A-plus students. I want to be sure we 
have vocational education for our women, our females. In 
vocational education programs, too many times, the women have 
not been taken care of. Not all women are going to go to 
college and they need these skills.
    I lived down here on Water Street, on the waterfront, and I 
met a lady, I bet she weighs 90 pounds dripping wet. You know 
what she does? She drives Caterpillars. Yes. And so, there are 
construction jobs out there, too, for women, so don't rule them 
out.

             Job Applicants Lack Reading and Writing Skills

    But I would like to make one other recommendation. In your 
summer schools, you have reading and you have math. Well we had 
eight different hearings in the Education Committee in the last 
Congress. They said that a large portion of children did not 
qualify for entry-level jobs. That was not in D.C.; that is 
across this nation. These are CEOs of major companies that 
testified, at eight different hearings. They said applicants do 
not qualify because they cannot read and they cannot write. 
They cannot write a declarative sentence. They cannot speak the 
English language. They do not have the high-tech skills.
    And that is where it is important for you to have computers 
and the writing skills, and the reading, which is very, very 
important--and the math All of them belong in a summer program. 
Or maybe you would make it optional for them. Something for you 
to take a look at.
    Ms. Ackerman. No, we want you to know that daily writing 
exercises are a part of our summer school program.
    Mr. Cunningham. Good.
    Ms. Ackerman. We have it under the umbrella of reading, but 
every day there are writing exercises for our young people, K-
12, as a part of the summer school program. I do agree with 
you.
    Mr. Cunningham. Good.

                 Effort To ``Link'' Classes For Basics

    Ms. Cooper. Could I just raise two points? One of the 
things that Arlene is also doing and we, the trustee board, 
certainly applaud is linking class work. You know, sometimes in 
schools you'd have reading class. There's absolutely no 
relationship to any other class in the curriculum. So she's 
beginning to do that which will get the youngsters, perhaps, 
reading in one class, in a math class, then writing in the math 
class. And somehow there's a linkage. Maybe there's some 
discussion in the reading class of the history of math and what 
it means. But she's beginning to link those things together. 
And, hopefully, by September, that will be in place.

          Roof Replacements--Contract With Corps of Engineers

    The second point is on the roofs. The superintendent has 
entered into a contract with the Corps of Engineers and I'd 
like for her to speak to that, briefly, to give you a sense of 
how that oversight on the major maintenance activities will 
occur.
    Ms. Ackerman. Well, I think that that collaborative 
partnership that we have with the Corps is one that's certainly 
moving our facilities program forward, and moving our capital 
improvements program forward. And we have been working with 
both the Army Corps of Engineers and the city procurement 
office to ensure that the program goes smoothly.

                      Procurement Now Centralized

    Procurement is now centralized with the city, it is out of 
D.C.PS and part of a centralized city procurement office. And 
everybody's represented here today.

            corps of engineers--legislative language needed

    We meet weekly, sometimes more than once a week, but at 
least once a week to coordinate activities. I think we're going 
to need some help, though, some additional assistance from 
Congress. With the Corps, we'd like for them to play a larger 
role in this procurement effort and we're going to need some 
legislative language to accomplish that. What we need is 
language allowing them to exercise some contracting authority 
in our non-Federal projects. Right now they don't have it. GSA 
does have. The Army Corps does not. But it would make it move a 
lot quicker if we could have that kind of same authority given 
to the Corps. So we will send forward to you, for your 
consideration, some language that would help that happen.

   Vocational Education--Use of Experienced Professionals As Teachers

    Mr. Cunningham. One other area that you might take a look 
at. I don't use the term, ``senior citizen,'' I use the term, 
``chronologically gifted.'' [Laughter.]
    My mom likes that. But you have vast reserves of people 
that are very, very talented. When you bring them into 
vocational schools--not just babysitters, but the people that 
can actually contribute to the education system--they are 
delighted. They set up student programs where the students,go 
into the senior homes on a volunteer basis, at the same time the 
seniors pay back to the education system. It helps their quality of 
life in the homes and it helps the children too.

                            Union Resistance

    And we had a problem with the unions. They did not want the 
non-union people coming in. And that is where I say sometimes 
we need to set aside some of these things and look at what is 
really best for the children.
    So I want to thank the panel. We have a large 
responsibility to----
    Mr. Moran. Could I just ask----
    Mr. Cunningham. Sure.

                 Security Officers In Schools--contract

    Mr. Moran [continuing]. One question on violence in the 
schools. There was a contract let to--I believe it was--MVM 
Security Systems in 1996. You brought in--what was it?--222 
security officers and you let the police that were assigned to 
the schools go back into community policing. What are the 
results of that? Has that been successful?
    Ms. Ackerman. There have been mixed reviews about that. We 
have one more year on that contract. What we are doing, though, 
is looking at reviewing that whole issue of school safety, 
creating, next year, a department of school safety. We have, on 
loan to us from the Department of Ed, Sidney Yeldell, who will 
be coming and working with us. He has been on loan to a lot of 
school districts across the country. But he will be working 
with us to create this school safety department, to look at the 
issue of the MVM contract that we have and determine whether or 
not we want to continue with that.
    I also have been working closely with Chief Ramsey to 
develop some other measures around safety, not only in our 
schools, but in and around our schools. When we look at the 
serious incidents that we've had this year, they have not been 
in school, they have happened as our students are on their way 
home. So we have got to do some things differently to create 
safe passageways for our children to get from school to home. 
This area is under review and we will have, in place, a plan 
beginning with the new school year, to address this issue and 
to determine, very early on, whether or not we want to continue 
with that contract.
    Mr. Moran. You know, good. I am glad you are doing that. 
When you get 360 weapons being brought into school, you have a 
very serious situation and, from the papers, even though they 
may seem like isolated instances, they have an enormous 
detrimental impact on the schools when you do have situations--
tragic violence at the schools. That has got to be stopped. No 
parent should have to send their child to a school where they 
do not think that child is safe and so I hope that we are going 
to work that out so that we can guarantee that security.
    But, thank you, and I want to thank all the members of the 
panel. I didn't have any questions for GAO, but GAO does a good 
job. [Laughter.]
    And I see your reports----

      Vocational Education--Gavel Used to Open Republican Congress

    Mr. Cunningham. I brought this gavel for a special reason. 
Students at Scripps Elementary made this gavel for me. It was a 
school that was a model school, that has computers. They have a 
vocational education system where the students build modular 
units. The unions come in and help them with OSHA rules and, 
make sure that they are following the law. They sell these 
units to other schools that need space and then they add money 
into their own computer systems and education systems. And they 
made this for me. This is the gavel that opened the Congress 
after Republicans took the majority--it was used by the 
Speaker. [Laughter.]
    But it was also very personally given to me by the 
students, a vocational education group where some of the 
students make woodwork. Some of them are in construction. But 
others go on with those computers that design and actually 
build the modular units in homes and architecture and so on.

                Conclusion of Hearing on Public Schools

    So I want to thank the Board. I think we are going to have 
a lot of positive times ahead in D.C. thanks to your efforts.
    The last thing I would say is I miss General Becton. I 
thought he did a good job. He was in a very difficult position, 
but I am sorry to see him leave. Mr. Tiahrt is here. Do you 
want to ask any questions about schools or do you want to go 
on?
    Mr. Tiahrt. Not at this time.
    Mr. Cunningham. At this time I will ask Congressman Tiahrt 
to assume the chair.
    [Recess.]
                                          Wednesday, June 24, 1998.

                   CORRECTIONS AND RELATED FUNCTIONS

                               WITNESSES

MARGARET A. MOORE, DIRECTOR, DEPARTMENT OF CORRECTIONS
JOHN L. CLARK, CORRECTIONS TRUSTEE FOR THE DISTRICT OF COLUMBIA
JOHN A. CARVER, TRUSTEE, COURT SERVICES AND OFFENDER SUPERVISION AGENCY 
    FOR THE DISTRICT OF COLUMBIA
    Mr. Tiahrt [presiding]. I call this meeting to order. I am 
very pleased to welcome our next panel to discuss the District 
of Columbia's corrections functions for fiscal year 1999. We 
want to welcome our witnesses: Margaret Moore, director of the 
D.C. Department of Corrections; John Clark, D.C. Corrections 
Trustee; and John Carver, Trustee for Court Services and 
Offender Supervision. The Committee's policy is to swear in all 
witnesses.
    [Witnesses sworn.]
    We have your written statements and they will be included 
in the record and we would ask that each of you summarize your 
statements. If it is agreeable, we will hold questions until 
all three of the witnesses have made their comments. Ms. Moore, 
we would be pleased to hear from you first.

                 Opening Statement of Margaret A. Moore

    Ms. Moore. Thank you. Good morning, Mr. Chairman members of 
the committee. I appreciate the opportunity to appear before 
this committee today, along with Corrections Trustee John Clark 
and Offender Supervision Trustee Jay Carver to discuss the 
fiscal year 1999 budget request for the D.C. Department of 
Corrections.
    The fiscal year 1999 proposed budget for the Department of 
Corrections is based on the requirements of the National 
Capital Revitalization and Self Government Improvement Act of 
1997, which mandates that the District's sentenced felon 
population be transferred into the Federal Bureau of Prisons 
and that the correctional complex in Lorton, Virginia, be 
closed by December 31, 2001. I'm sure you know, Mr. Chairman, 
that the proposed gross budget for the Department of 
Corrections for fiscal year 1999, including the Medical 
Receiver's budget, is $270,313,000 and 3,022 FTE's of which 
$203,500,000 and 2,217 FTE's represents our proposed Federal 
government reimbursement.
    As you're aware, Mr. Chairman, the task of closing an 
entire prison complex is unprecedented. And, although my 
correctional experience is broad-based, the actual closure 
process, including the transfer of approximately 5,000 
prisoners and the displacement of more than 2,000 employees 
presents many formidable challenges. It will require the 
collective work and cooperation of many Federal and local 
agencies as well as frequent collaboration between the 
corrections trustee and the trustee for offender supervision.

                   progress in closing lorton complex

    Now we have already demonstrated our capacity to work 
together and I'm confident that we will continue to do so over 
the next three and a half years to ensure the safe and orderly 
closure of Lorton. Substantial progress has already been made 
in that regard and I'm pleased to report that the following 
tasks have been completed, as evidence of the progress that 
we've made. First, over a 135 sentenced female felons have been 
transferred to the Federal Bureau of Prisons, resulting in the 
closure of the minimum security annex in January of 1998, 
consistent with the Lorton closure plan.
    Second, the Federal Bureau of Prisons has trained over 60 
Department of Corrections case managers in the application of 
the Federal classification instrument. To date, more than 1,500 
inmates have been reclassified and, by the end of this Fiscal 
Year, we expect that the entire population will be 
reclassified, preparing for eventual transfer into the Bureau 
of Prisons system.
    Approximately 2,500 District of Columbia prisoners are 
already in private-sector prison beds. As a result of that, the 
medium security facility was closed and the population at 
Occoquan has been reduced from 1,651 in 1997 to 1,195 today, 
which represents approximately a 28 percent reduction in the 
population at that very troubled institution. The overall 
inmate population at Lorton has reached an all-time low. Today 
the count is 4,250 compared to 5,445 at this time last year.

        contract with virginia and closure of occoquan facility

    The proposed fiscal year 1999 budget will enable us to 
maintain our very aggressive efforts to close Lorton and to 
carry out other requirements of the Revitalization Act. And 
I'll mention just a few of them. You are probably aware that 
we're currently in negotiations with the Commonwealth of 
Virginia Department of Corrections for 1,200 prison beds. Those 
negotiations are progressing well. We anticipate having a fully 
executed contract by no later than the end of the first quarter 
of 1999. Execution of this contract will enable us to close the 
Occoquan facility by the third quarter of 1999.

                 2,000 prisoners to private sector beds

    We have reclassified and identified--or we have in process 
the ongoing reclassification and identification of low-and 
minimum-security prisoners for transfer to the Bureau of 
Prisons. Consistent with the Revitalization Act, we anticipate 
that 2,000 prisoners will be moved into private-sector prison 
beds by the end of fiscal year 1999, consistent, again, with 
the Revitalization Act.
    We've entered into a partnership with the corrections 
trustee and the trustee for offender supervision to provide a 
program of intensive supervision for inmates in the community. 
There are currently over 124 inmates in Lorton who have been 
recommended for parole by the D.C. Parole Board and the U.S. 
Parole Commission that we believe could be benefitted by this 
program, thereby further reducing the population at Lorton.

                   capital repairs of lorton complex

    We're real pleased that capital funding in the amount of $6 
million of the total $7.1 million identified for the Department 
of Corrections in the corrections trustees budget has been 
received from the trustees to assist us in much-needed repairs 
of the wall at the maximum security facility and other security 
enhancements throughout the complex to enable us to reasonably 
ensure the safety of staff, inmates, and the general public as 
we move through this unprecedented closure of the Lorton 
complex.

                   career transition center at lorton

    Mr. Chairman, prison work, under the best of circumstances, 
is difficult and stressful. But the imminent closure of Lorton 
and the displacement of thousands of employees have exacerbated 
the challenge for correctional workers. And, therefore, we have 
worked collaboratively with the corrections trustees to open a 
career transition center on the grounds of Lorton. At that 
center, employees have access to employment assistance, 
individual and family counseling, financial planning 
assistance, crisis intervention, as well as other support 
services. The transition center is staffed by D.C. Department 
of Corrections staff, staff from the Office of the Trustee, and 
additional support services and workshops are provided by the 
Department of Employment Services, the Federal Bureau of 
Prisons, the U.S. Office of Personnel Management, the D.C. 
Office of Personnel, and others, and will be open to 
corrections employees throughout the transition and until the 
year 2002.

                   stabilizing correctional workforce

    Finally, Mr. Chairman, the 1999 budget will enable us to 
complete the following tasks. First, to stabilize the 
correctional workforce. Our ability, our capacity, to complete 
this transition, to do the very difficult work ofcorrections is 
contingent upon the presence and the availability of correctional 
workers. This budget includes a number of incentives that will enable 
us to retain and recruit corrections personnel.

                      internal audits and controls

    Second, with the assistance of the corrections trustee, we 
will update policies and procedures and put in place systems 
for internal audits and controls that will enable the overall 
efficiency and effectiveness of our system to be significantly 
improved.

                      health care delivery system

    With the cooperation of the Bureau of Prisons, we have 
appointed a senior correctional health administrator, under the 
Intergovernmental Personnel Act, also known as IPA. We intend 
to restructure the Department's health care delivery system to 
improve the efficiency of that operation, as well as the 
effectiveness of our management structure.

                      contract monitoring program

    In conjunction with the chief management officer and the 
corrections trustee, we have begun to develop a comprehensive 
contract monitoring program. As we move additional prisoners 
into contract prison beds, the need for enhanced monitoring is 
quite evident.

                  lorton closure--schedule adjustments

    Also, along with the trustee and the Federal Bureau of 
Prisons, we're in the process of revising the Lorton closure 
schedule to make necessary adjustments in the schedule, for 
contract changes, as well as the Federal Bureau of Prisons 
construction schedule. But it's important to note that we are 
firmly committed, firmly committed, to ensuring that all 
facilities at Lorton are closed by December 31, 2001, 
consistent with the Revitalization Act.

                       strategic plan development

    And lastly, Mr. Chairman, along with the chief management 
officer, the corrections trustee, and the courts and as well as 
other members of the criminal justice system, such as offender 
supervision, trustee Jay Carver, we're in the process of 
developing a comprehensive, strategic plan and implementation 
strategy that will enable the D.C. Department of Corrections to 
transition from an integrated prison system to a municipal jail 
system.
    I'm happy to respond to any questions you have at this 
time.

           prepared statement of margaret a. moore, director

    [Ms. Moore's prepared statement follows:]


[The official Commmittee record contains additional material here.]

    Mr. Tiahrt. Thank you. We will wait and ask our questions 
after we have heard from all those who have testimony. I 
appreciate it very much, Ms. Moore. Mr. Clark, we would be glad 
to hear from you next.

        Opening Statement of John L. Clark, Corrections Trustee

    Mr. Clark. Good morning, Mr. Chairman, members of the 
committee. I'm pleased to have my first opportunity to appear 
before you as the Corrections Trustee for the District of 
Columbia. It's certainly an honor and a pleasure to appear here 
with Director Moore and Mr. Carver, whose offices worked so 
closely with us on the current transition.

                responsibilities of corrections trustee

    As you know, this office was established by the National 
Capital Revitalization Act of 1997. The primary 
responsibilities of my office are threefold. First, the 
financial oversight of all aspects of the District of Columbia 
Department of Corrections. Secondly, to facilitate the closure 
of the Lorton complex and the transfer of sentenced prisoners 
from the District to the Federal Bureau of Prisons by 2001. 
Third, to assist the DOC in its own reformation and long-term 
stabilization. The 1999 request of $184.8 million will meet the 
requirements of the Revitalization Act to assist the District 
of Columbia in housing those felons who will not have been 
transferred to the Federal Bureau of Prisons.

                    reduction in number of prisoners

    Progress has been made in the transition. Director Moore 
pointed out a number of the areas of progress. I'll reiterate 
just a couple. The total number of prisoners held in the 
facilities directly operated by the DOC, including Lorton and 
the D.C. jail, has been reduced from over 9,500 3 years ago to 
about 6,000. Under the present closure plan, that number should 
be reduced to well under 5,000 during fiscal year 1999.
    At the Lorton complex itself, one facility was closed last 
September and two are scheduled to be closed in the next year. 
At the 5 facilities currently in operation at Lorton, the 
overall count is about 4,200, down from 6,000 1 year ago, and 
from about 7,700 3 years ago. So there's progress in downsizing 
the numbers.
    However, to be clear, planning for the next steps of the 
closure in fiscal year 1999 presents an unusual challenge, 
because the pace of the transition depends upon the DOC's 
ability to secure suitable contract bids outside the system. 
With the assistance of our office, the District is working 
diligently with several jurisdictions. Director Moore mentioned 
one of those options in Virginia. And we're hopeful of a 
favorable outcome in the very near future.

                 impact on 3,000 corrections employees

    I must say that possibly the most difficult aspect of this 
transition is the impact on the almost 3,000 employees of the 
DOC. The Lorton closure will require that the number of staff 
be reduced to under 1,000 by the end of 2001. There's ample 
evidence that the staff, because of all of these changes, 
primarily, has become dispirited, confused, and the attrition 
in the workforce has increased significantly. In this regard, 
as Director Moore mentioned, the DOC, in cooperation with our 
office, is participating in an interagency taskforce that is 
working aggressively to provide an array of resources to assist 
staff who are facing separation.

                      inadequate internal controls

    Another major concern of our office is that the DOC does 
not yet have an adequate system of internal controls and 
accountability at the operational level, which would ensure 
that policies are carried out as written or that the 
performance of contractors is closely monitored by DOC staff. 
Our request includes funds targeted to the development of such 
a system of internal controls. In my estimation, a successful 
long-term reformation of the Department requires this resource.

               joint efforts with corrections department

    Finally, on the positive side, Director Moore and I, as 
well as our staffs, communicate regularly. We're working 
jointly on a number of fronts to accomplish the required 
transition and to improve the efficiency of the Department's 
operations. I've seen improvements in a number of vital areas 
in the DOC operations in recent weeks and months, including 
short- and long-term planning, inmate classification, financial 
record keeping, and community release procedures, to mention a 
few.
    With Director Moore and other leaders in her department, I 
have seen, in the months that I've been in this office, a great 
desire on their part to succeed, a great desire to repair the 
problems of the system. In that regard, I havegreat hope for 
the long-term success of our difficult joint ventures. Mr. Chairman, 
this concludes my remarks. I'd appreciate if you would include my full 
statement for the record. Again, I'd be glad to take any questions that 
you and the committee might have.

        prepared statement of john l. clark, corrections trustee

    [Mr. Clark's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Tiahrt. Thank you very much, Mr. Clark. Mr. Carver, 
please proceed.

              Opening Statement of John A. Carver, Trustee

    Mr. Carver. Thank you, Mr. Chairman, Mr. Moran. It's a real 
pleasure to be here today, invited to testify on our budget. 
This is my first appearance before this Committee in my 
capacity as trustee of the Court Services and Offender 
Supervision Agency, but it's not my first visit before the 
Committee. There have been many times, in another life. But 
it's good to be back.
    My function as Trustee of the Court Services and Offender 
Supervision Agency is to oversee the reorganization and the 
transition to the Federal government of the Pretrial Services 
Agency, the Adult Probation function, and the D.C. Parole 
Board, as well as the Public Defender Service. I really view 
this as a unique opportunity--perhaps unique for the entire 
country, but certainly unique in the District of Columbia--to 
build a truly effective system of offender supervision that 
will serve our community in ways that we've never been able to 
in the past.
    I sincerely believe that, by putting in place this system, 
we will have a significant effect in cutting crime; certainly 
cutting drug use, which of course is very much associated with 
crime; and generally providing a much safer environment for the 
citizens of our community and those who come to visit. I am 
optimistic about this, and, given the nature of the problem, 
you might wonder why I am so optimistic that these ambitious 
goals can be accomplished. But I think they can be 
accomplished, based on what we know from a lot of empirical 
evidence that underscores the fact that most of the crime being 
committed is committed by people who are repeat offenders; who 
are, by and large, already under the supervision of the justice 
system; and for whom we have very poor mechanisms for providing 
effective levels of intervention, treatment, and sanctions-
based supervision.
    So I think when you look at the fact that we already have, 
in effect, a captive population of folks under criminal justice 
supervision, the real challenge is to make that supervision and 
those interventions effective. I'm convinced that it can be 
done not just out of some pie-in-the-sky, optimistic belief, 
but because I have seen it done on small scales in this 
jurisdiction, and in other jurisdictions and I see it as my 
challenge to take what works on a small scale and to make that 
the norm across the board.
    I'm here to address our FY99 budget request. I would also 
like to transmit a separate budget request from the Public 
Defender Service. I believe the Committee has that.
    [CLERK'S NOTE.--See pp. 301-306 this volume, for prepared 
statement of the Public Defender Service.]

                  budget request for offender trustee

    Mr. Carver. I'll turn straight to the budget figures. The 
initial President's budget requested $59.4 million for fiscal 
year 1999 for the new agency. This budget was prepared, Mr. 
Chairman, at a time shortly after I took on this new 
responsibility and, to a certain extent, it was based on data 
that was not fully developed at that time. It was based on some 
assumptions that, upon further refinement of the data, rounding 
out the picture of what we're dealing with as a base, proved to 
be completely inadequate to the challenge we are facing in this 
city at this time in developing an effective system of offender 
supervision.

         30,000 individuals under criminal justice supervision

    I'd like to just give you a sense, Mr. Tiahrt, of the 
nature of the problem that we're facing. Right now, we have 
over 30,000 individuals in this city theoretically under 
criminal justice supervision. If you can just picture this. If 
you've ever been to RFK Stadium, that would basically fill 
every seat in the upper deck at RFK Stadium. That's how many 
people we have right now theoretically under supervision. It's 
about 1 in 20 D.C. residents, given the size of our community.
    Now a lot of those folks are heavily involved in drugs. We 
know this because we do have a comprehensive drug testing 
program at intake. We know this and the experience in the 
District is similar to that in other jurisdictions. Basically, 
we have two-thirds to three-fourths of the individuals under 
supervision with either active drug use or a history of 
addiction.

                       arrest record for parolees

    We also know that this group has extensive criminal history 
records. We recently pulled a sample of drug-involved offenders 
and defendants from Pretrial Services, Probation, and Parole, 
and the mean number of arrests for parolees was 9.6 arrests and 
10.2 for probationers. Now that's arrests. When you look at the 
number of----
    Mr. Moran. Excuse me, each person on probation has been 
arrested 10 times? This is on the average?

                   number of convictions per parolee

    Mr. Carver. Mean number. That is exactly right, Mr. Moran. 
And when you look at convictions, the mean number for 
probationers was 4.8 and the mean number for parolees was 4.5. 
Now this, as I say, is not, perhaps, a representative sample, 
because we are in fact in the process of gathering across-the-
board, baseline data. This was a sample of the most troublesome 
folks, those that have documented histories of substance abuse. 
And the point I'm trying to make is that our system just cycles 
people through without effective intervention and without good 
supervision.
    In fact, John Clark and I were, just a couple of weeks ago, 
over at the community transition center that Director Moore 
described. We had about 30 inmates there that had just been 
released from Lorton and they're coming into this strict 
residential transition housing before they go back to the 
community. We asked for a show of hands of all those who had 
been through the system before. And every hand went up with, I 
think, 1 exception, out of about 30 people. So we are cycling 
people over and over through this system.

         parolees--inadequate supervision and lack of sanctions

    And the reason for that, Mr. Moran, and the reason that we 
have so many parole violators in jail right now--I think it's 
600 or 700--is because we just don't have--and historically 
have not had--adequate supervision for when they do come back 
to the community. We don't have immediate and graduated 
sanctions. We don't have the ability, right now, to intervene 
at the first sign of drug relapse. And without the ability to 
do that, without the ability to bring somebody back and put 
that individual in a structured, residential setting where you 
can deal with the relapse, what you see happening is that 
relapse intensifies, it leads to criminal behavior, eventually 
the individual picks up a new criminal offense, and, of course, 
then you've got him back in prison on a parole violation.
    So the goal here, Mr. Tiahrt and Mr. Moran, is to build a 
system that can first of all provide effective 
supervisionthroughout the course of criminal justice oversight and then 
have the ability to move very quickly, within a day, ideally, and 
provide certain predictable, intermediate, and graduated sanctions when 
people start to slip. The fact that we can't do that now is, I'm 
convinced, a major factor in this endless recycling. It contributes to 
a deterioration of public safety and we know how to fix it. We have 
fixed it in small areas, but we need additional funding to be able to 
apply the benefits and apply the knowledge to a much broader segment of 
the criminal justice population.

                      $38 million budget amendment

    And that is why the administration is now supporting a 
budget amendment to the initial Presidential request in the 
amount of $38 million which would bring the total request, with 
this budget amendment, to $97.6 million. This is set forth in 
both the budget and the written statement that I submitted for 
the record.
    [The information follows:]

[The official Commmittee record contains additional material here.]



         amendment redirects funding from department of justice

    Mr. Carver. Basically, it redirects discretionary funding 
from within the Department of Justice, so it doesn't affect the 
allocations of this Committee.
    Mr. Moran. Do we have a problem with 302 (b) allocation for 
this money? We better get into this in depth. I do not want to 
interrupt his----
    Mr. Tiahrt. Yes. Let him finish his testimony and we will 
get into it in depth.
    Mr. Moran. Okay.

                opportunity to ``enhance'' public safety

    Mr. Carver. Okay. I'll summarize very quickly so you can 
get into questions. But the main point I want to make is that 
the Revitalization Act does far more than just federalize 
former D.C. government agencies. There's an opportunity here to 
make a significant enhancement to public safety in this 
community. And then when you look at what's going on and what 
Director Moore has described and what other witnesses will 
describe throughout the day, I think you can see that the real 
direction here is not just to do more of the same. More of the 
same would mean just continuing to nibble around the edges of a 
very large problem.
    We need, right now, a massive effort to build a better 
supervision infrastructure in order to intervene effectively 
and reverse this downward spiral of drug abuse and crime. We 
know this has worked.

                               drug count

    In my previous capacity as Director of the Pretrial 
Services Agency, I worked very closely with Chief Judge 
Hamilton to establish a drug court that provided a foundation, 
a model for the kind of sanctions-based intervention, coupled 
with plenty of drug treatment and social services, delivered in 
this framework of accountability. And we have seen, from this 
example, that effective supervision can substantially cut drug 
use, which has a corresponding reduction in crime. And we know 
what works. The challenge before us is to take what works on a 
small scale and apply that across the board.
    Now this, I recognize, is a very large, very ambitious 
goal. It's not going to happen overnight and it certainly can't 
happen without the support of Congress. Fortunately, the 
administration is on board and fully supports this effort and I 
believe has found a way to structure this budget amendment in a 
way that addresses the 302(b) issue. And with that I will be 
happy to conclude.

             Prepared Statement of John A. Carver, Trustee

    [Mr. Carver's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Tiahrt. Thank you for your testimony. I am sure we are 
going to have some questions.

              budget amendment not officially transmitted

    Before I yield to Mr. Moran, I would like to know when you 
think you are going to formally transmit the amendment of the 
$38.3 million? You noted it in your testimony. Will there be a 
formal request submitted?
    Mr. Carver. Yes.
    Mr. Tiahrt. And when will that be?
    Mr. Carver. I believe it has been approved, as I understand 
it, by OMB and is going through the final sign-off procedure to 
be formally transmitted by the President.

         $38 million budget amendment to reduce caseload ratios

    Mr. Tiahrt. Now you have talked about the need for the 
additional funding, but how will you expend the additional 
funds, if they are received?
    Mr. Carver. First of all, we will change the ratios of 
supervision. Right now, we have a situation where parole 
officers and probation officers, no matter how committed they 
are--and there are a lot of highly committed and dedicated 
folks--they are dealing with caseload ratios of, in many cases, 
from 1 to 200. In the case of one agency, it's 1 to 900. So one 
of the first things that would have to be done is--and that's 
where most of the new positions are--to get those caseload 
ratios down to Federal standards, best practice standards. And 
that's where most of the positions would go.
    Mr. Tiahrt. What is that caseload approximately? Some 
supervisors are, I believe, up to 900 cases.
    Mr. Carver. Right. And in Pretrial Services, when you look 
at the number of Pretrial Services officers providing direct 
supervision, the caseload ratios are 1 to 900. Now that is the 
agency where there's a very high level of automation and a very 
high level of drug testing, so it is in effect, not as bad as 
it is in the other agencies where it's routine to have caseload 
ratios as high as 1 to 200. So that has to be addressed.

                 information technology infrastructure

    There's another major initiative, and I'll be happy to 
spell out for you the actual numbers--but just in some general 
terms, information technology infrastructure is absolutely 
essential. You've got to have information on compliance and on 
status instantly available to those in a position of making 
decisions and actually implementing a system of graduated 
sanctions at the first sign of trouble. So there's an 
initiative to continue work that's already well along the way 
in one component of the overall agency, to make sure that this 
is available throughout the agency.

                            sanctions center

    Another very important initiative, and this is something 
that we've worked closely with Director Moore and John Clark 
on, is to develop a sanctions center. We have $7.5 million 
identified from discretionary DOJ funding from the Truth-in-
Sentencing Prison Construction Grant program that would fund 
the renovations necessary, or the development necessary, to 
establish the kind of combinationresidential, halfway-back 
option, sanction center where, when people start to slide, you can 
address that slide before it turns into crime and get them back into a 
residential, structured, secure setting.
    Mr. Tiahrt. Is that what you mean when you say ``we know 
how to fix it''?
    Mr. Carver. Yes, that's exactly right.

               drug court intervention--frequent testing

    When we set up our drug court intervention program--and 
this, Mr. Tiahrt, reaches just maybe 200 of the 20,000 drug-
involved folks that are out there--but when we set that up, we 
designed it in such a way that people were tested very 
frequently, twice a week or three times a week, and the day 
they tested positive, a sanction would be applied. The sanction 
would be either referral to a secure detoxification program or 
a jail-based sanction. The idea is that you've got to move very 
quickly when individuals begin to relapse.
    Right now, we do not have the capability to intervene 
effectively when we detect trouble.
    Mr. Tiahrt. Are you saying this because of the number of 
employees available for counseling?
    Mr. Carver. It's a question of employees.
    Mr. Tiahrt. For supervision?
    Mr. Carver. It's a question that we don't have the 
infrastructure. We do not have the physical facility to put 
people on the scale that will be needed. And the other point is 
drug testing. Right now we have very good drug testing in one 
of the component agencies, Pretrial Services. It's automated. 
It does a very high-volume of urine testing, but we are just 
beginning to expand the benefits of this automated drug testing 
into the larger population of individuals under probation or 
parole supervision.
    So part of this infrastructure that has to be built is the 
capacity to provide regular, probably twice-weekly, drug 
testing for anybody that has any history of substance abuse. If 
we don't do that at a bare minimum, we are really closing our 
eyes and cutting off the opportunity for the most effective 
form of intervention. We know that a slide back into drugs is 
also associated with a slide back into criminal behavior and 
that the failure to act, almost immediately, invariably will 
lead to crime and a reduction of public safety for the 
community.

        budget amendment funded with department of justice funds

    Mr. Tiahrt. Why is the administration proposing to go to 
Commerce, Justice, State, and Judiciary for funding of this 
amendment?
    Mr. Carver. Well, as Jesse James said----
    [Laughter.]
    When they asked why he robs banks, because that's where the 
money is.
    Mr. Tiahrt. Because that's where the money is. Okay. What's 
the impact if we don't have a budget problem?
    Mr. Carver. But a more serious answer, Mr. Tiahrt, is the 
fact that we already have in Commerce, Justice, State, a number 
of Department of Justice discretionary grant programs allocated 
to States for very similar purposes. We're in kind of a unique 
situation in that we are a transitioning Federal agency 
providing what would be a State function in any other State. So 
the mechanism there, which is a one-time-only redirection from 
discretionary funding, is to take in a number of program areas, 
prison construction, COPS program, drug testing, those funds 
that would be available to a State and simply direct them to 
the Court Services and Offender Supervision Agency for the 
implementation of this infrastructure that is so necessary 
given the extent of the problem.

                budget amendment--impact if not approved

    Mr. Tiahrt. If we cannot provide this funding because of 
our allocation problems, what would be the impact?
    Mr. Carver. Well the impact is that we will not be able to 
address the public safety issues that face us and we'll have to 
continue to work with the administration and with Congress to 
somehow find the resources that would be necessary for building 
the kind of system that can serve the public.

                  use of community-based organizations

    Mr. Tiahrt. In your strategic plans, have you considered 
using private organizations or faith-based organizations for 
some of these people who have slipped back into the problem of 
drugs?
    Mr. Carver. Yes, we have. And, in fact, what we're moving 
to much more of a neighborhood-based, community justice model. 
It's been my experience that there are many, many organizations 
in the community who are doing lots of good work and I think 
the entire field is kind of moving to the point where we really 
have to form new partnerships with faith-based organizations, 
with social service providers, and with other partners in the 
criminal justice system. We're working very closely with new 
Police Chief Ramsey to develop a new kind of a partnership 
between community-oriented policing and community-oriented 
offender supervision.
    But the answer to your question is: absolutely. We are even 
discussing the feasibility of reconfiguring offender 
supervision caseloads to match the PSA configuration, that's 
the patrol service area geographical reconfiguration of the 
police department. So you'd have community-oriented police 
officers working hand-in-hand with community-oriented 
supervision officers in a partnership that, I think, would be 
very beneficial. You'll see in the budget request that one of 
the infrastructure items we have is to add eight additional 
community supervision centers so that we can move our officers 
from downtown locations into the neighborhoods themselves.

            availability of qualified applicants for hiring

    Mr. Tiahrt. If we can find the money, do you have the 
capacity to hire and train qualified people for this job?
    Mr. Carver. Yes, we do.
    Mr. Tiahrt. The unemployment rate in northern Virginia is 
about 1.9 percent. So these people that are available can be 
trained?
    Mr. Carver. Yes. We haven't even done as much recruiting as 
we can do, but right now, for example, we have a stack of 
resumes, and about 80 people in the pipeline for community 
supervision officer positions. We have the foundation of a very 
good training program already in place in terms of about eight 
individuals whose sole function is staff training and, 
especially, computer training.
    So, we see this, Mr. Tiahrt, as something that has to be 
done. After all, the statute requires that I certify, by August 
5, 2000, that the agency is ready to assume its full functions, 
consistent with Federal standards. And so it's really a 
situation where we don't have any option butto ensure that we 
have the capacity, the pipeline in place, the training in place by 
what's really a statutory deadline for accomplishing these objectives.
    Mr. Clark. If I could interject. One crossover area here is 
that, while he's building a large agency, we're downsizing 
Director Moore's agency. So there are a number of well-
qualified caseworkers and others in the Department of 
Corrections who might be able to transition into Jay's system 
here.

      indirect administrative costs of $44 million for corrections

    Mr. Tiahrt. I have one more question and then I am going to 
change gears a little bit. First the prison takeover cost; the 
budget request is $44 million over what was asked for by the 
administration for the Federal corrections trustee. Was there 
miscommunication in this or is this about not being able to get 
our arms around the task? And are there any other 
administrative indirect costs that are somewhere in the budget 
that we don't know about?
    Mr. Carver. I can't speak to the corrections budget, but 
with respect to the Offender Supervision budget, I think that's 
a very fair question, Mr. Tiahrt. And I have now, since that 
initial budget was fairly hurriedly put together and 
transmitted last November, done a very lengthy and careful 
analysis of who's under supervision, what the level of risk is, 
what would be required to build a truly effective system of 
offender supervision. I am now confident that we do have our 
hands around the problem. We do know the scope of the problem.
    Some of this developmental effort has already been going 
on. So that gives us a pretty good gauge, for example, of what 
it's going to take to build the information technology 
infrastructure that will serve this agency. So I think we're 
now to the point where I personally have a very high level of 
confidence in the budget projections and the implementation 
plan necessary to get us where we need to be by August 5, 2000.
    Mr. Tiahrt. Ms. Moore, are you familiar with the budget 
request for increased support?
    Ms. Moore. Yes, sir.
    Mr. Tiahrt. Are there other costs that are associated with 
that or do you think that's the total of the increase?
    Ms. Moore. The $44 million, Mr. Chairman, represents 
approximately $25 million in external indirect cost that the 
chief financial officer believes necessary to support the 
agency's transition. It also includes approximately $18 million 
for the full cost of housing the number of sentenced felons in 
the system as defined by the agency. I will acknowledge right 
up front that there is some differing of opinion on this point 
between the city and the corrections trustee. But I think the 
important point in this discussion at this point is that we are 
firmly committed, firmly committed, to moving forwards with the 
closure of Lorton by the designated closure date of December 
31, 2001.
    Mr. Tiahrt. All right. Thank you very much. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. There are a number of 
issues that I want to address. Let me address the most recent 
one that was brought up. There is a disagreement between Ms. 
Moore and Mr. Clark in terms of the $44 million requested. In 
your testimony, Mr. Clark, you say that you do not agree with 
the conclusion of Dr. Brimmer, the head of the Control Board. 
Do you want to just summarize that? I do not want to read this 
whole thing, but you are suggesting that the job cannot be done 
for $44 million? And that the analysis that went into the 
estimate was flawed. Is that true?
    Mr. Clark. Well----
    Mr. Moran. Because of the pay raise and the definition of 
sentenced felons and so on.

                    disagreement with control board

    Mr. Clark. Yes, there are two fundamental issues over which 
there's disagreement. Not so much even between Director Moore 
and myself, but between District officials and the 
administration. The two issues are, as Director Moore 
mentioned, in the one case costs which are external to the 
Department of Corrections. Costs related to the central 
government of the District. And the second would be the 
definition of the responsibility between the Federal government 
and the District government for a particular number of 
offenders.
    So most of the $44 million is related to those two issues 
and let me say a couple of things in regard to our point of 
view on this. First of all, the $184.8 million that we have 
requested, I feel, is adequate and fair. It's a 9 percent 
increase over the current year funding. It was arrived at after 
consultation with the chief financial officer's office and 
Director Moore's financial staff. They did not agree with it, 
but there was a significant degree of consultation.
    Of course, this all happened, as Mr. Carver mentioned, we 
had to submit our budgets close upon taking office last fall, 
but I still stand by it. I think it was a fair and adequate 
figure. And that it provides for $27,000 or $28,000 per inmate, 
whereas the national average cost for State systems is around 
$20,000 or a difference between, on a daily basis, about $77 a 
day that this request would fund versus about $55 a day as the 
national average.
    But the two issues, the two basic, fundamental issues, 
which really arose and were dealt with prior to my coming into 
this appointment, are the external costs, which primarily are 
costs, as I say, that do not relate directly to the Department 
of Corrections. They are depreciation on other governmental 
buildings in the District and interest on bonds. I think those 
two categories relate to about two-thirds of the cost. There 
are some other costs of running the CFO's office and personnel 
costs and so on.
    And the second issue--and again this was an issue, it's my 
understanding from everyone that I've talked to, including 
staff on this Committee, that this was an issue that was dealt 
with in negotiations leading up to the Revitalization Act. 
These were costs that were not agreed by the Administration 
would be part of the deal. And the issue has been raised again 
in the interim and has kind of been put on our plate here to 
try to deal with. The second issue is in kind of the same 
category that we thought had been settled through the 
memorandum of understanding between District officials and the 
Administration, in which inmates, in the long-run, will be a 
responsibility of the Federal government versus which will be a 
local responsibility.

                 memorandum of understanding very clear

    There's a certain degree of vagueness in the Act because it 
talks about sentenced felons, but the memorandum of 
understanding that was entered into last May, I believe, is 
very clear, a memorandum of understanding signed by city 
council, the Chair, and the mayor, is very clear that the 
disputed categories would not be a Federal responsibility. 
Therefore, in the interim, they would not be a responsibility 
of the trustees office and the trustees budget. And most of 
those are cases who have been sentenced, have served terms of 
confinement as felons, have been out in the community on parole 
or supervision, have been arrested for new crimes, are being 
held in local detention awaiting adjudication. And it would be 
the theory of the consultants of the District that these cases, 
because they had been serving a sentence when they committed 
their crime, would be a Federal responsibility. That is not 
consistent with what was in the memorandum of understanding and 
so--that relates to several hundred--some hundreds of inmates 
which equates to, I think, over $10 million.
    So those are the two issues. I hope I'm making myself 
clear, but these are issues that we had thought were settled 
before we came into office and have been raised again. And, 
quite frankly, have been a matter of some frustration to me and 
our office in that it has set up a certain degree of conflict 
between our office and the District and I would like to get 
beyond this and be able to deal with the transition and the 
reformation of the Department and the things that are our real 
mission.
    So I'm--in that regard--I'm pleased that Dr. Brimmer has 
raised the issue before both your Committee last week and the 
Senate several weeks ago. But that's my understanding of the 
difference between the $44 million. And I, again, bottom line, 
am comfortable that the $184 million that we have requested is 
adequate and fair.

          additional $44 million not likely to be appropriated

    Mr. Moran. Well, you are not going to get it. You mean the 
$184 million compared to $44 million? What do you mean?
    Mr. Clark. No, no, the difference is between $184 million--
this year the amount that was appropriated was $169 million. 
The amount that we have requested is $184. The amount that Dr. 
Brimmer has suggested is somewhere around $228 million.
    Mr. Moran. Oh, I see what you're suggesting.
    Mr. Clark. So it's the $44 million on top of----
    Mr. Moran. I should say Dr. Brimmer is not likely to get 
the additional amount. But it is not clear to me, I do not know 
whether it is to you, Mr. Tiahrt, I am not familiar with this 
conflict that has been going on. But perhaps Migo can fill us 
in. At some point, we need to understand what we are pulling in 
here. I do not think you are going to get that extra money if 
you do not want it. But I do not know that it is even worth 
taking up the Committee's time to get into it in depth. I have 
got to understand it better. Does Mr. Taylor understand this 
fully? Maybe I should not ask you for the record what is it----
    [Laughter.]
    That is it. Okay.
    Mr. Clark. Your point's well made that we need to perhaps 
spend some time outside the hearing----
    Mr. Moran. Figuring out what to do. Yes, yes. Okay.
    Ms. Moore. Let me suggest, Congressman Moran, for the 
record, that Dr. Barnett is here and that we will be happy to 
meet with you and you, Congressman Tiahrt, to have a further 
dialogue about this issue.
    Mr. Moran. Yes, well, apparently a further dialogue is 
necessary.

$44 million--letters from delegate norton and omb director frank raines

    [CLERK'S NOTE.--The following letter dated March 17, 1998, 
to Chairman Taylor from Delegate Norton together with a letter 
dated May 14, 1998 from Franklin D. Raines, Director of the 
Office of Management and Budget, to Delegate Norton, provide 
additional information concerning the $44 million requested for 
District government indirect costs:]

[The official Commmittee record contains additional material here.]



           30,000 persons under criminal justice supervision

    Mr. Moran. Let me ask about, Mr. Carver, some of the issues 
that fall into your bailiwick. First of all, the numbers. We 
have a, what, an adult male population in the District between 
the ages of 18 and 40--I should have figured this before 
asking; you're not going to have this number at the top of your 
head--but, basically, the people on probation and parole fall 
within that category, and they're virtually all male, I would 
assume. Are they?
    Mr. Carver. All adults. General statistics are that 90 
percent of the population is male to 10 percent female. I 
actually have the number under parole supervision, 7,941. This 
was as of a few weeks ago. Under probation supervision, 10,773. 
And under Pretrial Services, pretrial supervision, 12,100.
    Mr. Moran. There is no double counting in here, one would 
assume.
    Mr. Moran. This is the current status.
    Mr. Carver. Right.

                    question of ``double counting''

    Mr. Moran. So they would not be under--they would only be 
under one status, would they not, at one time?
    Mr. Carver. There are some individuals that have multiple 
statuses across the system, that's true.
    Mr. Tiahrt. So it is not 30,000 people per se.
    Mr. Carver. Although I think the way this was done, this 
was based on the unique police identifier so as to avoid the 
double-counting issue.

         number of crimes and arrests involving 30,000 parolees

    Mr. Moran. So you have got roughly 30,000. And you say 
there is an average of 10 crimes per individual included in 
this population? And an average of five arrests?
    Mr. Carver. You can't even measure crimes, but as a 
surrogate for crime, we look for arrests. And, again, this 
gives the general outline of the extent of criminality among 
this population. And I don't mean to portray these figures as 
representative across the board. We will have that for you 
within the next month or two but, as I indicated, what this 
sample represents is a sample of individuals with drug use 
problems that happen to be in a regimen where we have been able 
to do some very extensive data collection. So it's really kind 
of a----
    Mr. Moran. This 30,000 is not the total of people on 
probation, parole, and pretrial detention?
    Mr. Carver. It is. I'm sorry, Mr. Moran. I thought you were 
turning to the number of----
    Mr. Moran. Oh, okay.
    Mr. Carver. Mean number of arrests and the mean number of 
convictions.
    Mr. Moran. Of that group, you did a sample.
    Mr. Carver. Correct.
    Mr. Moran. But you only looked at the people with drug 
problems.
    Mr. Carver. In this sample, yes.
    Mr. Moran. Which represent what?
    Mr. Carver. Two-thirds of the whole sample.
    Mr. Moran. Two-thirds. Two-thirds of the sample.
    Mr. Carver. Right.
    Mr. Moran. And they had an average of 10 arrests----
    Mr. Carver. In probation----
    Mr. Moran [continuing]. And----
    Mr. Carver. 4.8 convictions for probation. For parole, 9.6 
arrests and 4.5 convictions. These sound high.
    Mr. Moran. Yes.
    Mr. Carver. Again, if you're in any group of----
    Mr. Moran. And the arrests are probably, what? After they 
did the crimes that they committed.

             300-500 crimes per year per offender on drugs

    Mr. Carver. Well, actually, Mr. Moran, there have been 
studies that show that--and they've been done in Miami and 
they've been done in Baltimore--show that among offender 
populations, individuals that are heavily involved in drugs 
tend to also be heavily involved in crime to the point of 
committing 300 to 500 crimes per year. This is somework that's 
been done by Professor James Inciardi. I'd be happy to supply more 
detailed information to you.
    [The information follows:]

[The official Commmittee record contains additional material here.]



                    reducing drug use reduces crime

    Mr. Carver. But the point is, these same studies show that 
if you can reduce the drug use, that the corresponding level of 
criminality goes down at the same time. And, finally, that if 
you really use criminal justice supervision effectively, you 
can reduce the drug use. If you have a sanctions-based system 
where you can respond almost immediately any time someone uses 
drugs and in such a way that you have an immediate, graduated, 
known response, this works.
    What we have now is no graduated responses, but the 
possibility that at some point in the distant future something 
might happen. That does not work to deter drug use and to deter 
offending. So the challenge here is to take what we know 
empirically, put that into practice, and build the kind of 
infrastructure that will permit us to detect the first sign of 
trouble, and then to act on it.
    Mr. Moran. Okay, well, do you not have drug courts in the 
District?
    Mr. Carver. Yes, we do.
    Mr. Moran. Yes.
    Mr. Carver. And that's why I describe it as nibbling at the 
problem around the edges. The drug use problem is so much more 
extensive than that which can be served by the drug court that, 
in effect, what we have to do is to take proven techniques and 
apply them across the system. We should not be content with the 
system that treats a lucky few who happen to end up in one of 
these programs.
    We have to, I think, Mr. Moran, stop thinking in terms of 
programs here that do this or that and reach a tiny fraction of 
people. Let's refocus our thinking on changing the processes in 
which the criminal justice system actually uses, in an 
effective and beneficial way, the power the system already has.
    Mr. Moran. To incarcerate, you mean. Take them off the 
streets?
    Mr. Carver. No.
    Mr. Moran. What is the power?
    Mr. Carver. The power is to set conditions of release and 
enforce those conditions.
    Mr. Moran. Well, what is detention? It is if you do not 
comply.
    Mr. Carver. Right now, we have jail, but jail occurs maybe 
six months or a year after the behavior that you're trying to 
change. So what we have to get to is a point where, as we're 
supervising, as we're monitoring drug use for people already 
under supervision, you intervene the first time a person uses 
drugs. And that can be with a short sanction.
    Mr. Moran. Well, what? What is a sanction? Use some real 
terms here.
    Mr. Carver. All right.
    Mr. Moran. What do you do? Put them in jail. You do not 
whip them.

                   use of sanctions for drug offenses

    Mr. Carver. I'll tell you how it works in the drug court. 
First time a guy uses drugs, he has to spend three days in the 
jury box watching drug court. The second time he uses drugs, 
he's got to go to a detox facility. The third time he uses 
drugs, he has to go to jail for three days. And then every time 
he uses drugs----
    Mr. Moran. You check weekly.
    Mr. Carver. Twice weekly, at least in that case.
    Mr. Moran. Twice weekly. Okay.
    Mr. Carver. And so what you have is a situation where the 
defendant knows the consequences. It's not like some 
theoretical consequence in the distant future.
    Mr. Moran. Good. Now that makes a lot of sense. And that's 
what you want to do with the $38 million?
    Mr. Carver. Exactly. That's the model.
    Mr. Moran. But that's all through the court system, right?
    Mr. Carver. Not just the court system.
    Mr. Moran. So these people out in the community would be 
doing the drug testing too?
    Mr. Carver. Yes.
    Mr. Moran. They do not go to the court. They----
    Mr. Carver. Well, right now they do have to come to the 
downtown location just to get drug tested. The vision is that 
we're going to have these neighborhood community supervision 
centers where they can report for drug testing.
    Mr. Moran. You cannot do it in the police stations around 
the city?
    Mr. Carver. We're doing a lot of it now. In fact, I have 
here a picture of a lab we have right now.
    Mr. Moran. Those are all urine samples, I suppose.
    Mr. Carver. Yes. That's more urine than I've ever seen in 
one place. [Laughter.]
    But it's stacked literally, as you can see from this 
picture, from floor to ceiling.
    Mr. Moran. And that's downtown?
    Mr. Carver. That is downtown. And this, Mr. Moran, serves 
only folks, or primarily folks, in a Pretrial status. We are 
not yet to the point where we have a lab with this much urine 
in it that can serve the public's need to have parolees tested 
with the same frequency. Virtually every one of the people 
coming out on parole, and you can see from these statistics, 
has a history of drug use. Now when they come out, they may be 
clean. But unless you get them into a regimen and use support 
and with----
    Mr. Moran. Twice weekly. But if you have 30,000 people, you 
have to monitor the urine sample, right? And then you have to 
test it. How many people are you talking--you cannot have 
enough now that can perform that task for 30,000 people.
    Mr. Carver. That is exactly right.
    Mr. Moran. And so you would need to hire how many to do 
that task? It adds up to over a thousand something.

           second urine lab needed for drug sanctions program

    Mr. Carver. That's for the full FTE count. What we propose 
to do is to build a second lab. We have one lab and, as you can 
see from this picture, it's completely stretched to capacity.
    We want to build a second lab. The lab itself can be 
centralized and downtown. We have the capacity now to have a 
completely automated process for conducting these kinds of 
tests. People check in. They're identified electronically. A 
bar-coded label is printed. The analyzing machine reads the bar 
code label. And right now the result can be done within 20 
minutes and available to judges on the bench from a computer 
screen. That's fine for that segment of people, but we do not 
have that as an infrastructure.
    Mr. Moran. And you want to make it available for all 30,000 
of the population?
    Mr. Carver. That segment of the 30,000 with known histories 
of drug use
    Mr. Moran. Two-thirds of them. 20,000 people.
    Mr. Carver. Correct.
    Mr. Moran. 20,000 people or less.
    Mr. Carver. And I should say, Mr. Moran----
    Mr. Tiahrt. Mr. Carver, may I see the picture?
    Mr. Carver [continuing]. That this isn't just something 
that we want to do. This is an administration initiative 
throughout the country. There's a lot of evidence and, in fact, 
Congress has had a number of witnesses up here talking about 
the potential value of setting up exactly this kind of system 
where you really can intervene almost immediately.
    Mr. Moran. Well if you really can stop 300 crimes, and that 
is the conservative figure, in a year times 20,000, then that 
would have a sea change--that would dramatically change the 
entire criminal justice system and rate of crime and sense of 
public safety in the District of Columbia. If you could set 
that up and could accomplish that overnight. I do not know 
where you are going to put all these people when they violate 
it, but I suppose having immediate sanctions and keeping 
immediate track of whether they are using drugs would deter the 
likelihood.

                         drug court experience

    Mr. Carver. Yes, actually we have some information on that, 
Mr. Moran, from our experience with Chief Judge Hamilton in 
setting up the drug court.
    [The information follows:]

[The official Commmittee record contains additional material here.]



             experience with offenders in sanctions program

    Mr. Carver. We actually looked at the number of people that 
continued to violate. The first time a sanction had to be 
applied, it was applied to two-thirds of the people. But at 
each subsequent stage, the sanctions had to be applied to only 
half of the people the previous level had been. So what you see 
is that if you really can set this up, you eventually have a 
situation where people just get tired of the aggravation. First 
of all, they know what's going to happen. They get tired of the 
aggravation of these short disruptive stints in jail. And that 
sometimes is the first time that they decide, well, I've got to 
get serious. I've got to really get serious about getting 
myself together and getting off drugs.
    People don't want to be drug addicts, Mr. Moran, but 
sometimes they need the structure the criminal justice system 
can provide, or families can provide, if they have good 
families. But they need that structure to help them reach a 
level of sobriety and function.

       $38 million amendment available from department of justice

    Mr. Moran. I got you and I agree with you. You have 
identified money that all three of us agree will come out of 
the Commerce and Justice appropriations bill--that will come 
out of the Department of Justice appropriation. Justice agrees 
that that should be done. Do we know whether our sister 
subcommittee wants to do it too? We have no idea. Does it not 
conflict with the allocation? It does not. We could do that. So 
we can do it if Justice wants to, if Mr. Roger's subcommittee 
wants to. So we would need to make a push to do that, or to 
find the money in this bill. Okay. And you would estimate that 
that solves or reduces as many as 60,000 crimes? I mean that is 
a little reductio ad absurdum with your statistics. But, 
anyway, if it is anywhere near what these statistics indicate 
it is, it is probably the most important thing we could do in 
this budget.

                     housing prisoners in virginia

    I have some questions on housing prisoners in Virginia, but 
you have answered them. You have to send them to Virginia and 
they have to be done? I mean, we are going to do that, right? 
Is that Mr. Clark's issue?
    Mr. Clark. Well, we're both on this issue. Ms. Moore and I 
are working collaboratively on this. In fact we were just in 
negotiations going out within the last few days. There's 
nothing signed, but we're very confident that everything's 
going in the right direction.
    Mr. Moran. All right. Well, the discussion we had with Mr. 
Davis--Mr. Davis' office--was not particularly productive, but 
you think things are moving along?
    Mr. Clark. In the last several weeks.

               lorton--sewer overflow and toxic problems

    Mr. Moran. Let me ask you another question here. There are 
some serious sewer overflow and some toxic problems at the 
Lorton facility that have to be cleaned up. Are we moving along 
on that so that that land is going to be usable?
    Ms. Moore. There is money in the capital budget for Lorton 
to address sewer system problems as well as some environmental 
clean up. I believe that all of those issues will be corrected 
prior to the closure of the----
    Mr. Moran. The land is handed over. Okay. Very good.

           new prison proposed on national park service land

    I have one other question I wanted to ask Ms. Moore about 
the prison that would be built privately on the Maryland side 
of the Potomac there on National Park Service land. Have you 
weighed in on that at all?
    Ms. Moore. I know of no definitive plan at this point, Mr. 
Moran, to build a facility in the District or on the Maryland 
side.
    Mr. Moran. Well, it's the CCA.
    Ms. Moore. Right. I understand that, that Corrections 
Corporation of America has land in the District. I don't know 
and in fact I do not believe that the Bureau of Prisons has 
awarded the contract to any vendor to build a facility anywhere 
at this point, you know. And John may know more about this than 
I do. But I am aware of no definitive plan at this point to 
build a private facility in the District.
    Mr. Moran. So even if they did get the land from the 
National Park Service, they're not necessarily assured that a 
prison is going to be built on it.
    Ms. Moore. You're--that's correct. They're not assured of 
that.
    Mr. Moran. They are investing an awful lot of money and 
resources and time and energy--and a fair amount of emotion 
into getting that land. It would be quite a shock if they then 
finally get the land and we intervene and help them get the 
land, and then they do not have any prison to build on it.
    Mr. Clark. Well, if I could speak to that, sir, it is the 
Bureau of Prisons requirement to do this privatization of 2,000 
beds by the end of next year, so it's not anything that 
directly is involved in our responsibility, either Director 
Moore's agency or mine, but because of my previous 
responsibilities with the Bureau of Prisons and our continuing 
contact with them, I'm very familiar with what's going on.
    Essentially, they issued a request for proposals early this 
year. The bids were due in in April. They expect to--and I'm 
sure that this is a competitive procurement where there are 
several companies, in the very least, who would be offering 
proposals. Of course it's very confidential as to who they are 
or where they may have land. There's a lot of publicity about 
this one particular site that this one company has. It's not 
generally known where several of the other companies have their 
sites. The requirement of the RFP was that it be within 300 
miles of the District and I think there was going to be a 
reward in the evaluation process for proximity to the District.
    The Bureau of Prisons has said that they intend to make the 
award by the end of the summer. So, within six or eight weeks, 
I think it will be known whether this particular parcel of land 
is the one belonging to the company that's been awarded the 
contract. But it's certainly very much up in the air at this 
point.

            Youngstown, Ohio Facility--Problems and Concerns

    Mr. Moran. Well, if--CCA wants to build it. I know there 
has been some adverse publicity about that Youngstown facility 
too. Did you see the incident at that Youngstown facility as 
being inconsistent with what happens at Lorton? I mean, two 
prisoners were killed, right? Does that give you cause for 
concern?
    Ms. Moore. Any time, Congressman, a prisoner is killed or 
staff member or prisoner is seriously injured, it gives me 
cause for concern. I am not, however, ready to assume that CCA 
lacks the capacity to manage the District's prison population.

      D.C. Council Favors New Privately-Operated Facility in D.C.

    I will say in response to your initial question, though, 
that I'm aware that the Council of the District of Columbia has 
voted in favor of the construction of a privately operated 
facility in the District of Columbia, insomuch as doing so 
represents some fairly significant economic development 
opportunities for the city.
    Mr. Moran. Well, I understand that CCA has a good 
reputation. I was surprised at that article. And it may not be 
inconsistent with violence that occurs at Lorton. It seems to 
me that we ought to try to build a private correctional 
facility in D.C. that would provide jobs to D.C. residents. 
Rather than get into any other issues, I will conclude at this 
point. Thank you.
    Mr. Tiahrt. Thank you very much. We appreciate your being 
here and your testimony very much.

             Bureau of Prisons Testimony on Lorton Closing

    [CLERK'S NOTE.--The following excerpt from testimony 
presented March 12, 1998, by Kathleen M. Hawk, Director of the 
Federal Bureau of Prisons, to the House Subcommittee on 
Appropriations for the Departments of Commerce, Justice, and 
State, the Judiciary, and Related Agencies, relates to the 
closing of the Lorton Prison Complex as mandated by the 
National Capital Revitalization and Self-Government Improvement 
Act of 1997 (Public Law 105-33, approved August 5, 1997):]
    Department of Justice, Statement of Director, Federal Bureau of 
      Prisons--Kathleen M. Hawk, Before the House Subcommittee on 
Appropriations for the Departments of Commerce, Justice, and State, the 
                    Judiciary, and Related Agencies
    Mr. Chairman and Members of the Subcommittee:
          * * * * * * *
    The newest challenge facing the BOP is, and will be, the absorption 
of all District of Columbia (D.C.) sentenced felons into BOP custody by 
2001.
    The 1999 request focuses on adding prison beds to keep pace with 
projected inmate population growth, and capacity to meet requirements 
of the National Capital Revitalization and Self-Government Improvement 
Act of 1997. The Act directs the BOP to assume responsibility for 
confining or contracting for bed space for all sentenced D.C. felons by 
October 1, 2001.
                             Budget Request
    The FY 1999 request for the BOP totals $3.4 billion, including the 
following program increases: construction of four Federal Correctional 
Institutions (FCIs), and the resources to activate the 200-bed 
expansion at the FCI in Loretto, Pennsylvania. The new construction 
will add the capacity required for the BOP to meet its responsibility 
for the (D.C.) adult sentenced felons by October 1, 2001.
    Specifically, for the Salaries and Expenses appropriation, an 
increase of $2.8 million and 46 positions is requested for the 
activation of the 200-bed expansion at the FCI located in Loretto, 
Pennsylvania. The Loretto project is currently out for bid, and a 
contract is expected to be awarded shortly.
    For the Buildings and Facilities appropriation, the request 
includes an increase of $300 million and 28 positions required for new 
construction. This level of funding will permit construction of three 
additional FCIs and partial funding for a fourth FCI to provide 
additional capacity to accommodate the space requirements for the D.C. 
sentenced felon inmates in accordance with the D.C. Revitalization Act. 
In FY 1998, $294.9 million was provided to the D.C. Corrections Trustee 
for reimbursement to the BOP to cover site acquisition and planning of 
the four facilities and full construction of two more.Further, a 
provision in the National Capital Revitalization and Self-Improvement 
Act of 1997 requires BOP to house 2,000 D.C. sentenced felons in 
private contract facilities by December 31, 1999. A Request for 
Proposals (RFP) was released on February 13, 1998, with responses due 
by April 1, 1998.
                        d.c. revitalization act
    The BOP is actively evaluating potential sites within 500 miles of 
the District. Environmental Impact Statements (EIS) for numerous 
locations may be necessary to ensure four acceptable sites since the 
EIS process is preliminary and does not always result in prison 
construction. To date, siting efforts have been concentrated in 
Kentucky, West Virginia, Virginia, Pennsylvania, North Carolina, and 
South Carolina. In December of 1997, the BOP began the EIS process for 
a medium security prison in Gilmer County, West Virginia. In addition, 
the BOP is proceeding with the draft EIS process for sites in Ohio/
Tyler and Preston counties, West Virginia, and obtaining additional 
technical information to go forward in the EIS process on sites in 
Kentucky, South Carolina, and Pennsylvania. The BOP plans to finish 
each EIS related to D.C. capacity this year.
    Further, the BOP plans to build a medium security facility at its 
existing Petersburg, Virginia, location, and a high security facility 
at its Coleman, Florida, location. While the Florida location is 
outside the 500-mile radius, the BOP can proceed quickly with this 
project because the EIS process completed for the existing institutions 
addressed the possibility of adding an additional facility at a later 
date. The BOP would then be able to transfer BOP inmates to Coleman and 
subsequently place D.C. sentenced felons in the approximately 30 
existing BOP facilities that are within the 500-mile radius.
    The BOP is currently housing over 600 D.C. sentenced felons for the 
D.C. Department of Corrections (DOC). Of this number, 116 are D.C. 
sentenced females recently transferred into BOP custody. The BOP 
continues to provide administrative/technical expertise to D.C. DOC 
personnel in critical areas, such as infectious disease control, BOP 
policy and classification of inmates. UNICOR staff are developing plans 
to begin transferring relevant industries from the Lorton Complex to 
BOP, as appropriate. Human Resource Management Divisions staff are 
working diligently with the Trustee's Office on the Priority 
Consideration Program for displaced D.C. correctional workers. The 
National Institute of Corrections (NIC) developed the Management Reform 
Plan for D.C. DOC which covers transition of D.C. Code felons to BOP 
and closure of Lorton. The plan will also assist D.C. DOC in redefining 
its future role with regard to managing pre-trial, detention, and 
sentenced misdemeanants.
    Through anticipated reimbursement from the D.C. Corrections Trustee 
in 1998, the BOP has adequate resources to construct two FCIs at 
existing BOP sites in order to generate capacity to house D.C. 
sentenced felons. In addition, 1998 funding from the Trustee will be 
used for site acquisitions and planning of four FCIs. In 1998, the BOP 
plans to transfer into BOP custody the majority of female D.C. 
sentenced felons. To date, 116 female D.C. sentenced felons have been 
transferred into BOP custody, and procedures have been put in place so 
that all newly sentenced female D.C. Code violators will be designated 
directly to BOP custody. The BOP is currently reviewing minimum 
security male D.C. sentenced felons in preparation for their transfer 
into BOP custody. The projected movement of D.C. DOC inmates needing 
mental health, medical/surgical care is targeted for 1999. Absorption 
of higher security level D.C. inmates is projected for FY 2000 and FY 
2001 as additional BOP capacity (construction funded in 1998) is 
activated.
          * * * * * * *
                             privatization
    As part of the 1997 Appropriations Bill, Congress directed the BOP 
to undertake a five-year privatization demonstration project at the 
correctional institution in Taft, California. In July of 1997, 
Wackenhut Corrections Corporation was awarded the contract to operate 
the Taft facility. The potential contract term is 10 years, 
encompassing a 3-year base and seven 1-year options. The first inmates 
began arriving in December of 1997. As of March 5, 1998, there were 
1,009 inmates housed at the Taft facility, and it is anticipated that 
approximately 80 additional inmates will arrive at the facility each 
week until the institution reaches its full capacity. Taft will house 
1,536 low security and 512 minimum security Federal inmates when fully 
operational. This project will help the BOP evaluate the potential 
effectiveness of privatizing further BOP facilities. BOP staff prepared 
and forwarded a technical proposal to evaluate Taft to the National 
Institute of Justice, and a meeting is scheduled this spring for 
feedback from other experts in the field.
                                summary
    Mr. Chairman, the FY 1999 request addresses the major challenges 
facing the BOP and provides funding for increases necessary to add 
Federal inmate capacity and meet requirements of the law.
    The increase requested for 1999 will allow the BOP to activate the 
expansion at the Loretto, Pennsylvania, prison and enable expeditious 
closure of the Lorton, Virginia, Complex by adding capacity to absorb 
sentenced D.C. felons into the Federal Prison System.
    I would like to thank you, Mr. Chairman, and the Members of the 
Subcommittee for your continued support. This concludes my prepared 
remarks, and I would be pleased to answer any questions you or your 
colleagues may have.

                   conclusion of corrections hearing

    Mr. Tiahrt. The committee will stand in recess subject to 
the call of the chair
    [Recess.]
    Mr. Taylor [presiding]. The committee will please come to 
order.
    I would like to thank Congressman Cunningham for chairing 
the education panel today and Congressman Tiahrt for chairing 
the corrections panels.

                        public defender service

    [The following prepared statement of the Public Defender 
Service was referred to by Mr. John A. Carver, Offender 
Trustee, on page 239, this volume. Inserted following the 
prepared statement of the Public Defender Service are two 
letters which are self-explanatory concerning the Public 
Defender Service from the Independent Public Defender Bar 
Association of the District of Columbia.]

[The official Commmittee record contains additional material here.]



                                          Wednesday, June 24, 1998.

                        PUBLIC SAFETY AND COURTS

                               WITNESSES

CHARLES H. RAMSEY, CHIEF OF POLICE, D.C. METROPOLITAN POLICE DEPARTMENT
DONALD EDWARDS, CHIEF, D.C. FIRE AND EMERGENCY MEDICAL SERVICES 
    DEPARTMENT
ROBERT E. LANGSTON, CHIEF, U.S. PARK POLICE
STEPHEN D. HARLAN, VICE CHAIRMAN, D.C. FINANCIAL RESPONSIBILITY AND 
    MANAGEMENT ASSISTANCE AUTHORITY
EUGENE N. HAMILTON, CHIEF JUDGE, SUPERIOR COURT OF THE DISTRICT OF 
    COLUMBIA
ANNICE M. WAGNER, CHIEF JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS, 
    AND CHAIR OF THE JOINT COMMITTEE ON JUDICIAL ADMINISTRATION
    Mr. Taylor. We will go into our third panel, public safety, 
and we have with us the Metropolitan Police Chief, Charles 
Ramsey; Fire Chief Donald Edwards of the D.C. Fire Department; 
Chief Robert Langston of the U.S. Park Police; and Steve Harlan 
of D.C. Financial Control Board. Also, Ms. Wagner, the Chief 
Judge of the D.C. Court of Appeals, is with us.
    We have your written statements and they will be included 
in the record without objection. I would suggest we dispense 
with any reading of your written statements so you will have as 
much time for personal comments. If it is agreed, we will hold 
questions until all four witnesses have made their comments.

                           witnesses sworn in

    We do swear in all witnesses. If you could stand----
    [Witnesses sworn.]

                     Metropolitan Police Department

    Chief Ramsey, your budget request totals $300.4 million, an 
increase of $29 million above fiscal year 1998. If you would 
like to go ahead and make your comments, we will go from there.
    Chief Ramsey. Yes, sir. First of all, thank you very much 
for giving me this opportunity to appear before you. I ask that 
the original testimony, which you have a copy of, be included 
in the record.

          prepared statement of police chief charles h. ramsey

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]


    Chief Ramsey. I would just like to hit a couple of 
highlights there.

                            budget increases

    You are correct, the total budget is $300 million--$277 
million of that is appropriated funds; another $23 million is 
grant funding. That represents an 8 percent increase over 
fiscal year 1998. That is due to salary increases both sworn 
and civilian members negotiated with the various unions, 
increased costs for contracts and things of that nature that 
are passed along from year-to-year--more or less a cost-of-
living type of situation--and so have increased 
civilianization.

              3,600 sworn officers--no increase requested

    I have chosen to hold the line on the budget basically 
during this fiscal year. We are holding the line at 3,600 sworn 
members. That actually represents a reduction of 100 in terms 
of numbers, but in actual strength that we have had over the 
past couple of years, it is basically holding even at 3,600 
police officers.

                       increase of 100 civilians

    We are asking to increase by 100 civilians--from 722 to 
822--so that we can put more officers into the field. That 
gives us a total force of 4,422 members in the Metropolitan 
Police Department.

       chief not asking for more resources--assessing current use

    Now the reason I have chosen to hold the line, rather than 
ask for more, is simply because I am not really certain how we 
are using the resources that we currently have. I am new in the 
Department. I have been here for 2 months now, but the 
Department does suffer from some problems. In many ways, 
mismanagement that has occurred over the years in many areas. 
We need to know exactly where we are before we can begin asking 
for more resources. Once we are clear--certain that we have a 
sufficient number of police officers to provide protection to 
the citizens of Washington, D.C. and we have the technology we 
need--all those different aspects of equipment that are needed 
to efficiently run a police department--then I will have a 
better sense for what I need in the budget. Future budgets will 
reflect actual needs.
    But the first thing I want to do is take a serious look at 
the Department and eliminate any waste that we might have, and 
make sure that our resources are being used effectively. I am 
not confident that is occurring now, that is why I am not 
asking for more. Some of the things, just very quickly, that I 
would like to do or I have already begun doing--just to inform 
you, even though I have only been in position for 2 months, I 
have already begun some new initiatives. I am still in the 
process, however, of assessing the needs of the organization.

                     recruitment--serious concerns

    Recruitment, that is an area of very serious concern for 
me. Right now, we are barely keeping up with attrition. We lose 
approximately 20 to 25 officers per month. That is a net loss 
of about four when we figure in our hiring that occurs monthly. 
So we are having difficulty maintaining our current level of 
sworn members. Despite that, however, weare being very 
aggressive in going out and trying to recruit new members.

                  college requirement for new recruits

    Effective January 1999, I am raising the education 
requirements for entry into the Metropolitan Police Department 
to 2 years of college or 60 semester hours. By year 2002, I 
would like to raise that once again to a 4-year college degree. 
Again, I think that it is time that we raised the bar, bringing 
in a higher quality individual into our ranks; work with those 
that we currently have and also encourage them to go back to 
school. That point will also include, by the way, different for 
promotion, a certain kind of grade, as well as an educational 
requirement that is going to be necessary to advance within the 
Metropolitan Police Department.
    Our job is becoming more and more complex. With the 
sophisticated technology and so forth, we need to look at 
different types of individuals to come into policing. I think 
we can accomplish that and maintain our diversity at the same 
time.

               need to put police officers back on street

    Another issue that is of great concern to me is the 
visibility of police officers. In Washington, we have the 
highest per capita ratio of police and citizens anywhere in the 
country. Yet people constantly complain that they do not see 
the police. Well we need to do a better job of allocating our 
resources. Too many of our officers are still in positions that 
are not street duty, they are administrative positions and so 
forth. We have got to hire more civilians. We have got to put 
police officers back in the field where they belong because 
that is what they were hired to do--not be secretaries--but be 
police officers out there in the field. So we are looking very, 
very carefully at our allocation of resources.

                           street roll calls

    You may have just recently become aware of a new initiative 
called street roll call. Taking police officers out of stations 
during that period of time; putting them out in the community, 
and letting people see them. Also targeting hot spots--areas 
where we had a lot of criminal activity whether it is gangs, 
drugs, or whatever it might be--putting our officers in the 
roughest areas that we have in the city. We are taking the city 
back block-by-block, if we need to. But police officers are 
going to be doing that all summer long.

                            bicycle patrols

    We also have increased the number of bikes that are out 
there. Again, this gives us another way of getting out to the 
community, being somewhat mobile.

           $15 million federal grant--difficulty in spending

    I know you are concerned about the $15 million that we got 
a couple of years ago and there were a lot of concerns about 
our not having spent it. That money is all spent or obligated--
in fact, I just spent the last $277,000 to purchase additional 
bicycles. So we are going to get a total of 187 bicycles in 
July with all the equipment that we need, and uniforms to go 
along with it. So we will be able to put additional bicycle 
patrols on the streets, in addition to the vehicular patrols 
that we have out there now.

             lack of accountability for getting things done

    There are some concerns that I have still in the Department 
that we are working on. One of the things that I have noticed 
since I have come here, is an overall lack of accountability in 
many areas. Things such as not getting firearms qualifications 
done on time; not having equipment in districts that people 
need--from xerox paper to toilet paper--it is alleged that we 
do not have those kinds of things available. It is been 
documented in the press. Those are just breakdowns of systems 
within the organization and there is absolutely no excuse for 
that. People need to be held accountable for seeing to it that 
these kinds of things are taken care of. We are taking a look 
at that and we are correcting those kinds of situations.

                 technology--adequate training required

    We are taking a look at technology. I recognize that 
technology is not indicated or a solution to every problem that 
we have. However, it is necessary because it does reduce the 
number of man hours we use to take care of many of those kinds 
of tasks. We need to apply technology wisely. But with that we 
have to be prepared to provide adequate training to our members 
so they know how to properly use that technology.

                    education and training neglected

    That raises another issue around education and training of 
the Department that has been neglected for a long period of 
time and we are going to move very aggressively to enhance 
that, as well. Going back to that recruitment effort of 
bringing in people with some college background, we will be 
bringing people into our ranks that are familiar with 
information systems and technology, and not afraid of 
computers. That is going to be an asset to us in the future.

               police performance and physical standards

    Developing performance standards is another area that we 
are taking a look at within our new contract with the Fraternal 
Order of Police--both performance and physical standards. We 
are working with this now to hammer out exactly what those 
standards are going to be. But we need to hold people to 
certain standards and have certain expectations for them. In 
terms of their performance, right now we are in a situation 
where the Department lacks any real performance standards. We 
just simply have to give people something so they know what 
they are supposed to be doing, and then we can start holding 
them accountable.

                 outside employment by police officers

    The issue of secondary employment--I have already taken 
that on right now. We have police officers working in bars. We 
have police officers that are allowed to work, in my opinion, 
in locations that are really inappropriate. Working with the 
D.C. Council to have legislation put in place that will be 
stricter for people to work in establishments whose primary 
source of income is the sale of liquor, or anything with a 
sexual orientation. There are just certain jobs I do not think 
it is proper for police officers to be working in--let alone in 
uniform. Right now, our D.C. Code allows them to do both, and 
that means change. So we will have a more restrictive policy in 
place so that our police officers are not involved in those 
kinds of things.

               too many officers on administrative leave

    Then finally, the issue that was also in the paper around 
administrative leave, not having people available for duty--
well we have not established administrative leave with pay. 
Those people on administrative leave with pay--with very few 
exceptions--need to be put back to work somehow. If it is in 
the 911 center, which was in the paper just yesterday, 
answering calls; if it is in the records section--I do not care 
where it is, but if they are drawing a paycheck, they ought to 
be doing something to get that paycheck. If the conduct is such 
where we need to separate them, then we need to be aggressive 
in moving toward separating them from the Department and not 
having them in that status for too long a period of time.

                 police facilities neglected for years

    There are numerous other areas and issues. I have brought 
along with me something that I will leave with you, sir, around 
the facilities that we have that are in terrible shape. They 
have been neglected for years. We have raw sewage leaking from 
pipes in the women's locker rooms in 4D--it is simply 
appalling. I brought this because at somefuture point and time 
I would like to come back and try to work with you to come up with 
creative solutions to try and solve some of those problems over the 
long term. I know you cannot do it overnight, but if we work together 
maybe we can come up with something creative to try to really improve 
conditions there. That is basically all I would like to say in opening. 
I will answer any questions you might have.
    Mr. Taylor. Thank you.

                            Fire Department


             Opening Statement of Fire Chief Donald Edwards

    Mr. Taylor. Chief Edwards, please proceed.
    Chief Edwards. Good afternoon, Mr. Taylor. Once again 
echoing Chief Ramsey's sentiments, it is my pleasure to be here 
to hopefully answer any questions that you may have about the 
D.C. Fire Department's proposed budget for fiscal year 1999.

                       BUDGET FOR FIRE DEPARTMENT

    The recommended local budget for the Fire Department for 
fiscal year 1999 is $101,577,000 and that includes a total of 
1,754 full-time positions. This represents an increase of about 
$360,000 and one additional full-time position over the fiscal 
year 1998 budget. The bulk of that increase is for pay raises 
that were granted as a result of the passing of the 1998 
Appropriations Act that was requested contingent of funding of 
those pay raises into the next fiscal year.
    Our proposed fiscal year 1999 capital budget includes 
$2,106,000 for financing capital-related items for these 
programs. That represents a slight increase over our previous 
years for budget requests. In an effort to achieve the goals of 
this agency, which is to have a positive impact on the quality 
of life for everybody in this community, I think I have 
established major goals that I would like to achieve with the 
passing of this budget. That would be the improving of customer 
service--which is that we are a customer service agency.
    We provide a direct service to the citizens and businesses 
and those who choose to do business in the city. This can be 
done by providing a timely and efficient fire and emergency 
medical service department. I am seeking optimal response time 
and all requests for emergency services. This will be achieved 
through increased use of technology, as well as increase and 
reinforce employee accountability.

                       COMMUNITY OUTREACH PROGRAM

    The Department has taken a more proactive role since my 
appointment as Chief in our interaction with the community. One 
of the programs that I have instituted, that I feel is 
extremely successful, is the community outreach or open-house 
policy that I have established in various fire facilities 
throughout the area. This program entails our fire stations 
being open to the community on a monthly basis and we provide 
such services as CPR instruction, smoke detector information, 
and give away childhood immunizations. Basically what I want 
these fire stations to become is a service center for the 
communities that they serve. Traditionally, the fire service 
has been a basically closed society. The only time that people 
would see us was when the doors arose and we came out 
responding to a call for an emergency.
    However, I feel that if we take a more proactive role in 
providing some of the other services that I know we can 
provide, it will lessen the demand for our reactive responses. 
It will also lessen the demands for some other services--from 
police services such as Chief Ramsey provides, public health 
service, and those entities. We have entered into a cooperative 
agreement with several of the city agencies to help me 
facilitate this particular program. It was instituted at the 
beginning of the fiscal year and it is a very successful 
program--very well received by the community.

                    INCREASE IN BUILDING INSPECTIONS

    I also intend and we have increased the number of building 
inspections by changing our building inspection hours at our 
fire inspections bureau. This provides increased and added 
service to people who need those services on a more 
approachable--or I would say acceptable type timeframe.

            SPECIAL OPERATIONS DIVISION--TERRORIST INCIDENTS

    My next goal, in an effort to ensure that we provide the 
services that we are required to do, is to increase our 
efficiency in all phases of our operation. We can no longer 
defer the pursuit of improvement in our specialized areas of 
population. For instance, this is the Capital of the free 
world. As we all know, the political climate that exists 
throughout the world, this city is a target for various 
extremist groups. Fortunately, it has not occurred. As a first 
response agency, I feel it is mandatory that my agency prepare 
itself to respond to any unfortunate incidents of this type. In 
doing so, I have created a special operations division that is 
focusing on responding to terrorist incidents with the 
cooperation of several other city agencies to include the 
Metropolitan Police Department and the Office of Emergency 
Preparedness.
    Any entity within the city that would respond to such an 
incident must be involved. I think my agency being the initial 
agency to respond must be the leader in providing the needed 
service in the event of something of that nature. My workforce 
must be equipped with the necessary tools to carry out their 
duties. This budget hopefully will get us to that point. I am 
increasing training for everyone--special Operations, my fire 
inspectors.

                       ARSON CASES--CLOSURE RATE

    I am utilizing the resources available with the National 
Fire Academy, the Alcohol, Tobacco, and Firearms Division of 
the Treasury Department. Heretofore, this city has had a 
horrendous closure rate for arson cases. I have sought and 
received police power for our arson investigations. This was 
achieved through full cooperation with the Metropolitan Police 
Department, the U.S. Attorney's Office, as well as the Alcohol, 
Tobacco, and Firearms Division of the Treasury Department. All 
of those individuals who were selected for that program are 
long-time employees. They have completed or are very close to 
completing the police department's full training program so 
that when they complete the program, they will have undergone 
the exact training that all police officers in the city will 
have undergone to become sworn police officers.
    I do believe this will result in a seamless process asfar 
as dealing with our arson investigation. We definitely need to improve 
our closure rate and I believe that this is the way to go with this 
particular program.

                 INFORMATIONAL SYSTEMS TECHNOLOGY PLAN

    Technology, as we enter the new millennium, and everyone 
realizes it is going to be a very integral part of the 
operation of all city agencies. We have developed an 
informational systems technology plan that hopefully will help 
us go into the new millennium utilizing all available technical 
resources to improve our delivery of services. This budget 
plays a very important role in that endeavor.

                         RESPONSIBLE MANAGEMENT

    Lastly, meeting our established budget target. Although 
enormous strides have been made in improving the physical 
stability of the city, the Department must and will continue to 
contribute to the financial recovery of the city. Sound and 
responsible management on my part, or whomever is the chosen 
leader of this agency, is mandatory for the success of that.

                             CAPITAL BUDGET

    Our capital funding devoted mainly to apparatus replacement 
and increasing or enhancing, improving, renovating, replacing 
of some of our dilapidated facilities. I, too, suffer from the 
same problem that Chief Ramsey mentioned about our facilities. 
I have fire stations that need roofs replaced, plumbing 
replaced, electrical work replaced--all of these problems have 
been ID'ed. I have in place a work plan to do that, provided 
that this particular budget is approved by this panel, by the 
Senate, and the House as part of the new fiscal year 1999 
budget.
    I feel together with the increased accountability that I am 
demanding of my people, proper funding to maintain the programs 
that I have ID'ed, and any additional programs that may be 
ID'ed in the future. I believe we can meet the needs of the 
citizens of this city. I am prepared to answer any questions 
that you may have specific to our budget.

            PREPARED STATEMENT OF FIRE CHIEF DONALD EDWARDS

    [Fire Chief Edwards' prepared statement follows:]

[The official Commmittee record contains additional material here.]


    Mr. Taylor. Thank you, Chief Edwards.

                            U.S. Park Police

    Chief Langston.

    opening statement of chief robert e. langston, u.s. park police

    Chief Langston. Good morning--excuse me, good afternoon, 
Mr. Taylor, Mr. Moran. Good to see you. It is good to be here 
and I appreciate the opportunity again to appear before you. I 
appreciate the support last year that this Committee gave to 
the U.S. Park Police. I will be kind with your time. I have a 
prepared document that has been presented to you and I would 
appreciate it if there are any questions, I certainly would be 
more than pleased to help answer.

    PREPARED STATEMENT OF CHIEF ROBERT E. LANGSTON, U.S. PARK POLICE

    [Park Police Chief Langston's prepared statement follows:]

[The official Commmittee record contains additional material here.]



                     BACKGROUND OF U.S. PARK POLICE

    Chief Langston. We, the U.S. Park Police, have been around 
since 1791 and we are integral part of the protection within 
the District of Columbia. We have concurrent jurisdictions 
throughout the entire city of the District--as does the 
Metropolitan Police in the park areas. It flows back and forth 
very well--extremely well.
    Approximately 12 percent of all the cases that we make 
within the city are what we would call on city streets or 
within the city itself. The rest are in the park areas. Just as 
a point of interest, just the last couple of years, I think we 
wrote over 180,000 traffic violation notices and parking 
violation notices. The revenue from those tickets goes to the 
District of Columbia, not to the Federal government where 
revenue goes for tickets we write on the George Washington 
Memorial Parkway or other places. So there is a uniqueness 
about our interaction within the District of Columbia.

                         QUALITY-OF-LIFE CRIMES

    Obviously, what we have been concentrating on the last 
couple of years are quality-of-life type of crimes. We have a 
philosophy, that if you take care of the little things, the big 
things disappear. It really has proven to be so. Commissioner 
Bratton up in New York City focused on the quality of life 
crimes, also. You have seen a dramatic impact in the City of 
New York. We do that by uniform officers, by our contact with 
the community or plain-clothes officers.

                         ALCOHOL-FREE JULY 4TH

    An example of what we did last year was at the 4th of July. 
We made the downtown parks alcohol-free. Prior to that, we were 
having some serious problems with the Independence Day 
celebration--with knifings, gang problems, assaults, and 
drunkenness. Last year we made not one arrest, where normally 
toward the end of a 4th of July celebration, our officers were 
really fatigued and they had been dealing with a lot of 
disorderly conduct.
    We will continue that again this year. The only problem we 
had last year, of course, was disposing of all that alcohol. 
This year we have worked an agreement with Arlington County, 
Virginia over the disposal of all that confiscated alcohol. We 
appreciate the Virginia folks. [Laughter.]
    Mr. Moran. How do you dispose of it? [Laughter.]
    Chief Langston. It is destroyed. When it is destroyed it is 
put in a drain that goes into a proper sewer system to be 
treated.

                           DRUG INTERDICTION

    We deal with a lot of interdiction within the city of 
Washington and drug addiction. Just last week as we were 
getting ready to testify, it was a stop out on the Baltimore-
Washington Parkway, where the officers confiscated 225 grams of 
pure, uncut heroin. The BW Parkway is a supply route into the 
city. It is a place where even the officers who are not 
assigned in the city have an impact on what is coming in town 
and what is going out of the city.
    Our coordinated efforts with the District of Columbia has 
always been good. We have worked with all of you, all together. 
It is not anything that is new. We will continue to do that.

                          ENVIRONMENTAL CRIME

    This year, we dealt with a lot of environmental crime and 
those environmental crime issues were dumping of hazardous 
wastes and medical wastes to things such as that. Not only 
within the parks, but within the city. As recently as last 
week, assistance from Metropolitan Police in establishing an 
environmental crime unit. We have had a training course where 
not only with the Metropolitan Police but where the city 
inspectors have trained them on how to deal with environmental 
crimes. Matter of fact this year, we are instrumental in 
passing a new bill for the Illegal Dumping Enforcement 
Amendment Act of 1998 in the District of Columbia. Now it is a 
felony--it is up to felony--up to 5 years in jail for dumping 
this type of material within the city. So we concentrate on 
these things that really impact the city.

                           PERSONNEL shortage

    We have established--I will speak about personnel a little 
bit. But because we have been short of personnel basically, the 
last couple of years we have withdrawn people from the task 
forces that have always been an important part of the mass 
transit task force and DEA. Really we need officersjust to 
cover basic beats. We no longer have the luxury of supporting a lot of 
the normal task forces that we would normally do. But we did provide a 
small 10-officer task force that would just cover the hot spots within 
the city's parks and with what we call the impact area surrounding the 
city's streets. We have worked well with the Metropolitan Police to 
find out those problem areas that they have that we could help 
concentrate our personnel on.

                              drug arrests

    Just since March 30, which is about 2 and one-half months 
ago, we have made over 150 arrests in those areas; about 39 
cases and have confiscated a lot of illegal drugs and weapons.

                        helicopter aviation unit

    Our support services to the District of Columbia this past 
year, obviously we have always supported the Metropolitan 
Police, with our aviation. But last year, they disbanded the 
MPD aviation unit, they shut it down. That has shifted some. It 
has had an impact on us in that we had to pick up 205 missions 
for the DC Police Department and another 30 from the Fire 
Department.
    It is not that costly. It has run us probably--when we look 
at it--close to $40,000 just to pick up those missions. That 
obviously puts additional wear and tear on the helicopters.

                       critical needs--personnel

    I would like to say that some of our critical needs. One is 
personnel. Personnel is probably at an all-time low for the 
U.S. Park Police. Nationwide, we are not a large force. We are 
kind of a lean, mean organization.

                     officer strength--park police

    Nationwide, we are 793 officers. Of that 569 are assigned 
in the Washington Metropolitan area. That takes into 
consideration Virginia, Maryland and the District of Columbia. 
Of those 569, we only have 450 officers. So we are 119 officers 
currently right now short in our command in the Washington, 
D.C. area.
    That is a significant impact, especially when we are 
dealing with the major events that we do deal with in the city.

                     6,000 demonstrations annually

    I will give you an example of a normal day when the 
Metropolitan Police and the U.S. Park Police handle many 
demonstrations. We do it jointly together. It may be a Million 
Man March, or it may be just an impromptu demonstration that 
occurs. Start in a park in Dupont Circle, march through the 
city's streets and end up at the White House, down here at the 
Capitol. We have probably close to 6,000 demonstrations a year 
that occur. Then we have special events like Marine Corps 
marathons and parades--Cherry Blossom parades. All of this we 
cooperate with fully and support, but in order to get the 
personnel to do that, you have to be fully staffed it makes it 
a lot easier. When you have barebones staffing within your 
stations, it is hard to pull personnel to cover these major 
events.

                           personnel shortage

    The staffing I realize that the personnel staffing is not 
under the purview of this committee. I would only ask your 
support if you have any influence on the committee. I would 
certainly appreciate your consideration in trying to increase 
that--not increase--but staff us up to where we should be to 
where our vacancy rate is. That will have a big impact on 
policing within the city. We feel that our staffing now is at 
an all-time low that should be brought up to what our 
authorized level is.

                        helicopter aviation unit

    We do have some considerations we would like to put before 
this committee and one is on our helicopter unit. We have two 
helicopters and we have been flying two helicopters for 25 
years. We have had a very efficient aviation unit. We received 
a public safety award for the efficiency of the unit. However, 
one of those helicopters now is over 15 years old. It is 3,700 
hours beyond the replacement time that it should have been 
replaced. It is been taken up to Canada on two separate 
occasions to have stress cracks welded in the airframe and I am 
not comfortable with officers even though that the people say 
that these are safe aircrafts, I am not comfortable knowing 
that there are stress cracks in those things. There is a need 
to replace one helicopter and there is also a need for a second 
helicopter. We had asked for some consideration in our 
presentation in the document that you received.

                          equipment shortfalls

    Equipment shortfalls like the Fire Department and Police 
Department has been underfunded for so many years, we have had 
to rob or cannibalize our equipment. We are in much better 
shape this year than we were last year, thanks to this 
committee. We certainly appreciate it. It continues. Facilities 
and equipment is still degraded to a certain extent.
    In conclusion, I would like to just say that we certainly 
are concerned for the safety of the citizens in the District of 
Columbia and the millions of tourists that come here from all 
over the United States. Certainly we are an integral part of 
the law enforcement program, the public service program here in 
the city. We appreciate the opportunity to be here and we 
appreciate your support. Thank you very much.
    Mr. Taylor. Thank you, Chief Langsten.

                             Control Board

    Mr. Taylor. Mr. Harlan.

         Opening Statement of Stephen D. Harlan, Control Board

    Mr. Harlan. Thank you, Mr. Chairman, for letting me be here 
today. The Chief has covered the budget and I would like to 
take an opportunity to just kind of step back for a second and 
talk about where we were, where we are, and where I think we 
are going.
    As you recall from 1985 to 1996, crime was pretty much out 
of control in Washington, D.C. Homicides had risen 150 percent, 
robberies were up 50 percent, car thefts were up 500 percent. 
Seventeen months ago, we formed then what we called the MOU 
Group which was made up of the Control Board, the Mayor, the 
Chair as the Council's Judiciary Committee Chair of the D.C. 
Council, the Corporation Counsel, the U.S. Attorney and the 
Chief Judge of the Superior Court. Three weeks ago, we expanded 
that group and renamed it. We included the new Chief Management 
Officer and the new D.C. Corrections trustee, along with the 
Court Services and Offenders Supervision trustee, Jay Carver. 
We renamed the group to the Criminal Justice Coordinating 
Council which has a better name and expanded its responsibility 
and focus.
    It has become apparent to us that it is not only the 
Metropolitan Police Department's challenge to reduce crime. We 
have a lot of other agencies involved. During that period, we 
think we have made some progress. We have come quite a way, but 
we have a long way to go yet.

                               crime rate

    In 1997, Part I crimes were down 19 percent and progress is 
continuing this year. From January through the end of May, Part 
I crimes are now down 22 percent compared to last year. It is, 
in fact, the lowest level of crime in our city in the last 20 
years, so we have made some progress. Statistics are nice and 
they are impressive, but they do not tell the whole story. We 
still have a city that is far too sensitive to the fear of 
crime and the Coordinating Council is committed to eliminating 
that fear.

               recruitment of police chief charles ramsey

    We have done a lot of different things and initiated a lot 
of programs in the last 17 months. The most important one was 
the outreach and selection of Chief Charles Ramsey as police 
chief in our city. We are delighted that he is here. He has 
great experience--29 years with Chicago and where he rose 
through the ranks to become one of the top police leaders. The 
day after the Mayor of Chicago did not pick him to lead 
Chicago, we contacted him, flew to Chicago, and pleaded with 
him to apply for this job. We were successful in doing so. So 
we are delighted he is here. He is bringing a whole team of 
experienced leaders with him that will make a huge difference 
in our police department.
    Some of the programs that were underway when the Chief 
arrived were continued, and you have heard that he is going to 
make a lot of additional programs.

                         open-air drug markets

    For instance, we have gotten very good cooperation through 
the city on trying to close these open-air drugs markets. Not 
only the PoliceDepartment, it is the Department of Public 
Works, it is the courts, it is the departments of Human Services and 
Consumer and Regulatory Affairs--everybody working together to board up 
abandoned houses, and tow away abandoned cars.

                     Criminal Justice Pilot Program

    Another initiative is the criminal justice pilot program 
led by Jay Carver in PSA-704, Police Service Area 704, which 
really engages the resources of the community, pre-trial 
services, defense services, parole and probation to really go 
after adult offenders and make certain that we are all working 
together to improve safety and reduce crimes in those areas.

        Police Presence on Streets and Depoliticizing Department

    The Chief has talked about increasing police presence on 
the streets. That is truly one of the highest priorities we 
have had since we formed our group--that and taking the 
politics out of the police department. As you recall that was 
probably the first thing we did. But there are several facets 
to increasing police presence on the streets. One is just 
having more police officers. That involves, as the Chief has 
pointed out, recruiting officers which the Chief is committed 
to improving the quality of officers as far as the educational 
aspects go and putting in performance and physical standards. 
But it also means redeploying from civilian ranks, pulling 
those uniform officers and putting them on the streets. Then we 
need to see that the officers stay on the street. We have too 
many officers on administrative leave and other forms of leave. 
The Chief has taken the lead in doing that.

                    Police Health Clinic--Privatized

    I am happy to say that within the last year, we have 
reported that there was a new police clinic that was 
implemented that has had a major impact because officers no 
longer can go to the police clinic and be told to go home and 
take the day off if they are not feeling well. Now, they have 
to go through a rigorous physical examination and that is 
working well. That clinic has been basically privatized with 
Providence Hospital and Washington Hospital Center taking the 
lead.

          Arrests and Booking--Reduction In Time and Paperwork

    We need to improve arrest and booking procedures. It still 
takes 4 to 5 hours to book a crime where it should be either a 
paperless crime or an officer-less crime as we call it where 
the officer is completing the reports and not having to go to 
the U.S. Attorney's office for each arrest to take time off 
from the streets. That effort is underway and I am happy to say 
that through the good efforts of the U.S. Attorney and the 
Chief Judge of the Superior Court, the police department and 
everybody working together, we are going to start a pilot 
program on July 1, 1998 to move that--primarily on misdemeanor 
kinds of crimes and simple offenses.

                  U.S. Attorney Use of Police Officers

    Another area of improvement is that officers spend a lot of 
time in court. A control program called the investigative CANs 
program which is really a program to help coordinate officer 
time with the courts. One of the areas that has become apparent 
as our U.S. Attorney is like the State's attorney--here they 
function as the state attorney. In virtually every other 
jurisdiction the State's attorney had their own investigative 
staff--here they do not have the investigative staff. That 
confuses lines of authority and responsibility. Police officers 
find themselves having to report to more than one boss and that 
is not necessarily good.

          Police Officers--Better Training for street Officers

    The other point to get officers on the street is for the 
officers to do the right thing on the street, not just be there 
but do the right thing. That requires a lot of training. For 
years and years--20 years of training has been eliminated, not 
initial training but continuous training. We have a very high 
degree of ``deferred maintenance'' in the training of the 
police officers in the District.

                           Community Policing

    One of the reasons that Chief Ramsey was so attractive to 
us in going through the selection process was that he is 
unquestionably the leader in the country on community policing. 
Not only the leadership he has provided in Chicago, but working 
on the fundamental concepts and models through Harvard and 
other organizations. He is just a true leader. We are committed 
to community policing to make ordinary problem-solving to get 
the crime down, not just make arrests.
    All of this is coming together very, very well mind you. We 
have a lot of challenges.

                       Citizen Complaint Process

    For instance, the citizen complaint process which is being 
changed. The City Council is working on it, the police are 
working on an internal model, but we have got to improve the 
trust and respect on the part of the citizens to the police 
officers and the police officers to the citizens. The fairness 
of the citizens complaint process, the impartiality of it, and 
for the citizens to believe that if they do have a legitimate 
complaint that it is going to be treated properly and fast.

                   Homicides--Closure Rates Improved

    To make good progress in the homicide department. A whole 
new homicide model has begun to be implemented last Fall. Right 
now homicides are at a 10-year low. The closure rates improved 
from about 57 percent or less, to about 70 percent. This rate 
is much better, but it needs to go up. The changes--the 
implementation of changes in the homicide department are going 
to continue, which includes a lot of training.

                 Infrastructure Allowed to Deteriorate

    The Chief alluded to infrastructure and other support 
requirements. Gentlemen, committee members, staff, I would ask 
you to come with me just to visit those police districts--it is 
awful where these ladies and gentlemen of the police department 
have to work. We are talking about raw sewage; we are talking 
about plumbing that does not work; we are talking about walking 
into a police station with wastebaskets on top of desks because 
of water from the roof is leaking in a rainstorm--I mean, it is 
not a first-class place. It is not even a fourth-class place--
it is a 10th-class place. It needs attention. It is going to 
take serious dollars, and we have got to figure out how to do 
it.

                  Field Communications and Technology

    The Chief has talked about field communications and 
technology. We were not even in the 19th century. We have made 
progress, but we have got a long way to go. We are beginning to 
put portable computers in cars; there is a long way to go with 
training and hardware; and communications. Concerning 911, 
there is a new emergency dispatch center being opened--I 
believe it will be opened in the year 2000. Some of it is being 
addressed, but it is a major battle because it has been 
deferred for 20 years, and now we need to get it brought up to 
date.
    We are working together because one thing that is very 
important is to understand that police are the foundation of 
the criminal justice system. All of these other agencies have 
to link and it all has to fit together, particularly from an 
information technology point. The courts are concerned about 
this, pre-trial services, all the parole, probation, both adult 
and juvenile, corporation counsel--everybody has to be able to 
access the database. To understand it, they have to be able to 
cross-talk and not only through computers but in 
communications. Right now, they very frequently have to get on 
the land-line because the radio systems do not talk to each 
other.

                  Conclusion of MR. Harlan's Statement

    So I guess in summary, Mr. Chairman, I believe that 
sincethe Coordinating Council, formerly the MOU, got involved 17 months 
ago. MPD has made a lot of progress, but we have got a long way to go. 
Under the leadership of Chief Ramsey and with the cooperation--and let 
me say the continued cooperation of all the people that are part of the 
Coordinating Council has been excellent. That is where it is going to 
be won or lost is that coordination. We are pleased for this 
appointment and I would be happy to answer questions when you so 
choose.

         Prepared Statement of Stephen D. Harlan, Control Board

    [Mr. Harlan's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Taylor. Thank you.

                      District of Columbia Courts

    Mr. Taylor. Judge Wagner.

           Opening Statement of Chief Judge Annice M. Wagner

    Judge Wagner. Good afternoon. I thank you for this 
opportunity to appear to make this presentation. As you know, I 
am Chairperson of the Joint Committee on Judicial 
Administration, the policymaking body for the District of 
Columbia Courts. By statute, we prepare the budget submissions 
to Congress for the courts. We have prepared a very detailed, 
written statement which we will leave with you and with members 
of your staff for review. There are only a few things that I 
would like to highlight this afternoon.
    First of all, the courts, caseloads remain enormous. The 
Court of Appeals experienced records filings again this year--
over 2,000 cases were filed. The Superior Court also had 
enormous case filings--over 161,000 cases filed. Nevertheless, 
both courts are working very hard to keep pace with the 
workload, and in the Court of Appeals for the first time, our 
dispositions have exceeded the number of cases that we took on. 
We have reduced the amount of time on appeal in the Court of 
Appeals and we are addressing these caseloads.

                     Budget Request for D.C. Courts

    Now at the same time, this was an unusual year. Our request 
this year is $133,358,000. That amount is about $25 million 
over the amount actually approved as an appropriation last 
year. However, as you view this, we think you have to view it 
against the backdrop of an aberrant year. It was a transition 
year. It was the first year that we were under the 
Revitalization Act, and there were unanticipated costs for 
implementation of the Act. For part of the year, there were 
employees who remained with us, and for another part of the 
year, there were employees who were transitioned to the new 
offender supervision trustee.
    We believe that our budget base is somewhat lower than it 
would have been had it been a normal year for us. The reason 
for that is that there is inherent in any effort to predict how 
an organization is going to function with one of its functions 
removed and how the new organization is going to function once 
it is transferred the new entity. Therefore, it was difficult 
to project costs. As a result, we believe that costs were 
underestimated for the courts in recognition of the transfer of 
adult criminal probation out of the court system by some $8 
million. The magnitude of the increase is much smaller when you 
consider that the budget was somewhat understated.
    The Federal government is supporting a large amount of our 
request, and we are appreciative of that. However, there is a 
significant amount of our request which is not being supported 
or not recommended, and we feel that those items are very, very 
important, and we urge you to consider them. They involve the 
most critical issues in our system--children, technology, 
security, janitorial services, and lawyers who represent 
children and indigent defendants. Those are the items that we 
urge you to give careful consideration to, in addition to what 
we have in the written submission.

                            Security System

    We are in desperate need to revamp our security system and 
have requested money to do that. We actually do recover 
contraband coming through the doors of the courts on a daily 
basis. I do not know how many items of contraband we recovered 
this year, but I know in previous years we have recovered up to 
4,000 items of contraband. It is very important that we keep 
pace with what is going on for security. In addition, when you 
have 10,000 people coming and going from your building 
everyday, you have to have janitorial services. They are there 
for long periods of time, they are using all of the facilities 
in the building, and you just have to keep those facilities 
sanitary.
    Chief Judge Hamilton will elaborate further, I am sure, on 
some of these items which do affect the whole court system.

              Increase in Fees for Attorneys for Indigents

    Really there is not a great deal more that I have to say 
except that I do believe that our lawyers--that we are 
requesting an increase from $50 per hour to $75 per hour is a 
modest increase to ask. It is well below the rates that lawyers 
are paid, and they are called upon to represent children who 
are neglected and abused in our system. They are called upon to 
represent indigent defendants who are entitled, by the 
Constitution, to representation. We have to pay them. If we do 
not pay for these things, we cannot keep our cases moving.

                     General Jurisdiction of Courts

    As you know, we have no control over the demands on our 
system. Our courts have general jurisdiction, and handle 
virtually every kind of case imaginable--probate, tax, civil, 
and criminal. We have felt the impact of the increased efforts 
of the police department on our court system with a substantial 
increase in our misdemeanor cases. Thus, the work of one entity 
impacts another.

                           Technology and Y2K

    The only other thing I would say is that everyone is 
concerned about being ready for the new century and technology. 
The courts are somewhat behind in technology, largely because 
of fiscal constraints in prior years. We have to be able to 
communicate with each other, as Mr. Harlan says. In the Court 
of Appeals, we also have to be able to communicate with each 
other and with the court system, and we are very dependent upon 
computers in order to keep pace with the lawyering that is 
going on outside of the courthouse.
    Therefore, we would urge you to support funding that would 
allow us to be ready to keep our--just allow our courts to keep 
up with the pace of the new technology. It is really virtually 
impossible, but we do really need to make an effort to meet the 
demands for the administration ofjustice. The courts are a part 
of the safety valve of the community. People look to us to resolve 
their disputes in an amicable way. The community looks to us for 
redress of grievances, and to handle criminal cases in the community. 
We can only do this if we are able to have adequate funding for the 
courts.
    Again, our submission will be indexed so that you can look 
through it and easily grasp those areas that I have highlighted 
and others that are equally important to your consideration of 
our budget requests. We thank you for the opportunity to 
address you on this matter.

           prepared statement of chief judge annice m. wagner

    [Chief Judge Wagner's prepared statement follows:]

[The official Commmittee record contains additional material here.]



    Mr. Taylor. Thank you. Judge Hamilton.

            Opening Statement of Chief Judge Eugene Hamilton

    Judge Hamilton. Right. Thank you, Mr. Chairman, and the 
members of committee. Let me express my thanks for the 
opportunity to be here this afternoon to speak on behalf of the 
superior court of the District of Columbia's budget.
    As has been pointed out quite clearly, the crime rate in 
the District of Columbia is substantially down. In my judgment, 
it is substantially down as a result of a coordinated effort 
that began, first of all, by the Memorandum of Understanding 
Partners and their efforts of going forward in a consolidated 
and collective manner with respect to all criminal justice 
agencies within the District of Columbia. That momentum, which 
has been started, of course, should be and is expected to 
continue.
    As a result of that collaborative effort, however, the 
criminal caseload in the Superior Court is up substantially. 
New case filings in the Superior Court increased in 1997 by 
15.6 percent. The disposition of criminal cases in the Superior 
Court increased by 17.5 percent. Criminal cases pending have 
increased approximately 12 percent overall, considering a 
somewhat unusual increase in domestic violence pending cases of 
109 percent, which is unusual by virtue of the fact that these 
cases were not accounted for previously. But overall, an 
increase of approximately 12 percent of pending criminal cases 
in the Superior Court.
    Now those cases resulted from the police work that was done 
on the street and processing a lot of those cases in the police 
department. Those cases ended up in the court to be processed 
over a longer period of time than it takes the police 
department to dispose of those cases. I have included in my 
statement, Mr. Chairman, a list of matters that I would very 
much appreciate the committee considering. I would request that 
my statement be attached to the record.
    Mr. Taylor. Without objection.

          prepared statement of chief judge eugene n. hamilton

    [Chief Judge Hamilton's prepared statement follows:]

[The official Commmittee record contains additional material here.]



             technology--coordinated case management system

    Judge Hamilton. I would ask, however, if I could point out 
two matters that I think are very, very important as far as the 
Superior Court's budget is concerned--keeping in mind that we 
are in the trenches, too, you know, we are on the firing line. 
We are in the first line of defense. That is our computer 
system. It does not do the police department any good to become 
high-tech and to be able to move and process their cases 
expeditiously if they come to the court and they hit a snag. 
The court has to be able to process its cases as quickly and 
expeditiously as the police department does.
    For that reason, we have requested the funds necessary to 
implement a coordinated case management system which will 
permit us to expeditiously process all these cases so that we 
know exactly what we have. For example, we cannot really know 
now whether or not the same person has two or three cases 
pending in the court that really might be related to each 
other. They ought to be married by an automated process. So we 
need this equipment to be able to do that.

                          juvenile drug court

    The second item, Mr. Chairman and members of the Committee, 
that I would really draw your attention to and that is the 
funds that are necessary to implement and operate our juvenile 
drug court. Now we just had a national conference on drug 
courts here in the city a couple of weeks ago. The evidence is 
in--it is clear. Drug courts do work. As a matter of fact, we 
have one of the most successful drug courts operating right 
here in the District of Columbia in the Superior Court for 
adults. It has substantially impacted the crime rate in the 
city by substantially reducing the use of illegal controlled 
substances which, of course, is one of the things that drives 
criminality beyond any question.
    Now if we can operate a drug court for adults, I say we 
just cannot avoid the conclusion that we need to at least do 
the same for the juveniles. Because I think we can be more 
successful in operating the drug court for juveniles, better 
than we can for adults. Sixty-five percent of the juveniles 
that came into the court last year tested positive for one 
drug--65 percent. It is my judgment that if we had a state of 
the art juvenile drug court, we could substantially reduce that 
number of juveniles coming through the system, thereby reducing 
truancy and criminality among juveniles in the city.
    So I draw your attention specifically with emphasis on 
those two items for your consideration. Thank you very much.

            recent death of police officer in north carolina

    Mr. Taylor. Thank you. I would like to say to Chief 
Langston, not as a question, that you lost a member in my 
district at the beginning of the week. In fact, we have a 
representative at his funeral now.

                vests and equipment for police officers

    I am also a member of the appropriations subcommittee on 
Commerce, Justice and State, which funds law enforcement 
agencies. We are going to ask for an inquiry into the type of 
vest that is being provided officers. This officer was shot 
through his vest and was killed at a distance. I know we have 
$40 million in the CJS appropriations request which will be 
marked up today. On that end I would like it if you and Chief 
Ramsey could give us information in that area, so that when we 
are providing our officers with equipment, we have the very 
best equipment possible.

         chairman applauds chief ramsey's commonsense approach

    Chief Ramsey, I am convinced your approach to assessing the 
quality of performance before you ask for an increase to your 
budget could well be imitated in D.C. [Laughter.]
    I am certainly delighted with that type of approach. I 
appreciate from all the points you spoke to, especially the 
area of administrative leave as well as a number of the other 
items that you talked about. I know the lack of education, 
especially physical improvements and the condition of police 
officers are of serious concern.

                       physical fitness standards

    Would you be able to have your officers in good physical 
shape measured by some kind of standard--the Air Force physical 
fitness standards or some other standards? We had that 
discussion last year. It seems to me that there was going to be 
objections from the unions and so forth on that sort of thing. 
I think this might be leading to disability claims that really 
could be avoided in some cases if the officers were in better 
physical condition.
    Chief Ramsey. I agree with you, sir. I think that if we can 
really work to establish standards throughout the organization 
and obviously it would vary because we have people with 
different ages and departments. What you would expect a 22-
year-old police officer would be somewhat different than a 55-
year-old police officer. But there are standards that take all 
of these things into account. We have to start at some point 
and time. We did get the union to agree to sit down with us and 
work toward establishing physical standards. We will have a 
dual track, if you will, for the veteran police officer there 
will be one standard. But we can really have a far more richer 
standard for a lot of people that are just coming on that do 
not have to adhere to their entire career. So it is kind of 
grandfathered in, although there will be some standards for 
veteran officers. We do not want to lose half the force either 
trying to get them to run a mile and one-half and keel over. So 
you have to phase certain types of things in, but we are going 
to move very aggressively toward establishing some kind of 
standard as it relates to their physical condition.
    Mr. Taylor. These are men and women who have to protect the 
people of the city and it is better to be in shape to run the 
mile and one-half in pursuit of an objective or your formal 
duties than it is to try to get into shape when you are 
confronted with a real-life situation.

               1,500 officers on street in 24-hour period

    How many officers are on the streets in a 24-hour period?
    Chief Ramsey. When you take a look at days off and the 
number of people that would be on administrative leave, I would 
say it would be pretty fair to say that at any given time over 
a 24-hour period or a given shift.
    Mr. Taylor. About 24-hours.
    Chief Ramsey. Over a 24-hour period, you would probably 
have 3,600 individuals--and this is a ballpark. I think it 
would be fair to say somewhere in the area of maybe 2,300; then 
you figure days off; those that are on administrative leave, 
actually physically available for duty--somewhere in the area 
of about one-third of what we would normally have which 
certainly would be under that. Two-thirds, I am sorry, one-
third would be unavailable to do.

                  park police helicopter availability

    Mr. Taylor. Chief Langston, what is the process for calling 
the Park Police for your helicopter service? I know we worked 
in this area last year, but are you reimbursed by the District, 
for instance, when your helicopter is needed by the city 
police?
    Chief Langston. No, sir. There is no reimbursement within 
the city unfortunately. We are reimbursed, however, by the 
Secret Service when we fly protection for the President.
    Mr. Taylor. How many times last year do you recall that the 
Park Police responded to non-Federal clearly local matters.
    Chief Langston. 205 times for the police and 30 times for 
the D.C. Fire Department and 2 times for the D.C. Housing 
Department police.
    Mr. Taylor. What percentage of arrests are made by the Park 
Police--versus the city police--on ``Federal land inside the 
city?''
    Chief Langston. I cannot give you a comparison on that. You 
are asking how many arrests we make per police officer versus a 
Metropolitan police officer?
    Mr. Taylor. Yes.
    Chief Langston. I do not know their statistics. I could not 
compare that. I do know that we have a very high arrest rate 
from our officers, but I have not made a comparison.

               residency requirement for police officers

    Mr. Taylor. Chief Ramsey, I know that in Chicago you had a 
residency requirement for police and firefighters, of course. 
How do you think that worked and how would that requirement 
work here. We have talked about this for some time, so it will 
not be something new to the Committee.
    Chief Ramsey. Well, sir, in Chicago all city employees had 
to live within the City of Chicago--police, fire, streets and 
sanitation--it did not matter. That is not the situation here. 
However, there are pros and cons to residency like everything 
else. My personal feeling, coming into a situation that I am 
really not accustomed to, not having a residency requirement 
but having the 25-mile radius requirement.
    My feelings are that it is very critical that police 
officers be close enough to be able to respond quickly in an 
emergency. We cannot afford to have officers who live an hour 
away from their place of employment--or two hours away because 
if we ever needed to assemble people for an emergency, we 
simply did not get them. If they live within a reasonable 
distance from the city--and 25 miles that is currently 
established right now--although I have not been here long 
enough and we have unfortunately had to recall people to see 
just how that works. It is my feeling that as long as it is 
within a reasonable distance, I do not have a particular 
problem with some people living outside of the city. If that 
had not been the case, and if we were in a situation where 
there was already residency, I would be arguing very, very 
heavily to have people remain in the city. If we do anything 
around residency, in my opinion, we need to maybe look at 
future new hires to see if we can impose some kind of residency 
requirements. But the costs associated with forcing people to 
move back into the city and so forth, and I really do not know 
if there is a direct correlation between the level of service 
provided by individuals and where they actually reside. My 
personal feeling is that I would like to see more people living 
in the District of Columbia. I live in the District of 
Columbia. My new executive assistant lives in the District, but 
I also think that we need to be a little more flexible since 
this is something that is been in existence for some time now.

                      take-home cars--law ignored

    Mr. Taylor. Last year's appropriations bill prohibited 
take-home cars for officers who did not live in the District, 
yet the Department ignored that law and high-ranking police 
officials were found to have accidents in official cars outside 
the city. In fact, we were getting complaints that disability 
claims might be filed by the police officers for those 
accidents. What have you done so far to see that that law is 
obeyed? Are there any exceptions that you would propose in the 
law?
    Chief Ramsey. Well, I mean, the law is the law. I believe 
it should be adhered to. Let me say that first. I do not care 
if it is me, if it is one of my assistant chiefs or whomever. 
If the law says you do not take a vehicle out of the city for 
personal use, then you just do not take it out of the city for 
personal use. However, I think we need to revisit that for one 
reason and that is there are some situations where we have 
people--and I will give you an example, the emergency response 
team for example that are special people with specialized 
skills that have to respond to a hostage-type situation. When 
they do not have a vehicle available to them what it does is 
forces them to leave their residence, go to the headquarters, 
pickup their vehicle and equipment and then go out to the 
scene. That to me seems like an unnecessary waste of time which 
can result in the loss of life.
    So I think that we need to be able to carve out limited 
exceptions for people--and I do mean limited exceptions. I do 
not mean just taking the car home for the sake of taking it 
home. A person who is actually on-call that particular evening 
who may indeed be called out should have a vehicle at their 
disposal. So I do think there needs to be some flexibility, but 
I do not have a problem overall with not taking a car out of 
the District. I do not really think that we should be paying 
for the gas and mileage placed on cars for people who choose to 
live outside the District with the exception of something very 
narrow as I have just described.

   additional d.c. police required if park police were not available

    Mr. Taylor. If you, the Metropolitan Police Department, did 
not have the Park Police to call on, do you have any idea how 
many additional officers you might need? I am not talking about 
patrolling the Federal area, I am talking about the city in 
general.
    Chief Ramsey. Well let me just say this. Of all the 
agencies that we have here in the District of Columbia, we rely 
on the Park Police more than any others. We have a very, very 
strong working relationship with the Park Police. I would just 
be shooting from the hip to give you a ballpark figure about 
what I think we would need. But I am here to say that if we 
lost the Park Police, we would be in serious trouble in a lot 
of ways. Not only is it in the downtown areas that we rely on 
the Park Police, all the parks throughout the city. We have 
constant joint operations. We now utilize their helicopters 
since we no longer have that capability.
    We rely on the Park Police a lot. But when I talked about 
doing some other things such as maybe some joint roll calls and 
some critical areas that are problems for both of us. So we 
would have to really come to you and ask for a significant 
increase in the personnel and equipment if we did not have the 
Park Police. Like I said of all agencies, I think we work with 
them the most in the District.
    Mr. Taylor. Mr. Moran?

                residency requirement--problems created

    Mr. Moran. Thank you, Mr. Chairman. Let us talk a bit about 
the residency requirement. First of all, because it was brought 
up. It would seem that police officers have a special concern 
with regard to residency requirements. Chicago is a larger city 
than D.C. obviously. To some extent, D.C. is divided 
economically West of Rock Creek Park, the homes are 
considerably more expensive.
    Chief Ramsey. I have just experienced that.
    Mr. Moran. I will bet. [Laughter.]
    I will bet. But on a police officer's pay, there are very 
few police officers who can afford to live West of Rock Creek 
Park. Thus the homes available are more likely to be in those 
neighborhoods that they spend the most time policing, and thus 
there is an endangerment consideration that exists for police 
officers which does not exist generally for other municipal 
employees. The other issue that goes beyond police officers, of 
course, is quality of the pool from which you must recruit. It 
would be considerably more narrow if you are putting 
restrictions on officers that they have to live in the 
District, and thus have to depend upon the District school 
system. I assume that they would have confidence in the 
District's public safety, but one does not know.

            residency requirment--use of incentives instead

    I know the policy that you have to articulate, but I think 
it is useful to bring out those issues. I look for you to look 
at incentive programs that might serve as an alternative just 
in case this legislation does not actually get enacted. I think 
that is a possibility, and if it is not enacted you may want to 
come up with a carrot approach that would provide incentives 
for officers to live in the District. Mr. Taylor touched 
briefly on something that I want to ask a little more about.

                too many uniformed officers in desk jobs

    We had a extensive hearing--this subcommittee did last 
year. Mr. Harlan was there. Some of the statistics that were 
brought out that had been done by a good study that I know is 
accurate is that we have more police officers per 1,000 
residents than any other city in the Nation. We have a police 
budget that is considerably larger per capita than 
Philadelphia, Baltimore, or Detroit, but they make more arrests 
than we do in Washington. What the hearing focused on was the 
fact that of the approximately 3,600 officers that we have, 
more than two-thirds made fewer than 10 arrests in a year. I 
know you were very much aware of these statistics, but I think 
that we want to get an update from you on the record as to how 
you have addressed some of those statistics. Because they 
really are damming in terms of getting the maximum use out of 
your uniformed officers. You have 12 out of the 15 employees in 
the Human Resources office who are uniformed police officers; 
19 uniformed officers were in communications; and 138 uniformed 
officers in Personnel Development--it just does not seem as 
though we were maximizing use of uniformed officers and 
distributing civilian positions in areas where its most 
appropriate.
    The other issue was overtime. But let me ask you first, in 
terms of getting more uniformed officers out on the beat and 
filling civilian-oriented positions with civilians.
    Chief Ramsey. Well, that is one of the things that we have 
been looking at very carefully and really trying to redeploy 
our resources. As I stated early on that my sense was that the 
Department is not organized in a way that really maximizes the 
use of resources. That includes resource allocation. There is 
no doubt that we have too many police officers performing 
functions that civilians ought to be performing. That is why I 
have asked for an increase of 100 civilian positions in this 
year's budget--in the 1999 budget, rather, so that we can again 
continue to move toward civilianization. Whether or not there 
has been an increase in arrest activity. I honestly cannot tell 
you. I do not know if there has been or not. That is why we 
have got to establish performance standards so that we have 
certain expectations of people whatever that might be and then 
hold them to it.

                 too few police carrying the department

    But we have too few people that are basically carrying us 
as a department, not just police officers, but as you move up 
in the ranks you start to see the same thing.
    You always have your one or two people who are very, very 
good. You burn them out because you tend to then find somebody 
that will do it, so you give them everything and then you wind 
up burning them out. Rather than having everybody carrying 
their fair share of the load. We do have dead weight in the 
Metropolitan Police Department. There is absolutely no doubt 
about it. We need to weed it out. We need to kick some people 
in the tail to make sure they do what they are supposed to do. 
Then hire people that are motivated and committed to public 
safety. We have got to make this an organization where people 
clearly understand what is expected of them, hold them 
accountable for seeing to it that for 8 and one-half hours per 
day, they give us 100 percent and not 25 percent, not 30 
percent, or 50percent--but 100 percent. That is the only thing 
that is acceptable.
    Managers have to see that their subordinates do what they 
are supposed to do. Right now, we really do not have the 
systems in place to really have performance standards 
throughout the department. We have pockets of standards where 
we have very good managers and work very good teams and 
motivated people. But then you can just as easily go and find 
people that are not motivated at all and be very, very loyal. I 
have not solved that yet, sir. I am aware of it and we are 
working toward it.
    Mr. Moran. Well, this is obviously what we want to hear. We 
want to know that you are aware of it. We are not asking for 
results overnight, but as long as you make it sufficiently high 
priority.

                     overtime costs of $18 million

    The overtime, as well, is costing us $18 million per year. 
I think we are more than aware of the overtime situation. Are 
you addressing that?
    Chief Ramsey. But you know something? You're earlier 
question.
    Mr. Moran. Yes.
    Chief Ramsey. That affects overtime.
    Mr. Moran. Sure.
    Chief Ramsey. A lot of overtime is because the few people 
that are willing to work overtime and do things are the ones 
that again, we continue to have in the court system when we are 
looking at the conversation with the U.S. Attorney's office--
they need certain follow-up done. Well, they got some 
detectives that they know that if they give an assignment, they 
are going to go out and do whatever it takes to do it. They 
have others that they are reluctant to give things to because 
they just are not that committed. So you wind up with people 
that have a lot of overtime booked up. You have others that do 
not do enough to earn the paycheck they get, let alone 
overtime. So there is an imbalance. If everybody carried their 
workload, it would have a direct impact on your overtime 
because you would not have to use as much overtime in order to 
get the job accomplished. So you are right it impacts all that.

              helicopters--costs associated with d.c. work

    Mr. Moran. I have one last question for the Park Service. 
In looking at these numbers, the total cost for the use of the 
helicopter by the Park Service in D.C.--the D.C. amount came to 
$62,000. I think it is a tough sale----
    Chief Langston. Well, let me correct something before you 
get on that. There is an area there that I would strike out 
that says manpower cost. Personnel manpower costs consist of 
officers who would be flying regardless. Why they put that in 
there, I am really not sure.
    Mr. Moran. Well, I can figure out why they put it in there, 
but you are right that is----
    Chief Langston. The flight hours of 92.2 figured on the 
hours of how much it cost us to operate a helicopter for our--
--
    Mr. Moran. Well, let me suggest this. I think, Mr. 
Chairman, that instead of buying a helicopter for the Park 
Service in this budget, which is far more monitored than the 
Interior budget, that we ought to keep the Park Service funded 
in the Interior budget and reimburse the Park Service for the 
time and resources that are used on supplementing the D.C. 
Metropolitan Police Department's responsibilities. I am afraid 
we set a precedent there that would be difficult to sustain and 
even to justify in this year to take $13 million out of this 
budget, or some significant portion of that, and put into a 
Park Service helicopter. I think reimbursing the Park Service 
will let us deal with the need for another helicopter in the 
Interior budget. We can discuss that further.
    Mr. Taylor. We will be talking about that. I would like to 
recognize that Congresswoman Northup is with us. Thank you for 
being here. Mrs. Northup, do you have any questions?

                          resistance to change

    Mrs. Northup. Let me just briefly welcome Chief Ramsey. For 
the time I have been here, I am very impressed with your focus 
and the fact that you articulate your vision so well. Everybody 
will understand. My experience has been that people are afraid 
of change. They do not like change. They are comfortable with 
what they have had. I just wondered as you talk about making 
actual changes and changing the culture and environment of the 
police department, what is the resistance?
    Chief Ramsey. Well there is a natural--you are absolutely 
right, there is a natural resistance to change whether it is a 
small change, large change--whatever. I think that what is 
important for us to do is to develop good training and 
education for people prior to making the actual changes that 
need to take place. You have to prepare people for change. A 
lot of the resistance is because people are afraid. They just 
do not know what their new roles are going to be. They do not 
know how they fit into the new system. So you need to clearly 
articulate the new roles and responsibilities that go along 
with this change.
    Once you have prepared for change, then once you implement 
it, it is far less threatening. You are always going to have a 
percentage of people that are going to argue and complain. But 
there are people that argue and complain about what they do 
now. So you are going to have that small group. But the vast 
majority of people, I think if you prepare them properly and 
they clearly understand and you answer all their questions and 
are sensitive to the fact that change is very, very traumatic, 
I think you could minimize--that was my experience in Chicago. 
When people began to see the benefits of it and how it could 
actually help them do their jobs more effectively, then you 
start to get by in and that is the key to the whole thing.

                        Mayor's security detail

    Mrs. Northup. One other thing. I may have missed it earlier 
Have you resolved the problems of the Mayor's security?
    Chief Ramsey. That has not come up previously. The Mayor's 
security detail was cut from 30 to 15 and that is where it 
stands today. We are constantly reviewing to find out what it 
is that is actually necessary.
    Mrs. Northup. Is there still conflict between----
    Chief Ramsey. Not that I am aware of. It is stabilized at 
that level. It was cut in half and that is where it has been 
for the last 3 or 4 months.
    Mrs. Northup. That is all, Mr. Chairman.
    Mr. Taylor. Thank you, Mrs. Northup. I want to point out 
that I have been impressed by Chief Ramsey's remarks. I have 
just finished penciling you in, ``Chief Ramsey believes that 
laws should not be ignored in the District of Columbia.'' 
[Laughter.]
    You would be surprised how many people would disagree with 
us in this Committee.

                        fire fighters pay raise

    I would like to ask Fire Chief Edwards. Does last year's 
pay raise bring your department up to the regional pay average? 
I think youspoke to that a moment ago about spreading it over a 
period of time. Let me ask you, too, about one of the complaints that 
our office gets is that you send out a fire truck and sometimes a hook 
and ladder truck to respond to medical emergencies. What is the policy 
as far as coordinating between EMS and the fire department? Can we 
provide safety without those extremes?

             hook and ladder trucks used for medical calls

    Chief Edwards. Mr. Chairman, due to the large volume of 
requests for medical assistance in the city, we utilize a first 
respondent-type response, sir. That first response program 
allows us to put a trained individual on the scene of a medical 
request. Through the use of a--I would say a whole triage-type 
of program and communications division, we try to maintain that 
presence only on the critical care calls. That would be calls 
that would be life-threatening in nature. This is done by a 
series of questions that the call-taker asks of the caller. The 
determination based upon those answers would tell that 
individual what type of equipment to dispatch.
    The first response program is a valid program in this urban 
setting. We, for whatever reason, have a systemic problem for 
medical service and delivery to the citizen in most major urban 
areas. This program allows the patient or the requestor for the 
service to get the care as rapidly as possible. I think our 
problem has stemmed from the fact that we have not educated the 
public, educated the user as to when and what to call for. But 
I do believe it is a valid program. We have reduced the number 
of responses that we put out first response to units. First 
response to units meaning engine companies, ladders companies 
or heavy rescue squads. They have been reduced somewhat. We are 
attempting to keep them only on what those types of responses 
that are classified as critical. But I look at it as--Mr. 
Chairman, Mr. Miconi and the other distinguished panel member--
you having experienced a medical problem. Mr. Miconi being 
trained in CPR or some form of medical training, he then is the 
first response to your call. That is the same way that we look 
at that. We want you or any patient to get into the system as 
rapidly as possible because that they will entail a more 
positive outcome for the patient. So it is really a viable 
program. This is not the only community that uses it. The use 
of it has been reduced compared to what it was a year ago or 
two years ago. Two years ago, we were dispatching first 
response to every request for ambulance. We are not doing that 
now.

          impact of commercial helicopter flights in district

    Mr. Taylor. I would like all three of the law enforcement 
members here to address this question. It is my understanding 
that a private helicopter take off and landing operation has 
been established about a mile from the Capitol. This site will 
apparently serve both for tourist flights to fly about the city 
outside of the restricted zone, and for potential commuter 
flights to New York. Can you assess what this service is going 
to be. Will it in any way conflict with the fire, police, or 
park police doing your jobs and responding to emergency 
situations?
    Chief Langston. Mr. Chairman, we think it is going to cause 
a great deal of hazard in the air, especially around the 
helicopter corridor which is helicopter corridor number 1 which 
is the Anacostia River area. That is where all the helicopters 
that are commercial or public aviation fly up and down to get 
to--are routed up and down to get to National Airport. Also, 
the Marine Corps next month, the Park Police, and aviation are 
right in that corridor and they respond to emergencies very 
quickly out of that area. Our aviation section is about a mile 
from here right on the Anacostia River on the other side of the 
South Capitol Street bridge. We have a concern that increased 
helicopters are going to cause us problems especially with the 
military helicopters that come up and down the Potomac River 
and the Anacostia River. It could create an additional hazard 
to the folks here. There are restricted areas of B-56 areas 
that are in and around the Capitol and around the White House 
that they are prohibited from going into. They simply have to 
hover over or operate in certain areas. Put those in 
conjunction with the news helicopters that are up there now, it 
is going to be an awfully congested area above our city. I have 
a real concern with that.
    Mr. Taylor. Well, I have not seen a report as to whether 
they can operate in different kinds of weather and what type of 
command station they will have to keep it safe. I do not know. 
But it is a concern to us.

                  conclusion of public safety hearing

    Well, I believe that has answered the questions we have. We 
may be talking with you again as we get closer to a markup. It 
is our contention to mark-up towards the end of next month. We 
have talked to Chairman Livingston about that and we will try 
to have the subcommittee markup, if at all possible by then, so 
that we will be ready long before we leave for August to send 
the bill over to Senate.
    We have other hearings that will start at 3 o'clock and we 
are a few minutes early, so we will be in recess for about 30 
minutes.
    Thank you, very much.
    [Recess.]
 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Wednesday, June 24, 1998.

                        D.C. BUDGET FOR FY 1999

                                WITNESS

HON. DAVID A. CATANIA (R) AT-LARGE MEMBER, COUNCIL OF THE DISTRICT OF 
    COLUMBIA
    Mr. Aderholt. [presiding]. The Committee will come to 
order.
    We now move to our final panel with Members of Congress, 
elected District officials, and the general public. We have a 
long list of witnesses and I want to put everybody on notice 
that we intend to close the hearing no later than 5:30 p.m. 
this afternoon. I want to assure all those who are on the 
witness list that they will be able to enter their statements 
into the record, and it will be there for full consideration by 
the Committee.
    We have several Members of Congress who have notified us of 
their intention to testify. If they are not here now, we'll 
certainly accommodate them when they arrive.
    Please note that each witness will have a maximum of five 
minutes. And so I strongly encourage everyone if they could to 
summarize their testimony in that regard.
    Our first witness will be David Catania, an at-large member 
of the D.C. Council. We welcome you to the Committee.

                     Statement of David A. Catania

    Mr. Catania. Thank you. Members of the Committee, my name 
is David Catania, and I am one of two Republican members of the 
D.C. Council. I have come here today to respectfully request 
that this Committee approve the District's Fiscal Year 1999 
budget as submitted. As you are aware, this budget is the 
product of consensus process involving the Mayor, the Council, 
and the Control Board. I have participated actively in this 
process and can honestly say that this budget represents a 
compromise among the various participants.
    I firmly believe that every participant in this process can 
point to several aspects of the budget that they would change 
if the decision were left entirely to them. However, in the 
final analysis, this budget--this process produced a budget 
with a surplus, which is an extraordinary accomplishment given 
the level of need in this city. Simply put, I support this 
budget.
    Now, after several months of negotiations and debate, the 
District's budget is before Congress for approval. I ask that 
you honor our work. I am well aware of the power that the 
Constitution affords this Congress over the District of 
Columbia. I am not asking for this Congress to ignore its 
responsibilities to the District. Rather, I am requesting that 
this Congress exercise respect for the notion of local 
government and democratic principles.
    I would like to share a brief passage from Alexis de 
Toqueville's ``Democracy in America.'' In the chapter entitled 
``Why the Americans Raise Such Insignificant Monuments and 
Others that are Very Grand,'' de Toqueville confirms that 
``true monuments to American greatness can be found in its 
democratic ideas, and not in its granite structures.'' He 
writes about the decision to build this capital city and warns 
of what will happen if we lose sight of the ideas that make us 
great. He explains that ``the Americans have traced out the 
circuit of an immense city on the site which they intend to 
make their capital, but which up to the present time is hardly 
more densely populated than Pointoise, though according to them 
it will one day contain a million inhabitants. They have 
already rooted up trees for ten miles, lest they should 
interfere with the future citizens of this imaginary 
metropolis. They have erected a magnificent palace for Congress 
in the center of the city and have given it the pompous name of 
the Capital.''
    De Toqueville continues that ``democracy does not lead men 
to a vast number of inconsiderable productions, it also leads 
them to raise some monuments on a larger scale; but between 
these two extremes, there is a blank. A few scattered specimens 
of enormous buildings can therefore teach us nothing of the 
social condition and the institutions of people by whom they 
were raised. I may add, though, the remark is outside my 
subject, that they do not make us better acquainted with its 
greatness, its civilization, and its real prosperity. Whenever 
a power of any kind is able to make a people cooperate in a 
single undertaking, that power, with a little knowledge and 
with a great deal of time, will succeed in obtaining something 
enormous from efforts so multiplied. But this does not lead to 
the conclusion that the people are very happy, very 
enlightened, or very strong.''
    He continues that ``the Spaniards found the city of Mexico 
full of magnificent temples and vast palaces, but that did not 
prevent Cortes from conquering the Mexican Empire with six 
hundred foot-soldiers and sixteen horses.''
    Over 150 years ago de Toqueville wrote these words, the 
residents of the District of Columbia are surrounded by 
monuments to democratic principles that are far removed from 
the everyday lives of Washingtonians. Let us not confuse the 
greatness of our strength and wealth with the greatness of our 
civilization. We are a great nation because we believe in the 
radical notion that individuals should control their destiny. 
Yet, in the nation's capital, our residents are still waiting 
for this dream to be realized.
    I know that the District has been poorly served by its 
elected leadership in the past. I am not here to make excuses 
for prior governments. I can tell you that the Council is 
maturing and improving with experience. We are becoming ever 
more rigorous in our oversight and stewardship of the District. 
But yes, we have a long way to go before we perfect our local 
government. But this is no reason to deprive our citizens of 
the right to have their democratic institutions respected.
    I am requesting that this Congress respect the notion of 
local government. The residents of the District should be 
permitted the same dignity afforded every other American, which 
includes the right to chart our own destiny. To this end, the 
elected leadership of the District has made commitments to 
certain issues, including, among others, domestic partnership, 
adoption for unmarried couples, and needle exchange for 
intravenous drug-users. I support each of these commitments. I 
appreciate that members of this Congress may not agree with the 
District's elected leadership in these areas. I understand that 
you have the right and authority to impose your will on us. 
However, legal authority and moral authority are not the same.
    At long last, the time has come to respect the decisions of 
elected representatives of the District and resist the 
temptations of paternalism. As a Republican, I believe in the 
concept of local government, and, as a Republican, I am opposed 
to intrusive Federal involvement in matters that areundeniably 
local in nature. In addition, as a Republican, I firmly believe that 
individuals, not governments, can best decide for themselves the proper 
course of their own lives. These are core Republican beliefs, and they 
should be applied by this Republican Congress in a consistent manner.
    I would be happy to answer any questions this Committee may 
have about the process. Perfect timing, by the way.

                 prepared statement of david a. catania

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



    Mr. Aderholt. Perfect timing. That was good. Thank you for 
your testimony.
    Mr. Moran, do you have any questions?
    Mr. Moran. No, I am going to sit down. I am going to hold 
on to those quotes by de Toqueville. But I appreciate where 
you're coming from, and I hope that we can get there. But we're 
not there yet. And until D.C. has a viable tax base to support 
a reasonable level of municipal services on its own, I do not 
think that you're going to have all of the democratic authority 
and powers that you'd like to see.
    Mr. Catania. Congressman, I appreciate that but fiscal--
there are two very different issues--between fiscal 
accountability and fiscal healthiness, and the right to have 
elected leadership. And so, I would submit--tomorrow in the 
Council we will be having a hearing on the subject of an 
elected Attorney General for the District of Columbia, which 
would take the Office of Corporation Counsel out from 
underneath the Mayor. It would put it under an elected person. 
It would broaden the prosecutorial authorities. I think that 
democracy has been hampered in the District by a very poor 
system of government. Democracy is a theory of government. It 
is not, in and of itself, a system of government. And the 
system that we have, where we have no power to enforce our own 
laws. We have no power to protect the corpus of our government; 
that we are put in a position of our taking our hat and putting 
it in our hands, and walking across the street to the U.S. 
Attorney's office, and asking him or her, at any respective 
time, to please enforce the law against those who would 
perpetrate corruption and misconduct against the government. 
So, until we have a system of government that is truly 
internally consistent and capable of governing with all the 
powers that accompany any decent government, we will not be a 
more accountable form of--a more accountable local government.
    But I do not see that there is any relationship between our 
tax base and our ability to have a say over our own destiny.
    Mr. Moran. Well, then, you look with clouded eyes--probably 
ideologically clouded eyes. I do not fault you for that. But 
the reality is that, unless an entity is going to be 
economically self-sufficient, it is not going to attain 
statehood; and without statehood, you're not going to have all 
the democratic powers that you seek. But I do not want to 
extend the debate. I am just telling you that that is the 
reality of the situation. If you want statehood, you're going 
to have to have the kind of economic viability that would 
enable you to----
    Mr. Catania. And, Congressman, I am not suggesting that I 
am----
    Mr. Moran [continuing]. Sustain the economy----
    Mr. Catania [continuing]. In favor of statehood. What I am 
in favor of is a better system of local government, one that 
permits the enforcement of local laws by locally accountable 
individuals. And what I am here today--and I strayed a bit from 
the subject, and I apologize. What I am here today to discuss 
is the budget and the fact that through a consensus budget 
process with the local elected leadership with the appointed 
representatives of Congress and the president, we managed to 
put together a budget with a surplus. And so, having said that, 
I would hope that we would have--you would--the Congress would 
respect the decisions made by the elected and appointed 
leadership and not attempt to make a petri dish out of the 
District of Columbia for one form of experimentation or 
another. Whether I agree or disagree, it is no more morally 
defensible for members of Congress from, you know, Alabama, 
Arkansas, Virginia or anywhere to impose their will on the 
District of Columbia than it would be for us to impose our will 
on them.
    Mr. Moran. I have used that term on many an occasion to 
fight the things that apparently we would agree with. So, I do 
not take issue with you. And I do think there will be more and 
more incremental reforms as D.C. gets on its feet, both in 
reality as well as in perception.
    Mr. Aderholt. Thank you for your testimony Councilman.
                              ----------                              

                                          Wednesday, June 24, 1998.

                        D.C. BUDGET FOR FY 1999


                                WITNESS

HON. CAROL SCHWARTZ (R) AT LARGE MEMBER, COUNCIL OF THE

  DISTRICT OF COLUMBIA
    Mr. Aderholt. The next witness will be Council Member Carol 
Schwartz.
    Ms. Schwartz. Good afternoon.
    Mr. Moran. Good afternoon, Carol.

                      Statement of Carol Schwartz

    Ms. Schwartz. Rather than read a statement, I summarized it 
in bullet form. And I heard the end of my colleague's 
statement, David Catania, and agree with the consensus budget 
request and ask that it be approved.
    First, I want to talk about the budget points. And that is 
the District's consensus budget was achieved through 
cooperation, tough decision making, and hard choices. It is the 
result of countless hours spanning seven months of difficult 
work, including Council committee hearings, mark ups, and 10 
days of budget planning sessions involving the Mayor, the 
Council, the Authority, the CFO, and the CMO.
    The consensus fiscal year 1999 budget is a product of the 
very system established by Congress for the express purpose of 
restoring fiscal austerity and discipline to District budgets. 
This budget embraces those qualities. It was built by consensus 
with your own entities--the Financial Control Board, the Chief 
Financial Officer, and the Chief Management Officer.
    Priority was given to critical services such as education, 
public safety, and public works--important services which will 
help the District in its efforts toprovide quality services to 
residents, businesses, and visitors.
    The fiscal year 1999 budget provides for much needed pay 
raises for non-union employees, whose wages have, over the 
years, become sorely out of sync with unionized employees and 
certainly the salaries of your own creations--the Financial 
Authority, the CFO, and the CMO, salaries as a matter of fact, 
which have been found to be excessive in some instances.
    Also included are pay raises for employees in the public 
safety sector to bring them more in line with surrounding 
jurisdictions. The continued loss of employees to those 
surrounding jurisdictions, including the Federal Government, 
with better pay and benefits weakens the District's ability to 
adequately staff and provide essential and vital services like 
police, fire, and corrections.
    The fiscal year 1999 budget also provides for $11.3 million 
in tax relief to city businesses and residents. The Council and 
Authority desired to do much more tax relief, but the D.C. 
Public School budget pressures prevented that. I know you share 
our goal of tax relief on this Committee.
    This budget also continues the absolutely critical process 
of eliminating the District's accumulated deficit. In October 
1996, it was more than $500 million. By the end of fiscal year 
1999, if this budget is adopted, the accumulated deficit will 
stand at $41 million, a more than 90 percent decrease. A pretty 
impressive example which the Federal government would do well 
to follow.
    This budget includes funds for sorely needed management 
reforms and technical assistance, which was called for by 
countless consultant studies authorized by the Financial 
Authority and paid for with District funds. Is that not what 
Congress intended?
    The budget is about fiscal austerity, discipline, and 
planning. It seeks to provide critical funding for important 
city services while continuing to cut the fat out of District 
government and bureaucracy.
    To reject this consensus budget means to reject the very 
system put into place by this body. This budget represents but 
another step in the process towards complete fiscal solvency 
and growth for the District.
    Now I want to talk just a moment about form of governance. 
Above all else, the question of governance for the District of 
Columbia should remain up to the citizens of the District, and 
not imposed by congressional mandate.
    Article 1, Section 8, clause 17 of the U.S. Constitution 
clearly empowers the U.S. Congress to exercise plenary 
authority over the District. But because you can does not mean 
you should.
    And I hope that you will reject the urge to load this 
budget with riders. The District of Columbia does not need to 
be the guinea pig for 535 individual congressional agendas. 
That is not fair.
    And speaking of your constitutional authority over the 
District, such power should not be used contrary to one of the 
very purposes for which the Constitution was drafted--to secure 
the blessings of liberty. Are such blessings to be forever 
denied the residents of the District of Columbia?
    Well, that completes my prepared statement, and I am 
available to answer questions that you might have.
    Mr. Aderholt. I do not have any right now. We will submit 
your statement for the record. And we appreciate you coming and 
testifying before the Committee today. Thank you very much.

                  Prepared Statement of Carol Schwartz

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



    Ms. Schwartz. Well, thank you. And please be kind.
    Mr. Aderholt. Thank you.
                              ----------                              

                                        Wednesday, June 24, 1998.  

                         FIRE DEPARTMENT BUDGET


                                WITNESS

RAYMOND SNEED, PRESIDENT, D.C. FIRE FIGHTERS ASSOCIATION
    Mr. Aderholt. Our next witness is Ray Sneed, President of 
the D.C. Fire Fighters Association. Welcome to the committee. 
We look forward to hearing from you.

                       Statement of Raymond Sneed

    Mr. Sneed. Thank you very much.
    Good afternoon, Chairman, and members of the D.C. 
Subcommittee on Appropriations, and staff. I am Raymond Sneed, 
President of the D.C. Fire Fighters Association, Local 36, with 
the International Association of Fire Fighters.
    And I appreciate the opportunity to appear today to offer 
comments on the proposed fiscal year 1999 operating budget for 
the D.C. Fire and Emergency Medical Department.
    We are pleased to see that the D.C. Fire and the M.S. 
Department is finally receiving the financial assistance that 
we so desperately need due to the cuts we sustained from 1989 
through 1995.
    Despite the lack of fire fighting gear, faulty radios, fire 
trucks that barely functioned, unsanitary fire stations and the 
prospect of no pay raises, D.C. fire fighters performed their 
duties. It could never be said of D.C. fire fighters that 10 
percent of the workforce performed 90 percent of the work. My 
members labored together in the attempt to make the best of a 
bad situation.
    If it had not been for this Committee and the support of 
the Subcommittee and the full Committee, I shudder to think 
where we would be today in the Fire Department.
    However, please allow me to respectfully issue a warning to 
the elected leaders of Washington, D.C. and the members of this 
Subcommittee who will ultimately improve or hopefullyincrease 
this budget.

                          Massive Deficiencies

    Just as it took approximately six years for the Department 
to get overwhelmed by constant yearly budget reductions, the 
massive deficiency cannot and won't be corrected overnight.

                       Training Academy Condemned

    For example, currently the District of Columbia Fire 
Department cannot train our fire fighters in their chosen 
profession at our Fire Training Academy. Our training 
facilities have been condemned since 1988, and its lies in ruin 
at the Blue Plains location. It is not only embarrassing, Mr. 
Chair, it is an eyesore also. Currently, our rookies have to go 
over to Alexandria or Fort Belvoir, Virginia, or Prince 
George's County to get the training that we need to perform our 
job.

                          Procurement Problems

    And procurement? That is still a problem. We have had two 
brand new hook and ladders at $480,000 each sit in the fire 
house because the city had not paid for them. And the 
frustrating thing about it, the money to purchase that 
apparatus was appropriated in the 1997 budget. So the minute 
the manufacturer had built that equipment, it should have been 
paid for at that particular time. But we still had to wait for 
30 days after days after delivery before the city paid for them 
because the manufacturer will allow that much time before those 
units are paid for.

                       Leaky roofs on Fire Houses

    Last night, Channel Seven did a piece on the Fire 
Department, and I was kind of stunned because I thought somehow 
the reporter had gotten a copy of my testimony because she 
talked about the deplorable conditions of the Fire Department, 
the fact that we had leaky roofs and stations that needed 
repairs. And that was the same thing that I want to identify 
here today.
    We have fire stations with leaky roofs. We have station 
doors that fail to open. Heating plants that need to be 
replaced. We have malfunctioning air conditioning units that 
are in modern fire stations that--where the windows will not 
open because it really wasn't designed that way. And I noticed 
today in the Fire Chief's testimony he is requesting $2,106,000 
for repairs for the fire houses. Now, it might sound like a lot 
of money, but if you have worked in the D.C. Fire Department, 
you will note that that is a long way from what we really need 
in order to come up to par.

                      Clarification of Information

    What I have done, Mr. Chairman, in the budget that was 
presented to the Congress, there are several areas in there 
where they identified instances where it would appear that the 
D.C. Fire and Ambulance Department is living the good life. And 
they went back and took a study from other cities and compared 
us to those. And what I have done--I have identified all of 
those areas, and I have also made comments on what we thought 
was appropriate and where we thought this body was actually 
being misled by those numbers.
    While our fire fighters certainly were not pleased over the 
budget reduction of the past, accompanied by an increased 
workload, with less personnel, they continued to do their job 
and what not.

                    Pay Parity With Police Officers

    And that brings me to my final point: There's always pay 
parity between the D.C. Police and the Fire Fighters, going 
back as far as when pay raises were given to both bodies by 
Congress. And our police officers and fire fighters have the 
same pension system. However, since the inception of the 
Control Board, pay raises in both police--well, in the Police 
Department--have been legislated. And we were fortunate enough 
to come before this body last year and get--and have a pay 
increase legislated. But my point now is our brothers and 
sisters in blue have received an additional 10 percent salary 
increase, and it is supposed to be effective from the 1999 
budget. And I think one of those increases goes back to 
February 1 of 1998; and the second will be effective 10-1-98. 
So what we did, we went to the District Government. We asked 
elected officials, especially the Council's Judiciary 
Committee, which is over the D.C. Fire Department, and they saw 
the need to maintain pay parity with the police. And there was 
a five percent--of the monies included in the budget 
originally--for a five percent pay increase for fire fighters. 
But once that budget went through the final process, that five 
percent mysteriously disappeared. So what we're doing now is 
asking this body to understand the needs of the fire fighters 
and include that language in the appropriations bill that would 
give us the 5 percent pay increase.
    Thank you.
    I'll try to answer any questions that you might have.

                  Prepared Statement of Raymond Sneed

    [The prepared statement referred to follows:]



[The official Commmittee record contains additional material here.]

    Mr. Aderholt. I do not have any questions at the present 
time. Of course, your statement has been submitted for the 
record. We appreciate your taking time to address the 
Committee. And we thank you for being here today.
    Mr. Sneed. Thank you very much.
    Mr. Aderholt. Thank you.
                              ----------                              

                                          Wednesday, June 24, 1998.

                     BOYS TOWN USA--HOMELESS YOUTH


                                WITNESS

FATHER VAL PETER, EXECUTIVE DIRECTOR, BOYS TOWN USA
    Mr. Aderholt. Father Peter with Boys Town?
    Father Peter. Yes. Thank you very much, Congressman, for 
giving me a chance to talk to you. You know, I have a boring 
report that is written, but I am not going to talk about that.
    Mr. Aderholt. Good.

                     Statement of Father Val Peter

    Father Peter. And I just wanted to come, and I want to 
thank you for the opportunity. My name is Val Peter. I am the 
successor of Father Flanagan, and my job here this afternoon is 
very briefly to let you know what we're doing in the District 
of Columbia and why we want to do more.
    We are in 18 States, the District of Columbia, taking care 
of 31,000 kids, and the reason we come to the District of 
Columbia--we came five years ago--cause the District's got a 
lot of problems. And we're very good at the kinds of problems 
that we work on. We work on kids who are extremely troubled--
kids going to prison, coming out of prison, whatever it might 
be. We have lots of success. The reason why we have success is 
not because we're magicians or anything like that. We have done 
for the last 30 years research on the behavior, aggressive 
behavior of troubled children. It is called microbehavioral 
analysis. We're a bunch of science folks who have gotten into 
the behavioral side of things. Eight-two percent success rate 
with our kids in the District--and across the--what's does that 
mean? It means 82 out of 100 kids who come to us with these 
kinds of problems go away and do not have those problems.

                       Boys Town Facility In D.C.

    The reason I am here today is because five years ago we 
came to the District. We have a short-term residential: we're 
taking care of 300 District kids a year.
    In addition to that, we have a long-term residential, which 
is small. We're taking care of about 10 or 20 kids. In 
addition, we have foster care in the District, and taking care 
of 50 to 100 kids. The last thing is we do parent training in 
Anacostia and throughout the District.
    I do not think there's a day goes by we do not get three, 
four, five, ten calls where people can you do more. We would 
like to do more. My purpose here today isn't, you know, to ask 
for any specific thing. My purpose here is to ask for your 
support. We have a terrific program. We'd like to double the 
size of it in the District. And I just want you, Congressman, 
and the other members of the District to know we're very 
committed to this. We are very good at what we do.

         Funding From Private Sources and Long Term Commitment

    Two other things. Just last things that you ought to know. 
And the first one is that two-thirds of all our funding comes 
from private sources. Always has. Always will. So we do not 
plan to, you know, hook a pipe to the government and ask you to 
start pumping our way. And we're going to be here for 30, 40, 
50 years. We're not a fly by night.

                   Boys Town USA Is Nondenominational

    The second to last thing you got to know. I am a Catholic 
priest. Boys Town is not a Roman Catholic organization. Never 
was. Father Flanagan was very wise. He said, let's make it non-
denominational. We do not get involved in anybody's politics 
except the politics of children.
    So in the end, what I am asking you--I am just here to make 
kind of a interim report. Say thank you for what you are doing. 
Would you please support us as we try to take care of more kids 
in the District. We work real hard with everybody else here.

                        Story of 9-Year Old Boy

    One story, and then I'll quit. Here's a boy, 9-years-old, 
he comes to us in the District. He's been in 16 foster homes. 
His with us for two years; he's got runaway problems, he's got 
violence problems, he's got truancy in school; and he's got 
suicide problems. In two years, this kid is now--the anxieties 
have diminished and he's ready to get better. Why? Three simple 
reasons.
    Number one, we teach you skills. I say to him, Cedric, you 
want to get your needs met in a way that everybody's going to 
applaud to that everybody's going to curse, we can show you 
how. So we teach you skills. We help you build relationships, 
and we help you take charge of your own life. We say that very 
simply. We say, Cedric, you want to get better, you got to shut 
up, you got to lighten up, and you got to grow up. And we can 
help you do all of those.
    So I want to thank you very much. You guys are doing 
terrific work. And that is all I have to say.
    Mr. Aderholt. thank you for your work through Boys Town and 
the work that you do for the at-risk boys and girls over there. 
And we thank for your testimony. We will place your written 
testimony in the record?
    Father Peter. Yes, please.

                 Prepared Statement of Father Val Peter

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



    Mr. Aderholt. Thank you.
    Father Peter. I have tried not to be boring. There's three 
rules: be clear, be brief, be gone. I was clear. I have been 
brief, and now I am gone. [Laughter.]
    Mr. Aderholt. You met all three. Thank you.
                              ----------                              

                                          Wednesday, June 24, 1998.

                  FUNDING LEVELS AND POLICY DECISIONS


                                WITNESS

DAVID J. SCHLEIN, NATIONAL VICE PRESIDENT, DISTRICT 14, AMERICAN 
    FEDERATION OF GOVERNMENT EMPLOYEES
    Mr. Aderholt. David Schlein? How you doing today?
    Mr. Schlein. Good. Good afternoon.
    Mr. Aderholt. You are David Schlein with the American 
Federation of Government Employees.
    Mr. Schlein. Yes.
    Mr. Aderholt. Thank you for being here today.

                 Prepared Statement of David J. Schlein

    Mr. Schlein. Thank you.
    Mr. Chairman, I am going to summarize my statement and ask 
that it be submitted for the record with our attachments.
    Mr. Aderholt. Certainly.
    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



                       Statement of David Schlein

    Mr. Schlein. My name is David Schlein. I have the honor of 
serving as National Vice President for the American Federation 
of Government Employees. We represent approximately 5,000 
employees who work for the D.C. Government. These are front-
line employees who do the demanding, often dirty, and sometimes 
dangerous, and almost always thankless work that keeps the city 
running.
    Like you, AFGE believes that addressing the urgent and 
glaring crisis in management is the long-term key to prosperity 
for the city and to ensuring that the city's residents and 
visitors to our nation's capital receive excellent service.
    The cause of the city's twin financial and management 
crises has never been that rank and file city workers are 
overpaid or that there are too many people hired to pave the 
roads, fix the school boilers and roofs, renew licenses, 
maintain water and sewer lines, clean up the parks, or process 
the paperwork. Unfortunately, it is the political patronage has 
come to mean a management job or a lucrative private contract. 
There were, and still are, too many bosses and not enough 
front-line workers or equipment or spare parts to get the job 
done. There were, and still are, questionable contracting 
policies that result in contracts let without proper regard to 
the price, the quality, and the experience of the contractor.
    As hard working, dedicated employees, our D.C. members are 
extremely frustrated when the city government just doesn't 
work. Our members are the folks who try to continue to deliver 
services to District residents and businesses in an efficient, 
professional, and humane way, despite the obstacles and 
frustrations caused by layers of redundant management, lack of 
training, materials and or equipment. They are the folks who 
arrive to work on time and do their jobs, despite untrained, 
unprofessional, politically well-connected managers who ignore 
ideas on how to make government work better. They are the 
skilled workers who keep plugging away at their work, despite 
having their salaries cut twice in the past 24 months, their 
earned benefits reduced or eliminated, and their pay for 
overtime, hazardous duty, and holiday work being severely 
reduced. We are proud of our D.C. members. As public employees 
for D.C. Government, they truly are the unrecognized heroes and 
heroines toiling under exceptionally difficult, demanding, and 
often dreary conditions.
    Let me be clear. Our members have no stake in the status 
quo of management. As the front-line workers, our members have 
a keen awareness of the problems with the city's operations. It 
is because they are closest to the delivery of services that 
our members and their union representatives can offer a clear 
perspective on solving these problems. Transforming D.C.'s 
governmental system into one that inspires public confidence in 
the city's ability to deliver high quality public service in a 
cost effective manner is our goal.
    We understand that our members' futures depend on resolving 
the city's ongoing financial and management crisis. And we know 
that it is the front-line employees who do the city's work who 
must be the center of any effort to fix the city's delivery of 
services.

       Grant For Labor-Management Pilot Programs at Public Works

    Indeed, over two and a half year, AFGE, AFSCME, and the 
city successfully applied for a grant from the Federal 
Mediation and Conciliation Service to establish a labor-
management pilot program at the Fleet Maintenance Division of 
the Department of Public Works. The project has already yielded 
impressive results in improving efficiency and labor-management 
relations.
    Furthermore, the grant required that city-wide labor-
management partnership committees be established. Both FMCS and 
the Department of Labor have generously donated resources and 
expertise to make the project a success. The success achieved 
in this project, as well as the historical success in the 
Federal Government in other cities, such as Philadelphia, 
Cincinnati, Indianapolis, Fort Lauderdale, give us reason to 
hope.
    In the rest of my testimony, I talk about some of the 
highlights that we believe are necessary in management reform. 
And we have provided you a copy of project that we did that 
responded to the consultants that were hired by the city, 
which, of course, came out of last year's appropriations, with 
what some of our members thought of their reports. And this has 
been shared, of course, with the city leaders, the City 
Council, the Authority. And we're working hard to try to 
implement some of these changes.
    Let me just close by also stating that AFGE also supports 
the District's budget request, and we hope that it will be 
passed expeditiously.
    Thank you very much.
    Mr. Aderholt. Thank you for being here today, and 
testifying.
    Mr. Schlein. Thank you.
                              ----------                              

                                          Wednesday, June 24, 1998.

                         PUBLIC SCHOOLS BUDGET


                                WITNESS

MARY LEVY, PARENTS UNITED FOR THE D.C. PUBLIC SCHOOLS
    Mr. Aderholt. Our next witness is Mary Levy with Parents 
United for D.C. Public Schools.
    Thank you for being here today.

                         Statement of Mary Levy

    Ms. Levy. Thank you for having me. I am Mary Levy and I 
have studied the school system's budget, staffing, and reform 
efforts for the last 18 years. I am going to speak about three 
things today.

                           PER PUPIL SPENDING

    The first is per pupil spending in the D.C. Public Schools. 
Essentially it is a lot less than what one hears. It is, this 
year, Federal and local funds included, the school system is 
spending a little under $7,600 a pupil. The reason it is so 
much more in earlier reports is explained in the notebook 
attached to my testimony.
    What the school system is spending this year is less than 
in the surrounding suburbs, except for Prince George's County. 
And it is a lot less than either Arlington or Alexandria. This 
is for a population with a much higher rate of disadvantaged 
children. It is also less than we spent four years ago. In most 
school systems spending goes up year by year. Ours has gone 
down year by year until this year. And I lay all that out in 
these papers, in the details.

          NEED TO FILE COURT SUIT TO GET FINANCIAL INFORMATION

    Second topic is where the money goes. We haven't got a good 
account as to where the dollars go exactly because I have not 
yet succeeded in wresting that from the school system's 
administration or from the Chief Financial Officer, but I am 
working on it. And eventually we'll sue them and get the 
information. We do, however, do extensive monitoring of staff 
in the school system, and because of the way we do it, it is 
better than anything the school system publishes. And what I 
have laid in the testimony here shows where they have come in 
the last three years and where they are today in terms of their 
staffing. About six percent of their staff is in central 
offices. That is for a rather long list of functions, including 
people like payroll clerks and people who do the personnel 
processing, communications, management, curriculum, teacher 
certification. There's a very long list of central office 
functions. And like I said, they have got six percent of their 
workers on that. That number is down quite a bit in recent 
years. And right now, there's really, with the cuts they have 
just announced, no more to go. Non-instructional services have 
also been cut, not as much as it looks like, because some of 
those services have been contracted out, which means the money 
moves over from staff to non-staff. After they get done cutting 
the custodians that they say they are cutting, there probably 
will not be enough of them to keep the schools clean. But we 
will see. About 78 percent of their local staff is in schools, 
in school instructional programs. I am not talking about the 
cafeteria workers or the----
    Mr. Aderholt. Excuse me. Go right ahead.
    Ms. Levy. When I say school-based, I am not including the 
custodians or cafeteria workers. That is 78 percent of the 
locally funded staff. Over the last four years, the school 
system has cut almost one-quarter of its locally funded 
employees. Central offices and non-instructional services are 
down substantially, but they have also cut the classroom. We 
now have 1,100 fewer teachers and aides than we used to have. 
They come close to matching their current criteria for 
staffing, except in one area, and that is special education, 
where they are very much short on staff.

                           BUDGET FOR FY 1999

    Third topic is next year's appropriation of $545 million. 
With the central office and the custodial cuts that they have 
announced, that amount of money will suffice to keep services 
in the schools about the same as they are now, although middle 
school and high school class sizes will go up a little. They 
will have to increase special education substantially in order 
to keep up with newly identified students. There will be, I 
think, more testimony about that from someone else later. That 
leaves them somewhere between $10 million and $20 million to 
raise teacher salaries, which are 8 to 14 percent behind those 
in the suburbs, and do any reforms and improvements that they 
ought to be doing such as extensive staff development.
    That is the summary of my testimony.
    Mr. Aderholt. Thank you for being here today. Of course, 
Chairman Taylor has come in now, and I am going to turn it over 
to him.
    Mr. Taylor [presiding]. We appreciate your coming in and 
your entire statement will be included in the record. Thank you 
for doing that.

                    PREPARED STATEMENT OF MARY LEVY

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



                                          Wednesday, June 24, 1998.

                           SPECIAL EDUCATION


                                WITNESS

TAMMY SELTZER, CO-CHAIR, D.C. SPECIAL EDUCATION COALITION
    Mr. Taylor. Let's see. Okay. Tammy Seltzer.
    Ms. Seltzer. Just like Alka Seltzer.
    Mr. Taylor. Oh, good. Okay. You have been a relief many 
times, so maybe I'd like to have you be a relief here today.
    Ms. Seltzer. I hope so. I just wish I were a stockholder in 
the Alka Seltzer company, but the name doesn't bring all of 
those benefits, unfortunately.

               BACKGROUND OF SPECIAL EDUCATION COALITION

    Good afternoon. I am Tammy Seltzer. I am a staff attorney 
at the Bazelon Center for Mental Health Law. And I am speaking 
here today on behalf of the D.C. Special Education Coalition, 
which is a diverse group of parents and advocates who are 
committed to ensuring that children with disabilities in the 
District receive the special education services which they are 
entitled under Federal law.
    I have prepared a written statement, which I would like to 
ask be entered into the record.
    Mr. Taylor. Without objection.

                  PREPARED STATEMENT OF TAMMY SELTZER

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



                       Statement of Tammy Seltzer

    Ms. Seltzer. And I will just summarize my statements today.
    The Coalition has been a very active participant in recent 
efforts to rectify some of the long-standing, systemic problems 
with D.C. Public Schools' special education services. And to 
everyone's surprise, although we normally criticize D.C. Public 
Schools, today I am here to support their fiscal year 1999 
budget request for special education services.
    Denying the request the Coalition feels would jeopardize 
the very reforms that are necessary to extricate the school 
system from the morass of expensive private school placements 
and unnecessary litigation.
    Superintendent Arlene Ackerman, as you all know, has 
inherited a school system that just doesn't have the adequate 
infrastructure to provide special education services to all the 
children who need them. And the lack of educational services 
has led to two particularly worrisome results. One I know that 
the Chairman's been interested in, and that is the over-
reliance on expensive private school placements.
    But there's also another result, which you may not be aware 
of, which is that there's been an incentive to under-identify 
children with disabilities who qualify for special education 
services.
    D.C. Public Schools currently places students in private 
school placements at twice the national average, which, as we 
know, is definitely draining their budget. They also are 
currently identifying students as needing special education 
services about nine percent of the time. They are saying nine 
percent of the population. And what we know is that the 
national incidence of disability is pretty steady across the 
country. It is not something that varies that much. And across 
the country, the average range is from 12 to 15 percent. In 
urban areas, with the similar socio-economic situation that we 
have here, the numbers are even higher. Baltimore City, for 
example, has an 18 percent identification rate, so D.C. at 9 
percent is far below that. They have just been not identifying 
students that need services. So the disparity that we end up 
with is that a minority of the student population is receiving 
a disproportionate share of the special ed budget, while 
thousands of children are receiving no services whatsoever, 
which is a big concern. And regardless of testimony to the 
contrary, D.C. Public Schools is really the entity that created 
the problem. There are years and years of U.S. Department of 
Education reports showing non-compliance from as back as when 
they started monitoring. And we're talking about non-compliance 
in the area of 90 to 100 percent in some areas.
    So for many years, D.C. Public Schools has wasted their 
funds, building this bureaucratic stone wall rather than 
building a school system that the children deserve. And Ms. 
Ackerman, to her credit, realizes that building a service 
capacity of the public schools is the only way to address the 
crisis that they find themselves in. Some D.C. government 
officials have suggested that she doesn't need additional funds 
to rectify this problem; that all she needs to do is bring back 
some of these private school kids. Then she can take that money 
and build services for the kids that need them. And based on 
the information that I have about the law and the way the 
system works, I can tell you that that is just impossible for 
her to do. And I'll explain why.
    The D.C. Public School students are in those private 
schools' placements precisely because there are no services 
here for them. Until D.C. creates the services, they cannot 
legally bring those children back. But until they create the 
services, they are going to keep having additional children 
that need to go into the private school system. The bottom line 
is that Ms. Ackerman does need to make an investment into the 
infrastructure, just like you would make an investment into 
bridges and roads, before she's going to be able to have a 
school system that is efficient and doesn't put an 
extraordinary amount of money into these private school 
placements.
    Given the District's fiscal history, I know that you 
probably have a lot of concerns that we not throw good money 
after bad. And I think it is a legitimate concern. But our 
interactions with Ms. Ackerman have given us reason to be 
optimistic in this regard.
    For one thing, she seems to be very well informed about the 
system's problems and also seems to have a very clear idea of 
what needs to happen to fix things. She has signed a historic 
three-year agreement with the Department of Education outlining 
the specific steps that they are going to take to fix some of 
these problems. And it is an agreement, which I brought with 
me--pretty hefty--that had months of community input as well. 
And although it was executed just three months ago, I think it 
is significant to point out that Ms. Ackerman has made progress 
toward some of the goals in that agreement.
    One of the things that she has been able to do is to assess 
several hundred students who were waiting for assessments over 
the last months, and last Saturday, D.C. had a Child Find 
screening for disabilities which is the first time in anyone's 
memory that that has ever happened even though it is required 
under the law. So, I would request on behalf of the coalition 
that you support the budget request that has been made by D.C. 
public schools.
    Mr. Taylor. Thank you, Ms. Seltzer. We appreciate your 
remarks. Thank you.
    Ms. Seltzer. Thank you.
                              ----------                              

                                          Wednesday, June 24, 1998.

                      CONTROL BOARD STAFF SALARIES


                                  AND


                           LEGISLATIVE RIDERS


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Mr. Taylor. I would like to recognize Congresswoman 
Constance Morella, my fellow worker in the halls upstairs, for 
her statement. Glad to have you with us.

            Statement of Congresswoman Constance A. Morella

    Mrs. Morella. Thank you very much, Mr. Chairman and 
Congressman Aderholt. I am delighted to be here before you, and 
I thank you for the courtesy of allowing me to testify on what 
I consider to be some important priorities in the District of 
Columbia appropriations.
    As Vice Chair of the Government Reform Subcommittee on the 
District of Columbia and as a representative of the district 
that borders the District of Columbia, I have a great concern 
and a great interest in making the District a safe and thriving 
place that is a source of pride for the Nation.

                  control board exceeded its authority

    Having said that, I want to start off by commending you, 
Mr. Chairman, for requesting a GAO study examining the pay 
raises provided to certain staff in the city by the D.C. 
Financial Control Board. The GAO report confirms that the 
Control Board exceeded its authority by granting excessive pay 
raises to Executive Director John W. Hill, Jr. and to General 
Counsel Dan Resneck and by paying Chief Management Officer 
Camille Barnett a salary of $155,000. While I believe that we 
must pay the CMO what she deserves and honor her contract, the 
raises given to the top executives in the D.C. government are 
excessive and should be returned, and I support you, Mr. 
Chairman and appreciate your good efforts in looking into the 
matter.

                  residency requirement for employment

    Let me turn to another matter, Mr. Chairman, over which we 
may have some differences of opinion, and I am referring to the 
residency requirement. As you know, last March, the D.C. City 
Council overwhelmingly passed a bill requiring new city workers 
to live in the District. On May 19th, this act was officially 
transmitted by the Council to Congress, and unless rejected by 
Congress, the act will go into effect shortly. I believe that 
the D.C. appropriations bill would be an appropriate place in 
which to repeal the Residency Requirement Reinstatement Act. I 
urge you to do so. Requiring new workers to live in the 
District would make non-residents second-class citizens and 
could endanger public safety and education.
    When I first came to Congress in the late eighties, the 
District government was already showing signs of the 
deficiencies that marked the beginning of a spiraling, economic 
crisis. Services in the District were deteriorating; businesses 
were relocating; middle-class residents were moving to the 
suburbs in search of lower taxes, safer streets, and better 
schools. From 1990 to 1995, the District lost more than 22,000 
households, most of them middle-class taxpayers.
    As Congressman Moran has pointed out, many of the people 
who move to the suburbs have homes. If this residency 
requirement is implemented, these people will be looking for 
alternatives to working for the District, and we may lose many 
competent employees.
    Mr. Moran also has pointed out that this proposal will not 
pass, and it diverts attention from the more important issues 
that affect the District. If we work hard to make the streets 
safer and improve the schools, those former residents will want 
to move back to the District closer to their jobs. I know that 
property values already have gone up from my work on the 
Cafritz Advisory Board. Just look at the old Woodward & Lothrop 
building that was bought by Ms. Casey for about $13 million. It 
is now going to sell for about $33 million, and the Washington 
Opera that was going to be housed there will now be the Kennedy 
Center clients. So this is an indication of a lot of the goods 
things that are happening in the District of Columbia.
    Many of the workers who do live in the District are 
underserved and undereducated at this point, and I think we 
need to work hard together to make sure that we have good 
training programs for District residents so that they will meet 
the need of the changing work force. So, I urge you to include 
language to repeal the residency requirement in the D.C. 
appropriations bill.

                     other legislative restrictions

    I also understand that this subcommittee may be considering 
the inclusion of language prohibiting unmarried couples in the 
District from adopting children, preventing the District from 
using its own local revenues to fund the city's Needle Exchange 
Program to prevent new HIV infections in injection drug users 
and their partners, and continuing the prohibition on funding 
for the D.C. Domestic Partnership Program.
    I think that trying to micro-manage D.C. would be 
counterproductive for the Congress and would encroach on the 
legitimate roles of the City Council and the Control Board. As 
Republicans, we have worked to give back local control to our 
communities, and these provisions will run counter to that 
objective.

           prohibiting adoptions by certain unmarried couples

    Most Americans agree that the Federal government should 
stay out of the family law decisions. In fact, Americans, 
categorically, reject the notion that the Government should 
take a greater role in deciding who can and cannot adopt 
children. By a margin of nearly 4 to 1, 74 to 19 percent, the 
public believes that we should keep the system we currently 
have rather than allow the Federal government to take a greater 
role. Congress has traditionally stayed out of family law, 
recognizing that State and local governments are better suited 
to address those issues.
    The best interest of the child should be the deciding 
factor in setting adoption policy at the local level. That is 
best determined by local, trained professionals. Parenting 
skills, not marital status or sexual orientation, should be 
considered.
    The American Psychological Association reports that studies 
comparing groups of children raised by gay and non-gay parents 
find no developmental differences between the two groups of 
children in their intelligence, social and psychological 
adjustment, popularity with friends, development of sex role 
identity or development of sexual orientation. In fact, in 48 
States and the District of Columbia, lesbian and gay people are 
permitted to adopt when a judge finds that the adoption is in 
the child's best interest.
    As of June 22nd of this year, there were 3,600 children in 
the D.C. foster care system waiting to be adopted. It is hard 
enough to find good homes for children; it would be a travesty 
to make children languish in institutions at great cost to 
taxpayers when they can have caring, loving homes.

                      needle exchange drug program

    Mr. Chairman, the District of Columbia has one of the 
highest incidences of HIV infection in the country. Intravenous 
drug use is the District's second highest mode of transmission, 
accounting for over 25 percent of all new AIDS cases. For 
women, where the rate of infection is growing faster than among 
men, it is the highest mode of transmission.
    Scientific evidence supports the fact that needle exchange 
programs reduce HIV infection and do not contribute to illegal 
drug use. Despite that, on April 29, 1998, the House voted to 
prohibit the expenditure of Federal funds for needle exchange 
programs. D.C. has had a local Needle Exchange Program in place 
since last year, an important tool in the City's fight against 
the spread of HIV and an important bridge to drug treatment 
services.
    Now, some members want to tell D.C. that it cannot spend 
its own funds to prevent new HIV infections. This is simply 
wrong. Local jurisdictions should be able to decide for 
themselves how best to fight the HIV epidemic in their own 
communities. In my State of Maryland, Baltimore has a great 
program, and they are allowed to fund it with their own money; 
it has resulted in a significant decrease in the HIV infection 
rate.

            conclusion of congresswoman morella's statement

    Mr. Chairman, with so few days on the legislative calendar, 
Congress cannot afford to hold up the appropriations process by 
politicizing family and public health decisions. I urge you and 
the subcommittee to reject such efforts and allow the District 
of Columbia to make its own decisions on these local matters. 
You have been very patient and kind to give me the extra time 
so I could go through those issues of importance to me, and I 
do hope that you will consider them. If you have any questions, 
I would be happy to try to answer them.

           residency language--authorizing committee inaction

    Mr. Taylor. Thank you very much for your presentation. As a 
member of the authorizing committee, do you know whether or not 
the authorizing committee is going to act on the residency 
requirement?
    Mrs. Morella. I do know that if we were to act on it, we 
would be against it, I believe.
    Mr. Taylor. As I understand it, the D.C. government has 
passed it, and the House, either from your committee or ours, 
has to reject it and the Senate has to do the same and the 
President has to sign the bill with the rejection language.
    Mrs. Morella. With the limited period of time, the onus 
probably falls more on you, but if I could defer and ask Mr. 
Dennis who is a councilman.
    Mr. Taylor. It is clearly an authorizing question, and I do 
not know that we are going to be involved.
    Mrs. Morella. Is the subcommittee planning to do anything 
on that that you know of? I would be happy to talk to him right 
now.
    Mr. Taylor. Well, heaven forbid that an appropriations 
committee legislate in an appropriations bill.
    Mrs. Morella. Oh, I know, we never do that, Mr. Chairman, 
do we.
    Mr. Taylor. That's right.
    Mrs. Morella. Never.
    Mr. Taylor. Well, thank you so much for your presentation. 
Mr. Aderholt.
    Mr. Aderholt. Thank you for being here.
    Mr. Taylor. Thank you.
    Mrs. Morella. I will check with the authorizing committee, 
but I think it would be an excellent opportunity for it to be 
put into the D.C. appropriations bill anyway.
    Mr. Taylor. Thank you.

        prepared statement of congresswoman constance a. morella

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



                                          Wednesday, June 24, 1998.

  DOMESTIC PARTNERSHIP; NEEDLE EXCHANGE; AND PROHIBITION ON UNMARRIED 
                       COUPLES ADOPTING CHILDREN


                                WITNESS

CARL E. SCHMID, CAPITAL AREA LOG CABIN CLUB
    Mr. Taylor. Is Mary Filardo here? Mr. Schmid, we are glad 
to have you with us.

                        statement of carl schmid

    Mr. Schmid. Good afternoon. My name is Carl Schmid, and I 
am appearing today on behalf of Capital Area Log Cabin an 
organization of gay Republicans and the Human Rights Campaign, 
the Nation's largest gay and lesbian political organization. We 
come before you again to express our concern about the 
inclusion of certain provisions in the D.C. bill which would 
adversely impact our community.
    Our message to you as it was last year is to please, leave 
us alone. Specifically, I would like to focus on three issues: 
one, a prohibition on implementation of our domestic 
partnership law; two attempts to prevent unmarried couples from 
adopting, and, three, a prohibition on the use of D.C. funds to 
carry out our AIDS Prevention Needle Exchange Program.
    While we, like you, are concerned about how our government 
is being run and managed, we must ask how involved should 
Congress be in dictating social policies for District citizens. 
Now that there is no longer a Federal payment, Congress' role 
should be decreasing not increasing. I thought we, as 
Republicans, believe in less government and individual rights. 
So, why do we have to fight each year over these issues? Aren't 
there more broader financial management issues to consider than 
to delve into such local policy issues?
    It appears that certain Members of Congress are trying to 
dictate their own personal views to the District all just for 
their own political gain.
    Our Domestic Partnership Program which has never been 
allowed to be implemented by the Congress, allows District 
employees to purchase health insurance at their own cost for 
their domestic partner. The only benefits the partner receives 
are visitation rights at nursing homes and hospitals and, 
depending on the employer, other rights such as sick, parental, 
and bereavement leave. As you can see, it is very limited. 
Private employers around the country such as IBM and Mobile are 
establishing these programs; so are numerous cities like New 
York, Los Angeles, and Chicago. Why then does Congress prevent 
the District from implementing its program while other cities 
are allowed to implement theirs?
    Another area where the Congress has tried to interfere with 
local social issues, as Congresswoman Morella mentioned, is in 
adoption. Congress has traditionally stayed away from these 
family laws issues, because they are best handled at the State 
and local level, but the past three years, one Member has tried 
to prohibit unmarried couples from adopting. Fortunately, 
fairer minds have prevailed, and these attempts have failed, 
but it appears that they have not given up. Adoptions do not 
happen overnight, but only after careful planning and a lengthy 
report is conducted that includes a home study, a financial and 
criminal record check are all done to determine if the 
prospective parents are fit to adopt. The final decision rests 
with the court after they conclude the adoption would be in the 
best interest of the child. These are not issues of Federal 
legislative concern but decisions best left to local family 
court to decide on a case-by-case basis.
    Finally, needle exchange. As Congresswoman Morella 
mentioned, the District, sad to say, has one of the highest 
incidences of HIV in the country. This not only costs precious 
lives but precious dollars. IV drug use is the District's 
second highest mode of transmission accounting for over 25 
percent of all the new AIDS cases. For women, it is the highest 
mode of transmission. Unfortunately, the trends do not look 
good especially for the black community where 97 percent of 
transmission through IV drug use occurs. Last year, the rate of 
infection for black women who contract the virus through IV 
drug use rose by 23 percent while for black men it rose by 12 
percent. These increases are occurring while the transmission 
via other modes and other populations are decreasing because of 
education and prevention programs. While I am firmly against 
illegal drug use, I am also against the spread of HIV. The 
District through its locally funded Needle Exchange Program is 
seeking to prevent both the spread of drug use and of AIDS, and 
by blocking it, you would justbe doing the opposite. There is 
no promotion of drug use just the exchange of one used needle which is 
already out there on the street and which is most likely already 
infected with the AIDS virus with one uninfected sterile one. To 
participate in the program clients must be registered and are given 
information on drug treatment. Without this program, the spread of AIDS 
would increase, and these IV drug users would remain on the street 
without any contact with a health care provider.
    The introduction of these issues year after year has 
significantly delayed passage of the D.C. bill. First, Congress 
has blocked our domestic partnership law, and then they tried 
to legislate who can and who cannot die, and now they are 
thinking about going after our local AIDS Prevention Program. 
When will all of this local meddling stop?
    As you consider the bill this year, we urge you to resist 
adding these extraneous riders. Thank you for the opportunity 
this year to present our views, and I will be glad to answer 
any questions you may have.
    Mr. Taylor. Thank you very much for your presentation. 
Congress, from the Constitution forward, was determined to have 
a District of Columbia, and they were going to govern it, and I 
see no change in that contrary to what you were saying. It is 
sort of an anomaly in the fact that government is best that 
governs least, but there is definitely a responsibility in 
Congress to govern the District of Columbia, but I appreciate 
your presentation.
    Mr. Schmid. And I agree that the Congress does have a role, 
and I guess my point is how deeply should the Congress be 
involved in local affairs? There are such larger financial 
management issues to look at, and I clearly recognize the 
constitutional role.
    Mr. Taylor. We will be marking up toward the end of this 
coming month, so I appreciate your presentation, and we will be 
happy to talk with you briefly.
    Mr. Schmid. I appreciate it. Thank you very much.

                   prepared statement of carl schmid

    [The prepared statement referred to follows:]

[The official Commmittee record contains additional material here.]



                                          Wednesday, June 24, 1998.

                  BOY SCOUTS LEARNING FOR LIFE PROGRAM


                               WITNESSES

PATRICIA McCRIMMON, PRINCIPAL, NEVAL THOMAS ELEMENTARY SCHOOL
SHIRLEY JONES, TEACHER, KENILWORTH ELEMENTARY SCHOOL
    Mr. Taylor. We have two witnesses and I would like them to 
come forward and both sit here at the table: Doctor Patricia 
McCrimmon who is the principal of the Neval Thomas Elementary 
School--glad to have you--and Shirley Jones who is a teacher at 
Kenilworth Elementary School. What we will try to do is let you 
make your presentation first, Dr. McCrimmon, and then we will 
go on to Ms. Jones.
    I am going to go vote while you are presenting your 
statements, because we have a series of votes, and we sort of 
have to trade off being chairman here from time to time so we 
can make all the votes and not hold you up. We would be glad to 
have you make your statement.

                  Statement of Dr. Patricia McCrimmon

    Dr. McCrimmon. I am Patricia McCrimmon, principal of Neval 
Thomas Elementary School in the District of Columbia. I would 
like to begin by thanking the committee for the opportunity to 
testify. On behalf of all teachers and administrators in 
District schools, I wish to thank and commend Mr. Taylor.
    Mr. Chairman, this is particularly meaningful, because we 
teach our students that actions speak louder than words. When 
you came to meet with D.C. teachers, you said that you cared 
about what we had to say. Then, you told us that we would be 
invited to appear before Congress, and here we are. You have 
shown your commitment to teachers and to administrators by 
keeping your word to us, and we are grateful for your 
leadership, sir.
    The Learning for Life Program provided by the National 
Capital Area Council of the Boy Scouts of America has filled a 
void of current curriculum. This program allows students to 
deal with issues that are relevant to their everyday lives. 
Cooperative learning techniques are utilized throughout the 
program. Lessons can be incorporated to involve parents, and 
its open-ended approach to problem solving gives all children 
an opportunity to actively participate and achieve success. The 
program format is flexible in that it can be used as an 
individual activity or as a unit. Although the content is 
varied at each grade level, there is continuity in its themes. 
The activities are engaging, exciting, and child-centered on 
every level. The wall chart motivates students to complete 
activities in order to earn recognition stickers. The friendly 
competition fosters positive relation among the students. The 
teacher's guide is helpful; it is informative. It can easily be 
used by a seasoned teacher or by a novice.
    In general, it is a program valued by teachers and students 
at Neval Thomas School. We have used the Learning for Life 
Program for the past three years, and it has proved to be an 
excellent supplement to our curriculum. We look forward to 
using the program once again in our daily curriculum planning.
    Although academic achievement is our major goal, our major 
focus, the Learning for Life Program enhances all phases of our 
school program. The program is value-centered, and it deals 
directly with some basic needs of urban youth. Our children 
need assistance in character building, personal values, self-
confidence, and decision making. The Learning for Life Program 
is designed to provide us with this assistance. It will help us 
reduce delinquency and strengthen classroom education.
    Congressman Taylor, we applaud your efforts on behalf of 
the schools, and we are hopeful that the program will be 
expanded to serve all the children of our city. Mr. Chairman, 
it has taken political courage to intervene in the District's 
schools. While it would be easier to remain on the sidelines, 
you choose the more difficult role of true leadership. For 
that, you deserve our praise and our heartfelt thanks.
    Mr. Aderholt [presiding]. Thank you very much. You are one 
of the first groups, I think, of independent teachers to come 
before this Committee, and I especially applaud you for your 
presentation. Mrs. Jones, would you make your presentation 
also?

                    Statement of Mrs. Shirley Jones

    Mrs. Jones. Mr. Chairman, I am Shirley Jones, a teacher at 
Kenilworth Elementary School in the District of Columbia. I 
wish to echo my thanks to my colleagues and congratulate you 
for what you are doing to help youth in our Nation's Capital. I 
speak for many when I say that we thank you for coming to meet 
with those of us who serve on the front lines of education. We 
are very proud of what we do, and it means everything to us 
when the chairman reaches out to ask us what teachers believe 
is needed in the schools.
    The mission statement of the District of Columbia Public 
Schools summatively says, ``prepare students for their world 
tomorrow.'' The Learning for Life Program for education 
provided by the National Capital Area Council of the Boy Scouts 
of America is in an alignment posture with that statement. Its 
statement includes the words ``prepare throughout their 
lives''--referencing the students. If we are to make students 
ready for life, then the basic foundation of knowledge and 
character must be built. If there is positive character and 
ownership of knowledge, students feel good about themselves. 
Feelings of self-worth and accomplishment generate goal-setting 
in a positive direction. Therefore, the deduction is student-
centered education that builds strong character can translate 
into greater academic achievement and reduce delinquency.
    Paradigm shifts abound. The profession of education, 
specifically the District of Columbia Public Schools, is 
experiencing change like never before. The paradigm shifts are 
noted in societal transition, family structures, the delivery 
of information technology, and the impersonalization of life. 
We still, however, must equip our children for life. We are 
called upon to develop the whole child. The social and 
emotional part of each child must have healthy character 
development, then this informs our choices.
    Teachers are called upon to satisfy many people with many 
needs. This requires us to make sound, well informed, focused 
decision about the delivery of instruction. All of this must be 
done with our client's best interest at the core of all we do. 
Our children are and must remain first.
    How is this then accomplished? Programs and materials that 
are well researched, well written, and curriculum friendly are 
sought as a match for the school's mission. The Boy Scouts of 
America's Learning for Life Program can help meet the need. It 
draws from the best practices in education. Chief among these 
practices is research based approaches. It provides attention 
to constructivism, cooperative learning, integrations, multiple 
intelligences, and facilitative instruction. It provides 
connection, authentic situational lessons that involve problem 
solving and higher order thinking. It is theme based. It 
compliments rather than competes with the existing curriculum. 
It presents new learning in chunks and then provides for its 
processing. It has a reward system that is immediate as well as 
long range. It puts life to practice in equipping students to 
make ethical decisions.
    We are charged with teaching children what they must know. 
They must know how to be productive citizens, so we must teach 
them how. We must do it in a way that makes it palatable for 
them. The truest test of any program then becomes, do your 
children enjoy it? Do children grow by it? Are visible results 
generated by it? The answer is yes, yes, yes through the 
Learning for Life Program which assists us in realizing all 
three.
    Please help us to expand this program to all our children. 
I have today, then, told my students that the United States 
Congress has shown trust and confidence in our teachers. Mr. 
Chairman, the work of your committee represents the future of 
our youth and the destiny of our Nation's capital. Do not let 
anyone stop your efforts to strengthen what we are trying to 
do. If they try, just call on us, and the teachers will be here 
to support you.
    Mr. Aderholt. Thank you, Ms. Jones, for your testimony, and 
we will certainly insert your prepared statement in the record, 
and, Dr. McCrimmon, we will also place your statement in the 
record.

      Prepared Statements of Patricia McCrimmon and Shirley Jones

    [The prepared statements referred to follow:]

[The official Commmittee record contains additional material here.]



    Mr. Aderholt. We appreciate your attendance here today, and 
we look forward to working with you in the future on these 
issues.
    Dr. McCrimmon. My pleasure, thank you.
    Mr. Taylor [presiding]. I would like to ask a question if I 
may since I had to go vote, and it is going to be a little time 
longer before the next vote.

               Number of Students and Schools In Program

    I wanted to know how many students have been affected by 
this program? Do you have a testament?
    Dr. McCrimmon. Yes, sir, 12,500 in 38 schools in the 
District of Columbia.
    Mr. Taylor. And you are interested in our increasing it 
based on the success so far. What would be your thoughts on 
that? Is there any idea of how much it should be increased as 
far as the number of schools? You may want to consult?
    Dr. McCrimmon. We want to incorporate the program within 
the entire District of Columbia Public School system, all 162 
schools.
    Mr. Taylor. All right. Well, I was impressed with the 
success you have garnered so far. I think that you and 
certainly the dedication of the teachers are a factor in it 
working. Thank you very much.
    Dr. McCrimmon. Thank you for your time.
    Mrs. Jones. Thank you.
    Mr. Taylor. We would like to have you--we are voting on the 
agriculture bill and would love to have you go upstairs in the 
gallery and watch it in a moment if you would like.
    Dr. McCrimmon. We will do that.
    Mrs. Jones. Thank you, Congressman.
                              ----------                              

                                          Wednesday, June 24, 1998.

           COMMUNITY-BASED HOUSING FOR MENTALLY ILL RESIDENTS


                                WITNESS

LISA HAWKINS, CORNERSTONE, INC.
    Mr. Taylor. Is Dr. Edward Eyring here? Lisa Hawkins?
    Ms. Hawkins. I am here.
    Mr. Taylor. All right. Please come forward. Go right ahead 
ma'am.
    Ms. Hawkins. Hi.
    Mr. Taylor. We appreciate your being here.
    Ms. Hawkins. No, I appreciate you having me. My name is 
Lisa Hawkins, and I have to be completely honest and say that 
the President and the chair of the Board of Directors of my 
client, Cornerstone, were supposed to come, but I think they 
are not here, so I am just going to jump in and give you some 
brief information and ask that our testimony be submitted for 
the record.
    Mr. Taylor. Without objection.

                Prepared Statement of Cornerstone, Inc.

    [The prepared statement referred to follows:]



[The official Commmittee record contains additional material here.]

              Statement of Lisa Hawkins, Cornerstone, Inc.

    Ms. Hawkins. Great, thank you. Cornerstone is a non-profit 
organization that started in 1991. I do not know if you 
remember when HHS transferred all of the mental health 
facilities in the District over to the District, and when they 
did so they provided funding, of course, for St. Elizabeths and 
related projects but also directed that $5 million be used 
through the Commission on Mental Health Services to provide 
housing outside of St. Elizabeths. Right now, you have a 
situation where you have a lot of people who are in St. 
Elizabeths who are suffering from chronic mental illnesses that 
could live outside if they had the support, but they do not, so 
they remain at St. Elizabeths at a substantial cost to the 
taxpayers, and I am sure their quality of life suffers as well.
    So, what Cornerstone is, is a financing, housing 
intermediary. We work with direct providers, and I think we 
have those listed here, a lot that I am sure you are familiar 
with like House of Ruth and Green Door, Community Connection, 
and we work with them to provide financing for them to build 
housing for these chronically, mentally ill individuals.
    To give you a sense of our costs, it costs the taxpayers 
$100,000 a year to house someone in a mental health facility, 
specifically, St. Elizabeths. Our costs, Cornerstone, is 
approximately $10,000 a year, and if you see the last paragraph 
of our executive summary, $22 million could be saved every year 
with this sort of program, with this sort of private-public 
partnership, and, again, would allow individuals who are 
currently in St. Elizabeths to live in the community.
    I just want to give you a few highlights of what we have 
done in the last four years, and, again, the testimony will be 
in the record, so I do not want to take up too much time. Since 
1995, we have funded the construction of 330 units of quality 
housing throughout the District, so not only are these 
individuals now able to live among the community and not be a 
burden to the taxpayers, but the housing itself has been 
renovated. Of course, the surrounding communities benefit from 
that as the housing that was once tear down or substandard is 
now up to par. In addition, Cornerstone has a knack for 
leveraging private funds. So, with that $4 million grant that 
we received, we have leveraged another $12 million, and we hope 
to continue to do that working with organizations like Sallie 
Mae, and we have also worked with DHCD in the District, and we 
have worked with the--if you give me one second I can tell 
you--Enterprise and Public Welfare Foundations and the D.C. 
Housing Finance Agency.
    I think that about sums it up. Essentially, what we are 
here to ask is funding to continue our operations. We were 
funded five years ago. If we are not refunded, our funding will 
run out, and we will not be able to continue our operations. 
So, we are asking the Committee for a sizable grant of $10 
million over the next five years to continue, keeping in mind, 
of course, that such an allocation would save the taxpayers of 
the District a substantial amount of money and allow currently 
chronically mentally ill individuals in St. Elizabeths, 
homeless individuals, and individuals who are currently living 
in substandard housing to now be housed in the community with 
support from the direct providers. May I answer any questions 
for you?
    Mr. Taylor. The $10 million, that is your request for this 
year?
    Ms. Hawkins. For the next five years.
    Mr. Taylor. Okay. Thank you. Mr. Aderholt?
    Mr. Aderholt. I do not have any questions. Thank you for 
being here today.
    Ms. Hawkins. Thank you for having me.
                              ----------                              

                                          Wednesday, June 24, 1998.

                    TENANT ASSISTANCE PROGRAM (TAP)


                                WITNESS

JOHN L. ROBINSON, JR., D.C. RESIDENT
    Mr. Taylor. Monica Beckham? John Robinson? Christine--okay, 
please come up. Mr. Robinson, please have a seat at the table. 
Excuse me, and I will come right back.
    Mr. Aderholt [presiding]. How are you doing today?
    Mr. Robinson. Good afternoon, sir.
    Mr. Aderholt. Thank you for being here.

                   Statement of John L. Robinson, Jr.

    Mr. Robinson. Thank you for letting me come. I would like 
to take this time to address the House of D.C. Appropriations 
Subcommittee on the D.C. Tenant Assistance Program. I am a 
single parent with two children ages 6 and 11. I have had to 
accept employment with minimal wages and low hours--minimal 
hours and low wages in which I had to resign due to difficulty 
obtaining adequate child care. I had to apply and reapply for 
public assistance so I could care for my children. Without TAP 
and public assistance, I would not have been able to care for 
my children.
    Currently, I am still on public assistance which I really 
do not want to be on. I have completed job training programs; I 
have been actively seeking employment on a continuous basis 
before and after welfare reform. Without the help from TAP I 
would not have provided a home for my children. If this program 
ends and I do not have decent employment, I, myself, and people 
like me would not have anywhere to go and would end up in 
homeless shelters which currently are overcrowded, and families 
already are on the waiting list for public housing.
    Right now, there are 800 TAP services that help house over 
200 children and families, the elderly, disabled persons, and 
other individuals. So, I am pleading for me and my family and 
on behalf of many other children, to help adults and elderly in 
the same situation that the TAP not be touched and be extended 
at least over the year 2000 so we can continue to make better 
lives for ourselves. Thank you for the opportunity to speak to 
you today.
    Mr. Taylor [presiding]. Thank you. Did your statement state 
how much was it that you are looking for?
    Mr. Robinson. Well, I have been keeping up with the news 
here lately, and I do not know if you all read the paper today. 
Currently, we are at about $2 million for this fiscal year 
which I was told--I am a current TAP certificate holder right 
now which ends December 1st--and we are looking for 
approximately $6 million to maybe carry us on so we can 
continue to do what we have to so we can get off the program. 
Right now, I am looking to be employed with the Department of 
Interior which is good, right now, for me, but other people 
might not have the opportunity to work at this time, so they 
would still need this help also. Currently, I would not be able 
to get off of it right now, but I intend to get off of it as 
soon as I become able to take care of myself.
    Mr. Taylor. Thank you, Mr. Robinson.
    Mr. Robinson. Thank you for listening to me.
    Mr. Taylor. We appreciate your presentation.

              PREPARED STATEMENT OF JOHN L. ROBINSON, JR.

    [The prepared statement referred to follows:]



[The official Commmittee record contains additional material here.]

                                          Wednesday, June 24, 1998.

                      D.C. BLACK CHURCH INITIATIVE


                                WITNESS

REVEREND ANTHONY EVANS, CHRIST LIVING MINISTRY
    Mr. Taylor. Christine Warnke, Commission for Women? 
Reverend Evans, Anthony Evans?
    Reverend Evans. Yes.
    Mr. Taylor. You are with the Christ Living Ministry.
    Reverend Evans. How are you doing, Mr. Chairman?
    Mr. Taylor. Good to see you.

                    Statement of Rev. Anthony Evans

    Reverend Evans. Very good. Thank you, Mr. Chairman, for 
meeting with us today to share some thought concerning the D.C. 
Black Church initiative. The D.C. Black Church initiative, sir, 
is a coalition of 800 black and white churches in the District 
who have decided to come together to provide some social 
justice ministries, because we feel very strongly that the 
District government is broken.
    We wanted to have an opportunity to comment on the local 
consensus budget that you are now considering before your 
committee. The budget recently submitted to the Congress by the 
District government is not a consensus budget in any sense of 
the word, because our voices of 800 churches are not on that 
budget. We have tried to talk with the mayor, the City Council, 
the Control Board only to be ignored. Within my written 
testimony is a letter to Sandy Allen and to Control Board 
member Stephen Harlan, many believe that this is an--and, so we 
tried to meet with them, and we never had a chance to sit down 
to discuss the particulars of a DCBCI plan.
    Many believe that our request of $30 million over the next 
6 years is unreasonable, but it is not given the fact of what 
we are presently doing in this city, and what we wanted to do 
is expand the existing services that we are doing and to be 
able to make sure that the poor in this city truly have a 
safety net.
    Mr. Chairman, yourself, you have recognized that this 
consensus budget proposed is fully padded. As a matter of fact, 
you blankly said, sir, that it is like throwing money down in a 
rat hole. So, simply put, Mr. Chairman, we are asking you to 
only take $30 million out of that rat hole and give it to the 
D.C. Black Church initiative so that we will be able to deliver 
the goods and services.
    Your mailing, sir, pointed out the fact of management 
reform, and management reform means nothing to the three 
children in the District that goes to bed hungry every night. 
This budget does not answer the question, but BCI promised that 
this job would be done. We are now coordinating over 250 
churches to deliver food to the poor. The District government 
cannot do that, neither can they promise that they can do that 
either. The Washington Post is filled with horror stories as to 
the District Government in terms of waste. We estimate 
conservatively that there is at least $100 million that can be 
attributed to waste, fraud, and abuse, and we are only asking 
for $30 million of that budget.
    We will ensure that this money is spent strategically, 
because we have spent over the past 2 years surveying the 800 
churches as to the needs of their congregations, and we have a 
plan that will eradicate a lot of concerns in the District. For 
instance, under this plan right here, we plan to create 30,000 
volunteers. No other city in American can boast the fact that 
they have 30,000 volunteers who are willing to roll up their 
sleeves and provide services to their cities. Out of that 
30,000 volunteers there are over 5,000 people who will provide 
volunteer service with the D.C. Public School systems. In terms 
of one hand, it is about providing security in terms of kids 
not being shot by going to school and on the other hand by 
staffing what we hope to do is 450 after-school programs, and 
these after-school programs have three purposes: one, that they 
will act as a safe house, because we strongly believe that they 
still will not enter into the church to shoot anybody but also 
to enhance the academic performance.
    You recently read in the paper about the test scores from 
the DCPS in terms of saying that 46 percent of the students in 
11th grade scored below basics in reading, and 83 percent of 
those students in the 10th grade scored below the basic in 
mathematics. With our 450 after-school programs to enhance 
those academic lackings, then what we propose is the fact that 
we will be able to uplift those test scores. So, we propose 
averting by lifting up 30,000 volunteer, 8 family crisis 
centers, 450 after-school programs and also motivate at least 
150 churches to offer free day care for the poor, and this is 
in reference to the year 2000. As we all know, the 2000 is fast 
approaching, and those who have not attained employment from 
the welfare rolls will be eliminated, and, then, therefore, 
where will they go? They will come directly to us.
    And this is in reference to the Year 2000. And as we all 
know that the Year 2000 is fastly approaching, and that those 
who have not attained employment for the welfare rolls will be 
eliminated.
    And then, therefore, where will they go? They will come 
directly to us. And we do not have the money, not the 
management, not the structure in place to be able to 
accommodate that large population that will be coming to the 
road. And given the fact that the District Government system is 
broken, and they cannot efficiently deliver the goods and 
services, we are caught in the middle.
    And so we propose this plan, and this plan we hope to save 
the District $180 million in savings. And in doing so, $50 
million of direct savings in terms of the volunteer hours we 
put in, the use of the church vans, the use of the church 
space, the church facilities. And also, what we are currently 
doing now in direct contribution to anybody who walks through 
our doors, to take care their rent or light bill.
    What we are saying, Mr. Chairman, is that times are getting 
extremely tough for the church to do that. And we believe that 
the church, and especially the Black church has proven itself 
that we can deliver these services, faster, more efficient, 
cost efficient, than any other group there is, and proven.
    And we have also just demonstrated our will in Jasper, 
Texas, where we had that terrible racial incident. It was the 
Black church, sir, who kept the lid on everything there. And it 
will be the black and white church here in the District who 
will keep the lid here on this city right here.
    And so, we are giving this city enormous services. And what 
we ask for bold and direct leadership coming from you, Mr. 
Chairman, as you have demonstrated in the past, you and Senator 
Faircloth. And by moving so--you even said, Mr. Chairman, that 
at least $500 million in the current D.C. Consensus Budget is 
wasteful.
    We only want $30 million of that $500 million budget that 
you cited in The Post. We only want $30 million. And the 
savings that we are going to bring to this district is just 
phenomenal. And we have spent the past 2 years putting together 
this coalition of 800 black and white churches.
    And also, sir, and the last thing as a byproduct of this 
whole coalition, is that this city will have better race 
relations than any city in America.
    Mr. Taylor. Well, I appreciate your presentation.
    What type of structure do you have for the D.C. Black 
Church Initiative, the 800--are you incorporated? Do you have 
petitions from them? Or how would you go about certifying to 
the Congress that you have 800 black and white churches in this 
initiative?
    Reverend Evans. I will have--which we have shared with you 
through your personal staff, Mr. Rogers there. We have letters 
from every head of the churches, pledging their support to this 
coalition. In addition to that, we are a 501(c) status 
organization.
    And also that money will be accounted for in essence, 
simply because one of the big six accounting firms promised us 
that they would do volunteer work with us by auditing our 
books.
    So we are assured of the credibility incident in terms of 
the management of that money. We have the churches that we have 
been recruiting for the past 2 years. And every head of the 
church--a matter of fact, we just got a strong letter from the 
head of the American Lutheran Church to join this coalition as 
well.
    So all of the churches are on board, and they have been on 
board for quite a long time.
    What we are asking is that, we have a systematic plan to 
deliver the goods and services to the poor and the needy of 
this city. This city does not have such a plan. And in addition 
to that, raising 30,000 volunteers who are able to assist our 
local law enforcement agency.
    Right now, Mr. Chairman, we have somebody loose in our 
community, who has ran a red light and killed a child. He 
jumped out of a stolen vehicle, and he is in our community 
loose.
    With those 30,000 volunteers, if they were in place today, 
we could have assisted the law enforcement in identifying that 
individual who did that.
    Presently right now there are such terrible relationships 
between our D.C. Police Department and the citizenry, and we 
have been working to improve that. We are the only entity that 
has the power to do that.
    And we are the only entity that has the numbers. Because we 
can take 30,000 right out of our congregations. We do not have 
to go searching for these people. These people sit in our 
church services every single Sunday.
    In addition to that, Mr. Chairman, if I can make one last 
comment. We did not come up to this Committee asking for 
something that we were not willing to make some hard choices 
for.
    We have identified for the Committee offsets in thecurrent 
budget that will total $30 million.
    Mr. Taylor. That is in your statement.
    Reverend Evans. That is in my statement and is in the back 
of my statement right there. And we give the committee five 
different ways of funding this particular initiative.
    Mr. Taylor. Well, thank you, that is most thoughtful. Your 
written statement will become part of the record, and we will 
be looking over all of this.

                Prepared Statement of Rev. Anthony Evans

    [The prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


    Mr. Taylor. Thank you very much for your presentation.
    Reverend Evans. I certainly appreciate the time. Thank you 
so much, sir. And congratulations on the leadership that you 
have shown for the District. We are behind you.
                              ----------                              

                                          Wednesday, June 24, 1998.

                                HOMELESS


                                WITNESS

DR. EDWARD J. EYRING, GOSPEL RESCUE MINISTRIES
    Mr. Taylor. Dr. Edward Eyring.
    Dr. Eyring, we are glad to have you here.

                   Statement of Dr. Edward J. Eyring

    Dr. Eyring. Well, thank you, sir. I appreciate the 
opportunity of returning after a year.
    The first thing I want to do is thank you for the kindness 
of last year, particularly the assistance of your capable staff 
in helping us.
    I am always stunned when people are talking $30 million, 
and we are talking about $200,000. I am really still very 
grateful for the help that we get.
    I was invited to talk about good news. So I wanted to tell 
you some of the good things that are happening in Gospel Rescue 
Ministries here in the District, and I have divided my comments 
into three areas. One is program, one is facilities, and one is 
our operating paradigm.
    In terms of the program, our particular emphasis has been 
on our school. We have one of the largest adult education 
facilities in the District. We are particularly interested in 
one in computer literacy. And the second is in a work strategy 
called Work Net.
    This is a strategy basically based on the giftings and 
desires of an individual, with the intent of putting them into 
an entry level job and a career track that they choose, what 
they want to do. In other words, it is not just survival jobs, 
and it is not just go out there and get a job, and then learn 
how to read later.
    We have some rather significant concerns about the present 
strategy on what they call Work First, as a method. And I can 
tell you, I have lots of degrees, and I have done a lot of 
studying, and I cannot get through an audited course, and I 
cannot get through a night course. You know, I am just not one 
of those people who can handle an education on the side.
    I really do believe that it is important that these people 
be educated before they are sent to work. And I think it is 
probably a strategic issue that the Congress ought to consider 
this whole idea of work force, and shoving people off the 
welfare rolls, just to sort of get them off the rolls, rather 
than really caring about the individuals.
    So we are more into that mode. And I think this Work Net 
strategy is an excellent one. We are applying it to all the 
people that come either to our school or that come through our 
ministries.
    In the area of facilities we are hard at work on the 
women's facility that you know about, and helped us get funding 
partially for. We do not have it underway yet. We are still 
going through the permitting and a variety of other 
bureaucratic problems, but I think there should be a break in 
that soon, and we are encouraged that we will be able to do 
that.
    We have also opened up a facility called Barnabus House, 
which is a transitional living facility for people that 
graduated from our other ministries. We have a vision for 
taking over the city, one block at a time, or one house at a 
time. Obviously, I will not live to be the million years old 
that I have to be to get that accomplished. But that is what we 
would really like to do.
    And we have managed to get the crack house next door 
closed, and we have managed to get the abandoned house boarded 
up. We have already made a significant change in the District 
by working with the police, we get along very well with, to 
reduce crime in the neighborhood, and then also move these men 
to a facility.
    It is interesting. Many people get out of a facility like 
ours. They do not have credit. They have not established that 
they can work. So we offer them a place to work, and live, and 
pay rent, and be able to say, hey, we are credible--we are 
creditworthy citizens, and then maybe they can get loans for 
homes, that type of thing, when they get through.
    So it is a self-sustaining approach, where the people live 
there, and they take care of themselves. They support the 
facility. So I thought you would be interested in that.
    In terms of paradigm shifts, there is an idea that I want 
to suggest that might be applicable to the Congress.
    We have changed our purpose statement from, providing 
rescue services to the poor and the needy of the Washington 
area in the name of Jesus, to transforming lives of people 
without hope, by modeling the character of Jesus. And the idea 
is not service delivery, but transforming lives.
    The second idea is that there are plenty of folks without 
hope that are not necessarily poor and needy. And poor and 
needy is sort of a demeaning kind of a concept, sort of like us 
and them. We are looking at people. Lots of people do not have 
hope.
    And then the third part is modeling the character of Jesus. 
We feel we have adopted some core values. The first is 
integrity, which means basically doing what we say we are going 
to do. Community, which is family, bringing people together. 
Compassion, which is love for one another. And fun.
    The reason we introduced fun is that we think that Jesus 
had a good time. I cannot imagine more fun than standing up in 
front of the storm and saying, stop. And the challenges, the 
excitement--I think that is probably why a lot of people come 
to Congress. It is fun. Even though I know you are tired, and I 
know this is a hard job. You still are in the middle of a lot 
of exciting stuff. It is not boring, if nothing else.
    So, I just thought you would be interested in some of the 
good news, and some of the stuff that we are doing. And 
naturally, we would like to talk over some of these different 
ideas with you and your staff at any time.
    Mr. Taylor. Certainly.
    I have never thought of Congress as being fun. I know you 
are probably right. I have only been here 8 years, so I suspect 
I will find it eventually.
    Thank you very much. I would like to see how you are doing 
with your women's project, and see what is going on.
    Dr. Eyring. All right. Well, we will talk to Roger, and see 
about that.
    Mr. Taylor. Good. Well, thank you very much, Doctor, for 
making your presentation.

               Prepared Statement of Dr. Edward J. Eyring

    [The prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


                                          Wednesday, June 24, 1998.

                          MUNICIPAL FISH WHARF


                                WITNESS

T. RODNEY OPPMANN, ATTORNEY AT LAW
    Mr. Taylor. Our next witness is T. Rodney Oppmann. Yes. 
Please come forward, if you do not mind.
    Mr. Oppmann. Good afternoon, Mr. Chairman.
    Mr. Taylor. Glad to have you, sir.
    Mr. Oppmann. Thank you. I am here on behalf of some of the 
lessees at the Fish Wharf, which is federal property.
    I did not know that I would be appearing until yesterday, 
and I wonder if it would be possible to submit a brief 
statement for the record within a few days?
    Mr. Taylor. Certainly.
    Mr. Oppmann. Thank you.
    Mr. Taylor. Without objection, that will be fine.
    Mr. Oppmann. Thank you.

                Prepared Statement of T. Rodney Oppmann

    [The prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


                     Statement of T. Rodney Oppmann

    Mr. Oppmann. I just have a few comments that I would like 
to make, Mr. Chairman, that relate to some of the previous 
testimony that I gave before this subcommittee in the years 
1987 through 1992, regarding the fish wharf problems that we 
were having at that time.
    Some of them have been solved, but I would say the 
situation overall at the property at the Fish Wharf has 
deteriorated in my opinion.
    The current lease is now month-to-month. The lessees would 
like to make improvements. They have made some improvements. As 
a matter of fact, the previous chairman, Mr. Dixon, lives in 
southwest. He complained about the smell. With 2 years left on 
their lease, the lessees spent $60,000 to put in a 
refrigeration unit to abate the smell from their dumpster unit. 
And they have been trying to make long-term improvements, but 
on a month-to-month lease it is difficult to do.
    One of the problems that exists at the Fish Wharf is they 
are really not certain where it is. In 1992 the House asked--
and I have a copy of the report language--for certain 
information regarding the Fish Wharf, and that has not been 
provided to date by the District of Columbia.
    This is the report language. By the way, a needs and 
balance survey, and other information, was due January 1, 1993. 
In February of this year, the lessees used the Baltimore 
engineering firm, RTKL, to determine how much the square 
footage of the Fish Wharf was. They are being short-changed by 
29.8 percent on what they are paying every month.
    This is indicative of the type of problem they have there. 
This is Federal property. It is being managed by the District, 
but I do not think the District is doing a very good job.
    Furthermore, since I last testified, the lessees have had 
to spend over $341,000 to obtain a second injunction against 
the District for violating its own lease. They tried to put new 
people onto the property in violation of their lease. We went 
to court. I did not receive this legal fee, a trial law firm 
here in town did. But that is how much it cost them.
    The District never should have done this. This was the 
second injunction in the course of their lease, which expired 2 
years ago.
    Mr. Taylor. What was the cost?
    Mr. Oppmann. $341,000.
    Another thing that is very disturbing is that the D.C. 
government is refusing to recognize legally formed 
corporations, which are lessees at the Fish Wharf. Why they are 
doing this, I do not know. They pay their taxes. We have copies 
of checks which they have recorded, and so forth. Why this is 
happening, I do not know. I have tried to discuss this with the 
Corporation Counsel. I have not gotten very far.
    Lastly, a recent study of the Southwest Waterfront, which 
cost taxpayers $70,000, omitted the lessees of the Fish Wharf 
and the lessees of the Washington Marina Corporation, which is 
the next witness and he will speak to those points.
    We are disturbed by the fact that so much Federal money 
went into this study, and yet the Federal property on the 
premises was not included, in terms of a chance to participate 
in this study.
    I am almost done, Mr. Chairman. A few more points.
    There are six leases on the waterfront. There are six 
leases with 99-year terms, where the Fish Wharf is there month-
to-month. And the next witness, Mr. Stickell, from the 
Washington Marina Corporation, will talk about his situation. 
He is also month-to-month.
    I do not represent Mr. Stickell, but I have shared 
information with him.
    Several of the individuals at the Fish Wharf are covered by 
the same law, that is Public Law 86-736, which created the 
long-term leases elsewhere, everywhere else along the 
waterfront. We are not sure why the District has this 
inconsistent long-term lease policy. Some people get long-term 
leases, others are month-to-month.
    I think that that is unfair, and it is something thatshould 
be looked into.
    The main reason these problems exist in my opinion, Mr. 
Chairman, is that there is no Federal oversight jurisdiction. 
No agency of the United States Government has been assigned 
responsibility for looking at the Fish Wharf. Otherwise, I 
would not be here taking your valuable time today.
    I have had to do this repeatedly because there is no agency 
that has been willing to take on the Fish Wharf. And the same 
thing with the Washington Marina Corporation. If that could be 
worked out so that somebody could be assigned to take over some 
sort of responsibility, it would be helpful.
    In conclusion, I think the actions of the D.C. officials 
are driving small businesses out of the District, or they are 
driving them out of business completely. A number of the 
clients that I represented when I was last here are now 
bankrupt or out of business, I am sorry to report.
    The Fish Wharf is the last remnant of Washington's historic 
waterfront. It dates back to the days when they came up the 
river under sail, and then under diesel. Now they are doing it 
with airplanes. They are bringing some of the stuff in. It is 
cheaper, it is faster, and so forth.
    It should be encouraged and preserved. It is very popular 
with the public. We serve a lot of people who are on food 
stamps. We are competitively priced. We have the best seafood 
prices in town, I think. And I think that the failure of the 
D.C. Government to grant long-term leases is hurting the 
District and its populace, in that the long-term improvements 
cannot be made on a month-to-month lease, and tax revenues that 
would be generated with more business are denied the D.C. 
Treasury.
    I would be glad to provide any information you or your 
staff would like in the future.
    Mr. Taylor. Thank you. We will do that.
                                          Wednesday, June 24, 1998.

                          MUNICIPAL FISH WHARF


                                WITNESS

ROBERT L. STICKELL, PRESIDENT, THE WASHINGTON MARINA COMPANY
    Mr. Taylor. Why don't we have Mr. Stickell come forward now 
and make his statement together with you.
    Mr. Stickell, we are glad to have you here.

                    Statement of Robert L. Stickell

    Mr. Stickell. Thank you for your time.
    I am Rob Stickell, and I am the president of Washington 
Marina Company. We are a small, family-owned, third generation 
boating business. We have leased property from the District 
since 1951.
    In the early 1960's, 6 of the 8 lessees on the southwest 
Washington waterfront received long-term leases. The Municipal 
Fish Wharf, our neighbors, and ourselves, received month-to-
month leases. In our company's 47-year history we have had two 
written leases in 5 years.
    Obviously, we are not able to make any long-term capital 
improvements in our facility as well. We met with District 
officials last summer to discuss the District's responsibility 
under the terms of its current lease with us, which expired in 
1996, the District government has the responsibility for 
maintenance and repairs of the facilities, the Marina 
facilities, which were built back in the 1930's.
    The District said at that time that they did not have any 
money to do that, and offered to give us a long-term lease if 
we would redevelop those properties and facilities ourselves.
    We have since provided them with three proposals to do this 
at our expense. We have incurred in excess of $86,000 of real 
costs to come up with the proposal, the architectural, the 
legal, and the other things necessary to bring this project 
forward.
    We received a letter recently from the director of the 
District's Department of DHCD, Department of Housing and 
Community Development, which basically thanked us for 
submitting a proposal, but said that they were going to take 
and push this off until some undeterminant date.
    So we feel that not only is the city in breach of its lease 
with us, but we feel that they are acting in bad faith. And we 
are asking for reparative leasing that other folks were given. 
We need to make a substantial long-term capital investment in 
that facility, but we cannot do it without a long-term lease. 
And I thank you for your time.

                prepared statement of robert l. stickell

    [The prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


    Mr. Taylor. Thank you. I can sympathize with what you are 
saying. We must go into it a little more in detail, and we 
will. Thank you very much for making your presentation.
                              ----------                              

                                          Wednesday, June 24, 1998.

               THE HISTORICAL SOCIETY OF WASHINGTON, D.C.


                               WITNESSES

MONICA SCOTT BECKHAM, VICE PRESIDENT, BOARD OF TRUSTEES, THE HISTORICAL 
    SOCIETY OF WASHINGTON, D.C.
KATHY SMITH, PAST PRESIDENT, BOARD OF TRUSTEES
    Mr. Taylor. Our next witness is Monica Scott Beckham, Vice 
President of the Board of Trustees of the Historical Society of 
Washington, D.C.

                   Statement of Monica Scott Beckham

    Ms. Beckham. Good afternoon, Mr. Chairman. My name is 
Monica Scott Beckham, and I am the vice president of the 
Historical Society of Washington, D.C., member of the Board of 
Trustees. And accompanying me is Ms. Kathy Smith, past 
president of our Board.
    First, I would like to thank you, and we appreciate the 
invitation to speak to your subcommittee today on a major goal 
of the Historical Society. That goal, as you know from the 
testimony that we have already submitted, is to the creation of 
a city museum, devoted to the history of the Nation's Capital.
    The timing could not be more appropriate. In one and a half 
years we will mark the 200th anniversary of the city as a 
Federal capital. We believe the positive story of this great 
city; a place where local, national, and international history 
is intertwined, deserves a place in our revitalizing downtown.
    We are in fact about the only world capital among the group 
of eight that does to have such a city museum. Major cities 
across the Nation have just invested in city museums. The 
society in these cities recognize that they are not just about 
history, but about defining the unique identity that makes a 
city a healthy and interesting place to live and do business.
    There is a dynamic link between industry and economic 
development, and that is the development that the Society 
wishes to participate in, along with a partnership with the 
Federal government, and private dollars in the city, to raise 
money for the city museum.
    We are talking about the potential of millions of new 
private dollars for the District of Columbia. The travel 
industry worldwide has discovered that what increasingly 
sophisticated travelers want is to experience unique places. As 
you know, Washington, D.C., is a very unique city.
    The city museum will be a gateway to a Washington that 
visitors seldom see, and will provide appealing incentives to 
leave their dollars behind in our local restaurants, shops, and 
cultural attractions.
    We have 22 million visitors a year in this city, and most 
of them never venture beyond the Mall. Surely everyone will go 
to see the museums; the Smithsonian, the Air and Space Museum. 
However, after two or three visits people want to know where do 
the people live in Washington. What else is there to see in 
Washington, D.C. And this city museum will provide that 
location for them to go, to discover the great history that we 
have here in this city.
    And so, on the second visit, if a person stays another day, 
it has been determined that if 22 million visitors just stay, 
and have one more meal, that would mean $100 million injected 
into the local economy. And studies have shown that each 
million dollars generates about 39 new jobs.
    For example, the Los Angeles Convention and Visitors 
Bureau, with $9 million, which is comparable to the city here, 
figures that convincing travelers to stay one more day, 
visiting their local cultural sites, can mean as much as $3 
billion a year. The new city museum will be a destination for 
all who want to explore the city.
    At this time the Society is working vigorously with the 
D.C. Heritage Tourism Coalition, and we are developing new 
tours at this moment in this city. In fact, we have provided a 
tour at the new MCI Center. So when people come down, and they 
want to have an adventure with basketball, ice hockey, or any 
other programs that are going on, they can also get a tour of 
that particular community, and find out about the history 
around the MCI location.
    The Society is also working with the Anthony Bowen Y, which 
is the oldest black YMCA in the capital. The site that we are 
interested in is the Carnegie Library, which is a perfect and 
beautiful Beaux Arts building, located on----
    Mr. Taylor. Where is--okay.
    Ms. Beckham. And this is our gateway. As you know, the 
Convention Center will be developed down here at Mt. Vernon 
Square. So people will see the City of Washington. And then 
they can enter into the Convention Center, go into the 
Convention Center, come out, and still see the City of 
Washington, D.C.
    After careful study, this site is looked at as the perfect 
site by the Society. Right now this site is occupied by UDC. We 
have had discussions with their president, as well as the 
members of their board, and they wholeheartedly support us in 
this.
    We are looking at them as a partner to continue. They use 
the building right now for architectural studies. We have 
discussed with them sharing this space for classrooms, for 
internships, for exhibits. But we also know that this space, 
which only has 35,000 square feet of usable space, it is small. 
It is not large in comparison to other sites that other cities 
use, that are well over 100,000 square feet. However, the 
Society is working with other community-based organizations to 
have cultural heritage centers.
    So this center will serve for storage space, for much 
needed exhibit space, as well as a core exhibit that will be 
housed at this particular site.
    Congress was a partner with Carnegie in creating this 
library, appropriating funds for that purpose exactly 100 years 
ago in 1898. This library became the meeting place for all 
people in the city. Of course it was one of the very few places 
in the city that was never racially segregated. It is the 
perfect place, both practically and symbolically, to link the 
past, present, and the future of our renewed city.
    We are here to ask Congress 100 years later to become a 
partner with the city once again in honor of the city's 200th 
birthday as the seat of the Federal government. The Historical 
Society has never asked for money from Congress, or any other 
public source in its 100 year history. Unlike almost all other 
local history museums in historical societies, we have no city, 
county, or state support. We believe, however, that given this 
historic moment in the city's history this project is an 
appropriate public-private partnership. A congressional 
appropriation would be a springboard for a major capital 
campaign for private, corporate, and foundation funds.
    The recent feasibility study tells us that we have the 
capacity to raise $6 million. Revenues from operating the 
museum would come from museum shop sales, admission fees, the 
tours, event rentals, and an endowment. Congress' $1 million 
would pay for the architectural and engineering plans for 
modifications needed to make the library suitable for museum 
use, and for the research and development of a powerful core 
exhibit.
    We have also had conversations with the Washington 
Convention Center Authority. They are interested in using the 
building in the near term for architectural andengineering 
offices during the construction of the new Convention Center, perfectly 
consistent with the creation of the city museum which is timed to open 
the same time as the Convention Center.
    We are here today to ask for your endorsement, your 
support, and your partnership in the creation of this state-of-
the-art museum for the Nation's Capital.
    Thank you for your consideration of our request, and if you 
have any questions I will be glad to answer them.
    Mr. Taylor. Would you review the money that you are talking 
about here, what is going to be spent by Congress and other 
sources. You just mentioned it a few minutes ago.
    Ms. Smith. I think you mentioned $1 million from Congress. 
We need to raise an additional $6 million to match that for the 
capital campaign as well as we will be actively seeking $4 
million for an endowment.
    Mr. Taylor. Okay. Well, thank you very much for saying it. 
I do not know what our ability would be. I would certainly 
share your history in what you have done so far as an 
organization. And if that could be converted into a historical 
site and a tour area, then that certainly makes sense. But I do 
not know where we are money-wise, but we certainly will give 
your request full consideration.
    Ms. Beckham. Well, thank you.
    Ms. Smith. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you for coming.

               Prepared Statement of Monica Scott Beckham

    [The prepared statement referred to follows:]


[The official Commmittee record contains additional material here.]


    Mr. Taylor. Are there any other witnesses in the room? If 
not, this concludes oral presentation of testimony by public 
witnesses.

                          Prepared Statements

    The Committee has received prepared statements from 
Christine Warnke; Mary Filardo; and George Brown and Linda 
Bollinger that will be placed in the record at this point.
    [The prepared statements referred to follow:]

[The official Commmittee record contains additional material here.]



                         Conclusion of Hearings

    Mr. Taylor. That concludes our committee hearings. We will 
adjourn subject to the call of the chair.

[The official Commmittee record contains additional material here.]




                           W I T N E S S E S

                               __________
                                                                   Page
Ackerman, Arlene.................................................    97
Baker, J. C......................................................    97
Barry, Hon. Marion, Jr...........................................     1
Beckham, M. S....................................................   711
Bolliger, L. K...................................................   732
Brimmer, A. F....................................................     1
Brown, G. W......................................................   732
Carver, J. A.....................................................   215
Catania, D. A....................................................   493
Clark, J. L......................................................   215
Cooper, M. R.....................................................    97
Cropp, L. W......................................................     1
Edwards, Donald..................................................   313
Evans, Reverend Anthony..........................................   679
Eyring, Dr. E. J.................................................   691
Filardo, Mary....................................................   727
Hamilton, E. N...................................................   313
Harlan, S. D.....................................................   313
Harvey, Wilma....................................................    97
Hawkins, Lisa....................................................   648
Jarman, G. L.....................................................    97
Jones, Shirley...................................................   641
Langston, R. E...................................................   313
Levy, Mary.......................................................   603
McCrimmon, Patricia..............................................   641
Moore, M. A......................................................   215
Morella, Hon. C. A...............................................   620
Oppmann, T. R....................................................   698
Peter, Father Val................................................   517
Ramsey, C. H.....................................................   313
Robinson, J. L., Jr..............................................   675
Schlein, D. J....................................................   523
Schmid, C. E.....................................................   635
Schwartz, Carol..................................................   500
Seltzer, Tammy...................................................   612
Smith, Kathy.....................................................   711
Sneed, Raymond...................................................   506
Stickell, R. L...................................................   707
Wagner, A. M.....................................................   313
Warnke, Christine................................................   723


                     I N D E X  C A T E G O R I E S

                              ----------                              



                  District of Columbia Appropriations


                          for Fiscal Year 1999

                                                                       
 1. BUDGET FOR FY 1999...........................................    iv

 2. CONTROL BOARD................................................    vi

 3. GENERAL ACCOUNTING OFFICE....................................    vi

 4. PUBLIC SCHOOLS (INCLUDING PUBLIC CHARTER SCHOOLS)............    vi

 5. SPECIAL EDUCATION............................................  viii

 6. CORRECTIONS AND RELATED FUNCTIONS............................  viii

 7. PUBLIC SAFETY AND COURTS.....................................    ix

 8. PUBLIC WITNESSES.............................................    xi

 9. APPENDIX.....................................................   xii



                               I N D E X

                              ----------                              

                      FY 1999 DC HEARINGS--PART 1

BUDGET, FISCAL YEAR 1999.........................................     1
    Accumulated Deficit..........................................     2
    Attorney Fees for Special Education Cases....................    89
    Budget Development...........................................     6
    Chief Financial Officer, Earl C. Cabbell.....................     5
    Chief Management Officer, Need for...........................    77
    Cities, Reasons People Move from.............................    89
    Classrooms Act, Upgrading Computers, 21st Century............    90
    Clerk's Note on FY 1997 Surplus..............................    10
    Clerk's Note regarding statements of Mayor Barry.............     8
        Excerpts from hearings:
            Mayor Sharon Pratt Dixon on May 21, 1991.............     8
            Mayor Sharon Pratt Dixon on May 27, 1992.............     8
            Council Chairman John Wilson.........................     9
            Mayor Sharon Pratt Kelly on May 11, 1994.............     9
    Clerk's Note, Regarding Mayor Barry's remarks on deficit.....     9
    Commuter Tax.................................................     3
    Commuters, Use of Roads and Highways.........................    28
    Consensus Budget, FY 1999....................................10, 11
    Contracting Out Costs........................................    93
    Control Board, Overpayment of Top Officials..................    64
        Compensation for Executive Director and General Counsel..    78
        GAO Opinion..............................................    64
        Ignored Law, Not First Time Control Board...............78, 967
        Locality Pay for Executive Director and General Counsel..    77
        Outside Counsel Opinion Requested After Decision Made....    79
        Status of Efforts to Correct.............................77, 94
    Control Board Error in Projection............................     1
    Corporation Counsel, Increase in Employees...................    93
    Corrections Budget, Department of............................    59
    Council's Four Basic Priorities..............................    24
    D.C. Employees Live, Where...................................    62
    Davis-Bacon:
        Steals from Children.....................................    90
        Waiving for School Repairs...............................     4
    Deficit:
        Accumulated..............................................     2
        Eliminate Accumulated....................................    10
        $335 Million in FY 1994..................................     8
        $62 million in Public Schools............................    26
    Drug and Smoke-Free Zones in Schools.........................    91
    Economic Initiatives, New....................................    27
    Employees, 1,330 Increase in Number of in FY 1999............    92
    Employees Who Live in District...............................    87
    Error, Control Board Projection..............................     1
    Expenditure Profile..........................................    58
    Financial Management System..................................    79
        On ``Very Close Schedule''...............................    84
        Report on................................................    81
    Financial management, Dismal Record..........................     7
    Health System, Federal Take Over of..........................     6
    Infrastructure Needs.........................................    11
    Infrastructure Fund, $254 Million Request for................58, 60
    Infrastructure Fund, Request for $254 Million................    27
    Management Hearings, Performance.............................    25
    Management Improvement, Poor Returns.........................    79
    Management Reform for Computers..............................    84
    MCI Center, New..............................................    10
    Medical Malpractice Issues..................................95, 898
    Mismanagement, Per Capita Expenditure.......................88, 743
    Personnel, Alleged Reduction of 9,000 or 27 Percent..........     9
    Personnel, Reduction in......................................    59
    Philadelphia Residency Requirement...........................    88
    Police Department............................................     7
        Residency of New Chief...................................    64
        Police Officers Per Capita..............................92, 743
    Prepared Statements:
        Chairman Andrew F. Brimmer...............................    40
        Council Chairman Linda Cropp.............................    29
        Mayor Marion Barry.......................................    12
    Problems Confronting the District............................     6
    Public Works Projects........................................    25
    Residency Requirement for Employment...................3, 5, 62, 63
        Chairman's Position on...................................    64
        For Future Hires.........................................    27
        Of Current D.C. Employees................................    62
        Of Police Chief..........................................    64
        Of School Superintendent.................................    64
        Requirement in Philadelphia..............................    88
        Requirement for Employees............................85, 86, 87
        Requirements in Other Cities.............................    63
    Revenues, Growth in..........................................    58
    Revitalization Act (Public Law 105-33), Impact of............    25
    Revitalization Act Impact $1 Billion.........................     2
    Roads and Bridges............................................    62
    Salaries of Non-Residents, Average...........................    63
    Salary Received by Non-Resident Employees....................    62
    School Superintendent, Residency of..........................    64
    School Population and Employees, Disproportionate Increase in92, 93
    Schools, $62 Million Deficit, Public.........................    26
    Schools, Public..............................................     7
    Schools, Offer to Visit......................................    90
    Services, Municipal..........................................     8
    Special Education............................................    10
        Attorney Fees............................................    89
        Expenditures.............................................    59
        Plan.....................................................    89
        Rip-Off of 50-Day Rule...................................    94
        Transportation Costs.....................................    11
    State Assistance to Cities...................................    87
    Statements:
        Congressman Aderholt.....................................     4
        Congressman Cunningham...................................     3
        Congressman Moran........................................     2
        Congressman Tiahrt.......................................     4
        Council Chairwoman Linda Cropp...........................    24
        Control Board Chairman Andrew F. Brimmer.................    58
        Mayor Marion Barry.......................................     5
    Street Repairs, Deferral of Local Match......................    11
    Surplus for Management Improvement and Deficit Reduction.....    79
    Surplus of $186 Million on FY 1997...........................    10
    Tax and Regulatory Changes...................................    95
    Tax Base Constrained.........................................     7
    Tax System, Revamping........................................    26
    Tax Revision Commission......................................    26
    Tax Issues...................................................    29
    Tax Revenue ``Common''.......................................    63
    Tax Reform and Business Regulatory Relief....................     3
    Tax Relief Reflected in Budget...............................    26
    Taxes, Restructuring of......................................    29
    Taxing Non-Resident D.C. Employees...........................    63
    Training for Employees.......................................    85
    Transportation Problems, Regional............................    28
    Transportation Tax...........................................    88
    Water and Sewer Authority Infrastructure.....................    12
    Waterfront Issues............................................     4
    Y2K Problem, Funding for.....................................    84
    Y2K Projects.................................................    25

CONTROL BOARD...................................................39, 378
    Administrative Costs of $44 Million for Corrections........277, 279
        Disagreement with Corrections Trustee....................   278
        Memorandum of Understanding Very Clear...................   279
    Control Board Error in Projection............................     1
    GAO Review of Control Board's Financial Statements...........   983
    Independent Auditor's Report--Problems With Control Board--
      Withholding of Documents for Bank Reconciliation...........  1009
    Letter to Alice M. Rivlin, Chair, D.C. Control Board, from 
      Hon. Charles Taylor, concerning GAO's Findings Regarding 
      Control Board's Financial Statements and Nonresponsiveness 
      in Providing Certain Information...........................   981
        GAO Review of Control Board's Financial Statements.......   983
    Opening Statements:
        Chairman Andrew F. Brimmer...............................39, 58
        Stephen D. Harlan, Control Board.......................378, 382
    Overpayment of Top Officials of Control Board................    64
        Compensation for Executive Director and General Counsel..    78
        GAO Opinion..............................................    64
        Ignored Law, Not First Time Control Board...............78, 967
        Locality Pay for Executive Director and General Counsel..    77
        Outside Counsel Opinion Requested After Decision Made....    79
        Status of Efforts to Correct Overpayment.................77, 94
        Testimony of Congresswoman Constance A. Morella........621, 624
            Control Board Exceeded it Authority on Pay...........   621
    Violation by Control Board of Congressional Intent:
        Documents Reflecting Commitments and Directives Relating 
          to use of Revitalization Act (PL 105-33) Benefits to 
          Reduce District's Accumulated Deficit..................   967

GENERAL ACCOUNTING OFFICE:
    Opinion on Overpayments to Control Board Staff...............    64
    Review of Control Board's Financial Statements...............   983
    Prepared Statement of Gloria L. Jarmon, GAO..................   188
        Roof Replacements, $84 Million Available for School......   188

SCHOOLS, D.C. PUBLIC (INCLUDING PUBLIC CHARTER SCHOOLS)..........    97
    Accountability of Charter Schools............................   185
    Adult Basic Education........................................   208
    Anti-Deficiency Execution Action Plan for FY 1998............   159
    Assessments, Special Education, 120 Days Needed for..........   149
    Attorney Fees, Special Education and.........................98, 99
    Attorneys, Special Education, Concern Over Advocate..........   200
    Auto Mechanics Program, Charter Schools......................   209
    Bell Multi-Cultural High School..............................   209
    Board Supports Superintendent Ackerman, Elected..............   201
    Board President's Statement, Continuation of.................   171
    Boards, Tension Between......................................   200
    Budget Increases, Other......................................   149
    Budget Categories and Comparisons............................   150
    Budget Increases for Public Schools..........................   141
    Budgetary Process in Disarray at Local Level.................   145
    Bureaucracy, Bloated Central.................................   150
    Charter Board:
        Application Review Process...............................   179
        Budget Increase..........................................   178
        Process for New Schools..................................   202
        Relationship with Charter Schools........................   204
    Charter Schools:
        Accountability...........................................   202
        Number of................................................   178
        Legislation, Suggested Changes in........................   179
        Inadequate Funding.......................................   202
        Relationship and Problems................................   140
        FY 1999 Budget for.......................................   178
        Budget Not Fair..........................................    99
        Hospitality High School..................................   210
        Need Greater Fiscal Accountability.......................   141
        Impact When Charter Revoked..............................   204
        Elected Board's Process..................................   203
        Comparison with Public Schools...........................   203
    Community Support............................................   210
    Community College System in District Inadequate..............   207
    Conclusion of Superintendent's Statement.....................   150
    Davis-Bacon Waiver Would Save 35 Percent in Costs............    99
    Duke Ellington School, Excess Teachers.......................   198
    Special Education:
        120 Days for assessment and Placement....................   200
        $48,000 Average Cost Per Student.........................   148
        Restrictive 50-Day Limit.................................   197
    Electrical Power Deregulation................................    99
    Electricity Pilot Program D.C. Schools.......................   100
    Enrollment Count, Credibility Problem........................   148
    Facilities, Lease/Purchase Arrangements, New School..........   205
    Gavel made by students at Scripps Elementary.................   214
    Increases:
        $85 Million for Public Schools..........................97, 148
        Increase of $17 Million for Reforms......................   149
    Job Applicants Lack Reading and Writing Skills...............   211
    Opening Statements:
        Congressman Cunningham...................................    97
        Remarks of Congressman Moran.............................   205
        Superintendent Arlene Ackerman...........................   146
        Josephine C. Baker, Public Charter Board.................   178
        Maudine Cooper, Chair of Emergency Transitional Education 
          Board of Trustees......................................   139
        Wilma Harvey, Board of Education.........................   145
            Budgetary Process in Disarray at Local Level.........   145
        Gloria L. Jarmon, GAO....................................   188
            Roof Replacements, $84 Million Available, School.....   188
    Partnerships, Public/Private.................................    98
    Prepared Statements:
        Superintendent Arlene Ackerman...........................   150
        Josephine C. Baker, Charter School Board.................   180
            Accountability of Charter Schools....................   185
        Maudine Cooper, Chair, Transitional Board of Education...   141
        Wilma Harvey, School Board President.....................   171
        Gloria L. Jarmon, GAO....................................   188
    Principals, Testing of.......................................   202
    Procurement Now Centralized..................................   212
    Professional Development and Staffing, Increases for.........   147
    Progress During 10-Month Tenure..............................   146
    Promotion Guidelines.........................................   147
    Reforms, Increase of $17 Million for.........................   149
    Roof Replacement:
        Contract with Corps of Engineers.........................   212
        Completion in Time for School Openings...................   210
        $84 Million Available for Public Schools.................   188
    Scholarship Act Favored by D.C. Residents, President Vetoed..    99
    Security Officer in Schools..................................   213
    Special Education:
        Need 120 Days for Assessments..........................140, 149
        Attorney Fees............................................98, 99
        Attorneys, Concern Over Advocate.........................   200
    Student-Teacher Ratio......................................199, 204
    Summer School, Impact on Crime Reduction.....................   206
    Summer School Program for 20,000 Students....................   147
    Teachers Should Not Be Fired, Competent Qualified............   199
    Test Score Improvements......................................    98
    Test Results, Gains in.......................................   147
    Transitional Board of Education:
        Accomplishments of.......................................   139
        Charters Will Continue to Be Awarded.....................   203
    Union Resistance.............................................   213
    Vocational Education:
        Programs for Women.......................................   211
        Teachers.................................................   212
        Improvements Needed...............................206, 207, 208

SPECIAL EDUCATION................................................    10
    $48,000 Average Cost Per Student.............................   148
    Attorneys:
        Concern Over Advocate....................................   200
        Fees.................................................89, 98, 99
    Expenditures.................................................    59
    Need 120 Days for Assessment and Placement............140, 149, 200
    Plan.........................................................    89
    Restrictive 50-Day Limit.....................................   197
    Rip-Off of 50-Day Rule.......................................    94
    Transportation Costs.........................................    11

CORRECTIONS AND RELATED FUNCTIONS................................   215
    Administrative Costs of $44 Million, Indirect..............277, 279
        Control Board, Disagreement with.........................   278
        Letters from Delegate Norton and OMB Director Raines on 
          $44 Million Requested by District......................   280
        Memorandum of Understanding Very Clear...................   279
    Applicants for Hiring, Availability of Qualified.............   276
    Audits and Control, Internal.................................   217
    Budget:
        Amendment for $38 Million..........241, 257, 274, 275, 276, 297
        Not Officially Transmitted...............................   274
        Offender Trustee's Budget................................   239
    Bureau of Prisons Testimony on Lorton Closing................   299
    Capital Repairs of Lorton Complex............................   217
    Career Transition Center at Lorton...........................   217
    Caseload Ratios, $38 Million Budget Amendment to Reduce......   274
    Community Based Organizations, Use of........................   276
    Contract with Virginia and Closure of Occoquan Facility......   216
    Contract Monitoring Program..................................   218
    Control Board, Disagreement with.............................   278
        Memorandum of Understanding Very Clear...................   279
    Controls, Inadequate Internal................................   227
    Correctional Workforce, Stabilizing..........................   217
    Corrections Employees, Impact on 3,000.......................   226
    Corrections Trustee, Responsibilities of.....................   226
    Corrections Department, Joint Efforts with...................   227
    Crimes and Arrests Involving 30,000 Parolees, Number of......   284
    Crimes Per Year Per Offender on Drugs, 300-500...............   285
    Criminal Justice Supervision, 30,000 Individuals Under.....240, 284
    Double Counting, Question of.................................   284
    Drug Court............................................257, 275, 291
    Drug Control and the Courts, Report..........................   286
    Drug Use Reduces Crime, Reducing.............................   289
    Drug Offenses, Use of Sanctions for..........................   289
    Drug Sanctions Program, Second Urine Lab Needed For..........   290
    Health Care Delivery System..................................   217
    Information Technology Infrastructure........................   274
    Justice, Amendment Redirects Funding from Department o257, 275, 297
    Letters from Delegate Norton and OMB Director Raines on $44 
      Million Requested by District..............................   280
    Letter to Hon. Charles Taylor from Colin M. Dunham, General 
      Counsel, The Independent Public Defender Bar Association of 
      D.C........................................................   307
    Letter to Mr. Migo Miconi from Colin M. Dunham, General 
      Counsel, The Independent Public Defender Bar Association of 
      D.C........................................................   310
    Lorton Complex:
        Bureau of Prisons Testimony on Lorton Closing............   299
        Capital Repairs at Lorton Complex........................   217
        Career Transition Center at Lorton.......................   217
        Progress in Closing......................................   216
        Schedule Adjustments in Closing..........................   218
        Sewer Overflow and Toxic Problems........................   297
    Memorandum of Understanding Very Clear.......................   279
    New Prison on National Park Service Land.....................   298
    Offender Trustee, Budget Request for.........................   239
    Opening Statements:
        John A. Carver, Trustee..................................   239
        John L. Clark, Corrections Trustee.......................   226
        Margaret A. Moore........................................   215
    Parolees:
        Number of Convictions Per................................   240
        Arrest Record for........................................   240
        Inadequate Supervision and Lack of Sanctions.............   241
    Prepared Statements:
        John A. Carver, Trustee..................................   257
        John L. Clark, Corrections Trustee.......................   227
        Kathleen M. Hawk, Director, Federal Bureau of Prisons....   299
        Jo-Ann Wallace, Director of Public Defender Service......   301
        Margaret A. Moore, Director..............................   218
    Prisoners:
        Reduction in Number of...................................   226
        Housing in Virginia......................................   297
    Private Sector Beds, 2,000 Prisoners to......................   216
    Privately-Operated Facility in D.C., Council Favors New......   299
    Safety, Opportunity to ``Enhance'', Public...................   257
    Sanctions Center.............................................   274
    Sanctions Program, Experience with Offenders in..............   297
    Strategic Plan Development...................................   218
    Study: Drug Control and the Courts...........................   286
    Valparaiso University Law Review, A Theory of Prevention.....   294
    Youngstown, Ohio Facility, Problems and Concerns.............   299

PUBLIC SAFETY AND COURTS.........................................   313
    Accountability for Getting Things Done, Lack of..............   334
    Administrative Leave, Too Many Officers on...................   335
    Agreement of the Criminal Justice Coordinating Council.......   402
    Alcohol-Free July 4th........................................   375
    Arrests and Booking, Reduction in Time and Paperwork.........   380
    Arson Cases, Closure Rate....................................   355
    Attorneys for Indigents, Increase in Fees....................   408
    Bicycle Patrols..............................................   333
    Budget:
        Capital Budget...........................................   356
        D.C. Courts..............................................   407
        Fire Department..........................................   354
        FY 1999..................................................   471
        Increases................................................   332
    Building Inspections, Increase In............................   355
    Capital Budget...............................................   356
    Cars Take Home, Law Ignored..................................   484
    Change, Resistance to........................................   488
    Citizen Complaint Process....................................   380
    Civilians, Increase of 100...................................   332
    College Requirement for New Recruits.........................   333
    Commonsense Approach.........................................   482
    Community Outreach Program...................................   354
    Community Policing...........................................   380
    Control Board................................................   378
    Courts, District of Columbia.................................   407
    Courts, General Jurisdiction.................................   408
    Crime Rate...................................................   378
    Crimes, Quality-of-Life......................................   375
    Criminal Justice Pilot Program...............................   379
    Demonstrations Annually, 6,000...............................   377
    Department, Too Few Police Carrying the......................   486
    Desk Jobs, Too Many Uniformed Officers in....................   486
    Drug Interdiction............................................   375
    Drug Arrests.................................................   376
    Drug Markets, Open-air.......................................   379
    Drug Court, Juvenile.........................................   481
    Education and Training Neglected.............................   334
    Environmental Crime..........................................   376
    Equipment Shortfalls.........................................   378
    Federal Grant, Difficulty Spending, $15 Million..............   333
    Field Communications and Technology..........................   381
    Fire Department..............................................   354
    Fire Fighters Pay Raise......................................   489
    Helicopter Aviation Unit, Park Police......................376, 377
        Availability for D.C. Police.............................   483
        Costs Associated with D.C. Work..........................   487
        Flights in District, Impact of Commercial................   490
    Homicides, Closure Rates Improved............................   381
    Informational Systems Technology Plan........................   356
    Infrastructure Allowed to Deteriorate........................   381
    Management Responsible.......................................   356
    Mayor's Security Detail......................................   489
    Medical Calls, Hook and Ladder Trucks Used for...............   489
    Officer Strength, Park Police................................   377
    Officers on Street, Number of................................   483
    Opening Statements:
        Chief Robert E. Langston, U.S. Park Police...............   363
        Stephen D. Harlan, Control Board.........................   378
        Chief Judge Annice M. Wagner.............................   407
        Chief Judge Eugene Hamilton..............................   462
    Overtime Costs of $18 Million................................   487
    Park Police..................................................   363
    Park Police, Background of...................................   375
    Personnel, Critical Needs....................................   376
    Personnel..................................................376, 377
    Physical Fitness Standards...................................   482
    Police Department............................................   313
    Budget Request for Metropolitan Police Department............   313
    Police Officers Back on Street, Need to Put..................   333
    Police Performance and Physical Standards....................   334
    Police Facilities Neglected for Years........................   335
    Police Officers, Outside Employment by.......................   335
    Police Presence on Streets and Depoliticizing Department.....   379
    Police Health Clinic, Privatized.............................   379
    Police Officers, Better Training to Get Officers.............   380
    Police Officer in North Carolina, Recent Death of............   481
    Prepared Statements:
        Police Chief Charles H. Ramsey...........................   313
        Fire Chief Donald Edwards................................   356
        Stephen D. Harlan, Control Board.........................   382
        Chief Judge Eugene Hamilton..............................   462
        Chief Judge Annice M. Wagner.............................   409
            Superior Court Overview..............................   426
            Court System Overview................................   443
            Items in the D.C. Courts' FY 99 Budget Request That 
              Were Not Supported by the President................   454
    Recruitment, Serious Concerns................................   332
    Recruitment of Police Chief Charles Ramsey...................   379
    Residency Requirement for Police Officers..................483, 485
    Security System..............................................   408
    Street Roll Calls............................................   333
    Sworn Officers, No Increase Request 3,600....................   332
    Technology, Adequate Training Required.......................   334
    Technology and Y2K...........................................   408
    Technology, Coordinated Case Management System...............   481
    Terrorist Incidents, Special Operations Division.............   355
    U.S. Attorney, Use of Police Officers........................   380
    Vest and Equipment for Police Officers.......................   482

PUBLIC WITNESSES.................................................   493
    Boy Scouts Learning for Life Program.........................   641
        Statements:
            Dr. Patricia McCrimmon, Principal, Neval Thomas 
              Elementary School..................................   641
            Shirley Jones, Teacher, Kenilworth Elementary School.   641
        Prepared Statement:
            Dr. Patricia McCrimmon, Principal, Neval Thomas 
              Elementary School..................................   644
            Shirley Jones, Teacher, Kenilworth Elementary School.   646
    Boys Town USA-Homeless Youth (Father Val Peter)..............   517
        Boys Town Facility in D.C................................   517
        Boys Town USA is Nondenominational.......................   518
        Statement of Father Val Peter..........................517, 518
        Story of 9-Year Old Boy..................................   518
    Budget for FY 1999 (Council Member David A. Catania).........   493
        Prepared Statement of David A. Catania...................   495
    Budget for FY 1999 (Council Member Carol Schwartz)...........   500
        Prepared Statement of Carol Schwartz.....................   501
    Commission for Women (Christine Warnke)......................   723
    Community-Based Housing for Mentally Ill Residents...........   648
        Prepared Statement of Cornerstone, Inc...................   648
        Statement of Lisa Hawkins, Cornerstone, Inc..............   674
    Control Board Staff Salaries and Legislative Riders 
      (Congresswoman Constance A. Morella........................   620
        Adoptions Pay Certain Unmarried Couples, Prohibiting.....   622
        Control Board Exceeded it Authority on Pay...............   621
        Legislative Restrictions, Other..........................   622
        Needle Exchange Program..................................   623
        Prepared Statement of Congresswoman Constance A. Morella.   624
        Residency Requirement for Employment...................621, 623
        Statement of Congresswoman Constance A. Morella..........   621
    D.C. Black Church Initiative.................................   679
        Prepared Statement of Rev. Anthony Evans, Christ Living 
          Ministry...............................................   682
        Statement of Rev. Anthony Evans, Christ Living Ministry..   679
    Domestic Partnership; Needle Exchange; and Prohibition on 
      Unmarried Couples Adopting Children (Carl E. Schmid).......   635
        Prepared Statement of Carl E. Schmid.....................   637
        Statement of Carl E. Schmid, Capital Area Log Cabin Club.   635
    Fire Department (Raymond Sneed)..............................   506
        Clarification of Information.............................   507
        Deficiencies, Massive....................................   506
        Fire House, Leaky Roofs on...............................   507
        Pay Parity with Police Officers..........................   507
        Procurement Problems.....................................   507
        Statement of Raymond Sneed...............................   508
        Training Academy Condemned...............................   506
    The Historical Society of Washington, D.C....................   711
        Statement of Monica Scott Beckham, Vice President, Board 
          of Trustees of The Historical Society of Washington, 
          D.C....................................................   711
        Prepared Statement of Monica Scott Beckham, Vice 
          President, Board of Trustees of The Historical Society 
          of Washington, D.C.....................................   713
    Homeless.....................................................   691
        Prepared Statement of Dr. Edward J. Eyring...............   693
        Statement of Dr. Edward J. Eyring........................   691
    Municipal Fish Wharf.........................................   698
        Prepared Statements:
            T. Rodney Oppmann....................................   698
            Robert L. Stickell, President, The Washington Marina 
              Company............................................   707
        Statements:
            T. Rodney Oppmann....................................   705
            Robert L. Stickell, President, The Washington Marina 
              Company............................................   707
    Policy Decisions and Funding Levels (David J. Schlein).......   523
        Statement of David J. Schlein............................   523
            Vision for the District of Columbia..................   533
            Consultants Assessments:
                FGE Response to..................................   548
                City Departments' Response to....................   555
                Consumer and Regulatory Affairs..................   566
                Emergency Medical Services.......................   555
                Employment Services..............................   559
                Health...........................................   578
                Housing and Community Development................   583
                Personnel Management Function....................   589
                Public Works.....................................   570
    Prepared Statements                                             722
        George W. Brown--Small Business Incubator Program........   732
        Mary Filardo, Director of the 21st Century School fund...   727
        Christine Warnke, Chairperson, D.C. Commission for Women.   723
    Public Schools Budget (Mary Levy)............................   603
        Budget for FY 1999.......................................   604
        Court suit to Get Financial Information, Need to File....   604
        Prepared Statement of Mary Levy..........................   605
        Statement of Mary Levy...................................   603
    Public School Facilities (Mary Filardo)......................   727
    Small Business Incubator Program (George W. Brown)...........   732
    Special Education (Tammy Seltzer)............................   612
        Background of Special Education Coalition................   612
        Prepared Statement of Tammy Seltzer......................   613
        Statement of Tammy Seltzer...............................   619
    Tenant Assistance Program (TAP)..............................   675
        Prepared Statement of John L. Robinson, Jr...............   676
        Statement of John L. Robinson, Jr........................   675

APPENDIX.........................................................   742
    Report by the Greater Washington Research Center entitled 
      ``The Necessity and Costs of District of Columbia 
      Services'' (per capita costs)..............................   743
    Report by the D.C. Financial Responsibility and Management 
      Assistance Authority entitled ``1999 Report to Congress--
      Medical Malpractice........................................   898
    Violation by Control Board of Congressional Intent:
        Documents Reflecting Commitments and Directives Relating 
          to use of Revitalization Act (PL 105-33) Benefits to 
          Reduce District's Accumulated Deficit..................   967
    Letter to Alice M. Rivlin, Chair, D.C. Control Board, from 
      Hon. Charles Taylor, concerning GAO's Findings Regarding 
      Control Board's Financial Statements and Nonresponsiveness 
      in Providing Certain Information...........................   981
        GAO Review of Control Board's Financial Statements.......   983
    Independent Auditor's Report--Problems With Control Board--
      Withholding of Documents for Bank Reconciliation...........  1009



                                 <all-mark>
</pre></body></html>
